<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 106-]
[From the U.S. Government Printing Office]



 
AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2004 budget request for programs 
within the subcommittee's jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, Members of the Subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition \1\ composed 
of the organizations listed below. The coalition supports sustained 
funding for Title I of Public Law 480 at a baseline level that will 
ensure the continued viability of the program as a long-term food aid 
and market development initiative for American agriculture.
---------------------------------------------------------------------------
    \1\ The ad hoc coalition is composed of American Maritime Congress, 
American Soybean Association, Liberty Maritime Corporation, Maritime 
Institute for Research and Industrial Development, National Association 
of Wheat Growers, National Barley Growers Association, National Corn 
Growers Association, National Council of Farmer Cooperatives, National 
Sunflower Association, Sealift, Inc., TECO Transport Corporation, 
Transportation Institute, USA Rice Federation, U.S. Canola Association, 
U.S. Wheat Associates, Inc., Wheat Export Trade Education Committee.
---------------------------------------------------------------------------
    This statement is submitted at a critical time when anticipated 
worldwide requirements for American food assistance are extremely high, 
and are likely to grow substantially higher in the coming weeks and 
months. At least 30 million people are at risk of starvation in 
Southern and Eastern Africa through the end of September of this year. 
In the immediate aftermath of hostilities in Iraq, the United States 
could be required to replace the commodities previously distributed to 
23 million people under the oil for food program. In his State of the 
Union Address, President Bush celebrated our commitment to provide one-
half of worldwide food aid needs on a sustained basis. Unfortunately, 
there is a strong likelihood that the United States will be unable to 
meet this commitment without additional resources from Congress, both 
for the remainder of fiscal year 2003 and through fiscal year 2004. In 
the statement that follows, our coalition supports funding levels for 
title I and other food aid programs that are needed to fulfill our 
moral obligations and promote the long-term interests of American 
agriculture.

                 GUIDING PRINCIPLES OF FOOD AID POLICY

    Mr. Chairman, the coalition respectfully suggests that American 
food assistance policy is well-established and founded on certain 
guiding principles, including the following:
  --Meeting America's humanitarian obligation to sustain food 
        assistance programs, U.S. participation in which should 
        constitute more than 50 percent of all food aid worldwide.
  --Employing food assistance programs to promote long-term market 
        development for American agriculture on commercial terms.
  --Employing food assistance programs to promote respect worldwide for 
        American values and our economic system, thereby enhancing 
        goodwill toward America among disadvantaged populations that 
        are breeding grounds for terrorism.

                    CURRENT FOOD AID PROGRAM LEVELS

    Mr. Chairman, these principles of American food aid policy have 
enjoyed broad, bipartisan support in Congress for many decades. Our 
commitment to serve them has made the United States the world's leader 
in providing food assistance, and has strengthened American agriculture 
by supporting the development of long-term markets for U.S. products. 
In recent years, however, food aid shipments have declined markedly. In 
fiscal year 2000, the United States programmed more than 6.7 million 
tons of food aid to 95 countries, consisting of 35 different 
commodities with a commodity value of $1.4 billion. In fiscal year 
2001, our food aid program declined to 6.36 million tons of assistance 
to 45 countries, valued at $1.28 billion. The decline continued in 
fiscal year 2002: In the fiscal year ending September 30, 2002, the 
United States programmed 4.67 million tons of food aid for shipment to 
84 countries. This assistance consisted of 26 different products, with 
a commodity value of $1.092 billion.
    The administration's preliminary plan for the current fiscal year 
provided for less than 3.85 million tons of food aid. In the 
Consolidated Appropriations Resolution, 2003, Congress appropriated an 
additional $250 million for Public Law 480 Title II grants, and 
provided that such funding would remain available until the end of 
fiscal year 2004. Even with this emergency supplemental funding, the 
total tonnage of commodities shipped in the current fiscal year likely 
will be less than in fiscal year 2002. This would represent the third 
straight year of reduced availability of critically needed U.S. food 
aid.

            THE ADMINISTRATION'S BUDGET FOR FISCAL YEAR 2004

    For fiscal year 2004, the administration has requested 
appropriations for the Food for Peace Title I program which would 
support $132 million in direct loans. This represents a significant 
reduction from that approved by Congress for the fiscal year 2003 
program, which received subsidy budget authority sufficient to support 
a direct loan program of $154.7 million. The combined request for the 
Food for Peace Titles I and II would provide funding to support a 
program level of 3.1 million metric tons of grain equivalent--a 
reduction of 200,000 tons from the program level established for fiscal 
year 2003 (which includes $135 million in carryover funding from prior 
years). Also in fiscal year 2004, the administration's USDA Budget 
Summary notes that the Bill Emerson Humanitarian Trust currently holds 
approximately 2.0 million metric tons of wheat, of which up to 500,000 
tons would be available to support Title II donations in response to 
unanticipated needs for emergency assistance. The Title II program, as 
noted above, will also be supplemented by $250 million in emergency 
funding provided in the 2003 omnibus appropriations bill, to the extent 
that any such funding remains available for obligation following the 
emergency shipments required for the balance of the current fiscal 
year.
    As required by the 2002 Farm Bill, the administration has announced 
that it will meet the annual minimum tonnage level of 400,000 metric 
tons for that portion of the Food for Progress program carried out with 
CCC funding. Under authority provided by section 416(b) of the 
Agricultural Act of 1949, the administration estimates that surplus 
nonfat dry milk will be made available for donation in fiscal year 
2004, with the value of assistance and associated costs estimated at 
$118 million. This represents another sharp reduction in donations 
under the 416(b) program, which is CCC-funded. Finally, the McGovern-
Dole International Food for Education and Child Nutrition Program 
(``IFEP''), under terms of the 2002 Farm Bill, will be funded in fiscal 
year 2004 by direct appropriations. The administration's request is $50 
million, which represents a 50 percent reduction in the CCC-funded 
program level for fiscal year 2003.

                  RESTORATION OF FOOD AID PROGRAMMING

    Mr. Chairman, the coalition urges that food aid be restored to 
sustainable levels in the range of 6.0 million to 7.0 million metric 
tons of grain equivalent in each fiscal year, beginning in fiscal year 
2004. In fiscal year 2004, this would require an increase in Title I 
baseline funding, along with greater use of existing authorities of the 
Commodity Credit Corporation, as recommended by the Conference on the 
Consolidated Appropriations Resolution, 2003.
    The baseline for the Food for Peace Title II program has been 
increased from $850 million in fiscal year 2002 to $1.185 billion in 
fiscal year 2004. The coalition commends Congress and the 
administration for this initiative, which represents an increase of 
nearly 40 percent in Title II baseline funding. This action underscores 
the importance of the Title II donation program, and the coalition 
strongly supports the administration's Title II request.
    The Title I program, however, must also be restored to reasonable 
levels if the United States is to take full advantage of the unique 
market-development potential of this historic initiative. The special 
features of the Title I program are important to American agriculture 
and remain a significant element of U.S. food aid policy, as discussed 
below.

                   ADVANTAGES OF THE TITLE I PROGRAM

    Mr. Chairman, the Title I program offers countries long-term loans 
and concessional payment terms for the purchase of U.S. agricultural 
commodities. As such, Title I has advantages over other food aid 
programs.
  --Resource Efficient.--Because Title I is a concessional loan 
        program, appropriations required to support Title I, under the 
        terms of the Federal Credit Reform Act of 1990, cover only the 
        subsidy cost, and not the full commodity value. In the 
        President's budget for fiscal year 2004, the subsidy cost of 
        the Title I program is established for the fiscal year at 78.90 
        percent. Thus, under the Title I program, Congress ships $1.00 
        worth of U.S. agricultural products at an appropriated cost of 
        about 79 cents. Moreover, Title I currently recovers more 
        dollars for the U.S. Treasury in loan repayments than it costs 
        in annual outlays.
  --GATT-Legal.--The Title I program promotes market development while 
        remaining fully sanctioned by international trade 
        organizations. The high degree of concessionality of Title I 
        has resulted in its classification as a donation program for 
        GATT purposes.
  --Commercial Sales Stepping Stone.--The Title I program is designed 
        to operate in markets which are neither poor enough to warrant 
        donations nor rich enough to purchase commodities on commercial 
        terms. Over the decades, numerous countries have graduated from 
        Title I partners to commercial markets for a broad range of 
        U.S. agricultural products. In fact, 43 of the top 50 consumer 
        nations of American agricultural products were once recipients 
        of U.S. foreign aid in some form. Tomorrow's commercial 
        commodity markets are today's Title I partners.

                    CONCLUSIONS AND RECOMMENDATIONS

    Mr. Chairman, the coalition is committed to maintaining U.S. food 
assistance programs at responsible levels in order to meet humanitarian 
needs and promote the interests of American agriculture. Our 
recommendation is to maintain annual shipments of food assistance at 
program levels of between 6.0 million and 7.0 million metric tons of 
grain equivalent. This can be accomplished, as in the past, with a 
blend of programs supported by direct appropriations and by CCC program 
authorities.
    The administration proposes funding for Title I which would support 
a direct loan level of $132 million. This is well below the 
appropriation for fiscal year 2003, which supports new direct loans of 
$154.7 million. Our coalition opposes the continued erosion of the 
Title I program, and strongly believes, as demonstrated above, that 
Title I funding should be restored to levels which will ensure the 
program's long-term viability as a flexible and significant policy 
initiative.
    The coalition recommends the following:
  --Title I program levels should be increased in fiscal year 2004, and 
        responsibly increased again in succeeding years, so that the 
        unique advantages of the program, highlighted above, are not 
        lost.
  --The fiscal year 2003 program level of $100 million for the 
        McGovern-Dole IFEP should be maintained in fiscal year 2004. 
        This action, together with full funding of the administration's 
        Title II request, would help ensure that the United States 
        fulfills its moral obligation to provide not less than one-half 
        of the world's food aid in fiscal year 2004.
  --In committee report language, the House Appropriations Committee 
        should restate its directive to the administration to make 
        greater use of existing CCC authorities to expand food aid to 
        regions in critical need.
    Mr. Chairman, American farmers require strong commercial markets to 
maintain their share of world agricultural trade. These markets are 
initially developed and often revitalized by Title I concessional 
sales. This program, which has been a bulwark of American food aid 
policy since the days of the Marshall Plan, deserves the strong support 
of your subcommittee, the Congress and the entire nation.
    The Title I program delivers more food assistance per dollar of 
investment than any other program. The Title I program, moreover, is 
fully consistent with the administration's position that aid to 
developing countries be tied to their adoption of reforms and policies 
that make development both lasting and effective.
    With strong Congressional support, the Food for Peace Title I 
program will continue to promote American commercial interests and 
humanitarian values. The funding of Title I, accordingly, should be 
increased to ensure that this historic program is restored to its 
proper place in U.S. food assistance policy.
                                 ______
                                 

   Prepared Statement of the Advanced Medical Technology Association

    The Advanced Medical Technology Association (AdvaMed) is pleased to 
provide this testimony on behalf of our member companies and the 
patients and health care systems we serve around the world. AdvaMed is 
the largest medical technology trade association in the world, 
representing more than 1,100 medical device, diagnostic products, and 
health information systems manufacturers of all sizes. AdvaMed member 
firms provide nearly 90 percent of the $75 billion of health care 
technology products purchased annually in the U.S. and nearly 70 
percent of the $170 billion worldwide market in medical technologies.

Summary
    America is on the cusp of an unprecedented revolution in medical 
technology driven by major public and private investments in pure 
research and computer technology, as well as a multi-billion dollar 
commitment from Congress to double medical research at NIH and unravel 
the human genome. At the same time, the growing number and complexity 
of new medical devices throughout the last decade, coupled with a drop 
in the absolute number of reviewers at FDA's Center for Devices and 
Radiological Health (CDRH) has resulted in severe budget strain and 
increasing delays in approval of new medical technologies at CDRH.
    Late last year, Congress unanimously passed H.R. 5651, The Medical 
Device User Fee and Modernization Act (MDUFMA) to give CDRH additional 
resources and expertise to help provide timely patient access to new 
medical technologies. Over the next 5 years, MDUFMA requires the device 
industry to contribute $150 million in user fees to expand resources 
and expertise at FDA.
    Continuation of the user fee program is contingent upon Congress 
providing an increase of $15 million over the CDRH base budget 
($205,720,000 adjusted for inflation) in each of the first 3 years of 
this agreement. This provision ensures user-fee funds do not displace 
congressional appropriations, and allows CDRH to upgrade information 
technology and other infrastructure necessary to carry-out a user-fee 
program and to meet the modest performance goals.
    Congress provided only $4 million of the $15 million appropriations 
target in fiscal year 2003. If MDUFMA's cumulative funding requirement 
is not reached, the program will sunset at the end of fiscal year 2005 
and an important source of new resources for the agency could be lost. 
Accordingly, we request that you include $27.3 million in additional 
appropriations to help meet the cumulative funding goal of the user fee 
legislation. The total CDRH funding for fiscal year 2004 that we 
request (including industry-paid user fees) is $237,218,720.

Passage of the Medical Device User Fee and Modernization Act (MDUFMA)
    FDA's Center for Devices and Radiological Health has faced 
increasing challenges as a result of dwindling resources and 
accelerating innovation. Staff levels have dropped by eight percent 
since 1995. The average total review time for premarket approval 
applications has risen to 411 days, more than twice the statutory 
review time. A science panel warned in a recent report that 
increasingly rapid advances in technology ``threaten to overwhelm'' 
CDRH's limited resources.
    H.R. 5651 addresses these challenges by establishing user fees for 
premarket submissions and mandating regulatory reforms to improve the 
timeliness of FDA reviews. The bill also includes provisions to 
strengthen FDA regulation of reprocessed disposable devices.
    The user fee provisions of the bill would establish fees for 
premarket approval applications, supplements and 510(k) submissions. 
These fees, combined with funds from increased appropriations, will 
provide FDA's device program with approximately $225 million in 
additional resources over the next 5 years. A letter agreement 
accompanying the bill sets strong performance goals for the agency.
    Key regulatory reforms in the bill will:
  --Eliminate bureaucratic delays in review of combination products by 
        establishing a new office to oversee these technologies;
  --Authorize FDA to accredit third-party inspectors to audit medical 
        technology companies with a good track record of compliance;
  --Encourage timely, thorough premarket reviews by codifying the PMA 
        ``modular review'' program and extending the third-party review 
        program for 510(k)s;
  --Permit electronic device labeling and electronic facility 
        registration.
    From bioengineered organs and implantable artificial hearts to 
gene-based diagnostic tests and molecular imaging systems, America's 
medical technology companies are developing thousands of promising new 
tests and treatments. AdvaMed believes full implementation of MDUFMA 
will help ensure these advances reach the millions of patients who need 
them.

New FDA Statistics Highlight Pressing Need for MDUFMA Implementation
    The fiscal year 2002 premarket review statistics released by FDA's 
Office of Device Evaluation (ODE) illustrate the ongoing challenges 
facing FDA's device program and the need for rapid implementation of 
MDUFMA.
    Staffers in FDA's device program deserve much credit for working to 
keep pace with rapidly advancing medical technology. In 2002, they 
acted on many life-saving and life-improving advances, including an 
improved smallpox vaccine delivery system, cardiac resynchronization 
therapy for heart failure, stents to improve the treatment of neck 
aneurysms and intracranial stroke, and implantable defibrillators for a 
new indication that can save the lives of thousands more patients.
    Statistics in the ODE annual report, however, show that FDA still 
is taking far too long to act on many of these important innovations. 
For example, the average total FDA review time at the 90th percentile 
of premarket approval applications (which typically are required for 
more advanced medical technologies) was 405 days in 1999 (the most 
recent year with complete data). Under the user fee provisions of H.R. 
5651, FDA will have to approve 90 percent of PMAs within 320 days by 
2007.
    Review times for 510(k)s also are on the rise, according to the 
report. Total FDA review time for the 90th percentile of 510(k)s rose 
to 164 days in 2001. The statutory review time for 510(k)s is 90 days.
    AdvaMed also is concerned that, as in 2001, ODE saw a net loss in 
scientific and medical personnel last year, losing three scientific 
reviewers and six medical officers. As FDA implements H.R. 5651, it 
will be important for it to make the greatest use possible of external 
sources of scientific expertise in the review process. AdvaMed is 
working closely with FDA and Congress to ensure that MDUFMA is 
implemented as quickly and effectively as possible. This will enable 
FDA to report substantially improved premarket review times in the 
coming years.

Conclusion
    AdvaMed urges this Subcommittee to work with the FDA to fully 
implement MDUFMA as soon as possible to ready FDA for the coming era of 
biomedical innovation and ensure that patients enjoy timely access to 
the coming dramatic breakthroughs in medicine. AdvaMed thanks the 
committee for this opportunity to present our views and we look forward 
to working with you to help prepare FDA for the coming revolution in 
medical technology. AdvaMed and the industry stand ready to meet its 
part of this bargain. The industry has agreed to provide $150 million 
in industry funds to upgrade FDA's ability to quickly evaluate new 
medical products. The agreement reflects the culmination of a 10-year 
hard-fought debate within the device industry about whether to proceed 
with a user fee approach to improving review times at the FDA. This 
program terminates in 2005 if the increased funding for CDRH does not 
materialize. Our membership is counting on the Federal government to 
meet its part of the bargain by providing the additional funding called 
for in the user fee agreement. If we fail here, we will have lost for 
the foreseeable future the many benefits that AdvaMed believes can come 
from a user fee program.
                                 ______
                                 

 Prepared Statement of the Alachua County Board of County Commissioners

    Thank you for allowing the Alachua County Board of County 
Commissioners to submit this written testimony to your Subcommittee 
regarding a comprehensive, multi-year project to provide critical 
utility services to underserved communities located in Alachua County, 
Florida. For fiscal year 2004, the County is seeking $5 million in 
Federal funds from the Rural Development Administration to aid with a 
county-wide partnership that includes the enhancement, expansion and 
refurbishment of potable water and central wastewater systems in and 
adjacent to seven small municipalities within Alachua County.
    Without a safe and reliable source of public utilities, the 
residents who live in the rural incorporated communities of Alachua 
County must rely upon the use of inadequate water systems and septic 
tanks for their utility services. In addition to the health and safety 
concerns, this lack of a public utility infrastructure serves as a 
deterrent to these areas' economic revitalization. Historically, there 
are numerous health risks associated with malfunctioning septic tanks, 
including the possible contamination of ground water that could lead to 
the development of diseases within the area.
    Alachua County, Florida is located in the north-central portion of 
the State with a population of approximately 225,000. There are nine 
separate municipal governments within Alachua County. According to a 
recent Census Bureau estimate, almost 20 percent of all residents in 
the county are living below the Federal poverty level. Gainesville, the 
county seat, is the largest city with approximately half of the 
county's population and is also home of the prestigious University of 
Florida, the largest university in the Southeastern United States. The 
remaining eight municipalities are considered rural farm communities 
with populations less than 6,000 residents. For seven of these 
communities, efforts to provide adequate potable water and wastewater 
utility services produce funding dilemmas for the municipal 
governments. Because of the significant utility infrastructure facility 
costs required, coupled with relatively low densities of potential 
customers, total debt financing of the utility systems results in cost-
prohibitive rates for end users. Without the infusion of external grant 
dollars, these communities face the potential of health and 
environmental risks associated with inadequate potable water delivery 
systems and degrading septic systems, as well as stagnated economic 
growth.
    The communities of Alachua, Archer, High Springs, Hawthorne, 
Micanopy, Newberry, and Waldo are all currently struggling with this 
issue. In an effort to avoid the problems seen throughout Florida 
associated with urban sprawl, Alachua County's growth management goals 
seek to direct growth within the existing communities. However, unless 
solutions for the utility infrastructure funding predicament can be 
found, the small communities will be unable to adequately provide for 
growing populations.
    In conclusion, Alachua County seeks Federal dollars for this 
comprehensive, multi-year partnership designed to assist the small 
communities' efforts to enhance, expand and refurbish existing utility 
systems. Current aggregated estimates for this countywide, multi-year 
initiative equal approximately $25 million. A Federal appropriation of 
$5 million in fiscal year 2004 will allow for the most critical 
projects to commence, while additional sources of funding are sought at 
the State and local level.
    We would like to take this opportunity to thank the Subcommittee 
for including language in the House fiscal year 2003 Agriculture 
Appropriations bill on behalf of this project and want to assure you 
that we are submitting a proposal to the Department of Agriculture 
pursuant to that language. However, the County is in immediate need of 
$5 million in dedicated Federal funding in order to help protect the 
health and welfare of these low-income communities and to spur their 
respective economic growth.
    Thank you for your consideration.
                                 ______
                                 

       Prepared Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation supports full funding for the 
Farm Security and Rural Investment Act of 2002 (FSRIA). We oppose any 
reduction or redirection of funds from any farm bill title or program.
    Unfavorable weather conditions, uncertainties involved with 
international trade, the value of the dollar and record high input 
costs have converged to produce a turbulent and difficult time for 
agriculture. The industry has suffered through several consecutive 
years of historic low market prices and weather disasters. The new farm 
law helps address problems faced by American farmers and ranchers and 
it provides unprecedented funds for our nation's conservation needs. 
Changes in farm bill programs would be devastating not only to farmers 
and ranchers but the rural economy as well. Consequently, Farm Bureau 
strongly encourages you to fully fund FSRIA in the fiscal year 2004 
appropriations process.
    Full funding of farm bill commodity programs is essential. It is 
imperative that counter-cyclical payment rates, loan rates and direct 
payments be preserved as adopted in FSRIA. We are adamantly opposed to 
any changes in the current payment limitations of $40,000 for direct 
payments, $65,000 for counter-cyclical payments and $75,000 for loan 
deficiency payments (LDP) and marketing loan gains (MLG), including a 
separate payment limitation for the peanut program. Current rules on 
spouses, three-entities, generic certificates and actively engaged 
requirements should be retained.
    Farm bill conservation programs should be fully funded. Full 
implementation of the Environmental Quality Incentive Program (EQIP) 
and Conservation Security Program (CSP) is key to assisting 
agricultural producers in complying with environmental regulations and 
addressing important conservation issues nationwide. Program funding 
for technical assistance is essential if conservation programs are to 
be successful.

           FARM BUREAU FISCAL YEAR 2004 APPROPRIATIONS ISSUES

    In addition to full farm bill funding, Farm Bureau has identified 
four USDA program areas for which priority fiscal year 2004 funding is 
essential. They are:
  --programs to expand foreign markets for U.S. agriculture;
  --programs to ensure the development and use of biotechnology 
        products;
  --programs to promote the use of alternative energy; and
  --programs key to the proper implementation of the Food Quality 
        Protection Act (FQPA).

        PROGRAMS TO EXPAND FOREIGN MARKETS FOR U.S. AGRICULTURE

    Creating new overseas markets and expanding those we have is 
essential for a healthy agricultural economy. Continued funding of 
export development programs is fundamental to improving farm income in 
the short and long term. Farm Bureau recommends maximum funding of all 
export development programs consistent with our commitments under World 
Trade Organization rules.
    Expanding international trade is also straining the capacity of 
U.S. agencies to monitor and enforce compliance with the terms of trade 
agreements including, but not limited to, imported product inspection 
and verification; imported and domestic pest detection, control and 
eradication; and negotiation, implementation and enforcement of 
sanitary and phytosanitary measures. The failure to detect, control and 
eradicate invasive pests from foreign sources is costing U.S. farmers, 
ranchers and local governments hundreds of millions of dollars for 
control and eradication programs, and in lost sales opportunities, 
annually. Greater effort must be dedicated to the technical capacity of 
the U.S. to trade.
    Animal & Plant Health Inspection Service (APHIS)--Trade Issues 
Resolution and Management.--Farm Bureau supports $5 million above the 
current budget level. As negotiators from other Federal agencies and 
industry try to open up foreign markets to U.S. exports, they 
consistently find that other countries are raising pest and disease 
concerns, real or contrived, to resist allowing American products to 
enter. Also, officials from other countries often attempt to refuse 
entry to perfectly healthy American products under the guise of a 
technicality or flimsy suspicion. Only APHIS can deal with these 
issues. This requires placing more APHIS officers overseas where they 
can monitor pest and disease situations, negotiate protocols with other 
countries, and intervene when foreign officials wrongfully prevent the 
entry of American exports. It is expensive to station U.S. employees 
overseas because of the high cost of living in some cities and the high 
cost of providing security and other services though the State 
Department. It can cost several hundred thousand dollars to move an 
employee to a foreign location, and a similar amount to keep them 
there. A $5 million increase would allow APHIS to place 20 employees in 
key locations throughout the world, especially in burgeoning Asia 
markets.
    Animal & Plant Health Inspection Service (APHIS)--Pest Detection.--
Farm Bureau supports $15 million above the current level for pest 
detection at APHIS. The fiscal year 2003 appropriations made a good 
start on improving APHIS' woefully under funded plant pest and diseases 
detection program, increasing it from $7 million to about $22 million. 
However, this pales in comparison to the $93 million appropriated for 
animal health monitoring and surveillance. While we all hope that the 
move to the Department of Homeland Security will not reduce the 
emphasis on agriculture inspection at the borders, an enhanced domestic 
pest detection program would offer a degree of insurance. Even with a 
solid border inspection program, we believe that we are vulnerable to 
the fast spread of plant pests.
    Foreign Agricultural Service (FAS).--Farm Bureau supports an 
overall increase in funding for the Foreign Agricultural Service's 
international programs and activities.
    GSM Credits.--Farm Bureau supports the full funding of the GSM 
credit guarantee programs. These important export credit guarantee 
programs can help make commercial financing available for imports of 
U.S. food and agricultural products via a deferred payment plan.
    Public Law 480.--Farm Bureau supports increased funding for Public 
Law 480 programs, the primary means by which the United States provides 
foreign food assistance. The Public Law 480 programs provide 
humanitarian and public relations benefits, positively impacts market 
prices and helps develop long-term commercial export markets. Farm 
Bureau believes that the USDA is best positioned to administer all 
programs of the Public Law 480.
    Market Access Program (MAP) and Foreign Market Development Program 
(FMD).--Congress should fully fund the MAP and FMD programs as 
authorized. These programs need the expertise of a fully supported 
Foreign Agricultural Service that is expanded to cover all existing and 
potential market posts.
    Export Enhancement Program (EEP).--The Farm Security and Rural 
Investment Act of 2002 authorizes direct export subsidies of U.S. 
agricultural products through the EEP program through fiscal year 2007 
to counter the unfair trading practices of foreign countries. Farm 
Bureau supports the full funding and use of this program in all 
countries, and for all commodities, where the U.S. faces unfair 
competition.
    Dairy Export Incentive Programs (DEIP).--Farm Bureau supports full 
funding and use of the Dairy Export Incentive Program to allow U.S. 
dairy producers to compete with foreign nations that subsidize their 
commodity exports.
    International Food for Education Program (IFEP).--Farm Bureau 
supports funding IFEP at $50 million. The program's demonstration 
effort, the Global Food for Education program, has yielded substantial 
information to help the IFEP be an effective platform for delivering 
both food aid and educational assistance.

  PROGRAMS TO ENSURE THE DEVELOPMENT AND USE OF BIOTECHNOLOGY PRODUCTS

    Biotechnology is an extremely promising development in agriculture 
and all reasonable efforts must be undertaken to allow the promise to 
be realized. Environmental activists and foreign governments are 
attempting to scare consumers, both here and abroad, into questioning 
the use new technology. The integrity of the technology is clearly 
being challenged and the platform of safety upon which the technology 
is built must be absolutely uncompromised.
    USDA must take the lead in biotechnology coordination efforts. It 
is essential that the Department act in a timely manner to evaluate and 
move approved products and technologies to the marketplace. USDA should 
develop a positive national strategy for biotechnology research, 
development and consumer education.
    Animal Plant Health Inspection Service (APHIS).--APHIS plays an 
important role in overseeing the permit process for products of 
biotechnology. Funding and personnel are essential for ensuring public 
confidence in biotechnology. Farm Bureau recommends adding $6 million 
of funding to expand APHIS staff in order to implement the current 
regulatory system and helps ensure the trust of consumers and trading 
partners. Continuing the current $2 million appropriation simply will 
not allow any progress and the industry may suffer irreversible losses.
    Codex Alimentanus Commission.--Farm Bureau supports adequate 
funding for the U.S. CODEX office so that it can adequately represent 
American interests in this important body, which develops the 
international food safety standards used as guidance by the World Trade 
Organization. Increasingly, biotechnology is the focus of CODEX 
discussions where an ongoing international effort is being led by the 
European Union to place limits on our ability to export products of 
biotechnology by incorporating the precautionary principle into the 
CODEX general principles or biotechnology labeling discussions.
    Agriculture Research Service (ARS).--Farm Bureau supports 
sufficient funding for plant-breeding research programs because they 
are important for maintaining a broad-based research.

           PROGRAMS TO PROMOTE THE USE OF ALTERNATIVE ENERGY

    The development of alternative energy sources is not only 
significant to the advancement of American agriculture but also vital 
to enhancing our nation's energy security. The United States currently 
imports over 56 percent of its energy needs from foreign sources. This 
lack of energy independence has led to price instabilities in the most 
basic of energy sources and will lead to production agriculture 
spending between $1-2 billion more to plant this year's crop than last 
year. Renewable energy sources such as ethanol, biodiesel, wind 
generation and biomass can reduce the current overreliance on foreign 
energy sources.
    The 2002 farm bill contained an energy title that includes 
provisions for Federal procurement of bio-based products, bio-refinery 
development grants, a biodiesel fuel education program, renewable 
energy development program, renewable energy systems, a bioenergy 
program and biomass research and development. These programs will 
assist rural economic development as well as increase our nation's 
energy independence. These important programs to promote alternative 
energy sources should be fully funded at authorized levels to further 
advance these important programs and to achieve the goals of the energy 
title.
    We support USDA research on the increased production of all forms 
of renewable fuels from agricultural resources for energy use including 
research and demonstration programs that use ethanol as a fuel for fuel 
cell engine development.

     PROGRAMS KEY TO THE PROPER IMPLEMENTATION OF THE FOOD QUALITY 
                             PROTECTION ACT

    USDA plays a crucial role in achieving proper implementation of the 
Food Quality Protection Act (FQPA). USDA must continue to work with 
EPA, agricultural producers, food processors and registrants to ensure 
that farm data and agricultural interests are properly considered and 
fully represented in the tolerance reassessment and pesticide re-
registration process.
    By the time we reach the 2006 FQPA deadline for reassessment, 
nearly 6,000 separate food and feed tolerances will have been 
reassessed for nearly 400 different active ingredients. That process 
affects nearly 600 specialty crops, all major row crops and animal 
production. In order to participate fully and effectively in the 
tolerance reassessment process, USDA must have all the resources 
necessary to provide economic benefit and use information to EPA.
    Funding should be increased to the following offices and programs 
that are vital to proper implementation of FQPA:
    Office of Pest Management Policy (OPMP).--OPMP has the primary 
responsibility for coordination of USDA's FQPA obligations and 
interaction with EPA. Major funding increases are necessary to review 
the tolerance reassessments, particularly dietary and worker exposure 
information; to identify critical use, benefit and alternatives 
information; and to work with grower organizations to develop strategic 
pest management plans. We recommend that funding for OPMP be doubled 
from 2003 budget levels. Further, additional funding to OPMP should be 
designated under the Secretary of Agriculture's office, rather than an 
add-on to the ARS budget.
    Agriculture Research Service (ARS).--Integrated Pest Management 
(IPM) research, minor use tolerance research (IR-4) and research on 
alternatives to methyl bromide must continue to receive adequate 
funding to fully address the unique concerns of these programs. 
Research is also needed to identify new biological pest control 
measures and to control pesticide migration.
    Cooperative State Research, Education and Extension Service 
(CSREES).--Full funding should be provided for IPM research grants, IPM 
application work, pest management alternatives program, expert IPM 
decision support system, minor crop pest management project (IR-4), 
crops at risk from FQPA implementation, FQPA risk avoidance and 
mitigation program for major food crop systems, methyl bromide 
transition program, regional crop information and policy centers, 
Pesticide Impact Assessment Program (PIAP) and the pesticide applicator 
training program.
    Economic Research Service (ERS).--ERS programs provide USDA and EPA 
with unique data information and they should be properly funded 
including IPM research, pesticide use analysis program and the National 
Agriculture Pesticide Impact Assessment Program (NAPIAP).
    FQPA Implementation.--Additional funding for proper implementation 
of FQPA is needed in the following programs: National Agriculture 
Statistics Service (NASS) pesticide use surveys; Food Safety Inspection 
Service (FSIS) increased residue sampling and analysis; Agricultural 
Marketing Service (AMS); and, the Pesticide Data Program (PDP).
    Administration.--Funding must not be diverted away from USDA 
programs that do not benefit U.S. agriculture. Neither fund should be 
diverted to foreign or international groups whose goal it is to 
exclusively help production competitors in other nations.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
American Indian Higher Education Consortium (AIHEC) and the 31 Tribal 
Colleges and Universities that comprise the list of 1994 Land Grant 
Institutions, thank you for this opportunity to share our funding 
requests for fiscal year 2004.
    This statement is presented in three parts: (a) a summary of our 
fiscal year 2004 funding requests, (b) a brief background on Tribal 
Colleges and Universities, and (c) an outline of the 1994 Tribal 
College Land Grant Institutions' plan using our land grant programs to 
fulfill the agricultural potential of American Indian communities, and 
to ensure that American Indians have the skills needed to maximize the 
economic development potential of our resources.

                          SUMMARY OF REQUESTS

    We respectfully request the following funding levels for fiscal 
year 2004 for our established land grant programs within the 
Cooperative State Research, Education, and Extension Service (CSREES) 
and Rural Development. In CSREES, we specifically request: $12 million 
payment into the Native American endowment fund--an increase of $4.9 
million over fiscal year 2003; $3.1 million for the higher education 
equity grants--an increase of $1,411,050; $5 million for the 1994 
institutions' competitive extension grants program--an increase of 
$1,635,015; $3 million for the 1994 Institutions' competitive research 
grants program--an increase of $1,907,150; and in Rural Development's 
RCAP program, that $5 million for each of the next five fiscal years be 
targeted for tribal college community facilities grants in Rural 
Development's Rural Community Advancement Program (RCAP), to help 
address the critical facilities and infrastructure needs at the 1994 
Institutions that impede our ability to participate fully as land grant 
partners. This competitive tribal college program has been allocated $4 
million in each fiscal year beginning in fiscal year 2001.

             BACKGROUND ON TRIBAL COLLEGES AND UNIVERSITIES

    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
over 140 years after enactment of the first land grant legislation the 
1994 Land Grant Institutions, more than any other higher education 
institutions, truly exemplify the original intent of the land grant 
legislation, as they are truly community-based institutions.
    The Tribal College Movement was launched in 1968 with the 
establishment of Navajo Community College, now Dine College, serving 
the Navajo Nation. A succession of tribal colleges soon followed, 
primarily in the Northern Plains region. In 1972, the first six 
tribally controlled colleges established the American Indian Higher 
Education Consortium to provide a support network for member 
institutions. Today, AIHEC represents 34 Tribal Colleges and 
Universities--31 of which comprise the list of 1994 Land Grant 
Institutions--located in 12 states begun specifically to serve the 
higher education needs of American Indian students. Collectively, they 
serve 30,000 full- and part-time students from over 250 Federally 
recognized tribes.
    The vast majority of the 1994 Institutions is accredited by 
independent, regional accreditation agencies and like all institutions, 
must undergo stringent performance reviews on a periodic basis. White 
Earth Tribal & Community College, the newest 1994 Institution, is in 
the pre-candidacy stage. Tribal colleges serve as community centers, 
providing libraries, tribal archives, career centers, economic 
development and business centers, public meeting places, and child care 
centers. Despite our many obligations, functions, and notable 
achievements, tribal colleges remain the most poorly funded 
institutions of higher education in this country. Most of the 1994 Land 
Grant Institutions are located on Federal trust territory. Therefore, 
states have no obligation and in most cases, provide no funding to 
tribal colleges. In fact, most states do not even fund our institutions 
for the non-Indian state residents attending our colleges, leaving the 
tribal colleges to absorb the per student operations costs for the 
approximately 20 percent non-Indian students enrolled in our 
institutions. Unlike our state land grant partners, our institutions do 
not benefit from the economy of size--where the cost per student to 
operate an institution is diminished by the sheer size of the student 
body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in abject poverty comparable to that found in Third 
World nations. Through the efforts of tribal colleges, American Indian 
communities are receiving services they need to reestablish themselves 
as responsible, productive, and self-reliant. It would be regrettable 
not to expand the very modest investment in, and capitalize on, the 
human resources that will help open new avenues to economic 
development, specifically through enhancing the 1994 Institutions' Land 
Grant programs, and securing adequate access to information technology.

     1994 LAND GRANT PROGRAMS--AMBITIOUS EFFORTS TO REACH ECONOMIC 
                         DEVELOPMENT POTENTIAL

    Sadly, due to lack of expertise and training, millions of acres on 
our reservations lie fallow, under-used, or have been developed through 
methods that render the resources non-renewable. The Equity in 
Educational Land Grant Status Act of 1994 is our hope for rectifying 
this situation. Our current land grant programs are small, yet very 
important to us. It is essential that American Indians learn more about 
new and evolving technologies for managing our lands. We are committed 
to being productive contributors to the agricultural base of the nation 
and the world.
    Extension Programs.--The 1994 Institutions' extension program 
strengthens communities through outreach programs designed to bolster 
economic development; community resources; family and youth 
development; natural resources development; agriculture; as well as 
health and nutrition awareness.
    In fiscal year 2003, $3,387,000 was appropriated for the 1994 
Institutions' competitive extension grants. Additional funding is 
needed to support these vital programs, designed to address the 
inadequate extension services provided on Indian reservations by the 
states. It is important to note that the 1994 extension program is 
specifically designed to complement and build upon the Indian 
Reservation Extension Agent program, and is not duplicative of other 
extension activities. For the reasons outlined above, we request the 
Subcommittee further support this program by appropriating $5 million 
to sustain the growth and further success of these essential community 
based programs.
    Native American Endowment Fund.--Endowment installments paid into 
the 1994 Institutions' account remain with the U.S. Treasury--only the 
interest is distributed annually to our colleges. The latest annual 
interest yield (fiscal year 2002) distributed among the 30 eligible 
1994 Land Grant Institutions totaled $1,427,750.
    Just as other land grant institutions historically received large 
grants of land or endowments in lieu of land, this money assists 1994 
Land Grant Institutions in establishing and strengthening our academic 
programs in such areas as curricula development, faculty preparation, 
instruction delivery, and as of fiscal year 2001 to help address our 
critical facilities and infrastructure issues. Many of the colleges 
have used the endowment funds in conjunction with the Education Equity 
Grant funds to develop and implement their programs. As earlier stated, 
tribal colleges often serve as primary community centers and although 
conditions at some have improved substantially, many of the colleges 
still operate under deplorable conditions. Most of the tribal colleges 
cite improved facilities as one of their top priorities. For example 
Lac Courte Oreilles Ojibwa Community College in Hayward, Wisconsin has 
reported an immediate need for substantial renovations to replace 
construction materials that have exceeded their effective life span, 
and to upgrade existing buildings due to accessibility and safety 
concerns.
    An increase in the endowment payments would increase the size of 
the corpus and thereby increase the annual interest yield available to 
the 1994 Land Grant Institutions. This additional funding would be very 
helpful in our efforts to continue to support faculty and staff 
positions and program needs within Agriculture and Natural Resources 
Departments, as well as to help address the critical and very expensive 
facilities needs at our institutions. Currently the amount that each 
college receives from this endowment is very limited. It is not close 
to adequate to address the curricula development and instruction 
delivery issues and also make even a dent in the necessary facilities 
projects at the colleges. In order for the 1994 Institutions to become 
full partners in this nation's great land grant system, we need and 
deserve the facilities and infrastructure necessary to engage in 
education and research programs vital to the future health and well 
being of our reservation communities. We respectfully request the 
subcommittee build upon this much needed base fund by increasing the 
fiscal year 2004 endowment fund payment to $12 million.
    1994 Institutions' Educational Equity Grant Program.--Closely 
linked with the endowment fund, this program currently provides just 
under $50,000 per 1994 Institution to assist in academic programs. 
Through the modest appropriations made available since fiscal year 
1996, the tribal colleges have been able to begin to support courses 
and planning activities specifically targeted to meet the unique needs 
of our respective communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; buffalo production and management; and food 
science and nutrition--to address epidemic rates of diabetes and 
cardiovascular disease on reservations. Haskell Indian Nations 
University in Lawrence, KS has used these funds to upgrade and equip a 
plant science laboratory to enhance the academic quality of teaching 
and to achieve more effective use of facilities for the Environmental 
Science Program. The plant science laboratory will directly serve 
Botany and Ethnobiology courses, which are offered in Haskell's 
Environmental Science baccalaureate degree program. If more funds were 
available through the Educational Equity Grant Program, tribal colleges 
could channel more of their endowment yield to supplement other 
facilities funding in order to address critical infrastructure issues. 
Authorized at $100,000 per 1994 Institution, this program was 
appropriated $1,688,950 in fiscal year 2003. We respectfully request 
full funding of $3.1 million to allow the colleges to build upon the 
courses and activities that the initial funding launched.
    1994 Research Program.--As the 1994 Land Grant Institutions have 
begun to enter into partnerships with 1862/1890 Land Grants through 
research projects, impressive efforts to address economic development 
through land use have come to light. Our research program illustrates 
an ideal combination of Federal resources and tribal college-state 
institution expertise, with the overall impact being far greater than 
the sum of its parts. We recognize the budget constraints that Congress 
is working under. However, we believe that $1.1 million, our fiscal 
year 2003 appropriated level, is simply not adequate when there are 30 
institutions currently eligible to compete for these precious research 
dollars. This research program is vital to ensuring that tribal 
colleges finally become full partners in the nation's land grant 
system. Many of our institutions are currently conducting agriculture-
based applied research, yet finding the resources to conduct this 
research to meet their communities' needs is a constant challenge. This 
research authority opens the door to new funding opportunities to 
maintain and expand the research projects begun at the 1994 
Institutions, but only if adequate funds are appropriated. The 
following is an example of the initial projects funded under this vital 
new program:
    Oglala Lakota College on the Pine Ridge Reservation in South Dakota 
has begun to investigate the impacts of free-range management on range 
soil and water, and bison diet quality. The investigation is being 
conducted on previously cattle-grazed land. Because bison behavior 
varies from that of cattle, soil/water and range plant characteristics 
may change over time. As bison grazing continues, initial 
characteristics and changes in rangeland environments will be monitored 
and documented. Composition and forage quality as well as the soil 
quality of three ecosystems in the bison grazed areas will ultimately 
be determined. Electronic workshop/class and outreach materials will be 
developed from this study by integrating technical and cultural 
knowledge about bison. Oglala Lakota College, South Dakota State 
University and other tribal colleges will benefit from the resulting 
material. Information will be disseminated through lay publications, 
field days, and special workshops.
    Other projects begun in the initial round of programs funded 
include soil and water quality projects, amphibian propagation, 
pesticide and wildlife research, range cattle species enhancement, and 
native plant preservation for medicinal and economic purposes. We 
strongly urge the Subcommittee to fund this program at $3 million to 
enable our institutions to develop and strengthen their research 
potential.
    Rural Community Advancement Program (RCAP).--Beginning in fiscal 
year 2001, each year $4 million of the RCAP funds appropriated for 
loans and grants to benefit Federally recognized Native American Tribes 
have been targeted for community facility grants for tribal college 
improvements. As stated earlier, the facilities at many of the 1994 
Land Grant Institutions are in desperate need of repair and in many 
cases replacement. We urge the Subcommittee to designate $5 million of 
the Native American RCAP funds to address the critical need for 
improving the facilities at the 31 Tribal College Land Grant 
Institutions. Additionally, we respectfully request report language 
directing the Department of Agriculture to target a minimum of $5 
million for each of the next five fiscal years to allow our 
institutions the means to solidly address our critical facilities 
needs.

                               CONCLUSION

    The 1994 Land Grant Institutions have proven to be efficient and 
effective tools for bringing education opportunities to American 
Indians and hope for self-sufficiency to some of this nation's poorest 
regions. The modest Federal investment in the 1994 Land Grant 
Institutions has already paid great dividends in terms of increased 
employment, education, and economic development. Continuation of this 
investment makes sound moral and fiscal sense. American Indian 
reservation communities are second to none in their need for effective 
land grant programs and as earlier stated no institutions better 
exemplify the original intent of the land grant concept than the 1994 
Land Grant Institutions.
    We appreciate your long-standing support of the Tribal Colleges and 
Universities and are also grateful for your commitment to making our 
communities self-sufficient. We look forward to continuing our 
partnership with you, the U.S. Department of Agriculture, and the other 
members of the nation's land grant system--a partnership that will 
bring equal educational, agricultural, and economic opportunities to 
Indian Country.
    Thank you for this opportunity to present our funding proposals to 
this Subcommittee. We respectfully request your continued support and 
full consideration of our fiscal year 2004 appropriations requests.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, comprised of more than 42,000 
members, appreciates the opportunity to provide written testimony on 
the fiscal year 2004 budget for the U.S. Department of Agriculture 
(USDA) research and education programs.
    The ASM represents scientists who work in academic, medical, 
governmental and industrial institutions worldwide and are involved in 
research to improve human health, the environment, and agriculture. 
Microbiological research related to agriculture is important to 
understanding foodborne diseases, new and emerging plant and animal 
diseases, soil erosion and soil biology, agricultural biotechnology, 
and the development of new agricultural products and processes. The ASM 
is a member of the Coalition on Funding Agricultural Research Missions 
(CoFARM), which represents scientific societies and organizations 
involved in formulating research directions and needs for agricultural 
research and supports the recommendation to increase the USDA's entire 
research portfolio.
    Advances in agricultural research continue to allow the United 
States to produce agricultural goods that are unrivaled in the world 
today. However, U.S. agriculture faces new challenges, including the 
threats of new and reemerging diseases, climate change, public concern 
about food security and its impact on the environment and fears about 
agroterrorism. Unfortunately, public investment in agricultural 
research has been stagnant for several years, impeding scientific 
advancement and progress, despite the recognized importance of the 
agricultural sector to the economy. According to the National Science 
Foundation's (NSF) Division of Science Resources Studies, agricultural 
research made up only 4 percent of all public funds devoted to basic 
research and only 2 percent of total R&D expenditures in fiscal year 
2000. Furthermore, indirect costs associated with research are not at 
prevailing negotiated rates and are adversely affecting the direction 
of research. This is and will lead to unintended consequences in 
research priority setting in recipient institutions.
    Agricultural research has led to many advances, including 
biotechnology, which contributes to a more abundant and nutritious food 
supply and a more environmentally friendly food production process, 
while reducing agriculture's reliance on chemical fertilizers, 
pesticides, and fungicides. With the advent of genomics, a critical 
research need in agriculture, we have entered a new era of scientific 
discovery in the agricultural field.
    It is critical to increase the visibility and investment in 
research to respond to these challenges. The ASM encourages the 
Subcommittee to build upon the renewed focus on agricultural research 
supported in the Administration's fiscal year 2004 USDA budget. This 
will not only benefit U.S. agriculture but also the health and well-
being of every American. Many health related conditions are due to poor 
nutrition and lack of understanding the old adage--you are what you 
eat. Major health care costs could be reduced if the American public 
were educated more in food nutrition and health.

Infectious Diseases in Plants and Animals
    It is important to recognize a growing threat to the U.S. 
agricultural system that requires immediate attention--the threat of 
new and emerging infectious diseases. Like the human population, U.S. 
agriculture is also experiencing severe problems caused by new and 
emerging infectious diseases in plants and animals. Changes in 
agricultural practices, population growth, climate, microbial 
evolution, animal migration, and international trade and travel are all 
factors in introducing new plant and animal diseases into the U.S. 
agriculture system and natural resources, such as oak trees in 
California and predicted soybean rust. The lack of knowledge to manage 
effectively and control new and reemerging infectious diseases often 
leads to very serious consequences from lost productivity from 
quarantines to embargoes, and the destruction of plants and animals to 
control the spread of diseases. For example, citrus canker has cost 
millions in tree destruction in Florida. Research, monitoring, 
surveillance, and new sources of resistant genetic material, including 
the use of biotechnology, may enable continued growth of citrus trees 
commercially and by homeowners. New technologies, e.g. the polymerase 
chain reaction, now enables us to detect minute quantities of 
etiological agents, including those previously ascribed to 
physiological problems in plants, such as the class of viruses known as 
luteoviruses.

Cooperative State Research, Education and Extension Service
    The ASM strongly supports competitive research and believes that 
the federal government should provide more opportunities for scientists 
to compete for federal research dollars across all agencies and 
scientific fields. In 1989, the Board on Agriculture of the National 
Research Council (NRC) recommended that public investment through 
competitive research grants in agriculture, food, and the environment 
be made a national priority. The NRC recommendation became the National 
Research Initiative Competitive Grants Program (NRI), which supports 
fundamental research on key agricultural problems including food 
safety, plant and animal genetics, and water quality (National Research 
Initiative: a Vital Competitive Grants Program in Food, Fiber, and 
Natural-Resources Research, NRC, 2000). The NRI enables USDA to develop 
new partnerships with other Federal agencies (e.g., the National 
Science Foundation: The Microbe Project) that advance the agricultural 
science enterprise.
    The ASM commends the Administration and Congress for recognizing 
the funding gap in competitive, peer-reviewed research in its fiscal 
year 2003 appropriations for the NRI ($167 million). The ASM supports 
additional funding for the NRI that will encourage agricultural science 
to tackle the many research needs in today's agriculture, such as, 
expanded research in microbial genomics, allergens in food, 
pharmaceutical and industrial products arising from biotechnology, and 
the possibility of agroterrorism as we face the threat of biological 
weapons.
    The ASM urges the Subcommittee to fund the NRI at the President's 
requested $200 million budget for fiscal year 2004. This level of 
funding ensures the commitment of the USDA to the competitive merit 
review process, provides funds for fundamental research with long-term 
potential for new discoveries, and improves human resource 
opportunities in agricultural research. The NRI has yielded extensive 
scientific advancements that are comparable to some of those made at 
other agencies that fund peer-reviewed research. For instance:
  --One of the most challenging bacterial diseases in cattle causes a 
        wasting, chronic diarrhea. The genome of Mycobacterium 
        paratuberculosis was recently sequenced, years ahead of 
        predicted schedule. Specific regions contributing to disease 
        were identified and are now being tested in diagnostic tests. 
        These genes and their products may also be the missing links 
        for an effective vaccine.
  --Food safety is a continuing challenge. Millions of foodborne 
        illnesses occur yearly, including cases associated with the 
        consumption of raw fruits and vegetables. These notoriously 
        difficult to treat products are being evaluated by mild heat 
        treatments to determine efficacy in producing safer and longer-
        lasting fresh products.

Agricultural Research Service
    The ASM recommends that the Subcommittee build upon the 
Administration's proposed $1 billion budget for fiscal year 2004, which 
is an $18 million decrease from fiscal year 2003. The Agricultural 
Research Service (ARS) is the principal in-house research agency in the 
area of natural and biological sciences for the USDA.
    United States agriculture is experiencing severe problems because 
of new and reemerging infectious diseases in plants and animals, a 
threat, which requires immediate attention. The imminent threats of 
foot-and-mouth disease (FMD) in animals and plum pox in plants are 
examples requiring new and extensive research. Agroterrorism could also 
present a serious threat to the agricultural system and requires a 
renewed focus on animal and plant pathogens. Therefore, the ASM 
recommends that increased funding in this area be distributed equally 
between plant (emerging and exotic diseases of plants ($3.4 million 
fiscal year 2004 increase)) and animal research (emerging, reemerging, 
and exotic diseases of animals ($8.3 million fiscal year 2004 
increase)) at $10 million each for fiscal year 2004. This increase will 
allow ARS to focus on improving pest and disease management with 
biologically based technologies, genetics and genome mapping, and food 
safety. Furthermore, the ARS needs to focus additional resources in the 
area of rapid and accurate detection systems for animal and plant 
diseases and pathogens and effective treatment protocols. These tools 
remain a key component in the nation's efforts to safeguard the food 
supply from natural and manmade events. The ASM encourages Congress to 
increase funding in this high-payoff applied research.
    The ASM also believes continued support of agricultural genomic 
research is a critical component of our nation's research enterprise. 
Increasingly, environmental factors are requiring new and novel 
solutions to plant production, protection (pest), nutritional content 
and food safety that are being addressed through genomic research. For 
example, ARS research recently (2003) found genetic markers near the 
first two of the four genes that may determine soybean resistance to 
cyst nematodes. These microscopic roundworms rob farmers of around 220 
million bushels a year. This type of high-payoff research not only 
improves agricultural product health and cost, but also makes U.S. 
products more competitive and environmentally benign. The ASM is 
pleased to see the Administration recognizes the promise of genomic 
research through the allocation of an additional $3.5 million for 
animal genomics. Research will also focus on developing diagnostic and 
vaccine technologies that will ultimately improve the nation's ability 
to control disease outbreaks, and mitigate the threats to the nation's 
animal, plant, and grain products.

Animal and Plant Health Inspection Service
    The Animal and Plant Health Inspection Service (APHIS) has the 
critical role of policing the U.S. infrastructure that is in place to 
prevent, diagnose and respond to infectious diseases and pests. With 
the U.S. food system becoming increasingly susceptible to foreign 
diseases and pest through trade, the United States must upgrade its 
biosafety systems to address these threats. APHIS requires new, 
accurate and cost effective diagnostic tools and updated information 
technology. APHIS's long-term efforts have kept FMD and BSE out of the 
United States to date; however, APHIS needs new resources to increase 
the availability of vaccines and support efforts that could combat the 
potential release of these agents.
    The ASM does not believe the Administration's budget reflects 
APHIS's daunting task of combating animal and plant diseases and pests. 
The ASM recommends that Congress increase funding for APHIS to $1 
billion, which is level with fiscal year 2003. This level of funding 
would reflect APHIS's role in addressing animal and plant health 
monitoring and outbreak management.

Food Safety
    Foodborne illness continues to pose a major public health problem 
in the United States. The ASM urges Congress to match or exceed the 
President's $675 million for the Food Safety and Inspection Service.
    The U.S. food system must confront microorganisms that continue to 
adapt to their changing environments and begin to ``out smart'' current 
techniques to control their presence. Many foodborne microbes have 
developed resistance to conventional food preservation and disinfection 
techniques and continue to proliferate. It is also important to note 
that the diversity of microorganisms affecting food safety changes with 
time, processing techniques, location and other factors. Continued and 
sustained research is vital if the nation's food supply is to meet the 
expectations of the American consumer and trading partners.

Microbial Genomics
    Microbes are involved in all aspects of agriculture, from 
beneficial uses of microbes in food (e.g., yogurt), to pest controls, 
to the spread of disease in plants and animals, and the contamination 
of the food supply. Studying the genomes of agricultural microbes is 
expected to enable development of new technologies to provide improved 
foods and better pathogen control to protect the nation's crops, to 
reduce the incidence of plant and animal disease, and to ensure a safer 
food supply. Thus, ASM is supportive of microbial genomics through ARS 
and the NRI program. Microbial sequencing is also expected to lead to 
speedier and more accurate identification of microbes, identify targets 
for intervention, as well as potential new antimicrobial agents. 
Coordination and cooperation with the National Science Foundation and 
the Department of Energy in this area is particularly promising; as is 
the interagency working group on microbes that focuses on sequencing 
and bioinformatics (i.e., The Microbe Project).

Biobased Products
    The ASM continues to support the promising research to accelerate 
the conversion of agricultural materials and byproducts into biofuels, 
such as soybean oil conversion into (bio)diesel fuel. Such scientific 
advancements in biobased product research have the added benefit of 
enhancing farm income, strengthening U.S. energy security, rural 
revitalization, and environmental stewardship. ASM believes agriculture 
can play a positive role in achieving U.S. energy security and 
encourages the Subcommittee to consider the benefit biofuels represent 
to the entire agricultural and consumer community.
    The ASM encourages Congress give high priority to agricultural 
research for fiscal year 2004. Many of today's scientific achievements 
leading to the development of biotechnology, genetically modified 
foods, improved crops and plant-based products and an improved 
environment have their roots in the basic research conducted by the 
USDA. The future holds many challenges from the monitoring of the 
ecological impact of transgenic plants to research in plant and animal 
diseases that is requisite to combating agricultural bioterrorism. We 
urge the Administration and Congress to assist the USDA to address 
these issues.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as the Department of 
Agriculture bill is considered throughout the congressional process.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), the largest single 
life sciences society representing over 40,000 scientists, recommends 
that Congress increase the Administration's proposed Food and Drug 
Administration (FDA) budget of $1.7 billion for fiscal year 2004, which 
represents an increase of $59 million over fiscal year 2003, or only 3 
percent. Sufficient financial resources must be allocated to the FDA in 
order for this crucial agency to continue its science-based oversight 
of public health and safety. The FDA's current priorities reflect its 
diverse roles in protecting and improving the well-being of individual 
Americans, ensuring homeland security against potential terrorist 
attacks, reducing the numbers of adverse health events associated with 
the food supply and health care products, distributing accurate 
information about FDA regulated products, and basing its decisions on 
solid science.
    The agency has been and will be responsible for much of the 
nation's countermeasures against potential biological and chemical 
terrorist attack. But the FDA's long-standing responsibilities also 
influence the day-to-day, ordinary aspects of American life. In 2002 
alone, the FDA evaluated and approved for marketing nearly 5,000 new 
drugs, biologics, medical devices and animal drugs. At the same time, 
its personnel monitored about eight million import shipments. Consumers 
spend 25 cents of every consumer dollar--nearly $1.5 trillion--on 
products regulated by the agency, including therapeutic drugs, medical 
devices, and most of the nation's food supply. Public trust in the FDA 
reflects how well the agency fulfills these broad-based and complex 
responsibilities.
    The ASM urges Congress to fully support the FDA's role as protector 
of public health. Adequate funding will ensure that the agency can 
still perform counter-terrorism, consumer product safety, and food 
safety within the context of scientific research, complete and accurate 
information, and productive collaborations with stakeholders.

Science-Based Security and Safety
    The protective mission of the FDA is a complicated mixture of law 
and science--as the numbers of new products, food imports, and 
potential health threats increase, so do the added regulations, 
invested stakeholders, and revised responsibilities. The ASM recognizes 
that the FDA's principal strength is the up-to-date information from 
which the agency determines its new-product evaluations and its 
regulation enforcement. Only strong funding will assure that this 
science-based decision-making continues at all of the FDA's research 
centers. Research by agency personnel, combined with data gathered from 
outside research groups, ensure that safe and effective products reach 
the market and that these products remain safe after market approval. 
In the approval of new vaccines or the inspection of shellfish, FDA 
personnel rely on the latest in scientific evidence and technology.
    New technologies like nucleic acid amplification testing (NAT) have 
significant potential in protecting the nation's health and thus must 
be included among the FDA's diverse research capabilities. The agency's 
Center for Biologics Evaluation and Research (CBER), which is 
responsible for the safety of the nation's blood supply, has in recent 
years approved NAT-based blood testing procedures. These tests 
currently screen all donated blood in the United States for HIV and 
hepatitis C infection, and the FDA is studying their potential to 
screen for West Nile virus (WNV). Concerned with any new and emerging 
health threat, CBER scientists also are conducting studies and 
gathering extramural evidence on innovative WNV vaccines and 
treatments. This characteristic scientific readiness against new 
threats like WNV infection and bovine spongiform encephalopathy (BSE or 
``mad cow disease'') should be supported with adequate funding.

Counter-Terrorism and Project Bioshield
    Unfortunately the threats to public health have expanded 
dramatically to include both real and potential acts of terrorism and 
bioterrorism. The political environment overseas further intensifies 
the dire possibilities for biological and chemical terrorism against 
American citizens, and thus intensifies the crucial protective role of 
the FDA. Part of the Administration's proposed fiscal year 2004 budget 
for the FDA falls under the Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002--a reflection of the FDA's 
deserved reputation for assessing and managing such threats. In his 
recent State of the Union address, President Bush announced Project 
BioShield, a science-based program that further enlarges the FDA's 
counter-terrorism activities and increases pressure on the agency's 
funding resources.
    Under Project BioShield, research and public health agencies--in 
particular the FDA and the National Institutes of Health--will 
collaborate with the new Department of Homeland Security to develop and 
make available more modern, up-to-date diagnostic tests, drugs, and 
vaccines against intentional attack with biological and chemical 
weapons. The program authorizes further stockpiles of the latest 
vaccines or drugs against such bioweapons as the infectious agents of 
smallpox, anthrax, and plague, as well as botulinum toxin and Ebola 
virus. The FDA also will be responsible for limited emergency-use 
authorization of promising medical countermeasures that have not 
completed standard review protocols. To do so, agency scientists must 
be fully informed on all scientific advances in medicine. Medical 
innovations such as recombinant DNA technology and molecular 
engineering, which are being studied in a number of other diseases, 
have potential against bioterrorism agents as well.
    The Bioterrorism Act of 2002 mandated a comprehensive plan to 
protect against the intentional contamination of food and water 
supplies and of medical therapeutics and devices. As the food 
regulatory arm of the Federal Government, the FDA is responsible for 
developing the appropriate food safety measures. The agency also 
assures the adequate and safe supply of drugs and devices important to 
the nation's health, and thus has multiple roles within the war on 
terrorism.
    The FDA's Center for Food Safety and Applied Nutrition (CFSAN) has 
already completed a number of activities aimed at enhancing the 
security of the national food supply. During fiscal year 2002, more 
than 600 new food inspectors and laboratory personnel were hired and 
more than 34,000 food import examinations conducted. The CFSAN's 
intramural research program shifted more resources to developing rapid 
test methods for microorganisms and chemical agents considered serious 
bioterrorism agents. The Center also initiated a nationwide Laboratory 
Response Network to identify local laboratory capabilities related to 
intentional contamination. Classified threat assessments done by CFSAN 
personnel have delineated the relative risks of contamination among 
different categories of food. New regulations currently under review 
include registration with the FDA of all domestic and foreign food-
related facilities with U.S. markets, and tighter regulations covering 
imported foods and food-origin record keeping.
    Under the 2002 legislation, the FDA likewise works with other 
Federal agencies to assure adequate supplies of therapies and vaccines 
that might be needed against bioterrorist attacks. Within the past 
year, the agency's Center for Drug Evaluation and Research (CDER) 
released evaluations of drugs for inhalation anthrax and called for 
scientific studies on new treatments for human plague. It also approved 
use of a drug to counter nerve gas poisoning among U.S. military 
personnel in combat and announced effective use of treatment for human 
contamination with radioactive substances.
    The FDA mission against terrorism depends on the ability to mount a 
rapid and effective response against a range of possible weapons and 
avenues of attack. Along with the requisite scientific efforts made 
throughout the agency, effective countermeasures also depend upon well-
coordinated cooperation with agencies at all Federal, State, and local 
levels, as well as advanced information-sharing systems. Concerned by 
the potential for bioterrorism, the ASM urges the Congress to place a 
high priority on significant funding for all branches of the FDA.

Consumer Product Safety
    To safeguard public health, the FDA has the primary responsibility 
for ensuring that safe and effective products reach the marketplace and 
that those products remain safe and effective. This includes synthetic 
drugs, biologics, blood for transfusion, vaccines, medical devices such 
as cardiac implants and hearing aids, cosmetics and more. Not only is 
the FDA responsible for approving the sale and/or use of these products 
in a timely manner, it must track unfortunate outcomes such as medical 
errors involving FDA-approved products and the development of 
antimicrobial-resistant microorganisms. All these efforts require the 
FDA to have expertise in knowledge management, information gathering 
systems, quantitative risk assessment and computer modeling, plus the 
capability to rapidly disseminate information to the public and the 
private sectors. Within this complex regulatory environment, the FDA is 
trying to streamline procedures while encouraging research on a broader 
range of specific diseases.
    Last year the FDA's approval of nearly 5,000 new drugs, biologics, 
medical devices and animal drugs represented an increase of almost 400 
new products over 2001. They included a new diphtheria-pertussis-
tetanus vaccine for children and a new drug to treat non-Hodgkins 
lymphoma. But there were few advances against certain serious diseases 
such as diabetes and obesity. In response to unmet needs, in January 
the FDA announced an initiative to improve the development and 
availability of innovative medical products, involving all of the 
agency's medical product review centers--i.e., biologics, drugs, 
devices, and veterinary medicine. It will shorten the amount of time 
for FDA review without diminishing standards, and facilitate new 
product development through better industry guidelines on specific 
diseases and technologies. The initiative also identified three key 
areas of emerging technology that will receive more FDA resources: 
pharmacogenomics/pharmacogenetics, cell and gene therapy, and novel 
drug delivery systems. As elsewhere in the FDA, academic, industry, and 
patient groups will be solicited as partners in the discovery process.

Medical Errors
    Despite evaluation and regulation of products, adverse events do 
occur. Medical errors related to drugs are estimated to cause from 
40,000 to 100,000 in-hospital deaths each year. An Institute of 
Medicine report estimates that these adverse events increase the 
nation's hospitalization bill by up to $17 billion annually, and that 
drug-related problems outside the hospital may add another $76-plus 
billion to the nation's health care costs. Each year the FDA's MedWatch 
program and CDER's adverse event report system receive more than 
250,000 reports associated with FDA-regulated drugs. CBER and the 
Centers for Disease Control and Prevention jointly manage the Vaccine 
Adverse Event Reporting System, another post-market surveillance 
system. The FDA and its centers are working nationally and 
internationally to reduce the incidence of these errors, through 
education of patients and health care professionals and in some cases 
withdrawal of the product from the marketplace.

Antibiotic Resistance
    The misuse of antimicrobial drugs has had other serious side-
effects of particular concern to the ASM membership--the emergence of 
disease-causing microorganisms resistant to the drugs traditionally 
used to treat infectious diseases. The CDC estimates that half of the 
100 million prescriptions written by U.S. physicians each year are 
unnecessary, a practice that inevitably increases the numbers of 
resistant bacteria. About 70 percent of bacteria that cause infections 
in hospitals are now resistant to at least one of the drugs most 
commonly used to treat those infections. A Harvard study just published 
concludes that there likely will be a sharp rise in the strains of 
Streptococcus pneumoniae resistant to both penicillin and erythromycin. 
The FDA, concerned about the waning usefulness of traditional drugs, 
announced this February new drug labeling directed at physicians and 
designed to reduce antimicrobial prescriptions.

Food Safety
    Although foodborne illness still accounts for about 76 million 
illnesses in this country, the U.S. food supply is among the safest in 
the world. The FDA's Center for Food Safety and Applied Nutrition 
(CFSAN) is responsible for safeguarding 80 percent of all food consumed 
(the Department of Agriculture regulates meat, poultry, and some egg 
products). The Center and the FDA field inspectors are responsible for 
$240 billion worth of domestic food, $15 billion worth of imported 
foods, and $15 billion worth of cosmetics. Products are inspected for 
microbial and chemical contamination and for false labeling, while 
increasingly more production facilities are examined for FDA-developed 
Hazard Analysis and Critical Control Point protocols. The FDA's 
stewardship of food safety has emerged as a major component of the war 
against terrorism.
    Like all other groups within the FDA, the CFSAN has a tremendous 
responsibility of impressive scope, yet it strives to make science-
based decisions and policies and to disseminate accurate and timely 
information. Not only does the FDA succeed admirably in its efforts to 
protect the American public, but, it is respected internationally for 
its global influence. The ASM urges the Congress to appropriate an 
aggressive FDA budget and thus continue the robust and highly diverse 
ways in which the FDA preserves public health and national security.
                                 ______
                                 

 Prepared Statement of the American Society of Plant Biologists (ASPB)

    The American Society of Plant Biologists (ASPB), representing 
nearly 6,000 plant scientists, appreciates this opportunity to submit 
comments to the Subcommittee for its consideration of fiscal year 2004 
appropriations for research sponsored by the Department of Agriculture.
    Support by the Subcommittee for the National Research Initiative 
Competitive Grants Program (NRI) and the Agricultural Research Service 
(ARS) contributes to important advances in fundamental and applied 
research in agriculture.
    ASPB greatly appreciates the tremendous successful effort by the 
Subcommittee to increase support for the NRI by some 38 percent to $166 
million for fiscal year 2003! We urge the Subcommittee to continue to 
place an emphasis on core areas of plant research sponsored by the NRI, 
including plant biochemistry, genetic mechanisms, growth and 
development, plant response to the environment, genomic research and 
invasive plants. Advances in these areas of research will make a major 
contribution to increased crop production by America's farmers.
    The National Research Council Board on Agriculture and Natural 
Resources Committee report on the NRI in 2000 strongly endorsed support 
for this competitive grants program. The NRC committee ``found the NRI 
to have financed high-quality scientific work within congressional 
guidelines. . . . The committee reiterates the extraordinary importance 
of public merit-based peer-reviewed research in food, fiber and natural 
resources. In the committee's opinion, past public research and current 
private activities cannot meet the needs that are being created by 
population growth, climate change and natural resource deterioration or 
the challenges related to food safety and nutrition and to the growing 
convergence of foods and medical research.''
    The NRC committee recommended that a major emphasis of the NRI 
continue to be the support of high-risk research with potential long-
term payoffs. Much of this research would be classified as fundamental 
in the traditional use of this term.
    A major conclusion of the NRC committee was that, ``Without a 
dramatically enhanced commitment to merit-based peer-reviewed, food, 
fiber and natural resources research, the nation places itself at 
risk.'' Continued support for a balanced research portfolio in the 
Department including intramural and extramural research is needed to 
address the many and sometimes devastating problems farmers face in 
growing crops. ARS continues to address very effectively many important 
research questions for American agriculture, including many that are 
national in scope and best addressed by a Federal agency. American 
farmers and consumers are well-served by the large number of successful 
research efforts of ARS scientists.
    In addition to the direct benefits to farmers and consumers that 
result from the leading research discoveries sponsored by the NRI and 
ARS, increased support for these programs will help maintain the 
strength and vigor of the nation's agricultural research community.
    Helping American farmers meet the food production needs of the 
nation's 290 million people and millions more overseas places huge 
demands on the research community. With more former farmlands sprouting 
townhouses, and other non-agricultural development, there are increased 
demands on the research community to help boost crop yields per acre. 
At the same time, the research community is called upon to find more 
environmentally benign approaches to increase yields. We believe that 
these goals of producing higher crop yields on the same or less acreage 
in a manner that is friendlier to the environment could be met with 
increased emphasis on support for ARS-and NRI-sponsored plant research.
    For example, research sponsored by the NRI and ARS is leading to 
plants engineered to tolerate higher levels of salinity. This will help 
farmers salvage more of their crops in dry seasons. Increased tolerance 
of future engineered plants to environmental stresses of cold and 
freezing will be a boon to growers. The Federal Government will 
experience savings in emergency spending for crop disasters--some 
disasters that will be avoided through use of new, enhanced plants.
    Much progress has been made in fighting plant diseases with crops 
engineered to resist pests. At the same time, the usage of harsh 
chemical pesticides has been reduced through the use of genetically 
engineered crops. Research sponsored by the NRI and ARS contributed 
knowledge leading to the development of these superior crops. Increased 
support for the NRI and ARS will lead to more varieties of enhanced 
crops resistant to devastating diseases.
    We urge the Subcommittee to increase support for the NRI and ARS in 
fiscal year 2004. As requested by the President, ASPB urges 
appropriating $200 million to the NRI in fiscal year 2004. We urge a 
significant increase for ARS over the fiscal year 2003 appropriation.
    Again, thank you for this opportunity to submit comments to the 
Subcommittee. We deeply appreciate the Subcommittee's leadership in 
support of plant research, which has been essential to producing and 
securing the nation's food supply.
                                 ______
                                 

  Prepared Statement of the Association of State Dam Safety Officials

    Dear Chairman Bennett and Members of the Subcommittee: The 
Association of State Dam Safety Officials is pleased to offer this 
testimony on the President's proposed budget for the Department of 
Agriculture for fiscal year 2004, specifically in support of the 
Watershed Rehabilitation Program.
    The Association of State Dam Safety Officials is a national non-
profit organization of more than 2,000 state, federal and local dam 
safety professionals and private sector individuals dedicated to 
improving dam safety through research, education and communications. 
Our goal simply is to save lives, prevent damage to property and to 
maintain the benefits of dams by preventing dam failures. Several 
dramatic dam failures in the United States called attention to the 
catastrophic consequences of failures. The failure of the Federal Teton 
Dam in 1976 caused 14 deaths and over $1 billion in damages, and is a 
constant reminder of the potential consequences associated with dams 
and the obligations to assure that dams are properly constructed, 
operated and maintained.
    The Administration's proposed budget includes only $10 million in 
discretionary appropriations to fund rehabilitation of unsafe and 
seriously deficient dams that were originally constructed under USDA 
Watershed Programs. The Association of State Dam Safety Officials 
respectfully requests that this Subcommittee appropriate the full 
amount authorized by the 2002 Farm Bill, which includes $55 million in 
discretionary funds and $50 million in Commodity Credit Corporation 
(CCC) funding.

The Problem
    The United States Department of Agriculture (USDA) under 
authorities granted by Congress beginning in the 1940s provided 
technical and financial assistance to local sponsors and constructed 
small watershed dams. These dams, completed primarily under the 
authority of Public Law 534 and Public Law 566 provided important 
benefits including flood protection, municipal and rural water 
supplies, irrigation, recreation, water quality, sediment removal and 
habitat. The USDA, in partnership with these local sponsors constructed 
nearly 11,000 small watershed dams across the country in 47 states.
    Dams constructed under these USDA programs have provided local 
communities with years of critical service. They have provided flood 
protection for many homes and businesses, and the local transportation 
infrastructure. Many communities rely on watershed dams for drinking 
water and many farmers depend on those dams for necessary irrigation 
water to grow food and fiber.
    However, these dams are aging and many are starting to reach the 
end of their design life. Many watershed dams no longer are able to 
continue to provide the benefits that the local communities have 
counted on for so many years, such as the expected level of flood 
protection. Many dams are unable to continue to provide the same 
storage volume for drinking water; and many of them are so filed with 
sediment that they cannot provide water quality and sediment removal 
functions. More alarming is the recognition that as these dams continue 
to age and deteriorate they threaten the very same local communities 
that have relied on them for protection and for quality of life 
improvements. Approximately 450 small watershed dams will reach the end 
of their expected design life by 2005; and over 1,800 will reach their 
design life expectancy by 2010.
    The challenge is enormous, as the local sponsors cannot shoulder 
the entire burden alone. Without a fully funded Watershed 
Rehabilitation Program, the flood protection provided by these dams 
will be diminished, irrigation and drinking storage will be reduced and 
water quality will continue to decline. However, the most dramatic 
consequences from the aging and deterioration of these dams without 
their rehabilitation will undoubtedly be to increase the probability of 
a tragic failure. Dam failures cause lives to be lost, downstream 
property to be destroyed and damage to critical public infrastructure 
(roads, bridges, water treatment facilities). The cost of just one dam 
failure, measured in loss of life, property damage and clean up costs, 
could easily exceed the entire cost of the Watershed Rehabilitation 
authorization.
    Often, development, attracted by the benefits provided by the dam, 
have significantly altered the upstream watershed and increased runoff 
and sediment transport to the dam. In addition, it is very common to 
see major downstream development in the area below the dam, within the 
dam failure flood zone, which causes dam safety officials great 
concern, as the dams no longer meet minimum dam safety requirements. 
These development consequences are typically beyond the control of the 
local sponsoring organizations, yet they are responsible to compliance 
with the state dam safety standards.
    Many of the small watershed dams do not have Emergency Action 
Plans, essential for saving lives in the event of a dam failure. These 
plans provide for surveillance of the dam, notification of emergency 
management officials, evacuation plans, and most importantly the 
identity of the areas below the dam that would be flooded in the event 
of a dam failure. Without these plans, a local downstream community 
would have little chance of receiving adequate and timely warning in 
order to evacuate their homes and businesses. Critical to this plan is 
the completion of dam failure modeling to clearly map the downstream 
area flooded form a failure, often called the ``danger reach''. 
Rehabilitation funded under this program should include this, as part 
of the rehabilitation design and planning package. Considering the 
security threat alerts that so often include potential actions against 
dams, these plans are even more critical.

Examples
    Iowa has been well served by their 1,300 watershed dams, including 
500 in the Little Sioux River Basin. Currently, 65 of the watershed 
dams have exceeded their design life of 50 years and within five more 
years 100 more will exceed their design life. There are 92 project 
requests seeking assistance, which total nearly $10 million in 
rehabilitation costs. These 92 dams pose a risk to 180 people and $3.3 
million in downstream infrastructure.
    Local sponsors in Pennsylvania have submitted 22 requests for 
watershed rehabilitation projects. The total rehabilitation costs for 
these 22 dams is $2.4 million, yet these dams return $10.7 million in 
annual benefits; and leave 14,000 people and $414 million of 
infrastructure at risk from a failure.
    In Texas, there are nearly 2,000 USDA Watershed Dams that provide 
important irrigation water, critical flood protection and many other 
benefits. 65 watershed dams have already exceeded the 50-year design 
life, while another 340 more watershed dams will exceed their design 
life in just five years.
    There are currently requests from sponsors to rehabilitate 198 
watershed dams in Texas. These dams pose a threat to almost 20,000 
people living below them; and $87 million of public infrastructure is 
also risk. Yet, these 198 dams also provide $13 million in benefits 
each year to Texan constituents who continue to rely on them. The 
estimated costs to rehabilitate these 198 watershed dams are 
approximately $60 million.
    Georgia is another state that has benefited from these federal 
programs as there are 357 small watershed dams, with 128 current 
requests from local sponsors for assistance from USDA to conduct 
rehabilitation including extending the service life of the dams. There 
are nearly 6,000 people and over $1.5 billion of infrastructure at risk 
downstream from these dams. The annual benefits from these watershed 
dams are $17 million. The estimated rehabilitation costs for these 128 
dams is $86 million, which represents the largest identified need of 
any state in the country.
    Gwinett County, Georgia offers a dramatic example of changes in the 
watershed due to development beyond the control of the local sponsors. 
In the 1960's the population of Gwinett County was approximately 70,000 
and the dams were primarily constructed to provide protection for 
agricultural areas. Today, there are 650,000 residents in Gwinett 
County with several hundred living below these dams that no longer meet 
dam safety standards.
    In Missouri, there are 770 watershed dams with 189 requests for 
rehabilitation assistance to date. The estimate to rehabilitate these 
dams is just over $15 million. These dams provide $1.3 million in 
annual benefits and pose a risk to nearly $3 million of downstream 
infrastructure.
    Table 1 attached to this testimony lists, by state, the total 
number of USDA watershed dams currently identified as needing 
rehabilitation, the range of range of years the dams were constructed, 
the population and infrastructure at risk, the annual benefits derived 
from the dams and the estimated costs for rehabilitation.

Request
    Mr. Chairman and Members of this subcommittee, the Association of 
State Dam Safety Officials see this full funding of this program as 
critical to the safety of the nation's dams as well as the lives and 
property downstream. Identifying a funding source for rehabilitating 
and securing our country's dams is a major challenge. For the 11,000 
small watershed dams created through a highly successful program 
administered by the Federal government, Congress and the Administration 
should reconfirm their commitment to the structures and the American 
people who depend on the continuing benefits provided by these dams. 
These same people need to be secure that the dams the United States 
help them build will not fail or diminish their function.
    ASDSO asks that the Subcommittee view funding the Rehabilitation of 
Watershed Dams as a significant re-investment in the benefits of the 
program and an investment in the safety of these dams. Therefore, this 
association respectfully requests that this Subcommittee provide 
additional appropriations beyond the Administration's request to fully 
fund this critical program at the $105 million authorized level.
    Thank you Mr. Chairman and members of the Subcommittee for this 
opportunity to submit this testimony. We look forward to working with 
the Subcommittee and staff in any way to advance the safety of dams in 
the United States.

                        TABLE 1.--SUMMARY OF PROJECT SPONSOR REQUESTS--REHABILITATION OF AGING DAMS--NATIONAL SUMMARY APRIL 2001
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                              Annual
                                           Total number      Number of          Dam        Pop. at risk    Infrastr. at      benefits       Rehab cost
                  State                     of projects   rehab requests   construction     number est.     risk dollar      provided       dollar est
                                               dams                       range of years                       est.         dollar est.
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK......................................               0               0              to  ..............  ..............  ..............  ..............
AL......................................             105              64    1960 to 1955           3,805     $19,380,000      $5,634,000     $20,217,500
AR......................................             170              28    1954 to 1986             245       8,655,000       2,131,743      12,983,800
AZ......................................              25              22    1954 to 1988          75,560     178,330,000      28,440,000      51,000,000
CA......................................               3               1    1955 to 1955          10,000      25,000,000       3,000,000         500,000
CO......................................             144               9    1957 to 1982          55,580      70,000,000       3,743,000      11,900,000
CT......................................              31               2    1961 to 1988           1,000       3,000,000         150,000         200,000
DE......................................               0               0              to  ..............  ..............  ..............  ..............
FL......................................              10               0              to  ..............  ..............  ..............  ..............
GA......................................             357             128    1953 to 1993           5,931   1,583,258,241      17,465,239      86,287,500
HI......................................               4               0              to  ..............  ..............  ..............  ..............
IA......................................           1,325              92    1948 to 1984             180       3,311,000         551,000       9,838,000
ID......................................               3               1    1970 to 1970           5,000      10,000,000         675,000       2,000,000
IL......................................              64              10    1960 to 1975             840       2,050,000         106,900       1,977,300
IN......................................             110              14    1961 to 1973           1,101      38,150,000       1,344,460       4,400,000
KS......................................             809              62    1954 to 1989              39       4,051,700       1,820,100      13,869,700
KY......................................             200              22    1957 to 1975          12,100      16,700,000       2,902,800      11,700,000
LA......................................              35               0              to  ..............  ..............  ..............  ..............
MA......................................              29              15    1960 to 1982          61,108       3,300,000      12,175,000       3,300,000
MD......................................              16               0              to  ..............  ..............  ..............  ..............
ME......................................              16               3    1965 to 1975               0               0           6,000          30,000
MI......................................              13               0              to  ..............  ..............  ..............
MN......................................              44               5    1957 to 1963              18         380,000          29,000         430,000
MO......................................             770             189    1954 to 1982               0       2,829,825       1,299,810      15,170,000
MS......................................             578              57    1957 to 1995           1,953      18,355,000       3,764,600      11,430,000
MT......................................              16               7    1962 to 1975             365      21,000,000       2,465,900       1,520,000
NC......................................              98              54    1954 to 1992             688       1,337,520         717,300       7,748,125
ND......................................              48               2    1962 to 1979             250       5,500,000       1,200,000       1,350,000
NE......................................             723              98    1954 to 1997           1,401      15,937,000      10,327,691      11,081,000
NH......................................              24               0              to  ..............  ..............  ..............  ..............
NJ......................................              20               1    1962 to 1961              25          60,000          21,500         200,000
NM......................................              78              12    1975 to 1962           2,256     154,900,000       1,333,000       8,400,000
NV......................................               8               0              to  ..............  ..............  ..............  ..............
NY......................................              55              53    1955 to 1097          78,428       1,747,949       2,240,455       2,265,250
OH......................................              61              30    1955 to 1976             720      13,250,000       2,355,000       7,550,000
OK......................................           2,087              83    1949 to 1977           5,245      27,625,000       2,823,706      47,997,000
OR......................................               5               2    1967 to 1969             125       1,100,000       1,400,000         200,000
PA......................................              87              22    1960 to 1994          14,640     414,000,000      10,735,000       2,437,000
PR......................................               2               0              to  ..............  ..............  ..............  ..............
RI......................................               0               0              to  ..............  ..............  ..............  ..............
SC......................................              86              39    1960 to 1985          69,335      62,868,000       1,532,700       1,619,500
SD......................................              55               6    1960 to 1983               0         140,000         125,000         275,000
TN......................................             140               0              to  ..............  ..............  ..............  ..............
TX......................................           2,038             198    1948 to 1987          19,677      87,104,000      13,315,700      59,805,000
UT......................................              25               0              to  ..............  ..............  ..............  ..............
VA......................................             145              12    1956 to 1974           1,183      17,906,216         355,201      10,000,000
VT......................................               4               4    1968 to 1973             960      25,000,000         292,000         800,000
WA......................................               3               0              to  ..............  ..............  ..............  ..............
WI......................................              86               8    1956 to 1970             292       1,623,100         444,500       2,430,000
WV......................................             167              93    1954 to 1992          13,969      76,587,670       7,658,767      99,013,310
WY......................................              13               0              to  ..............  ..............  ..............  ..............
                                         ---------------------------------------------------------------------------------------------------------------
      National Totals...................          10,935           1,448    1948 to 1997         444,019   2,914,437,221     144,582,072     521,924,985
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 

Prepared Statement of the Bear Trust International, Boone and Crockett 
   Club, Bowhunting Preservation Alliance, Buckmasters American Deer 
    Foundation, Campfire Club of America, Congressional Sportsmen's 
  Foundation, Conservation Force, Foundation for North American Wild 
   Sheep, Houston Safari Club, International Association of Fish and 
     Wildlife Agencies, Izaak Walton League of America, Mule Deer 
   Foundation, National Rifle Association, National Shooting Sports 
Foundation, National Trappers Association, Pope and Young Club, Quality 
  Deer Management Association, Rocky Mountain Elk Foundation, Ruffed 
     Grouse Society, Safari Club International, Shikar Safari Club 
International, The Wildlife Society, Wildlife Management Institute, and 
                       Whitetails Unlimited, Inc.

    Dear Chairman Bennett and Sen. Kohl: We urge you to include 
adequate funding in the fiscal year 2004 federal budget to fully 
implement the National Plan to Assist States, Federal Agencies and 
Tribes in Managing Chronic Wasting Disease in Captive and Free Ranging 
Cervids. We specifically ask your subcommittee to appropriate $7.75 
million for agency programs within Department of the Interior and, 
further, $20.46 million for non-matching state and tribal grants to be 
administered either through USDA-Animal and Plant Health Inspection 
Service (APHIS) or the U.S. Fish and Wildlife Service (USFWS).
    Chronic Wasting Disease (CWD) is always fatal for deer and elk. It 
has been found in either captive or free-ranging wildlife in 12 states 
and 2 Canadian provinces. Left unmanaged, this disease has the 
potential to devastate local deer and elk populations. Moreover, 
improper management of CWD will stimulate a major economic loss for 
state agencies and private businesses that rely on hunting and wildlife 
associated tourism for their livelihood. According to the USFWS's 2001 
National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation, 10.9 million sportsmen and women spent 153 million days 
hunting big game in 2001. Collectively, they spent $10.1 billion to 
purchase necessary equipment and to cover trip-related costs. And 
within Colorado, the Division of Wildlife estimated that deer and elk 
hunters generated $599 million for the state's economy in 2001. 
Furthermore, the Division collected $44 million through deer and elk 
license sales, which represented 54 percent of the agency's $81.9 
million budget for 2001.
    In May 2002, the House Resources Subcommittees on Forests and 
Forest Health and Fisheries Conservation, Wildlife and Oceans held a 
joint oversight hearing on the CWD crisis. Invited witnesses were asked 
to provide suggestions as to how Congress and the federal government 
could most effectively assist states in the fight against CWD. 
Resultantly, the U.S. Department of Agriculture (USDA) and U.S. 
Department of the Interior (DOI) were directed to prepare a national 
plan to address CWD.
    A national CWD task force was quickly formed to ensure that federal 
and state agencies cooperated in the development and implementation of 
an effective national CWD strategy and program. Membership for the task 
force, and its associated working groups, totaled 75 professionals who 
were knowledgeable in wildlife health, wildlife management, wildlife 
biology and livestock health and represented a myriad of state and 
federal wildlife management and animal health agencies, as well as 
universities.
    On June 26, 2002 the task force released the National Plan to 
Assist States, Federal Agencies and Tribes in Managing Chronic Wasting 
Disease in Captive and Free Ranging Cervids, also known as the National 
CWD Plan. This plan represents the most current scientific knowledge on 
CWD, and delineates a strategy to identify the extent of the disease 
and management actions necessary to limit its spread. An Implementation 
Document was then developed to identify who will be responsible for 
individual projects, how these projects will help control CWD, how much 
money is necessary to implement the projects, and when each project 
should be completed. The Implementation Document, dated October 16, 
2002, was provided to Bobby Acord, Director of APHIS, and Steve 
Williams, Director of the U. S. Fish and Wildlife Service. It is our 
understanding that the document has since been provided to the Office 
of Management and Budget for review and analysis. Both documents are 
available at http://www.cwd-info.org/index.php/fuseaction/
policy.policy.
    According to the National CWD Plan, the primary federal role will 
be to provide coordination and assistance with research, surveillance, 
disease management, diagnostic testing, technology, communications, 
information dissemination, education and funding for state CWD 
programs. Federal agencies will provide tools and financial assistance 
to states and help develop consensus-based approaches to CWD control.
    The federal funding requirements identified in the Implementation 
Document total $108 million over a three year period. It is important 
to recognize that not all CWD funding has been or will be federal 
dollars. For example, it is estimated that the states of Colorado, 
Nebraska, and Wisconsin expended $3.6 million to combat CWD during 
2002. In Colorado, a portion of that money was used to cull 
approximately 450 mule deer and 200 elk, further evidence of the 
mounting need to protect the viability of wild and captive cervid 
populations.
    We are concerned that the collaborative science-based 
recommendations in the National CWD Plan and its associated 
Implementation Document have not been given due consideration during 
the development of the fiscal year 2004 budget. The Implementation 
Document recommends $13.6 million for USDA, $7.75 million for DOI and 
$20.46 million for state and tribal grants during the first year. 
However, the Administration only requested $14 million for USDA, of 
which only $7 million is for Plan activities. Moreover, DOI would 
receive $2.4 million under the Administration's request, less than half 
of what the Implementation Document's authors recommended, and the 
states would receive nothing. We believe this spending request is 
woefully inadequate to effectively implement the National CWD Plan.
    In summary, we urge you to include in the fiscal year 2004 federal 
budget the funding necessary to fully implement year one of the 
National CWD Plan. Both the DOI and the USDA Agriculture have been 
assisting states and tribes to the extent that their budgets permit; 
however, significant additional funding is needed to implement the 
actions and programs outlined in the National CWD Plan and its 
associated Implementation Document. Since the management of resident 
wildlife is the responsibility of the appropriate state wildlife 
agency, in addition to funding the CWD activities of both the DOI and 
USDA, the federal budget appropriation must provide funding that will 
be passed on to the states through a grant program that requires no 
match. The states have already spent millions of dollars on this issue 
and need federal funding assistance to continue the battle.
    Thank you for reviewing our comments, and we look forward to 
working with you on this important issue throughout the appropriations 
process.
                                 ______
                                 

          Prepared Statement of Bob Lawrence & Associates Inc.

    Mr. Chairman and Members of the Subcommittee: My name is Bob 
Lawrence, and I am President of Bob Lawrence & Associates, Inc., a 
consulting firm located in Alexandria, Virginia. With me today is Jim 
Goldwater, a Vice President with my firm. We are here today to request 
full funding of the Department of Agriculture's conservation programs, 
as authorized in last year's Farm Bill. These programs provide valuable 
assistance to farmers and ranchers striving to preserve and enhance 
both water quality and water quantity. Specifically, for the 
Environmental Quality Incentives Program (EQIP), we support the 
Department's request of $850 M. For the Ground & Surface Water 
Conservation Program, we request the Authorized level of $60 M, as 
opposed to the Budget Request of $51 M, and for the Conservation 
Security Program, we request the maximum allowed under the formula 
created in the new Farm Bill.
    Mr. Chairman, for the past 16 years, it has been the pleasure of 
our firm to provide consulting services to the modern, mechanized 
irrigation industry, and during those years, we have developed a deep 
admiration for the dedicated, ethical approach of this industry and the 
dramatic improvements that the industry has made to efficient water 
use, prevention of non-point source pollution through reductions in the 
application of chemicals, pesticides, and fertilizers, and significant 
increases in quality crop production. Similar improvements have 
occurred in the turf and landscape portions of the irrigation industry, 
resulting in the quality use of reclaimed water, increases in water use 
efficiency, such as irrigation scheduling, and efficient application 
resulting in chemical reductions. The reductions in water use as well 
as water waste offer the additional benefit of helping to minimize 
future droughts. For these reasons, we commend the United States 
Congress for its vision and leadership by including important 
irrigation provisions in the landmark Conservation title in last year's 
Farm Bill, and for ensuring that improvements in the use of 
agricultural irrigation are eligible for assistance under these 
Conservation programs. A brief description of each program follows:
    EQIP.--The Environmental Quality Incentives Program provides 
incentive assistance to ranchers and farmers to install, maintain, or 
upgrade conservation measures (including water quality enhancement, 
erosion control, and enhanced irrigation management) on more than 17 
million acres of agricultural land. Funds are split between livestock 
(60 percent) and crop producers (40 percent).
    The Ground and Surface Water Conservation Program, which falls 
under the EQIP umbrella, provides cost-shared, low-interest loans, and 
incentive payments to encourage ground and surface water conservation. 
Under the Farm Bill conference agreement, water conservation activities 
that are eligible for incentive payments and cost-share include ``low-
energy precision irrigation systems, low-flow irrigation systems . . . 
and conversion from gravity or flood irrigation to higher efficiency 
systems.'' The agreement also authorizes assistance ``to improve 
irrigation systems and to enhance irrigation efficiencies,'' language 
which we proposed. Assistance is also authorized to ``mitigate the 
effects of drought.'' Clearly, this program is timely and addresses the 
heart of present, national, farm problems.
    The Conservation Security Program.--This new program was created to 
assist agricultural producers to maintain or adopt conservation 
practices on private agricultural land. It is intended to help the 
producers implement programs to address resource problems, including 
soil, air, water, plant and animal, and energy conservation. 
Specifically defined practices include ``water conservation (including 
through irrigation) and water quality management.''
    During consideration of the Farm Bill in the last Congress, the 
domestic irrigation industry which we represented justified greater 
national acceptance of and commitment to efficient irrigation 
technology in a number of ways. These included the following:
  --In the United States, streams, lakes, and aquifers hold 75 percent 
        of our fresh water. According to the U.S. Geological Survey, of 
        the remaining 25 percent, agriculture uses about 80 percent.
  --Since agriculture accounts for most of the country's daily water 
        consumption, solutions for both water quality and quantity 
        problems are likely to involve agriculture.
  --Conservation and improved efficiency offer the greatest 
        opportunities for helping to address water resource protection.
  --According to the Farm and Ranch Irrigation Survey, pressurized 
        irrigation is substantially more efficient than gravity (flood) 
        systems. For example, on virtually the same amount of 
        agricultural land, pressurized irrigation used just 37 percent 
        of the water used for agricultural purposes, while flood 
        accounted for 63 percent.
  --Irrigated acres account for only 15 percent of U.S. farmland but 
        produce 38 percent of farm revenue, according to the National 
        Research Council.
  --Sound water management practices, including the deployment of 
        modern irrigation technology, can help preserve limited water 
        supplies during incidents of drought.
  --The National Oceanic and Atmospheric Administration has estimated 
        that drought causes annual economic losses of $6-8 billion, 
        more than the losses caused by floods or hurricanes.
  --The reduction in the amount of water applied each year by 
        agriculture adopting more efficient technology practices equals 
        the water needed for the annual personal use of every man, 
        woman, and child in the nation's 29 largest cities.
  --Control of nonpoint source pollution, particularly that caused by 
        agricultural activities including animal waste production, is a 
        preeminent water quality concern, since runoff from farming and 
        urban areas causes over 50 percent of the nation's nonpoint 
        source pollution.
  --The development and deployment of more efficient irrigation 
        technologies can substantially enhance water quality by 
        preventing erosion of top soil and reducing nonpoint source 
        pollution through such means as limiting the amounts of 
        pesticides, chemicals, and fertilizers applied. Greater 
        utilization of efficient irrigation will also contribute 
        significantly to the protection of watersheds, aquifers, and 
        other water sources.
  --Modern irrigation technology can also reduce the amount of water 
        lost through inefficient or outdated systems. It allows the 
        agriculture, turf and landscape, and golf course industries to 
        apply water more efficiently, taking into consideration time of 
        day, local topography and soil conditions, the size and 
        configuration of the area requiring irrigation, and weather. 
        Proper irrigation system scheduling minimizes and can even 
        eliminate wasteful application by considering such factors as 
        natural rainfall and saturated soils.
  --Landscaping can increase residential property values by 7 percent 
        and add as much as 15 percent to the selling price of a home.
    In Conclusion, Mr. Chairman, let us reaffirm that the many benefits 
offered by modern irrigation technology can help us address a variety 
of problems faced by the agricultural community--indeed, the entire 
country--today. The Conservation programs listed above, and the 
incentives provided by these programs, will enable many, many farmers 
and ranchers to implement critical and timely solutions, thereby 
strengthening our agricultural community and improving our air and 
water environments.
    We thank you for the opportunity to present this testimony.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
 California Ozone Study Coalition on behalf of the California Industry 
and Government Central California Ozone Study Coalition we are pleased 
 to submit this statement for the record in support of our fiscal year 
2004 funding request of $500,000 for CSREES for the Central California 
                           Ozone Study (CCOS)

    Most of central California does not attain Federal health-based 
standards for ozone and particulate matter. The San Joaquin Valley is 
developing new State Implementation Plans (SIPs) for the Federal ozone 
and particulate matter standards in the 2002 to 2004 timeframe. The San 
Francisco Bay Area has committed to update their ozone SIP in 2004 
based on new technical data, and the Sacramento area also plans to re-
evaluate their ozone SIP in that timeframe. In addition, none of these 
areas attain the new Federal 8-hour ozone standard. SIPs for the 8-hour 
standard will be due in the 2007 timeframe--and must include an 
evaluation of the impact of transported air pollution on downwind areas 
such as the Mountain Counties. Photochemical air quality modeling will 
be necessary to prepare SIPs that are approvable by the U.S. 
Environmental Protection Agency.
    The Central California Ozone Study (CCOS) is designed to enable 
central California to meet Clean Air Act requirements for ozone SIPs as 
well as advance fundamental science for use nationwide. The CCOS field 
measurement program was conducted during the summer of 2000 in 
conjunction with the California Regional PM<INF>10</INF>/
PM<INF>2.5</INF> Air Quality Study (CRPAQS), a major study of the 
origin, nature and extent of excessive levels of fine particles in 
central California. CCOS includes an ozone field study, a deposition 
study, data analysis, evaluations of model performance, and a 
retrospective look at previous SIP modeling. The CCOS study area 
extends over central and most of northern California. The goal of the 
CCOS is to better understand the nature of the ozone problem across the 
region, providing a strong scientific foundation for preparing the next 
round of State and Federal attainment plans. The study includes six 
main components, some of which have been completed:
  --Developed the design of the field study.
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000.
  --Developing an emission inventory to support modeling.
  --Developing and evaluating a photochemical model for the region.
  --Designing and conducting a deposition field study.
  --Evaluating emission control strategies for the next ozone 
        attainment plans.
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State and local governments, as well 
as private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and currently manage the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study, are landmark 
examples of collaborative environmental management. The proven methods 
and established teamwork provide a solid foundation for CCOS. The 
sponsors of CCOS, representing state, local government and industry, 
have contributed approximately $9.1 million for the field study. The 
Federal Government contributed $3,730,000 for some data analysis and 
modeling. In addition, CCOS sponsors are providing $2 million of in-
kind support. The Policy Committee is seeking Federal co-funding of an 
additional $6.25 million to complete the remaining data analysis and 
modeling portions of the study and for a future deposition study. 
California is an ideal natural laboratory for studies that address 
Federal, agriculture-related issues, given the scale and diversity of 
the various ground surfaces in the region (crops, woodlands, forests, 
urban and suburban areas).
    For fiscal year 2004, our Coalition is seeking funding of $500,000 
through the U.S. Department of Agriculture (USDA) Cooperative State 
Research, Education, and Extension Service (CSREES). Domestic 
agriculture is facing increasing international competition. Costs of 
production and processing are becoming increasingly more critical. The 
identification of cost-effective options for addressing environmental 
options affecting agricultural costs will contribute significantly to 
the long-term health and economic stability of local agriculture. A 
CSREES grant is needed to address the issue of crop ozone adsorption, 
soil NO<INF>X</INF> emissions, smoke particulate dispersion and 
deposition, alternatives to open burning. Particulate dispersion is 
managed in order to minimize smoke impacts and avoid violations of 
ambient air quality standards. The air quality impacts of particulate 
dispersion and alternatives to burning need to be addressed. CCOS will 
improve the ability to assess the impacts of smoke particulate 
dispersion. A CSREES grant is also needed to better understand the 
potential air quality benefits of crop ozone adsorption in the air 
quality modeling inventory. Recent studies have shown that crop ozone 
adsorption can have significant beneficial impact impacts on ozone 
formation.
    There is a national need to address data gaps and California should 
not bear the entire cost of addressing these gaps. National data gaps 
include issues relating to the integration of particulate matter and 
ozone control strategies. The CCOS field study took place concurrently 
with the California Regional Particulate Matter Air Quality Study--
previously jointly funded through Federal, State, local and private 
sector funds. Thus, CCOS was timed to enable leveraging the efforts of 
the particulate matter study. Some equipment and personnel served dual 
functions to reduce the net cost. From a technical standpoint, carrying 
out both studies concurrently was a unique opportunity to address the 
integration of particulate matter and ozone control efforts. CCOS was 
also cost-effective since it builds on other successful efforts 
including the 1990 San Joaquin Valley Ozone Study. Federal assistance 
is needed to effectively address these issues and CCOS provides a 
mechanism by which California pays half the cost of work that the 
Federal Government should pursue.
    We appreciate the Subcommittee's consideration of our request. 
Thank you very much.
                                 ______
                                 

 Prepared Statement of the Coalition on Funding Agricultural Research 
                           Missions (CoFARM)

    The Coalition on Funding Agricultural Research Missions (CoFARM), 
representing 130,000 members from scientific and professional 
organizations, is united by a commitment to advance and sustain 
investment in our nation's fundamental and applied agricultural 
research.
    We understand that the Agriculture Appropriations bill has many 
valuable and necessary components, and we applaud the efforts of the 
Senate Agriculture Appropriations Subcommittee which resulted in the 
National Research Initiative Competitive Grants Program (NRI) being 
funded at $166 million fiscal year 2003, an increase of nearly 40 
percent over fiscal year 2002! Below we have highlighted funding 
recommendations for the fiscal year 2004 appropriations cycle.
    By priority area our recommendations include:
    Recommendation 1.--CoFARM urges you to support the President's 
fiscal year 2003 proposal of $240 million for the NRI. A study 
conducted by USDA's Economic Research Service highlights the annual 
rate of return to publicly fund agricultural research at 35 percent. 
Therefore, increased funding of agriculture research would be 
beneficial to our U.S. economy. Our research programs should be viewed 
as an investment in the future, not an expense. Moreover, funding the 
NRI at $240 million would support the finding in the recent National 
Academies report, Frontiers in Agricultural Research, that total 
competitive grants should be substantially increased to and sustained 
at 20-30 percent of the total USDA research portfolio.
    Recommendation 2.--CoFARM requests that any new monies appropriated 
for the NRI, as in fiscal year 2003, allow the Secretary the discretion 
to apply up to 20 percent towards carrying out integrated research, 
extension and education competitive grants program under the same 
conditions and terms as those provided for in the fiscal year 2003 
spending bill. Multidisciplinary research efforts continue to have a 
promising future within all research communities, and agriculture does 
not differ from this trend.
    The NRI is a highly respected competitive grants program that funds 
the basic research necessary to improve crop and livestock production, 
and the processes that deliver quality food products from farm to table 
while protecting and enhancing the nation's environment and natural 
resources. Recent security threats facing America require new and 
expanded agricultural research to protect our nation's forests, water 
supplies, food processing and distribution network, and rural 
communities and insure the future security, safety and sustainability 
of America's food and fiber system. In order to address these 
challenges and maintain our position in an increasingly competitive 
world, we must maintain and continue to support research programs such 
as the NRI.
    Without ongoing research, our nation will be unable to meet the 
many current and new challenges facing our food production system from 
farm to table. Past investment in the NRI has allowed scientists 
engaged in research on agricultural systems to successfully achieve 
many breakthroughs which include:
  --NRI researchers have improved feeding standards and management 
        practices for livestock that reduce waste products and improve 
        nutrient management to protect our soil and water resources.
  --The USDA was the lead U.S. agency in the International Rice Genome 
        Sequencing Project, which led to the published initial 
        sequences for two varieties of rice (Science 296:32-35 (2002)).
  --NRI researchers have observed that pre-pregnant overweight or obese 
        women were associated with failure to initiate and sustain 
        lactation. They concluded that a reduction in the prolactin 
        response to suckling represents one biological mechanism that 
        could help to explain the early lactation failure observed in 
        overweight and obese women.
  --An NRI-funded studied conducted by agricultural economists at Texas 
        A&M addressed the influence of nutrition knowledge, food 
        beliefs, and dietary restraint on food choices.
  --The development of national disaster response plans by NRI 
        researchers working with the Department of Homeland Security.
    The future viability of our nation's production systems will depend 
on the investment in science we make today. Congress must enhance 
funding for competitive agricultural research to assure Americans of a 
safe and affordable food supply and to provide for the next generation 
of research scientists.
    As you lead the Congress in deliberation on funding levels for 
agricultural research, we urge you to support the President's proposal 
of $240 million for the NRI. Please consider CoFARM as a supportive 
resource in efforts to improve agricultural research capacity. We hope 
you will call on our membership and scientific expertise.
                                 ______
                                 

   Prepared Statement of the Coalition to Promote U.S. Agricultural 
                                Exports

    As members of the Coalition to Promote U.S. Agricultural Exports, 
we commend the Chairman and members of the Subcommittee for their 
interest and support of U.S. agriculture and express our appreciation 
for this opportunity to share our views.
    The Coalition to Promote U.S. Agricultural Exports is an ad hoc 
coalition of over 80 organizations, representing farmers and ranchers, 
fishermen and forest product producers, cooperatives, small businesses, 
regional trade organizations, and the State Departments of Agriculture 
(see attached). We believe the U.S. must continue to have in place 
policies and programs that help maintain the ability of American 
agriculture to compete effectively in a global marketplace still 
characterized by subsidized foreign competition.
    Farm income and agriculture's economic well-being depend heavily on 
exports, which account for one-third or more of domestic production, 
provide jobs for millions of Americans, and make a positive 
contribution to our nation's overall trade balance. In 2003, U.S. 
agriculture exports are projected to reach $57 billion, which is still 
below the high of roughly $60 billion that was achieved in 1996. This 
lower level of exports is caused by a combination of factors, including 
continued subsidized foreign competition and related artificial trade 
barriers. U.S. agriculture's trade surplus is also expected to be about 
$14 billion, down approximately 50 percent from 1996, with imports 
continuing at record levels.
    According to recent USDA information, the European Union (EU) 
currently spends $2 to $5 billion annually on agricultural export 
subsidies compared to less than $100 million by the United States. In 
other words, the United States is being outspent by a factor of 20 to 1 
or more by the EU alone with regard to the use of export subsidies. 
During 1998-99, (the most recent year for which data is available), the 
EU, the Cairns group, and other foreign competitors also devoted more 
than $1 billion on various activities to promote their exports of 
agricultural, forestry, and fishery products.
    According to USDA, spending by these competitor countries on market 
promotion increased by 50 percent over the 1995-98 time period, while 
U.S. spending remained flat. We have no reason to believe that this 
trend in spending by our competitors has changed since then. 
Furthermore, almost all of this increase has been directed to the high-
value and consumer-ready product trade.
    Information compiled by USDA also shows that such countries are 
spending over $100 million just to promote sales of their products in 
the United States. In other words, they are spending almost as much to 
promote their agricultural exports to the United States as the United 
States currently spends ($110 million) through the Market Access 
Program (MAP) to promote American-grown and produced products 
worldwide! In fiscal year 1999, the United States recorded its first 
agricultural trade deficit with the EU of $1 billion. In fiscal year 
2002, USDA reported that the trade deficit with the EU had grown to 
$2.2 billion, the largest agriculture deficit the United States runs 
with any market.
    Because market promotion is a permitted ``green box'' activity 
under World Trade Organization (WTO) rules, with no limit on public or 
producer funding, it is increasingly seen as a centerpiece of a winning 
strategy in the future trade battleground. Many competitor countries 
have announced ambitious trade goals and are shaping export programs to 
target promising growth markets and bring new companies into the export 
arena. European countries are expanding their promotional activities in 
Asia, Latin America, and Eastern Europe. Canada, Australia, New 
Zealand, and Brazil have also sharply bolstered their export promotion 
expenditures in recent years.
    As the EU and our other foreign competitors have made clear, they 
intend to continue to be aggressive in their export efforts. During 
consideration of the 2002 Farm Bill, Congress sought to bolster U.S. 
trade expansion efforts by approving an increase in funding for MAP and 
the Foreign Market Development (FMD) Cooperator Program, which will 
begin to reverse the decline in funding for these export programs that 
occurred over the last decade. For fiscal year 2004, the new Farm Bill 
authorizes funding for MAP at $125 million, and FMD is authorized at 
$34.5 million. The Coalition strongly supports both levels of funding 
for these important export programs.
    Both MAP and FMD are administered on a cost-share basis with 
farmers and other participants required to contribute up to 50 percent 
of their own resources. These programs are among the few tools 
specifically allowed under the Uruguay Round Agreement to help American 
agriculture and American workers remain competitive in a global 
marketplace still characterized by subsidized foreign competition. The 
over 70 U.S. agricultural groups that share in the costs of the MAP and 
FMD programs fully recognize the export benefits of market development 
activities. In fact, they have sharply increased their own 
contributions to both programs over the past decade while USDA funds 
have actually dropped. Since 1992, MAP participants have increased 
their contributions from 30 percent (30 cents for every dollar 
contributed from USDA) to almost 120 percent ($1.20 in industry funds 
for every USDA dollar). For FMD, the contribution rate has risen from 
76 percent to the current level of 120 percent. By any measure, such 
programs have been tremendously successful and extremely cost-effective 
in helping maintain and expand U.S. agricultural exports, protect 
American jobs, and strengthen farm income.
    For all these reasons, we want to emphasize again the need to help 
strengthen the ability of U.S. agriculture to compete effectively in 
the global marketplace. American agriculture is among the most 
competitive industries in the world, but it cannot and should not be 
expected to compete alone against the treasuries of foreign 
governments. As a nation, we can work to export our products, or we can 
export our jobs. USDA's export programs, such as MAP and FMD, are a key 
part of an overall trade strategy that is pro-growth, pro-trade and 
pro-job.
    Again, as members of the Coalition to Promote U.S. Agricultural 
Exports, we appreciate very much this opportunity to share our views 
and we ask that this statement be included in the official hearing 
record.
    Coalition to Promote U.S. Agricultural Exports (See Attached List)

Alaska Seafood Marketing Institute
American Forest and Paper Association
American Hardwood Export Council
American Meat Institute
American Peanut Council
American Quarter Horse Association
American Seed Trade Association
American Sheep Industry Association
American Soybean Association
Blue Diamond Growers
Calcot, Ltd.
California Agricultural Export Council
California Asparagus Commission
California Association of Winegrape Growers
California Canning Peach Association
California Cling Peach Board
California Dried Plum Board
California Fig Institute
California Kiwifruit Commission
California Plum Marketing Board
California Strawberry Commission
California Table Grape Commission
California Tomato Commission
California Walnut Commission
Cherry Marketing Institute
Chocolate Manufacturers Association
CoBank
Diamond of California
Florida Citrus Commission
Florida Citrus Mutual
Florida Citrus Packers Association
Florida Citrus Processors Association
Florida Department of Citrus
Food Export USA-Northeast
Georgia Poultry Federation
Ginseng Board of Wisconsin
Gulf Citrus Growers Association
Highlands County Citrus Growers Association, Inc.
Hop Growers of America
Indian River Citrus League
Kentucky Distillers Association
Land O'Lakes, Inc.
Mid-America International Agri-Trade Council
Mohair Council of America
National Association of State Departments ofAgriculture
National Association of Wheat Growers
National Barley Growers Association
National Cattlemen's Beef Association
National Chicken Council
National Confectioners Association
National Corn Growers Association
National Cotton Council
National Council of Farmer Cooperatives
National Dry Bean Council
National Grain Sorghum Producers
National Grange
National Grape Cooperative Association, Inc.
National Milk Producers Federation
National Pork Producers Council
National Potato Council
National Renderers Association
National Sunflower Association
National Turkey Federation
North American Millers' Association
Northwest Horticultural Council
Ocean Spray Cranberries, Inc.
Peace River Valley Citrus Growers Association
Pet Food Institute
Softwood Export Council
Southern Forest Products Association
Southern U.S. Trade Association
Sunkist Growers
Sun Maid Growers of California
Sunsweet Growers, Inc.
The Catfish Institute
The Popcorn Institute
Tree Top, Inc.
United Egg Association
United Egg Producers
United Fresh Fruit and Vegetable Association
USA Dry Pea and Lentil Council
USA Poultry & Egg Export Council
USA Rice Federation
U.S. Apple Association
U.S. Dairy Export Council
U.S. Hide, Skin & Leather Association
U.S. Livestock Genetics Export, Inc.
U.S. Meat Export Federation
U.S. Rice Producers Association
U.S. Wheat Associates
Valley Fig Growers
Vinifera Wine Growers Association
Washington Apple Commission
Welch's
Western Growers Association
Western Pistachio Association
Western U.S. Agricultural Trade Association
Wheat Export Trade Education Committee
WineAmerica (The National Association of American Wineries)
Winegrape Growers of America
Wine Institute
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    The Congress concluded that the Colorado River Basin Salinity 
Control Program should be implemented in the most cost-effective way, 
and realizing that agricultural on-farm strategies were some of the 
most cost-effective strategies authorized a program for the Department 
of Agriculture within the Colorado River Basin Salinity Control Act. 
With the enactment of the Federal Agriculture Improvement and Reform 
Act of 1996 (FAIRA), the Congress directed that the Salinity Control 
Program should be implemented as one of the components of the 
Environmental Quality Incentives Program (EQIP). Since the enactment of 
the Farm Security and Rural Investment Act (FSRIA) in 2002, there is, 
for the first time, an opportunity to adequately fund the Salinity 
Control Program within the EQIP.
    The Salinity Control Program, as set forth in the Colorado River 
Basin Salinity Control Act, is to benefit Lower Basin water users 
hundreds of miles downstream from salt sources in the Upper Basin. 
There are very significant economic damages caused by high salt levels 
in this water source. Agriculturalists in the Upper Basin where the 
salt must be controlled, however, don't first look to downstream water 
quality standards but realize local benefits. They submit cost-
effective proposals to the State Conservationists in Utah, Wyoming and 
Colorado and offer to cost share. The Colorado River Basin Salinity 
Control Act provides that the seven Colorado River Basin States will 
also cost share in this effort, providing 30 percent of the funding. 
This has brought together a remarkable partnership.
    After longstanding urgings from the states and directives from the 
Congress, the Department has concluded that this program is different 
than small watershed enhancement efforts common to the EQIP program. In 
this case, the watershed to be considered stretches more than 1,200 
miles from the river's headwater in the Rocky Mountains to the river's 
terminus in the Gulf of California in Mexico. The Department has now 
determined that this effort should receive a special fund designation 
and has appointed a coordinator for this multi-state effort.
    The NRCS has earmarked funds to be used for the Colorado River 
Basin Salinity Control Program and has designated this an area of 
special interest. The Forum appreciates the efforts of the subcommittee 
in this regard. In fiscal year 2002, there was earmarked about $10 
million. The states added about $4.3 million in up-front cost-sharing 
in fiscal year 2002 and local producers cost-share, it is estimated, 
about another $4.6 million. The plan for water quality control of the 
Colorado River was prepared by the Forum, adopted by the states, and 
approved by the EPA. In the water quality plan it is required that the 
USDA (federal) portion of the effort be funded at a level of at least 
$17.5 million. Hence, in fiscal year 2002 there was a shortfall in the 
minimum needed federal designated funds of about $7.5 million. State 
and local cost-sharing is triggered by the federal appropriation.
    The USDA indicates that more adequate funding in fiscal year 2003 
for the EQIP program will result in more funds being allocated for the 
salinity control program. Over the past few years, the NRCS has 
designated that 2.5 percent of the EQIP funds be allocated to Colorado 
River Salinity Control. The Forum believes this is the appropriate 
future level of funding as long as it does not drop below $17.5 
million. The Basin states have cost sharing dollars available to 
participate in on-farm salinity control efforts. The agricultural 
producers in the Upper Basin are waiting for their applications to be 
considered so that they might also cost share in the program.
    The Congress authorized in FSRIA that the EQIP program in fiscal 
year 2004 could be at the $1 billion level. The President has requested 
$850 million for financial assistance with the $150 million balance 
being used to partially fund the Farm Bill Technical Assistance 
Account. The Forum urges the Subcommittee to adequately fund the EQIP 
program so as to provide that at least 2.5 percent of the cost sharing 
and technical assistance funds be designated for the Colorado River 
Basin salinity control effort.

                                OVERVIEW

    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a Minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly enacted Clean Water Act. This testimony is in support of funding 
for the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress agreed and revised the Act in 1984. That revision, 
while keeping the Department of the Interior as lead coordinator for 
Colorado River Basin salinity control efforts, also gave new salinity 
control responsibilities to the Department of Agriculture. Congress has 
charged the Administration with implementing the most cost-effective 
program practicable (measured in dollars per ton of salt removed). It 
has been determined that the agricultural efforts are some of the most 
cost-effective opportunities.
    Since Congressional mandates of nearly three decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The Bureau of Reclamation has conducted studies on the economic impact 
of these salts. Reclamation recognizes that the damages to United 
States' water users alone are hundreds of millions of dollars per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with Congress to support the 
implementation of a program necessary to control the salinity of the 
river system. In close cooperation with the federal agencies and under 
requirements of the Clean Water Act, every three years the Forum 
prepares a formal report analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program necessary to keep the 
salinities at or below the levels measured in the river system in 1972 
so as to control damages to downstream users.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations measured at Imperial, and below Parker, and 
Hoover Dams in 1972 have been identified as the numeric criteria. The 
plan necessary for controlling salinity has been captioned the ``plan 
of implementation.'' The 2002 Review, Water Quality Standards for 
Salinity, Colorado River System, includes an updated plan of 
implementation. In order to eliminate the shortfall in salinity control 
resulting from inadequate federal funding for the last several years 
for USDA, the Forum has determined that implementation of the salinity 
control program needs to be accelerated. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, state and federal agencies 
involved are in agreement that damage from the higher salt levels in 
the water will be more widespread and very significant in the United 
States and Mexico.

              STATE COST-SHARING AND TECHNICAL ASSISTANCE

    The authorized cost sharing by the Basin states, as provided by 
FAIRA, was at first difficult to implement as attorneys for USDA 
concluded that the Basin states were authorized to cost share in the 
effort, but the Congress had not given USDA authority to receive the 
Basin states' funds. After almost a year of exploring every possible 
solution as to how the cost sharing was to occur, the states, in 
agreement with the Bureau of Reclamation, state officials in Utah, 
Colorado and Wyoming and with NRCS State Conservationists in Utah, 
Colorado and Wyoming, agreed upon a (parallel( salinity control program 
wherein the states' cost sharing funds are being contributed and used. 
We are now several years into that program and, at this moment in time, 
this solution to how cost sharing can be implemented appears to be 
satisfactory.
    With respect to the states' cost sharing funds, the Basin states 
felt that it was most essential that a portion of the program be 
associated with technical assistance and education activities in the 
field. Without this necessary support, there is no advanced planning, 
proposals are not well prepared, assertions in the proposals cannot be 
verified, implementation of contracts cannot be observed, and valuable 
partnering and education efforts cannot occur. Recognizing these 
values, the ``parallel'' state cost sharing program expends 40 percent 
of the funds available on these needed support activities. Initially, 
it was acknowledged that the federal portion of the salinity control 
program funded through EQIP was starved with respect to needed 
technical assistance and education support. The Forum is encouraged 
with a recent Administration acknowledgment that technical assistance 
must be better funded. The Forum urges this Subcommittee to appropriate 
$432 million as requested by the President for the Farm Bill Technical 
Assistance Account.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    Your support and leadership are needed in securing adequate funding 
for the U.S. Department of Agriculture with respect to it's on-farm 
Colorado River Basin Salinity Control Program for fiscal year 2004. 
This program has been carried out through the Colorado River Basin 
Salinity Control Act, since it was enacted by Congress in 1974. With 
the enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996, specific funding for salinity control projects in the 
Colorado River Basin were eliminated from the federal budget, and 
aggregated into the newly created Department of Agriculture 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP. Prior to FAIRA, the Department of Agriculture 
had specific line item funding for salinity control projects as high as 
$14.7 million, but in recent years funding made available through EQIP 
has averaged less than $5.5 million per year which is woefully 
inadequate to ensure that water quality standards in the Colorado 
River, with regard to salinity can be met. California's Colorado River 
water users are presently suffering economic damages in the hundreds of 
million of dollars per year due to the river's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the state agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River System. 
In this capacity, California along with the other six Colorado River 
Basin States through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria, 
in June 1975, for salinity concentrations in the River. These criteria 
were established to lessen the future damages in the Lower Basin States 
of Arizona, California, and Nevada, as well as assist the United States 
in delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International The Honorable Robert Bennett, Chairman 
April 4, 2003 Page 2 Boundary and Water Commission. The goal of the 
Colorado River Basin Salinity Control Program is to offset the effects 
of water resource development in the Colorado River basin after 1972 
rather than to reduce the salinity of the River below levels that were 
caused by natural variations in river flows or human activities prior 
to 1972. To maintain these levels, the salinity control program must 
remove 1,800,000 tons of salt loading from the River by the year 2020. 
In the Forum's last report entitled 2002 Review, Water Quality 
Standards for Salinity, Colorado River System (2002 Review) released in 
October 2002, the Forum found that additional salinity control measures 
in the order of 1,000,000 tons were necessary to meet the 
implementation plan. The plan for water quality control of the River 
has been adopted by the states, and approved by the Environmental 
Protection Agency. Since implementation of EQIP, federal allocations by 
the Department of Agriculture have not equaled the Forum's identified 
funding needs for the Department of Agriculture's portion of the 
program and thus its efforts have begun to lag behind. To date, the 
USDA has been successful in preventing 318,000 tons of salt from 
entering the River system, however, over 370,000 tons of potential salt 
reduction have been identified that can be controlled with Department 
of Agriculture EQIP funding. The Forum has presented testimony to 
Congress in which it has stated that the rate of implementation of the 
program beyond that which has been funded in the past is necessary.
    This testimony, in support of EQIP funding, has been prepared in 
advance of any Presidential or Congressional action on funding for the 
Farm Bill. The Colorado River Board is encouraged that with passage of 
the Farm Security and Rural Investment Act of 2002, the Commodity 
Credit Corporation (CCC) is authorized to borrow up to $1 billion for 
EQIP in fiscal year 2004. Of the amount to be appropriated for EQIP, 
the Colorado River Basin Salinity Control Forum, at its meeting in San 
Diego, California, in October 2002, recommended a funding level of 
$17.5 million for on-farm salinity control in the Colorado River Basin 
for fiscal year 2004 to maintain water quality consistent with the 
established standards. The Colorado River Board supports the 
recommendation of the Forum and urges this subcommittee to support the 
funding at the $1 billion level from the CCC in fiscal year 2004 for 
EQIP. The Colorado River Board also requests that this subcommittee 
advise the Administration that $17.5 million of these funds be 
designated for the Colorado River Basin Salinity Control Program. These 
federal dollars, if earmarked, would be augmented by state cost sharing 
of 30 percent with an additional 30 percent provided by the 
agricultural producer with whom the Department of Agriculture contracts 
for implementation of salinity control measures. The salinity control 
program has proven to be a very cost effective approach to help 
mitigate the impacts of higher salinity. Continued federal funding of 
the program is essential.
    In addition, the Colorado River Board recognizes that the federal 
government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2004 and in future 
fiscal years, the Congress provide funds to the Department of 
Agriculture to allow it to continue providing needed technical support 
to the producers for addressing salinity control in the Basin. The 
Honorable Robert Bennett, Chairman April 4, 2003 Page 3 The Colorado 
River is, and will continue to be, a major and vital water resource to 
the 17 million residents of southern California as well as throughout 
the Lower Colorado River Basin. As stated earlier, preservation of its 
quality through an effective salinity control program will avoid the 
additional economic damages to users of Colorado River water in 
California, Arizona, and Nevada.
    The Colorado River Board greatly appreciates your support of the 
federal/state Colorado River Basin Salinity Control Program and again 
asks for your assistance and leadership in securing adequate funding 
for this program.
                                 ______
                                 

   Prepared Statement of the Critical Mass Energy and Environmental 
    Program Public Citizen and the Government Accountability Project

    Chairman Bennett, Ranking Member Kohl and Members of the 
Subcommittee: On behalf of our two organizations, we welcome this 
opportunity to present our views on the fiscal year 2004 Agriculture, 
Rural Development, Food and Drug Administration and Related Agencies 
Appropriations Bill. Public Citizen is a non-profit consumer 
organization founded by Ralph Nader in 1971. Public Citizen represents 
150,000 members. The Government Accountability Project's mission is to 
protect the public interest by promoting government and corporate 
accountability through advancing occupational free speech and ethical 
conduct, defending whistleblowers, and empowering citizen activists. 
Founded in 1977, GAP is a non-profit, public interest organization and 
law firm.

USDA--Food Safety and Inspection Service (FSIS)
    We are adamantly opposed to the Administration's proposal to 
collect $122 million in user fees in order to recover the cost of 
providing inspection services beyond an approved eight-hour primary 
shift. We believe that such a proposal could compromise the 
effectiveness of FSIS inspectors. Furthermore, FSIS has already taken 
action to de-list foreign establishments that had been previously 
approved to export their meat and poultry products to the United States 
on the basis that inspection services were paid by the companies 
involved instead of by the foreign government. Implementation of the 
Administration's proposal would be hypocritical.
    Additionally, we are concerned that the current proposal to hire 80 
more FSIS inspectors will be inadequate to fill the current vacancies 
and to make up for previous years' cuts. We urge the subcommittee to 
request from the agency a full listing of all current position 
vacancies and the length of time the positions have been vacant. We 
recommend that at least 200 new line inspectors be hired this year.
    The alarming number and magnitude of the meat and poultry recalls 
that have occurred over the past year indicate that there are some 
serious problems with the implementation of the Hazard Analysis 
Critical Control Points (HAACP) program. We have been arguing for the 
past three years that HACCP has turned over too much of the authority 
to industry to police itself and has severely undercut the ability of 
FSIS inspection personnel to do their jobs. We have heard directly from 
inspection personnel who state that they are very confused over their 
roles in HAACP because of the conflicting instructions they receive 
from top level management within FSIS.
    More troubling is the fact that the economic well-being of 
companies is placed ahead of the public's welfare by the management of 
FSIS. In 2002, we were able to obtain instructions to FSIS inspectors 
assigned to a Kansas slaughter plant in which they were admonished that 
should they err on the side of public health and stop a slaughter line 
they would be held personally liable for their decision.
    We are also concerned about the lack of backing which FSIS 
inspectors receive from supervisors and USDA management when they 
discover food safety hazards in their assignments. In the ConAgra 
recall, information has surfaced that USDA knew of potential problems 
at the Greeley, Colorado plant as early as February 2002--some three 
months before the first recall notice went out. During that month, 
testing conducted by FSIS inspection personnel at the Montana Quality 
Foods and Processing plant located in Miles City, Montana and 
transmitted to the FSIS regional office in Minneapolis confirmed that 
the source of contaminated meat ground at Montana Quality Foods and 
Processing was the ConAgra plant in Greeley, Colorado. Working with 
John Munsell, the President of Montana Quality Foods and Processing, 
the inspection personnel tried to get FSIS upper level management to 
review food safety practices at the ConAgra plant. They were concerned 
that due to the large volume of product from this plant, inadequate 
practices could create a significant public health threat. Instead of 
applauding Mr. Munsell and the FSIS personnel for their investigative 
work, they have been maligned by top FSIS officials and have been told 
they had no authority to point the finger at ConAgra.
    The same can be said of the Wampler recall. A twenty-year veteran 
inspector, Vincent Erthal, had tried to warn his supervisors for 
several months of the unsanitary conditions at the Wampler plant 
located in Franconia, Pennsylvania. He even requested that FSIS take 
enforcement action against Wampler. His concerns went unheeded. This 
past fall, the largest recall in FSIS history was issued for possible 
Listeria monocytogenes contamination of product coming out of that 
plant. After much soul-searching, Mr. Erthal decided to come forward to 
reveal how his attempts to warn FSIS supervision of his concerns were 
thwarted. Again, instead of backing their own employee, USDA management 
has circled the wagons and launched a campaign to discredit Mr. Erthal.
    With all of the problems that FSIS has already experienced with 
their implementation of HAACP, the proposed fiscal year 2004 budget 
contains language that would expand the HACCP-Inspection Models Project 
(HIMP) in slaughter facilities. HIMP is still another attempt to weaken 
the authority of FSIS inspection personnel and turn that responsibility 
over to company personnel. In a December 17, 2001 report, the General 
Accounting Office documents glaring methodological deficiencies in the 
current pilot project that FSIS has been conducting. There has not been 
any evidence to show that those deficiencies have been addressed. 
Therefore, we would urge that this pilot project not go forward until 
reliable data is furnished upon which a proper evaluation can be made 
of the effectiveness of this program.
    While we applaud additional funds to support food safety education, 
we believe that the money will actually be used to promote irradiation. 
In her written remarks to the Subcommittee, Under Secretary for Food 
Safety Dr. Elsa Murano stated it was her intent to devote resources to 
educate the public about food irradiation. Her remarks also indicate 
that she will attempt to blur the definition of pasteurization to 
include irradiation in her education campaign.
    In focus groups conducted for FSIS in 2002, consumers in St. Louis, 
Missouri; Raleigh, North Carolina; and Philadelphia, Pennsylvania were 
asked whether they considered irradiation to be a form of 
pasteurization, and overwhelmingly consumers responded that making such 
an assertion would be misleading. Those findings corroborated findings 
from focus groups conducted for the Food and Drug Administration (FDA) 
in three different cities during the summer of 2001.
    Lastly, we are concerned about the recent revelations that FSIS 
still has not addressed problems identified by the USDA Inspector 
General regarding the agency's re-inspection program for imported meat 
and poultry products. In 2000, the USDA Inspector General in 2000 noted 
some 18 deficiencies in the FSIS re-inspection program. In her recent 
audit, the USDA Inspector General stated that FSIS had still not 
corrected 14 of those deficiencies--even though FSIS had agreed to do 
so three years ago. In light of the heightened concerns about the 
security of our food supply, this is unconscionable.

USDA--Food and Nutrition Service/Agricultural Marketing Service
    The Farm Security and Rural Investment Act of 2002 (the Farm Bill) 
contained a provision (section 4201 (l)) that directed the Secretary of 
Agriculture not to prohibit the use of approved food safety 
technologies in any commodity purchased by the USDA for various 
government-sponsored nutrition programs, including the National School 
Lunch and National Breakfast Programs. The USDA has decided to 
interpret this language to mean the lifting of the ban currently in 
place against the use of irradiation as an intervention for ground beef 
products purchased for these programs. And, it seems this is the only 
approved food safety technology they are pursuing.
    Section 4201 (l) never received any scrutiny by any congressional 
committee--in either the House or the Senate. It never received any 
floor debate--in either the House or the Senate. It was placed in the 
Senate version of the Farm Bill at the last minute as part of a 400-
page manager's amendment. The conferees on the Farm Bill never even 
discussed it in open session.
    On November 22, 2002, the USDA announced that it would solicit 
comments from the public on the implementation of Section 4201 (l) of 
the Farm Bill and specifically wanted comments on irradiation. The 
comments were collected by the Agricultural Marketing Service (AMS). 
The comment period ended on April 11, 2003. Of the comments posted on 
the AMS website on this subject by May 28, 2003, by a nearly 11 to 1 
margin, citizens have expressed their opposition to lifting the ban on 
irradiation--with hundreds of comments still left to be posted. 
Comments opposing such action have come from nearly all fifty states, 
while those supporting the technology have come primarily from those 
who have direct ties to the irradiation industry.
    In spite of this overwhelming opposition to permitting irradiation 
of food in the child nutrition programs, USDA announced on May 29, 2003 
its intent to lift the prohibition on irradiation as an intervention.
    In order to promote this technology, the Food and Nutrition Service 
(FNS) has funded an irradiation ``education'' program in three 
Minnesota school districts. The program is being administered by 
proponents of irradiation--with no access provided to opponents of the 
technology to present alternative views. In addition, the program is 
dominated by one irradiation company and its affiliates. In essence, 
FNS has funded a government-sponsored advertising campaign for one 
company.
    What makes this ``education'' program significant is the fact that 
the material used to promote irradiation in Minnesota will be used 
across the country in other school districts. We have learned that one 
of the Minnesota school districts recently dropped out of the program 
because the superintendent came to the conclusion that this issue 
properly belonged in the public health arena and should be not be 
debated at the school district level. Consequently, it seems that FNS 
has wasted $151,000 to fund an ``education'' program with incomplete 
results.
    We are opposed to irradiation because we are not certain of its 
safety. Recent research coming from Europe indicates that some 
chemicals formed when certain foods are irradiated may be harmful when 
consumed. The new studies call into question the long-held position of 
the FDA and the food industry that irradiated foods are generally safe 
for human consumption. The studies confirm research published in 1998 
and 2001 showing that concentrations of chemicals called 2-
alkylcyclobutanones (or 2-ACBs)--which are found only in irradiated 
foods--caused DNA damage in human cells.
    Among the new findings, 2-ACBs were shown to promote tumor 
development in rat colons. Also, scientists discovered that they could 
not adequately account for most of a dose of 2-ACBs fed to rats. While 
very small amounts of 2-ACBs were detected in their fat, most of the 
chemicals could not be recovered, implying that they are either stored 
in other parts of the body or transformed into other compounds. The 2-
ACBs are formed when foods that contain fat are irradiated, such as 
beef, chicken, eggs and certain fruits--all of which can legally be 
irradiated and sold to consumers.
    There is even less research into the long-term health effects 
experienced by children who are exposed to toxic chemicals in foods. 
Dr. William Au, a toxicologist at the Department of Preventive Medicine 
and Community Health, University of Texas Medical Branch in Galveston, 
has argued that the lack of understanding regarding the ill effects 
suffered by children who consume toxic chemicals in foods extends to 
``the toxicological risk with respect to eating irradiated food.''
    Implementing Section 4201 (l) of the Farm Bill will create the 
largest mass-feeding of irradiated food to children over an extended 
period of time ever in the history in the world.

Food and Drug Administration
    We are concerned about the lack of funding for the Food and Drug 
Administration (FDA) for import re-inspections. Even after the 
additional funding the agency received in fiscal year 2003 to hire more 
staff, the agency is only capable of re-inspecting a paltry 1.3 percent 
of imported food over which it has jurisdiction. This needs to be 
addressed with additional funding, with the goal of reaching at least 
the 20 percent re-inspection rate that USDA's FSIS is able to perform 
for imported meat and poultry products. Furthermore, FDA should be 
granted the same authority that FSIS currently possesses to inspect 
foreign establishments that can export their food to the United States.
    We are also concerned with the repeated attempts to weaken the 
labeling for irradiated foods. The FDA has visited this issue 
repeatedly since 1997--primarily at the direction of Congress. Each 
time, the FDA finds that consumers do not see eye-to-eye on this issue 
with the irradiation industry and their supporters in Congress. It 
seems that there are those who want to keep on trying until we get it 
wrong.
    In the conference committee report that accompanied the fiscal year 
2001 Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies Appropriations Act, the conferees stated:

    The conferees expect FDA to make final the regulations regarding 
labeling of irradiated foods by March 1, 2002, and report to the House 
and Senate Committees on Appropriations on the status by November 15, 
2000. This agreement changes the dates proposed for final regulations 
by the House of September 30, 2001, and by the Senate of October 30, 
2001.

    In its report to the Appropriations Committees, the FDA explained 
that it had published an Advanced Notice for Proposed Rulemaking (ANPR) 
in 1999 on food irradiation labeling as the agency was directed to do 
under the FDA Modernization Act conference committee report in 1997. In 
evaluating the comments that the agency received from the ANPR, FDA 
stated:

    The majority of these comments were letters that urged the agency 
to retain special labeling for irradiated foods but did not address the 
specific issues on which FDA requested comment. A preliminary analysis 
of the comments suggest no consensus about what alternative language 
for disclosure of irradiation processing would be truthful and not 
misleading. Because the public comments provided no clear direction for 
agency rulemaking, FDA believes that 1999 ANPR fulfills the Agency's 
obligations under the FDAMA Conference Report.

    The FDA went on to say in its report to Congress that it intended 
to impanel consumer focus groups to attempt to obtain further guidance 
on the labeling issue.
    During the summer of 2001, the FDA contracted with ORC Macro, a 
public opinion research firm, to organize six consumer focus groups. 
Two of these focus groups were held in Calverton, Maryland (suburban 
Washington, DC); two were held in Minneapolis, Minnesota; and two were 
held in Sacramento, California.
    In all of the focus groups, the moderator attempted to make a 
strong association between pasteurization and irradiation. This was 
significant since there have been some food irradiation proponents who 
have argued that a more appropriate term to describe irradiation on 
product labeling is either ``cold pasteurization'' or ``electronic 
pasteurization.''
    In a 2002 report to Congress, the FDA summarized the results of 
those focus groups:

    Most of the participants viewed alternate terms such as ``cold 
pasteurization'' and ``electronic pasteurization'' as misleading, 
because they appeared to conceal rather than disclose information about 
irradiated food products. Participants did not see the current 
disclosure labeling as a warning . . . Everyone agreed that irradiated 
foods should be labeled honestly. They indicated that the current FDA 
required statement is a straightforward way for labeling irradiated 
foods.

    Furthermore, in his 2002 testimony before the House Subcommittee on 
Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies Appropriations, Dr. Lester Crawford, Deputy 
Commissioner of the FDA stated: (W)hen we did focus groups at FDA on 
cold pasteurization, the general feeling of the average citizen was 
that this was kind of a ruse or a means to conceal the fact that the 
food had been irradiated. And so we are kind of back to square one. We 
don't have a good synonym for irradiation and we would like to have 
one. We don't want to mislead the public.
    The public has been very consistent on this issue--whether through 
the focus groups conducted for USDA or FDA or through comments 
solicited by FDA. There have already been too many resources devoted to 
this issue within FDA. The driving force ought to be what the consumers 
believe to be honest and straightforward labeling--not what some in 
industry think it ought to be. The FDA has a much more important 
mission to accomplish than devising ways to confuse and mislead 
consumers.
                                 ______
                                 

                   Prepared Statement of Easter Seals

    Easter Seals appreciates the opportunity to report on the notable 
accomplishments of the USDA Cooperative State Research, Education, and 
Extension Service (CSREES) AgrAbility Program and request that funding 
for the AgrAbility Program be increased to $4.6 million in fiscal year 
2004.
    The AgrAbility Program is an essential, unduplicated, hands-on 
resource for farmers, ranchers, and farmworkers with disabilities and 
their families. AgrAbility is the only USDA program dedicated 
exclusively to helping agricultural producers with disabilities. It 
demonstrates the value of public-private partnership by securing 
donations of funds, talent, and materials to magnify the impact of a 
modest federal investment. The fiscal year 2003 appropriation of $4.2 
million is funding 24 state projects.

                        DISABILITY & AGRICULTURE

    Agricultural production is one of the nation's most hazardous 
occupations. According to the National Institute on Occupational Safety 
and Health, each year, approximately 182,500 agricultural workers 
sustain disabling injuries, about 5 percent of which permanently impair 
their ability to perform essential farm tasks. Tens of thousands more 
become disabled as a result of non-farm injuries, illnesses, other 
health conditions, and the aging process. Nationwide, over 13 million 
Americans living in rural areas have a chronic or permanent disability. 
Hundreds of thousands of farmers, ranchers, and agricultural workers 
who have disabilities are a vital part of rural America and the 
agricultural workforce.
    The presence of a disability jeopardizes rural and agricultural 
futures for many of these individuals. Rural isolation, a tradition of 
self-reliance, and gaps in rural service delivery systems frequently 
prevent agricultural workers with disabilities from taking advantage of 
growing expertise in modifying farm operations, adapting equipment, 
promoting farmstead accessibility, and using assistive technologies to 
safely accommodate disability in agricultural and rural settings. Yet, 
with some assistance, the majority of disabled agricultural workers can 
continue to earn their livelihoods in agriculture and participate fully 
in rural community life.

                 AGRABILITY'S ROLE AND ACCOMPLISHMENTS

    The AgrAbility Program was established under the 1990 Farm Bill in 
response to the needs of farmers, ranchers, and farmworkers with 
disabilities. The Farm Bill authorizes the Secretary of Agriculture to 
make grants to Extension Services for conducting collaborative 
education and assistance programs for farmers with disabilities through 
state projects and related national training, technical assistance, and 
information dissemination. Easter Seals is proud to be a partner with 
the University of Wisconsin-Extension Cooperative Extension to provide 
the national training and technical assistance portion of the 
AgrAbility Program. Thousands of people in states with and without 
state AgrAbility projects are aided through this initiative.
    AgrAbility combines the expertise of the Extension Service and 
disability organization staffs to provide people with disabilities 
working in agriculture the specialized services that they need to 
safely accommodate their disabilities in everyday farm and ranch 
operations. AgrAbility received strong bipartisan support during the 
2002 reauthorization of the Farm Security and Investment Act of 2002, 
and was extended through fiscal year 2007. The $6 million authorization 
level for AgrAbility was continued.
    Under the statute, state and multi-state AgrAbility projects engage 
Extension Service agents, disability experts, rural professionals, and 
volunteers to offer an array of services, including: identifying and 
referring farmers with disabilities; providing on-the-farm technical 
assistance for agricultural workers on adapting and using farm 
equipment, buildings, and tools; restructuring farm operations; 
providing agriculture-based education to prevent further injury and 
disability; and, upgrading the skills of Extension Service agents and 
other rural professionals to better promote success in agricultural 
production for people with disabilities.
    In 2003, USDA received an allocation from Congress of $4.2 million. 
These funds are supporting 24 state projects, the national project, and 
USDA-CSREES administration of the Program. The state projects funded 
with fiscal 2003 money are California, Colorado, Delaware, Illinois, 
Indiana, Iowa, Kansas, Kentucky, Michigan, Minnesota, Mississippi, 
Missouri, Nebraska, New York, Oklahoma, Pennsylvania, South Dakota, 
Tennessee, Texas, Utah, Vermont (with New Hampshire), Virginia, West 
Virginia, and Wisconsin.
    AgrAbility provides customized assistance to farmers, ranchers, and 
farmworkers with disabilities and their families. The nature and degree 
of assistance depends on the individual's disability, needs, and 
agricultural operation.
    Between April 1991 and March 2002, AgrAbility Projects in 31 states 
along with the national project accomplished the following:
  --Provided assistance, including nearly 10,000 on-site visits, to 
        over 11,000 farmers, ranchers, farmworkers or their family 
        members affected by disability.
  --Educated over 200,000 agricultural, rehabilitation, and health 
        professionals on safely accommodating disability in 
        agriculture.
  --Recruited and trained more than 6,000 volunteers and peer 
        supporters to assist agricultural producers with disabilities 
        and their families.
  --Reached 9,500,000 people through more than 8,500 exhibits, 
        displays, and demonstrations to increase awareness of the 
        challenges affecting and resources available to people with 
        disabilities working in agriculture.
  --In 2000, the National AgrAbility technical assistance and education 
        grant was awarded to Easter Seals national headquarters and the 
        University of Wisconsin-Extension Cooperative Extension. This 
        new partnership is generating innovative and effective 
        activities at the national level that will have a significant 
        impact on the effectiveness of the state AgrAbility projects 
        and the lives of agricultural workers with disabilities.
    However, these numbers can never reflect the real difference that 
AgrAbility is making in people's lives. Jon Hagen of Waterville Iowa is 
a great example of this. Jon is a crop and dairy farmer who became 
paraplegic in 1998 as a result of an on the farm accident. AgrAbility 
has helped Jon return to farming and he can now provide a brighter 
future for his children. AgrAbility worked with Jon to add a lift to 
help him get in and out of his truck, add a sling lift to assist in 
getting in and out of his tractor, select an appropriate electric 
wheelchair for an agricultural environment, and to connect him with 
peer support that assisted him in transitioning to farming with a 
disability.

                    IMPACT OF CURRENT FUNDING LEVELS

    A funding floor of $150,000 per state was set in the 1990 Farm Bill 
to assure that the state programs were appropriately resourced to meet 
diverse, statewide agricultural accommodation needs. In the 2002 
reauthorization of the Farm Bill, the Committee reaffirmed a commitment 
to that funding floor of $150,000 per state. Because funding had not 
approached the $6 million authorized level prior to fiscal year 2002, 
however, state projects had only received on average slightly under 
$100,000 per state. The funding increase for AgrAbility in fiscal year 
2002 provided USDA with the ability to fund projects at the $150,000 
base level. Easter Seals strongly supports full funding of state 
projects to assure that they continue to be effective for farmers with 
disabilities.
    AgrAbility projects are underfunded relative to need and objective. 
At the current funding level, only a few staff can be hired to provide 
statewide education and assistance to farmers with disabilities, 
educate rural professionals, recruit volunteers, and work with rural 
businesses on disability-related issues. Rising demand for services and 
the great distances that must be traveled to reach farmers and ranchers 
severely strains even the most dedicated of AgrAbility's outstanding 
staff. Easter Seals fears that failure to invest adequately in this 
worthwhile program will ultimately cause it to falter.
    An additional consequence of limited funding is that in every grant 
cycle some states with existing AgrAbility programs and a demonstrated 
need for services are not renewed and are forced to discontinue 
services to farmers with disabilities in that state. These states often 
have difficulty obtaining the access to the limited public and private 
funding sources that the federal seed money granted them. More than a 
dozen states have sought AgrAbility funding without success. Each of 
these states can demonstrate significant unmet needs among farm and 
ranch families affected by disability that AgrAbility could potentially 
address.
    The fiscal year 2004 request of $4.6 million would allow USDA to 
(a) continue to fund states up to the $150,000 base level and add new 
projects in states currently unserved by AgrAbility or (b) increase the 
budgets of currently funded projects to allow much-needed expansion of 
existing services.

                            FUNDING REQUEST

    The need for AgrAbility services has never been greater, and its 
accomplishments to date are remarkable by any standard. Easter Seals is 
proud to contribute to the ongoing success of the USDA-CSREES 
AgrAbility Program. Please support the allocation of at least $4.6 
million for AgrAbility in fiscal year 2004 to ensure that this valuable 
public-private partnership continues to serve rural Americans with 
disabilities and their families. Thank you for this opportunity to 
share the successes and needs of the USDA AgrAbility Program.

                            GRANT DISCLOSURE

    Easter Seals receives the following federal grants:
  --Project ACTION, $3.0 million from the U.S. Department of 
        Transportation to help transit providers implement the 
        Americans with Disabilities Act (ADA) and to promote 
        transportation accessibility for people with disabilities;
  --AgrAbility, $290,554 from the U.S. Department of Agriculture to 
        promote success in agriculture for people with disabilities and 
        their families; and
    Eater Seals' state and local affiliated organizations, which are 
separately incorporated, receive funding from a variety of federal and 
state agencies to support their local programs. We do not, however, 
have specific information regarding their funding sources.
                                 ______
                                 

    Prepared Statement of the Federation of Animal Science Societies

    The Federation of Animal Science Societies (FASS) is the science-
based voice for animal agriculture, animal products and food systems. 
FASS represents over 8,500 livestock and poultry scientists in the 
United States who conduct research, teaching and extension programs in 
academia and industry. Member organizations of FASS are the American 
Dairy Science Association, the American Society of Animal Science and 
the Poultry Science Association.
    We applaud the efforts of the Senate Agriculture Appropriations 
Subcommittee, which resulted in the National Research Initiative (NRI) 
Competitive Grants Program being funded at $166 million for fiscal year 
2003, an increase of nearly 40 percent over fiscal year 2002! For 
fiscal year 2004, we ask for your continued support in the following 
areas.
    First, FASS urges you to support the President's fiscal year 2003 
proposal of $240 million for the NRI. The annual rate of return to 
publicly funded agriculture research is 35 percent, as reported in a 
recent study by the USDA's Economic Research Service. Therefore, 
increased funding of agriculture research would benefit our U.S. 
economy. Furthermore, funding the NRI at $240 million would support the 
recent finding in the National Academy of Sciences report ``Frontiers 
in Agricultural Research'' that total competitive grants should be 
substantially increased to, and sustained at, 20-30 percent of the 
total USDA research portfolio.
    We must maintain and continue to support research programs such as 
the NRI. The NRI is a highly respected, competitive grants program that 
funds research necessary to improve livestock and crop production, and 
the processes that deliver quality food products from farm to table 
while protecting and enhancing the nation's environment and natural 
resources. Recent security threats facing America require new and 
expanded agricultural research to protect our nation's food processing 
and distribution network, waters, forests and rural communities. 
Federal funding of this type of research is essential to insure the 
future security, safety and sustainability of America's food and fiber 
system.
    Second, FASS requests that any new monies appropriated for the NRI, 
as in 2003, would allow the Secretary the discretion to apply up to 20 
percent towards carrying out an integrated research, extension and 
education competitive grants program under the same conditions and 
terms as those provided for in the fiscal year 2003 spending bill. 
Multidisciplinary research efforts continue to have a promising future 
in providing new knowledge and solutions to many issues facing our food 
system.
    Third, FASS requests your support for animal genomics sequencing 
through the Agricultural Research Service (ARS) of $5 million. 
Furthermore, we request your support for the President's fiscal year 
2004 increase within the NRI targeted for animal genomics research of 
$10 million.
    FASS supports increased funding for animal genomics research. We 
applaud the USDA's leadership role in multi-agency collaborative 
efforts in the field of animal genomics. Increasing our understanding 
of farm animal genomics will enhance the future of animal agriculture. 
Animal genomics will lead the way for more nutritious, healthy, safe 
and affordable livestock products for a growing world population. 
Animal genomics research generates the most fundamental knowledge 
regarding the basic biology of the various agricultural animal species. 
Genomics research on the important food animal species will enable 
powerful applications in the future, including more effective and rapid 
genetic improvement program, more effective and efficient vaccines for 
disease resistance, and more nutritious animal food products. In 
addition, there is future potential to design animals to produce 
specific pharmaceuticals for human use, and which are more 
environmentally friendly. Both the ARS and NRI funding levels are 
important to take full advantage of the opportunities for USDA to 
collaborate with many partners.
    The future viability of our nation's food system, and indeed the 
health of all Americans, will depend on the investment in science we 
make today. Congress must enhance funding for agricultural research to 
assure Americans of a safe and affordable food supply and to provide 
for the next generation of research scientists.
    Mr. Bennett, we urge you to support the President's fiscal year 
2003 proposal of $240 million for the NRI and funding for animal 
genomics research of $5 million for ARS and $10 million targeted within 
the NRI. The livestock and poultry scientists of FASS seek to assist 
you in your efforts to improve agricultural research capacity. Please 
do not hesitate to contact us: Dr. Barbara P. Glenn, Executive Vice 
President-Scientific Liaison at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f290959e979c9cb29493819790dc9d8095">[email&#160;protected]</a>, 301-571-1875.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony. I would like to 
take a moment to briefly acquaint you with The Florida State 
University.
    Located in Tallahassee, the Capitol of Florida, FSU is a Carnegie 
doctoral/research-extensive university with rapidly growing research 
activities and programs. The University serves as a center for advanced 
graduate and professional studies, exemplary research, and top-quality 
undergraduate programs. Faculty members at FSU maintain a strong 
commitment to quality in teaching, to performance of research and 
creative activities, while retaining a strong commitment to public 
service for the State and Nation. Among the faculty are numerous 
recipients of national and international honors, including Nobel 
laureates, Pulitzer Prize winners, and members of the National Academy 
of Science. Our scientists and engineers do excellent research, have 
strong interdisciplinary interests, and often work closely with 
industrial partners in the commercialization of the results of their 
research. Having been designated as a Carnegie Research I University 
several years ago, The Florida State University had $147.9 million in 
research support this past year.
    One of our recent highlights is the fact that FSU has initiated a 
new medical school, the first in the U.S. in over two decades. Our 
emphasis is on training doctors as primary care physicians, with a 
particular focus on geriatric medicine--consistent with the 
demographics of our state.
    With a student body of 37,000, we attract students from every 
county in Florida, every state in the nation, and more than 100 foreign 
countries. The University is committed to high admission standards that 
ensure quality and diversity in its student body, which currently 
includes some 278 National Merit and National Achievement Scholars, as 
well as students with superior creative talent. At The Florida State 
University, we are very proud of our successes as well as our emerging 
reputation as one of the nation's top public universities.
    Mr. Chairman, let me tell you about a project we are pursuing this 
year through the U.S. Department of Agriculture.
    In fiscal year 2001, Congress passed the Federal Crop Insurance 
Act, which included funding of partnerships for Risk Management 
Development and Implementation. This legislation authorized the USDA, 
working with NOAA, to enter into partnerships for the purpose of 
increasing the availability of tools for crop loss mitigation. The 
partnerships give priority for producers of agricultural commodities 
for specialty crops and under-served agricultural commodities. Congress 
authorized the program through fiscal year 2008.
    The Federal Government, which sets crop insurance rates, needs to 
utilize new cost-effective ways to reduce risk by using modern ideas 
such as El Nino-La Nina climate variability; this would allow more 
appropriate and fair pricing of premiums for crop insurance. The 
Florida Climate Research Consortium, which consists of Florida State 
University, the University of Florida, and the University of Miami, has 
been at the forefront of this climate prediction work. The Consortium 
has worked in Florida and throughout the Southeastern U.S., with 
support from NOAA, to develop new methods to predict the consequences 
of climate variability. More recently, in actual real-life tests, these 
methods and data have been applied to the problem farmers raising 
specialty crops face relative to rainfall; the efforts have also 
tremendous implication for officials in their fight against forest 
fires. In both instances and with the support of Florida's Commissioner 
of Agriculture, use of these methods and their application to these 
challenges has been seen as successful and well received.
    In this consortium, Florida State University will provide the 
climate forecasts and risk reduction methodology. The University of 
Florida will provide crop models for predicting the climate variability 
effects on selected crops. The University of Miami will provide the 
economic modeling of the agricultural system. Each university will 
provide appropriate expert advice on interactions with farmers. In 
particular, the expertise of the Florida Agricultural Extension Service 
will be utilized. Additional collaborators will be added in fiscal year 
2004.
    FSU, on behalf of the FL Climate Consortium, is seeking $3.5M in 
fiscal year 2004 for this activity through the U.S. Department of 
Agriculture. Utilization of these tools and their application to 
agricultural problems in this project has the strong support of Florida 
Commissioner of Agriculture, Charles Bronson.
    Mr. Chairman, this is just one of the many exciting activities 
going on at Florida State University that will make important 
contributions to solving some key concerns our nation faces today. Your 
support would be appreciated, and, again, thank you for an opportunity 
to present these views for your consideration.
                                 ______
                                 

  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                                  Inc.

    Mr. Chairman, and Members of the Subcommittee, thank you for this 
opportunity to present our statement supporting funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency's flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville--is 
dedicated to supporting and promoting the Center's agricultural 
research, outreach, and educational mission.
    In keeping with the seriousness of the times, our testimony this 
year will address only two major themes. The first lays out a vision 
for a Center for Systematics--a vision for a partnership of excellence 
based in Beltsville in cooperation with the Smithsonian Institution's 
National Museum of Natural History and the University of Maryland.
    Our second theme addresses the urgent need to continue support for 
specific research areas mandated by the Congress in fiscal years 2001, 
2002, or 2003. These so-called add-ons attend to critical research 
needs that were recognized by this Subcommittee and others. We will 
list them with brief descriptions below.

Center for Systematics (The Oxford English Dictionary defines 
        Systematics as the branch of biology that deals with 
        interrelationships of different species and their 
        classification; systematic zoology, botany, etc.; taxonomy)
    Please consider for a moment these hypothetical scenarios from the 
draft report of a select committee assembled last November to evaluate 
the state and future of systematics at Beltsville.
    A pest is discovered in Iowa for the first time, devastating the 
corn and soybean crops. What is it? Where did it come from? How can it 
be eliminated?
    Bioterrorists are planning to introduce new pests that will destroy 
vegetable and fruit production in the United States. What organisms are 
most likely to be used? What strategies can be implemented to combat 
them? How can action agencies detect these organisms when they cross 
U.S. borders?
    An invasive species of weed new to science is found to be 
widespread in Florida; its impact is so severe that five endangered 
species have become extinct and 30 other once-widespread species are 
now on the endangered list and their future is bleak. What is the plant 
species? Who will give it a name and more importantly who will know 
about other related species? Where does it come from? Are there 
organisms that feed on this weed in its native land that could be used 
to reduce its impact in Florida?
    In each of these (hypothetical) cases, systematics provides the 
answers. But the field of systematics is in a serious crisis. Just at a 
time when these kinds of information and expertise are desperately 
needed, the community of systematists is diminishing at an alarming 
rate. Unless the trend can be reversed, the crisis in systematics will 
unfortunately mean a new crisis for the safety of U.S. agriculture, 
farmers, and the environment.
    The Executive Summary sums up the select committee's findings and 
recommendations in these words:
    ``The Beltsville Systematics Summit was convened in November of 
2002, with participation of national and international experts, to 
devise a plan to avert the looming crisis in U.S. agriculture. The plan 
is centered on the historically strong commitment of the Federal 
government to support systematics, and the concentration of 80 percent 
of that effort in the Beltsville Agricultural Research Center research 
programs. This report of the Systematics Summit states the case for 
urgent and immediate action to forestall the crisis. It provides a 
vision to assure that Beltsville Systematics programs are able to 
fulfill their Federal commitment to a strong systematics foundation for 
U.S. agriculture and agricultural research in the future. The long-term 
vision is that ``Beltsville systematics programs will be a powerful 
force affecting the security and productivity of U.S. agriculture. As 
national and global leaders, BARC systematists will create programs 
strategically and synergistically integrating Research, Collections, 
Communications Technology, and Training.''
    If a strong and immediate commitment to that vision is made, the 
outcomes will assure that
  --new knowledge on all agriculturally important organisms, both 
        beneficial and detrimental, accumulates rapidly and is made 
        quickly available for practical use;
  --collections are safely maintained, in perpetuity, in modern and 
        upgraded facilities;
  --collections-based information flows unimpeded between university, 
        Federal, and nongovernmental partners through constantly 
        evolving communication systems; and
  --a strong cadre of systematists to support Beltsville and 
        collaborators' programs exists as a result of long-term 
        strategic partnerships with other institutions to anticipate 
        and fulfill critical training needs.
    The culmination of the long-term vision is the development of a 
Center for Systematics of unparalleled excellence, nationally and 
internationally, that provides a cohesive and responsive base to United 
States and global agriculture needs.
    Lack of a strong commitment, or inability to provide adequate 
funding, will mean that the United States leaves its borders and its 
agricultural communities vulnerable to invasive species, emerging 
diseases and intentional destructive actions using agricultural 
biological agents. It will forego the opportunity to gain knowledge of 
organisms that can sustain U.S. agriculture before it is too late. 
Tomorrow's needs cannot continue to be met with current resources. 
Demands on BARC systematics programs can only be met through 
significant increases in funding to prepare for the future. A well-
designed plan to assure that is needed.
    This report of the Beltsville Systematics Summit lays the 
groundwork and provides a framework for that plan to be developed in 
collaboration with a consortium of partners critical to its success. 
BARC systematics programs provide the front line of defense to both 
protect and expand U.S. agriculture. Only by adequate funding to 
support the vision can the United States be secure in providing a safe 
and adequate food supply for its citizens and a healthy and sustainable 
agricultural enterprise for its producers.''

Congressionally Mandated Programs at BARC
    Animal Improvement Programs Laboratory.--This venerable Beltsville 
laboratory and its predecessors have contributed over a century of 
steady genetic progress to America's milk production industry. Its 
reach is worldwide, helping producers everywhere make better informed 
genetic decisions and promoting export of American germplasm and 
breeding stock.
    For many years America's dairy cows have steadily increased milk 
production at the rate of about 45 gallons per year. Approximately two-
thirds of those increases can be traced to genetic progress. Much of 
the credit for that success stems from the cooperative national and 
international genetic evaluation programs of BARC's award winning 
Animal Improvement Programs Laboratory. The future of dairy industry 
will be greatly influenced by the research of the Animal Improvement 
Programs Laboratory. In recent years, the Laboratory staff has 
decreased as inflation and salary increases have eaten away at 
operating funds. We recommend continued funding support for the 
Laboratory.
    Barley Health Foods Research.--Barley contains carbohydrates called 
beta-glucans that help control blood sugar and cholesterol. We 
recommend continued support for research to determine if barley-
containing foods may affect the risks of such chronic conditions as 
cardiovascular disease, diabetes, and obesity. This research is needed 
to assess the bioavailability and efficacy of food components found in 
barley and to identify foods, health practices, and attitudes 
associated with successful maintenance of weight loss.
    Biomineral Soil Amendments for Nematode Control.--Losses to soil 
nematodes cost farmers billions every year. The soybean cyst nematode 
alone can cut soybean yields by 10 percent, often more. Citrus and 
vegetable crops also are vulnerable to intensive nematode damage. 
Growers are squeezed by expanding nematode infestations, nematicide 
resistance, and de-registration of traditional nematicides because of 
environmental concerns. BARC in cooperation with industry and others is 
pursuing new, more effective approaches to nematode control. Promising 
research lines include using such re-cyclable soil amendment as animal 
wastes, composts, and mineral by-products. We recommend continuing the 
increased funding for these promising approaches.
    Foundry Sand By-Products Utilization.--Municipalities and 
industries generate vast quantities of by-products. By-products, such 
as foundry sand from the metal castings industry, have potential uses 
in agricultural and horticultural production processes. The Animal 
Manure and By-Products Laboratory will use the funding to identify 
beneficial new uses and assess risks to human health, safety, or the 
environment from using foundry sand in agriculture. A new soil 
scientist will be hired to support this work. We recommend continuation 
of this funding.
    Poultry Diseases.--The mission of the Parasite Biology, 
Epidemiology, and Systematics Laboratory is to reduce the economic 
costs of parasites in livestock and poultry. Coccidiosis causes the 
greatest economic loss to the meat chicken industry from disease. But 
traditional chemical controls are becoming ineffective; and new non-
chemical control methods are needed. New funding will be used to 
conduct functional genomics and proteomics analysis of coccidia to 
identify potential proteins that can be used in diagnostic tests and as 
targets for potential vaccine development. We recommend continuation of 
this funding.
    Biomedical Plant Materials.--There is a growing need for 
functionally active, protective molecules for human and animal 
pathogens. We need them at lower cost and without risk to humans, 
animals, or the environment. Such molecules include recombinant 
antibodies, vaccines, and enzymes. Also, we need non-contaminated, 
lower-cost, more reliable diagnostic reagents.
    In recent years, scientists have produced biomedical reagents from 
plants in the laboratory. The potential benefits are huge. For one 
example, replacing poultry vaccine injections with edible plant-
produced vaccines would substantially lower poultry production costs. 
Beltsville is uniquely equipped to develop necessary systems and to 
test their efficacy in cooperation with other ARS facilities working on 
livestock and poultry diseases. This is a cooperative project with the 
Biotechnology Foundation, Inc., in Philadelphia. We recommend 
continuation of this funding.
    National Germplasm Resources System.--This laboratory supports the 
national database that provides data storage and retrieval systems for 
collecting and disseminating germplasm information. It provides 
accurate taxonomy, transport, geographic, evaluation, inventory, and 
cooperator information for plant and animal germplasm holdings 
nationwide. This is an ARS mission-critical activity. We recommend 
continuation of funding.
    Bovine Genetics.--Somatic cell nuclear transfer (cloning) 
technology has tremendous biomedical and agricultural potential. Yet 
the frequency of successful births from cloning has been relatively 
low. Many pregnancies fail before completing gestation. New funding 
will support collaborative research by the Gene Evaluation and Mapping 
Laboratory and the University of Illinois aimed at improving cloning 
efficiency. A new Molecular Biologist is being hired to support this 
effort. We recommend continuation of this funding.
    IR-4: Registration of Minor Use Pesticides.--``Minor crops'' have 
great economic value, but are not among the top ten crops like corn and 
soybeans that provide huge markets for pesticide manufacturers. 
Manufacturers often do not see a large enough market to justify the 
expense of doing the research needed to register a pesticide for a 
``minor crop.'' Without the IR-4 program, growers would have fewer 
options for pest control. The Beltsville Environmental Quality 
Laboratory operates a minor crop pesticide residue laboratory. This lab 
vigorously enforces EPA-prescribed protocols for all experimental 
procedures, and prepares comprehensive final reports. New funds enhance 
the overall mission of the Agency's IR-4 program. We recommend that 
this funding be continued.
    Invasive Species Initiative.--Globalization has lowered trade 
barriers over much of the world. It also has contributed to the ease 
with which exotic organisms--or invasive species--enter U.S. habitats 
and environments. Invading pest species not only create ecological and 
economical problems, they also threaten biodiversity and the financial 
stability of U.S. agriculture. Once invaders become successful 
competitors in natural or agricultural ecosystems, producers must spend 
millions every year to combat them. Collateral damage, such as loss of 
native diversity, may not be evident for years. Moreover, exotic 
species represent a biosecurity risk through deliberate introduction 
into the United States.
    Beltsville laboratories are at the vanguard of invasive species 
research, covering prevention, detection, identification, and control. 
Invasive species research at BARC includes: insects and other 
arthropods, plants, pathogenic organisms, and parasitic diseases. 
Certain labs provide stand-by, 24-hour identification services for 
possible alien intruders. Others provide basic taxonomic information 
targeting preventive and control measures for use before or after 
invasive species have become established. Beltsville can point to many 
past successes in the battle against invasive species. Overall, 
Beltsville has the strongest invasive species programs in the nation. 
We strongly support this recommendation.
    Mr. Chairman, that concludes our statement. We are grateful for 
your past support of the BARC mission. We urge support for the Center 
for Systematics as it may come before the Subcommittee. We further 
recommend continuation of the Congressionally mandated research we have 
listed.
    Mr. Chairman, for the past several years our organization has 
submitted similar supporting testimony to this Subcommittee. As we 
prepare this year's testimony in the face of anxious times, we are at 
once mindful of and profoundly grateful for the freedom to petition 
Congress on matters that strike us as fundamental to the security and 
future of America's agricultural bounty.
    Lastly, we again thank you for the opportunity to present our 
testimony.
                                 ______
                                 

       Prepared Statement of the Grocery Manufacturers of America

    On behalf of the member companies of the Grocery Manufacturers of 
America (GMA), I appreciate the opportunity to submit testimony to the 
Senate Appropriations Subcommittee on Agriculture, Rural Development 
and Related Agencies. We ask that you support the Administration's 
request for funding for critical food safety functions at the Food and 
Drug Administration (FDA) and the Food Safety and Inspection Service 
(FSIS), as well as the proposed funding for nutrition activities at the 
Food and Nutrition Service (FNS).
    GMA is the world's largest association of food, beverage and 
consumer product companies. With U.S. sales of more than $460 billion, 
GMA members employ more than 2.5 million workers in all 50 states. The 
organization applies legal, scientific and political expertise from its 
member companies to vital food, nutrition and public policy issues 
affecting the industry. Led by a board of 42 Chief Executive Officers, 
GMA speaks for food and consumer product manufacturers and sales 
agencies at the state, federal and international levels on legislative 
and regulatory issues. The association also leads efforts to increase 
productivity, efficiency and growth in the food, beverage and consumer 
products industry.
    GMA particularly supports increased funding for the Center for Food 
Safety and Applied Nutrition (CFSAN), whose role is invaluable in 
ensuring the public that the United States continues to have the safest 
and most wholesome food supply in the world. The Center has played an 
integral role in continuing to enhance the safety and security of the 
food supply, particularly since the tragic September 11th terrorist 
attacks. The additional $20.5 million in the FDA's budget proposal for 
counter terrorism and food safety will continue the government's 
commitment to providing additional resources to further improve the 
agency's capabilities to ensure the safety of the food supply.
    Specifically, the proposed increase includes funds to develop and 
implement a food registration system authorized in the Public Health 
Security and Bioterrorism Preparedness and Response Act of 2002. GMA 
worked closely with Congress and the Administration throughout the 
legislative process and submitted pre-proposal comments to FDA on the 
four regulations that are in development. We have reviewed the draft 
proposals on prior notice of imported foods and facility registration, 
and recently filed additional comments highlighting some substantive 
concerns we have regarding the practical implementation of the final 
rules. We are awaiting the draft proposals on records maintenance and 
administrative detention, and will continue to work with FDA to ensure 
that the bioterrorism regulations will maintain the highest possible 
level of food safety without disrupting the U.S. food supply.
    In communication with this Committee for the past several years, we 
urged you to provide FDA with funds necessary to cover FDA's government 
cost-of-living increase; we reiterate that request for this 
appropriations cycle. This funding will provide cost-of-living 
adjustments as well as support to the additional staff hired in fiscal 
year 2002 for counterterrorism activities. Maintaining and adding 
appropriately skilled and trained technical staff is consistent with 
the expanding mission of FDA in this new climate.
    At USDA, we support the USDA/ARS nutrition monitoring program and 
ask the committee to continue to appropriate the funds necessary for 
this effort. The information gathered in this survey is invaluable to 
both the public and private sectors, and we ask for the committee's 
continued support.
    GMA also supports efforts at USDA to increase funding for capacity 
building at the Foreign Agricultural Service--particularly to increase 
U.S. employment opportunities in international organizations like the 
Food and Agriculture Organization of the United Nations (FAO). Bodies 
like the FAO are playing an increasingly influential role in the 
international regulatory and trade arena, and it is essential that the 
United States be adequately represented in order to ensure that 
science-based policies are reflected at the international level.
    GMA also supports USDA's budget request for nutrition and feeding 
programs, including the Women, Infants and Children (WIC) and the 
national school lunch programs. Increased funding for nutrition and 
obesity prevention programs for children and families will help improve 
the overall health and well-being of our nation.
    GMA also supports the record level of funding for USDA's food 
safety programs in the President's budget for fiscal year 2004, which 
includes an increase of $42 million for FSIS--a 23 percent increase in 
food safety activities since fiscal year 2000. However, GMA strongly 
opposes USDA's proposal for $122 million in controversial new user fees 
for inspections of meat and poultry plants, on top of the $102 million 
in existing fees. USDA plant inspections help prevent the spread of 
bacteria that can cause potentially fatal reactions. As a national 
health service, these inspections should be funded by general 
appropriations rather than user fees.
    We recognize that the confidence of the public in our food supply 
depends both on our industry's continuing commitment to safety and 
quality and on the ability of USDA and FDA to work with us to achieve 
this. We support FDA's mission to protect the public health, and we 
urge you to provide the funds necessary to do this. As always, if we 
may be of any assistance as you proceed with your work, please do not 
hesitate to contact me.
    Thank you for your consideration of our views.
                                 ______
                                 

     Prepared Statement of The Humane Society of the United States

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to the Agriculture, 
Rural Development, Food and Drug Administration, and Related Agencies 
Subcommittee on fiscal year 2004 funding items of great importance to 
The Humane Society of the United States and its more than 7 million 
supporters nationwide.

                   ENFORCEMENT OF ANIMAL WELFARE LAWS

    We are grateful for the Committee's outstanding support in fiscal 
year 2003 for improved enforcement by the U.S. Department of 
Agriculture of key animal welfare laws, and we urge you to ``hold the 
line'' in fiscal year 2004 so that this effort can be sustained. Your 
leadership is making a great difference in helping to protect the 
welfare of millions of animals across the country, including those at 
commercial breeding facilities, laboratories, zoos, circuses, airlines, 
and slaughterhouses. As you know, better enforcement will also benefit 
people by helping to prevent: (1) injuries to slaughterhouse workers 
from animals struggling in pain; (2) orchestrated dogfights and 
cockfights that often involve illegal gambling, drug traffic, and human 
violence; (3) the sale of unhealthy pets by commercial breeders 
commonly referred to as ``puppy mills''; (4) laboratory conditions that 
may impair the scientific integrity of animal based research; (5) risks 
of disease transmission from, and dangerous encounters with, wild 
animals in or during public exhibition; and (6) injuries and deaths of 
pets on commercial airline flights due to mishandling and exposure to 
adverse environmental conditions.
    For fiscal year 2004, we want to ensure that the important work 
made possible by the fiscal year 2003 budget is continued, that newly 
hired and trained inspectors will be able to stay on the job, and that 
resources will be used in the most effective ways possible to carry out 
these key laws. Specific areas of concern are as follows:

Office of Inspector General/$800,000 Increase for Animal Fighting 
        Enforcement
    In last year's Farm Bill, Congress enacted provisions that were 
overwhelmingly supported in both chambers to close loopholes in the 
Animal Welfare Act (AWA) regarding cockfighting and dogfighting. Since 
1976, when Congress first prohibited most interstate and foreign 
commerce of animals for fighting, USDA has pursued no cockfighting 
cases and only three dogfighting cases, despite rampant activity across 
the country. USDA has apparently received innumerable tips from 
informants and requests to assist with State and local prosecutions, 
but has routinely ignored or declined such requests. It is time for 
USDA to take seriously its responsibility to enforce the portion of the 
AWA dealing with animal fighting ventures. Dogfighting and cockfighting 
are barbaric activities in which animals are drugged to heighten their 
aggression and forced to keep fighting even after they've suffered 
grievous injuries, such as pierced lungs and gouged eyes. Animal 
fighting is almost always associated with illegal gambling, and also 
often involves illegal drug traffic and violence toward people. Dogs 
bred and trained to fight endanger public safety. Cockfighting has been 
linked with the recent outbreak of Exotic Newcastle Disease that has 
already destroyed many poultry flocks and cost taxpayers more than $40 
million for containment and compensation, with costs estimated to rise 
as high as $250-$500 million.
    Given the dangerous nature of animal fighting enforcement work, we 
believe that the department's chief law enforcement arm--the Office of 
Inspector General (OIG)--is best suited to lead this effort. We 
therefore respectfully request an increase of $800,000 for the OIG to 
focus on animal fighting cases and inclusion of bill language directing 
the Secretary to coordinate intelligence gathering, investigation, and 
prosecution of animal fighting cases, pursuant to Section 26 of the 
AWA, through the OIG, working with local and State law enforcement 
personnel to complement their efforts, and drawing on other Federal 
entities including the Attorney General, the Animal and Plant Health 
Inspection Services, and the Office of the General Counsel as needed.

Food Safety and Inspection Service/Humane Methods of Slaughter Act 
        (HMSA) Enforcement
    We greatly appreciate the inclusion of $5 million in the fiscal 
year 2003 bill to hire at least 50 inspectors whose sole responsibility 
will be to ensure that livestock are treated humanely and rendered 
unconscious before they are hung upside down, skinned, dismembered, 
scalded, or killed. Having these new inspectors focus on unloading, 
handling, stunning, and killing of animals will bring much-needed 
attention to slaughter plant practices that have had little oversight 
in recent years. We also appreciate your inclusion of language 
specifying that the ongoing activities of 17 District Veterinary 
Medical Specialists hired as a result of $1 million provided in the 
fiscal year 2001 Supplemental should be limited to HMSA enforcement 
rather than the various unrelated duties with which they had been 
charged. And we commend you for directing the General Accounting Office 
to review and report by July 1, 2003 on the scope and frequency of HMSA 
violations, with ``recommendations on the extent to which additional 
resources for inspection personnel, training, and other agency 
functions are needed to properly regulate slaughter facilities in the 
area of HMSA enforcement.''
    There are nearly 900 Federally inspected slaughter plants in the 
United States, handling millions of animals each day. In addition to 
requesting continued funds in fiscal year 2004 to sustain at least 50 
new inspectors and the 17 positions mentioned above, we hope you will 
give full consideration to any recommendations the GAO may have for 
enhancing enforcement of this important--and very basic--law. We also 
urge that limited resources not be diverted by FSIS to rewrite the 
regulations for this law. The existing HMSA regulations are clear and 
strong. The problem has been a lack of enforcement, not flawed humane 
handling standards. We would be very concerned about any attempt to 
provide more discretion or control to industry in determining HMSA 
compliance.

APHIS/Animal Welfare Enforcement
    Thanks to appropriations increases in the past four years, Congress 
has enabled USDA to begin to reverse a serious decline in the number of 
AWA compliance inspections. However, the President's fiscal year 2004 
budget proposal--which suggests $1.7 million less for the Animal Care 
division than in fiscal year 2003--would fail to cover the salaries of 
recently-hired inspectors and substantially undo the gains Congress has 
made possible. Moreover, there is still much room for improvement. Many 
facilities continue to escape oversight for long periods of time, 
giving rise to situations that threaten both human and animal health 
and safety. Nearly half of the sites that do get inspected are found to 
have apparent violations of the minimum standards under the Act and, 
therefore, follow-up visits are badly needed. We urge you to sustain 
Animal Welfare funding at the fiscal year 2003 appropriated level of 
$16.4 million, in order to keep the current number of inspectors 
(approximately 100 to oversee about 10,000 sites).

APHIS/Horse Protection Enforcement
    Congress enacted the Horse Protection Act in 1970 to end the 
obvious cruelty of physically soring the feet and legs of show horses. 
In an effort to exaggerate the high-stepping gate of Tennessee Walking 
Horses, unscrupulous trainers use a variety of methods to inflict pain 
on sensitive areas of the feet and legs for the effect of the leg-jerk 
reaction that is popular among many in the show-horse industry. This 
cruel practice continues unabated by the well-intentioned but seriously 
understaffed APHIS inspection program. We appreciate the Committee's 
help providing modest increases to bring this program close to its 
authorized annual funding ceiling of $500,000, and hope you could 
approve an additional $7,000 in fiscal year 2004 to reach that mark. We 
also urge the Committee to oppose any effort to restrict USDA from 
enforcing this law to the maximum extent possible.

Agricultural Research Service/Animal Welfare Information Center
    We appreciate the Committee's support for the Animal Welfare 
Information Center (AWIC), which helps ensure appropriate care for 
animals in research, and compliance with standards on minimizing pain 
and distress, preventing duplication of experiments, and reducing or 
replacing animals in research when possible. For fiscal year 2004, we 
hope you will sustain the gains made in recent years for AWIC's budget.

  NATIONAL SCHOOL LUNCH AND BREAKFAST PROGRAMS/FORCED MOLTING OF EGG-
             LAYING HENS AND ACCESS TO NON-DAIRY BEVERAGES

    At the end of their production cycle, egg-laying hens in 75 percent 
of U.S. flocks are starved until they lose 35 percent of their body 
weight--typically for 5-14 days--in an effort to shock their systems 
into a new egg-laying cycle. Once placed back on feed, those hens who 
survive the starvation period will produce more and bigger eggs. Such 
``forced molting'' is a threat to the health and safety of consumers, 
because eggs produced at facilities using this high-stress practice 
have a greatly increased incidence of Salmonella enteritidis (SE). 
Forced molting is a husbandry strategy that extends the productive life 
of those birds who survive, but it comes with severe consequences for 
the health of consumers and for animal welfare.
    Salmonella is the second most common food-borne illness in the 
United States (an estimated 500-1,000 people die from it annually). SE 
is the second most common Salmonella strain. Most SE infections are 
caused by the consumption of eggs. Starvation causes severe stress to 
hens and makes them highly susceptible to Salmonella infections. 
Research indicates that hens who have been force molted in this way 
shed significantly more SE bacteria than hens with access to food. Dr. 
Fred Angulo, the chief medical epidemiologist for food-borne diseases 
at the Centers for Disease Control and Prevention, has determined that 
outbreaks of SE in schools have been traced back to layer houses where 
hens were molted using starvation. In 1998, USDA's FSIS Director wrote 
that ``highly stressful forced molting practices . . . [f]or example, 
extended starvation and water deprivation practices, lead to increased 
shedding of Salmonella enteritidis (SE) by laying hens,'' and 
recommended that ``egg producers eliminate forced molting practices and 
adopt alternatives that reduce public health risks.''
    Intentionally starving a hen so that she loses 35 percent of her 
body weight is cruel. Almost every State anti-cruelty statute 
specifically bars the deliberate starvation of animals, but this 
standard is not typically enforced for routine animal husbandry. 
Alternative methods to forced molting, which are more humane, safer, 
and economically comparable, are available to the U.S. egg production 
industry. Major fast food companies, including McDonald's, Burger King, 
and Wendy's, have stopped buying eggs from farms that use forced 
molting. It is time for Congress to ensure that meals provided at 
public schools are at least as safe as fast food.
    Under the National School Lunch and Breakfast Programs, schools 
spent more than $14.2 million on fresh and raw eggs for food service 
during the 1996-97 school year, according to a USDA study (the number 
may well be higher now, since the breakfast program has greatly 
expanded since that time). With three-quarters of all flocks in the 
United States currently force molted, there is a very high risk that 
school children are being exposed to SE bacteria. In 2000, the USDA 
announced that it would no longer allow the use of downed animals in 
the school lunch program because it could not count on the safety of 
the meat. School districts incorporate Federal requirements (e.g., to 
comply with nutritional guidelines, ``Buy American'' laws, and health 
department inspections) in their detailed specifications for each food 
item contained in their contracts.
    We urge the Committee to include bill language barring the use of 
USDA funds under the National School Lunch and School Breakfast 
Programs for the purchase of eggs produced at facilities that force-
molt hens through deprivation of food or water.
    One year ago, the Washington Post highlighted the injustices 
associated with prohibiting schools from offering federally-subsidized 
non-dairy beverages for students who cannot drink dairy milk for any 
number of health, ethical or religious reasons. Schools can offer 
alternatives to students who bring a doctor's note explaining why they 
need a non-dairy beverage. However, the majority of students who are 
lactose-intolerant are minority students--students who may not have 
access to the kind of health care that would provide them with a 
doctor's note for something as mundane as a lunch beverage. 
Additionally, according to a recent poll conducted by the Vegetarian 
Resource Group, 11 percent of children ages 8-17 in the United States 
are vegetarians. The nutrition publication, Nutrition News Focus, 
recently published an article stating ``Vegetarian children tend to be 
thinner than omnivorous kids and this is almost certainly good, since 
we are getting fatter as a nation and we are doing it earlier.'' It is 
unfair to force students who choose the healthful option of 
vegetarianism to go without a beverage simply because their ethics 
dictate they not drink dairy milk. The National School Lunch and 
Breakfast Programs should support a healthful diet for all students. We 
urge the Committee to include bill language to provide nutritious 
beverage options to dairy milk for students who either cannot or choose 
not to drink dairy milk.

    HOOP BARNS/LEOPOLD CENTER FOR SUSTAINABLE AGRICULTURE--$325,000

    The hoop barn is an emerging alternative for livestock production 
that offers many advantages to the factory farm system of animal 
housing. A typical hoop barn is shaped like a Quonset hut (a half 
cylinder lying on its flat side) and contains a deep bedding of straw 
or corn stalks. No individual cages confine the animals, and open ends, 
which can be closed if weather requires, allow access to pasture. 
Animals in hoop barns enjoy greater freedom of movement and have the 
opportunity to interact socially.
    Because they are not tightly confined in an overcrowded, high-
stress environment, animals in hoop barns tend to be healthier than 
their counterparts in factory farms. That means farmers using hoop 
barns do not need to rely on antibiotics to prevent disease and promote 
growth, a common practice on factory farms that is contributing to the 
development of antibiotic-resistant strains of bacteria that threaten 
public health. Products from hoop producers are being sought out by 
meat suppliers and restaurants based on the enhanced flavor and texture 
characteristics of the meat. In addition, hoop barns are better for the 
environment, because they use solid manure composting rather than the 
liquid waste disposal systems used by factory farms, which jeopardize 
groundwater and produce noxious odors. Furthermore, they offer an 
affordable alternative for farmers. Hoop barns are approximately one-
third the cost of conventional factory farm structures. They are easy 
to install and versatile (they can be used for different species or for 
storage of hay or equipment). This flexibility helps family farmers 
withstand fluctuations in market demand and avoid corporate buyouts.
    We appreciate the Committee's support in fiscal year 2003 for this 
promising technology. As a result of the Committee's action, Iowa's 
Leopold Center for Sustainable Agriculture--which is in the forefront 
of research and development on hoop barns--is expanding understanding 
and adoption of hooped structures as low-cost, humane, environmentally-
friendly production housing systems for swine and other agricultural 
animals. The hoop research is promoting viable and timely production 
options for struggling small and medium sized farmers as well as 
helping to open new markets. We request your support for $325,000 in 
fiscal year 2004 for this ongoing project to make the benefits of hoop 
barns available on a wider scale.

                    HUMANE FARMING COMMISSION STUDY

    According to USDA, there are 9 billion animals slaughtered for food 
in the United States each year. Yet, other than the HMSA requiring that 
livestock be rendered unconscious before they are killed, there are no 
Federal laws regarding humane treatment of farm animals. The AWA does 
not cover livestock or poultry. At the State level, there is only one 
relevant law; Florida voters in 2002 banned the use of gestation crates 
for breeding sows. State anti-cruelty statutes either exempt farm 
animals or they are not traditionally applied to deal with routine or 
customary agricultural practices. Farm animal treatment is left almost 
entirely to industry norms and producer conscience.
    Most Americans would be surprised to learn that the government has 
nothing to say about practices such as intensive confinement that is so 
cramped the animals cannot turn around, deliberate starvation to force 
molting, and cutting off pigs' tails and chickens' beaks without any 
anesthesia in order to prevent them from attacking each other in these 
crowded and highly stressful conditions. In the absence of government 
regulation, such inhumane practices have become the norm for industrial 
agriculture in this country.
    Responding to public concern, some major companies that purchase 
large quantities of animal products--such as McDonald's, Burger King, 
and Wendy's--have begun requiring their suppliers to abandon certain 
inhumane practices. While welcome, these voluntary efforts by major 
restaurant chains are not sufficient. The need for humane treatment of 
farm animals warrants a consistent approach that will not put any 
individual company at a competitive disadvantage, nor will it force 
farmers to deal with piecemeal rules. It is time to explore Federal 
standards that can be accountable and enforceable.
    We recommend that a national commission be charged with examining 
the treatment of animals in commercial farming and making 
recommendations to Congress. Such a commission should include those 
with a range of perspectives, including scientists specializing in 
animal welfare, farmers (including sustainable agriculture 
practioners), religious leaders and ethicists, economists, and consumer 
representatives. We look forward to working with the Committee to 
develop this idea further.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, Food and Drug 
Administration and Related Agencies Appropriation Act of fiscal year 
2004. We appreciate the Committee's past support, and hope you will be 
able to accommodate these modest requests to address some very pressing 
problems affecting millions of animals in the United States. Thank you 
for your consideration.
                                 ______
                                 

    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                    USDA/APHIS--VETERINARY SERVICES

Brucellosis
    The Association is concerned about the $1.4 Million reduction in 
the amount being requested for the Brucellosis Program in the fiscal 
year 2004 budget. While we understand some of this may be offset by the 
increase in the request for the Animal Health Monitoring and 
Surveillance Program budget--in essence the core infrastructure of 
APHIS-Veterinary Services--it will be problematic if the entire 
requested amount is not acted on favorably by Congress. The Association 
supports the $93.96 Million being requested for the Animal Health 
Monitoring and Surveillance Program.
    The Association also supports the request from the states of 
Montana, Idaho and Wyoming for $600,000 in the fiscal year 2004 USDA/
APHIS/Veterinary Services, Program Diseases, Brucellosis Program 
budget, to enable those states to continue their participation in the 
Greater Yellowstone Interagency Brucellosis Committee (GYIBC). Like 
amounts ($600,000) have been included as Congressional add-ons in both 
fiscal year 2002 and fiscal year 2003. The GYIBC is working to 
coordinate federal, state and private actions involved in eliminating 
brucellosis from wildlife in the Greater Yellowstone Area and 
preventing transmission of brucellosis from wildlife to cattle. Given 
the priority for eradicating this disease, it would seem prudent that 
Veterinary Services include this amount in its base Brucellosis Program 
budget, rather than the States having to rely on Congressional add-ons 
to obtain relief. The Association recommends this amount ($600,000) be 
identified in the base budget for the Brucellosis Program beginning in 
fiscal year 2004 and beyond, until such time as eradication of the 
disease has been achieved.

Chronic Wasting Disease
    The Association commends APHIS-Veterinary Services for taking 
actions to destroy and dispose of captive cervids exposed to chronic 
wasting disease (CWD) because these animals represent a tremendous risk 
to this country's wildlife resources. The Association supports the $15 
million request for funding to eliminate CWD from captive cervids and 
strongly encourages Veterinary Services to use a significant part of 
the funding to assist State wildlife management agencies with 
surveillance for CWD in free-ranging cervids, and to provide funding 
for research directed toward better diagnostic testing and increased 
knowledge of the epidemiology and epizootiology of CWD. However, this 
$15 Million is inadequate to effectively address management of this 
disease, and the Association urges an additional $10 Million be 
appropriated to CWD, with a total of $20 Million made available to the 
states for surveillance and management of free ranging deer and elk. 
The Association supports this role for Veterinary Services in the 
context that Veterinary Services and other USDA agencies remain mindful 
and respectful of state management authority over resident wildlife 
species. This will require constant coordination and cooperation with 
the State fish and wildlife agencies as this certification and control 
program is launched.

Import/Export
    Exotic ticks may carry disease agents that could potentially 
devastate wildlife populations and therefore, prevention of their 
importation is essential. The Association supports the requested 
increase for a total of $12.4 Million in fiscal year 2004 funding in 
the Import/Export Program for inspection of imported reptiles and 
amphibians for exotic ticks, and further recommends that Veterinary 
Services work closely with the U.S. Fish and Wildlife Service in 
addressing this issue.

Tuberculosis
    The Association supports the requested increase for a total of 
$15.1 Million in the fiscal year 2004 funding request in the 
Tuberculosis Program for the control of bovine tuberculosis, a 
continuation of an accelerated program begun in fiscal year 2001 to 
address inadequate national surveillance as it relates to international 
trade needs and enhanced tuberculosis testing, training and Mexican 
eradication efforts, with a goal of total eradication in domestic 
livestock by January, 2004. The Association recommends that APHIS-
Veterinary Services work closely with, and provide financial support 
to, State fish and wildlife agencies involved in this activity. Funding 
should be provided to State fish and wildlife management agencies for 
TB surveillance, research, and control operations, and must be 
accompanied by close coordination and respect for State management 
authority over resident wildlife.

Veterinary Diagnostics
    The Association recognizes that wildlife disease investigations 
often are dependent upon the USDA's animal disease resources for test 
reagents, consultations, and sample referrals, and commends APHIS for 
assistance with testing of free-ranging wildlife for diseases such as 
brucellosis, chronic wasting disease and bovine tuberculosis. The 
Association supports the requested budget of $21 Million in fiscal year 
2004 funding for increasing diagnostic capabilities at the Plum Island 
Animal Disease Diagnostics Laboratory in New York and at the National 
Veterinary Services Laboratories in Ames, Iowa.

                     USDA--APHIS WILDLIFE SERVICES

    Wildlife Services (WS), a unit of APHIS, is the Federal agency 
responsible for developing new methods for and managing wildlife damage 
to agriculture, aquaculture, forest, range, and other natural 
resources; for protecting public health and safety through cooperating 
with the State fish and wildlife agencies on the control of wildlife-
borne diseases; and for managing wildlife hazards at airports. WS bases 
its activities on the principles of wildlife management and integrated 
damage management, and carries them out cooperatively with State fish 
and wildlife agencies. WS shares most of its operational costs with 
State and county governments, agricultural producers, and other 
cooperators.
    The cooperation and support of the agricultural community is 
essential to maintain wildlife populations because much of the nation's 
wildlife exists on private agricultural lands. A progressive wildlife 
damage management program that reduces the adverse impacts of wildlife 
is necessary to maintain the support of the agrarian community and to 
counter increasing pressures for indemnity due to wildlife damage.
    The International Association of Fish and Wildlife Agencies has 
worked closely with WS on numerous issues critical to the State fish 
and wildlife agencies, including those related to migratory birds, 
threatened, and endangered species. The Association commends the WS 
program for its professionalism and continuing effort to be attuned to 
the changing public values for the nation's wildlife, while remaining 
responsive to human/wildlife conflicts and emerging wildlife problems.
    A recent report by the General Accounting Office documented that 
wildlife damage throughout the United States is significant and 
increasing because of high wildlife populations. The Association is 
concerned that the Administration's proposal will decrease overall 
funding for WS activities. The President's fiscal year 2004 proposed 
budget for Methods Development is $13,647,000, a $1,228,000 decrease 
from the fiscal year 2003 level. For WS Operations, the proposed budget 
is $65,706,000, a $2,881,000 decrease from the fiscal year 2003 level. 
For Aquaculture, the proposed budget is $968,000, a decrease of 
$420,000 from the fiscal year 2003 level.
    With decreased funding for WS Methods Development, further 
advancements with nonlethal methods development will not occur at an 
acceptable level. Work to develop control methodology for cormorant and 
white pelican damage to catfish production in the mid-South will 
suffer. In addition, many of the current damage management tools such 
as traps, snares, and toxicants are becoming less acceptable to the 
public and many States are prohibiting their use because of public 
referendums. The only source of new methods is through research. We 
commend Congress for recognizing the need to increase funds to support 
maintenance and operations of the National Wildlife Research Center in 
Ft. Collins, Colorado, and seek further support to provide an 
additional $5,000,000 to the Methods Development line item to 
adequately fund nonlethal methods research, technology transfer in 
areas such as alternative predation management systems including 
immunocontraception, repellent and habitat management for birds, and 
information outreach for the public.
    With decreased funding for WS Operations, there will not be 
adequate funding to manage the threat that wildlife poses for 
transmitting various diseases to domestic livestock and people; the 
oral rabies vaccination program will not progress at an acceptable 
level; and efforts to develop a hazardous material accountability 
system as part of the WS Management Information System (MIS) and an 
emergency response system for-intentionally introduced wildlife 
diseases will curtail or cease altogether. WS continue to pass off 
shortfalls in funding to their cooperators--especially State and local 
cooperators which are not in a position to increase their cost-share in 
light of the financial shortfalls they currently face. The Association 
recommends that Congress provide an additional $4,250,000 to continue 
critical wildlife disease monitoring and surveillance activities, and 
also provide an additional $5,700,000 to continue the oral rabies 
vaccination program to stop the spread of rabies in coyotes, foxes, 
raccoons, and other wildlife.
    The Association is pleased that Congress provided $1,200,000 in 
fiscal year 2003 to address increasing wolf conflicts in Minnesota, 
Wisconsin, Michigan, Arizona, and New Mexico, and recommends continued 
support to provide adequate funding to manage increasing wolf 
populations across the county. The Association also supports the 
continuing request in the President's budget for Montana, Idaho and 
Wyoming.
    WS must continue implementation of their new Management Information 
Reporting System (MIS) to standardize reporting systems to provide 
specific information on resources protected, damage levels, trend 
information, and data on measurements and performance outcomes, and to 
comply with requirements of the National Environmental Policy Act. Most 
importantly, the MIS will allow WS to document wildlife disease 
monitoring and surveillance efforts and implement an integrated 
hazardous material accountability system. The Association recommends 
that Congress make $5,000,000 available in fiscal year 2004 ($4 million 
more than the President's request) to allow WS to continue 
implementation of the new MIS. The implementation will occur over a 
five-year period at a total cost of $8-10 million.
    The Association is pleased that Congress provided a $600,000 
increase in the fiscal year 2003 budget to expand the Berryman 
Institute for Wildlife Damage Management at Utah State University and 
Mississippi State University. The Association recommends that Congress 
continues to support the Berryman Institute by maintaining adequate 
funding levels in the future.

 COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE (CSREES) 
                     U.S. DEPARTMENT OF AGRICULTURE

    The Association recognizes that the research and educational 
programs of the CSREES and its Land Grant partners effect relevant, 
positive changes in attitudes and implementation of new technologies by 
private landowners, communities, decision-makers, and the public. This 
results in significant benefits to the Nation through development of a 
productive natural resource base in concert with agriculture. Since 
over two-thirds of our land is privately owned, it is appropriate that 
the CSREES-Land Grant System, with its grass roots credibility and 
delivery system, be adequately funded to transfer knowledge that helps 
all private landowners move towards sustainability. However, in the 
fiscal year 2003 budget proposal, we see little emphasis on natural 
resources research and education directed toward these clientele. In 
fact, the total number of farmers based on recent statistics is just 
slightly over one million--only one-tenth of all private landowners--
and, the majority of CSREES' budget is directed toward production 
agriculture on these lands. Conversely, only $4.093 million is budgeted 
(out of a total of $1.015 billion) for the Renewable Resources 
Extension Act (RREA) which assists the over ten million private 
landowners who own and manage most of the nation's natural resources. 
The Association notes that this is the same amount appropriated for 
fiscal year 2003 with no increase in light of the vast workload. The 
Association is still seriously concerned that the amount ($4.093 
million) is so small as to be ineffective and we encourage 
Congressional consideration increasing the funding for RREA to better 
reflect the need to reach a higher percentage of all landowners.
    The Association strongly recommends that the Renewable Resources 
Extension Act be funded at $30 million in fiscal year 2004. The RREA 
funds, which are apportioned to State Extension Services, effectively 
leverage cooperative partnerships at an average of four to one, with a 
focus on development and dissemination of information needed by private 
landowners (in rural and urban settings). The increase to $30 million 
would enable the Extension System to accomplish the goals and 
objectives outlined in the 1991-1995 Report to Congress. The need for 
RREA educational programs is greater than ever today because of 
fragmentation of ownerships, urbanization, the diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
its effect on soil, water, wildlife and other environmental factors. It 
is important to note that RREA has been reauthorized through 2002 and 
was originally authorized at $15 million annually; however, even though 
it has been proven to be effective in leveraging cooperative state and 
local funding, it has never been fully funded. The Association notes 
with appreciation that RREA was reauthorized in the 2002 Farm Bill and 
the authorized funding raised to $30 million. The increase to $30 
million in authorized funding is an empty-handed gesture unless 
followed by a corresponding increase in appropriations. An increase to 
$30 million would be a good-faith move in the right direction and 
enable the Extension Service to expand capability to assist more 
private landowners to improve management of additional land while 
increasing farm revenue.
    The Association strongly encourages that McIntire-Stennis Forestry 
Research funds be increased from the $21.884 million in the fiscal year 
2003 budget to a level of $25 million. These funds are essential to the 
future of resource management on non-industrial private forestlands. 
The rapid reduction in timber harvests from public lands bring expanded 
opportunities for small private forest owners to play an increasingly 
important role in the Nation's timber supply. In some places, these 
added opportunities are creating pressures and situations where timber 
harvest on private ownerships exceeds timber growth.
    The Association notes a level funding of $12.97 million in the 
budget for Water Quality Integrated Activities but believes that this 
amount is insufficient considering the growing public concern over 
water quality, particularly on agricultural landscapes and therefore 
the Association recommends the appropriation be increased to $20 
million. We are concerned that there is no line item budget for water 
quality specific to educational programs under Smith-Lever in Extension 
activities. The Association recommends a minimum of $3.5 million in 
Extension programs to focus on water quality education targeted at 
agricultural producers and other private landowners and managers. We 
believe that such program efforts are urgently needed to help these 
landowners learn how to address water quality degradation, which 
seriously affects drinking water, human health and fish and wildlife 
habitat. The Clean Water Act, TMDL's, Gulf of Mexico hypoxia and 
expanded animal feeding operation (AFOs) are just a few of the water 
quality issues that need to be addressed through Cooperative Extension 
efforts.
    The Association notes the $2.5 million included in Special Research 
Grants to fund Global Change/UV-B monitoring as well as that one of the 
three emphasis areas in Natural Resources and Environment is Global 
Change. This emphasis area and funding is appropriate in view of 
growing concern about the effect of the introduction of greenhouse 
gases into the atmosphere, addition of an Energy Title in the 2002 Farm 
Bill as well as recently initiated efforts to develop national policy 
regarding greenhouse gas emissions reporting. However, efforts to 
reduce or mitigate greenhouse gas emissions through carbon 
sequestration or other means shouldn't result in degradation of natural 
resources, including fish and wildlife, for which the public would have 
to pay separately and additionally to correct. The Association supports 
research funding to help define and/or address global climate change in 
ways that are compatible with conservation of all natural resources, 
including fish and wildlife.
    The Association notes with concern a reduction in National Research 
Initiative Competitive Grants funding from $240 million to $200 
million. It is important to note the great needs for creative and 
competitive grant programs to provide valuable new information to 
broaden approaches to land management, especially with integrated 
timber and wildlife management on private lands. There are few truly 
competitive programs in wildlife science and USDA NRI has a great 
opportunity to make a unique contribution with this type of program. 
This program will fund creative and new ideas in ways that ``formula'' 
funding cannot. The Association supports funding at the fiscal year 
2003 level of $240 million.

                       FARM SERVICE AGENCY (FSA)

    An adequately funded budget for the FSA is essential to implement 
conservation related programs and provisions under FSA administration 
and/or in cooperation with the Natural Resources Conservation Service 
(NRCS) as a result of passage of the Farm Security and Rural Investment 
Act of 2002. The Association strongly advocates that the budget include 
sufficient personnel funding to service a very active program and 
strongly believes that the past erosion of staffing levels has been 
inconsistent with the demonstrated need of agricultural producers. The 
Association is deeply concerned that the reduced level of staffing 
(16,701 FTE) proposed by the Administration is far too low to 
adequately address the need.
    FSA programs have tremendous quantifiable impacts on natural 
resources, and yield substantial public as well as private benefits. 
Building on the provisions of present and past Farm Bills and as each 
program accomplishes the broadest possible range of natural resource 
objectives, the Association encourages close cooperation between FSA, 
NRCS and the State Technical Committees in implementing the 2002 Farm 
Bill.
    Conservation Reserve Program (CRP)--The continued administration of 
CRP is a very significant and valuable commitment of USDA and the FSA. 
The Association applauds FSA efforts to fund and extend CRP contracts 
for the multiple benefits that accrue to the public as well as the 
landowner. The Association provides special thanks to FSA for the 
continuous CRP sign-up of high value environmental practices and 
encourages additional program options (such as wildlife field borders) 
and/or incentives to ensure that enrolled acres deliver soil, water, 
wildlife and other natural resource benefits through the use of more 
wildlife friendly cover as the CRP general sign-up has delivered.
    The commitment of FSA to provide high wildlife benefits in CRP 
contracts has been obvious since the advent of the Environmental 
Benefits Index (EBI) in the 15th sign-up. The Association applauds FSA 
in those efforts with their special emphasis on native grasses, 
endangered species and enlightened pine planting and management and 
urge that strong emphasis on the establishment and management of 
wildlife friendly cover be continued and where possible strengthened. 
Recurring management is essential to ensure continuation of soil, water 
and wildlife benefits throughout the life of the CRP contract. The 
``up-to-$5/acre'' maintenance payment presently included in CRP 
contracts tends to be viewed by many landowners as additional rental 
payment, whether any maintenance or management is applied or not. 
Therefore, it makes sense that needed recurring management (for 
wildlife purposes) or maintenance measures (to control noxious weeds, 
etc.) be secured when necessary and landowners compensated only when 
actual management/maintenance is applied. The Association encourages 
FSA to develop necessary programmatic mechanisms as well as 
reimbursement to CRP participants for the added cost, to ensure that 
recurring management be performed when needed to manage succession in 
order to continue wildlife benefits throughout the contract period.

             NATURAL RESOURCES CONSERVATION SERVICE (NRCS)

    The Natural Resources Conservation Service has immense 
responsibilities for implementing the conservation provisions of the 
1985 Food Security Act (FSA), the 1990 Food, Agriculture, Conservation 
and Trade (FACT) Act, the Federal Agricultural Improvement and Reform 
(FAIR) Act of 1996 and the Farm Security and Rural Investment Act of 
2002.
    The 2002 Farm Bill signed into law by the President May 13, 2002 
represents the single largest investment in conservation ever 
authorized in a Farm Bill and includes reauthorized and new programs to 
help the Nation's agricultural producers achieve conservation of 
natural resources in concert with production of food and fiber. 
Specifically, programs were reauthorized as follows: The Conservation 
Reserve Program (CRP)--39.2 million enrollment cap; the Wetland Reserve 
Program (WRP)--enrollment cap of 2.275 million acres (up to 250,000 
acres new enrollment per year); the Wildlife Habitat Incentives Program 
(WHIP)--at $360 million through 2007 ($60 million in fiscal year 2004); 
the Environmental Quality Incentives Program (EQIP)--at $5.8 billion 
through 2007 ($1 billion in fiscal year 2004); and, the Farmland 
Protection Program (FPP)--at $597 million through 2007 ($125 million in 
fiscal year 2004). In addition, the following programs were created: 
The Grassland Reserve Program (GRP) with a 2 million acre cap; the 
Forest Land Enhancement Program (FLEP) with $100 million through 2007; 
and, the Conservation Security Program (CSP) at $2 billion based on the 
10 year score of the 2002 Farm Bill. The Association strongly 
encourages Congress to provide annual funding for these conservation 
programs at the full levels authorized in the 2002 Farm Bill.
    With approximately 50 percent of the land in the United States in 
agricultural production, conservation is inextricably linked with 
agriculture and, therefore, the importance of USDA conservation 
programs cannot be overemphasized. These programs are particularly 
important in that many species of wildlife reside on agricultural 
landscapes with nowhere else to go and must survive there if they are 
to survive at all.
    Collectively, the 2002 Farm Bill effectively expands conservation 
opportunities provided in the 1985, 1990 and 1996 Farm Bills. Servicing 
landowner requests for these programs will require technical assistance 
well beyond levels provided by NRCS in times past. Whether technical 
assistance is provided by NRCS staff or non-federal technical service 
providers, it will take adequate funding to get the job done. The 
Association supports the use of an equitable portion of authorized 
funding from those programs that have enrollment authorizations 
expressed in dollars.
    However, in the NRCS fiscal year 2004 Budget Request, it appears 
the funding request for some programs (CCC mandatory funding) have been 
reduced in widely varying and inequitable amounts in order to create 
the Farm Bill Technical Assistance account on the discretionary funding 
side. For example, the EQIP budget request for fiscal year 2004 is 
shown as $850 million when the authorized fiscal year 2004 level is $1 
billion. The difference is $150 million, or 15 percent of EQIP funding, 
which is proposed to transfer to help fund the Farm Bill Technical 
Assistance Account. Similarly, the fiscal year 2004 budget request for 
WHIP is shown as $42 million when the authorized fiscal year 2004 
funding level is $60 million. The difference is $18 million, or 30 
percent of WHIP funding, which is proposed for transfer to the Farm 
Bill Technical Assistance Account. The Association is strongly 
concerned about this inequity, particularly since WHIP funding is more 
limited than most other Farm Bill conservation programs and the 
historic percentage of WHIP funds used for technical assistance has 
been much less than 30 percent.
    Further, the fiscal year 2004 funding request for WRP is 200,000 
acres although Congress authorized a 250,000 acre per year enrollment. 
Presumably, although it isn't clear in the budget request, the 50,000 
acre difference (between authorized and requested enrollment authority) 
reflects the cost of WRP technical assistance. If so, this appears 
inequitable and illogical. First, the 20 percent reduction reflects 
transfer to the Farm Bill Technical Assistance Account compared with a 
15 percent transfer of EQIP funding. Second, and much more importantly, 
the WRP enrollment authority is expressed in acres (like CRP) rather 
than dollars as is the case with EQIP, WHIP and many of the other Farm 
Bill conservation programs. The Association believes that this is 
contrary to the intent of the Farm Bill, so recently passed by Congress 
and signed into law by the President. The NRCS budget should reflect 
the full authorized 250,000 acres for WRP and NRCS should request 
technical assistance funding request based on that enrollment level. 
This is particularly important in that WRP is one of the most popular 
of Farm Bill conservation programs and demand has consistently exceeded 
enrollment authority. In fact the NRCS fiscal year 2004 budget request 
confirms this with the statement that ``even with the authority to 
enroll 250,000 acres in the program, demand for the program exceeded 
the annual acreage allocation.''
    The Grassland Reserve Program (GRP) presents great opportunity to 
provide agricultural producers with an economic alternative to 
conversion of dwindling native prairie to other uses. GRP should enable 
producers to keep irreplaceable prairie in forage production, a use to 
which these lands have historically been so well suited. The 
Association supports the $85 million in the fiscal year 2004 budget 
request to fund GRP and encourages NRCS to put development of the Rule 
for this promising program on the fast track so that the program can be 
effectively implemented as early in fiscal year 2004 as possible.
    In these times of compelling conservation need, many State fish and 
wildlife agencies are contributing staff time to help NRCS field 
offices service fish and wildlife aspects of USDA assistance to 
landowners. Such partnerships help NRCS deliver specialized technical 
expertise to private landowners at less cost than adding NRCS staff 
with such expertise. The 2002 Farm Bill contains third party vendor 
aspects to allow USDA to contract with State fish and wildlife agencies 
to provide fish and wildlife expertise more inexpensively and 
effectively than could be provided by adding NRCS staff to fill the 
discipline need. And, importantly, State fish and wildlife agencies 
have state-level authority for fish and wildlife resources of the state 
and are, therefore, in an excellent position to help service related 
aspects of Farm Bill programs. The Association strongly encourages the 
Administration and Congress to emphasize partnering arrangements 
between NRCS and State fish and wildlife agencies and others that 
result in cost-efficiencies. The Association also encourages the 
Administration to develop a third party vendor certification system 
that fully recognizes the technical expertise and management authority 
under state law of State fish and wildlife agencies.
                                 ______
                                 

        Prepared Statement of the InterTribal Bison Cooperative

                      INTRODUCTION AND BACKGROUND

    My name is Ervin Carlson, a Tribal Council member of the Blackfeet 
Tribe of Montana and President of the InterTribal Bison Cooperative. 
Please accept my sincere appreciation for this opportunity to submit 
testimony to the honorable members of the Department of Agriculture 
Appropriations Sub-Committee. The InterTribal Bison Cooperative (ITBC) 
is a Native American non-profit organization, headquartered in Rapid 
City, South Dakota, comprised of 51 Federally recognized Indian Tribes 
located within 17 States across the United States.
    Buffalo thrived in abundance on the plains of the United States for 
many centuries before they were hunted to near extinction in the 1800s. 
During this period of history, buffalo were critical to survival of the 
American Indian. Buffalo provided food, shelter, clothing and essential 
tools for Indian people and insured continuance of their subsistence 
way of life. Naturally, Indian people developed a strong spiritual and 
cultural respect for buffalo that has not diminished with the passage 
of time.
    Numerous tribes that were committed to preserving the sacred 
relationship between Indian people and buffalo established the ITBC as 
an effort to restore buffalo to Indian lands. ITBC focused upon raising 
buffalo on Indian Reservation lands that did not sustain other economic 
or agricultural projects. Significant portions of Indian Reservations 
consist of poor quality lands for farming or raising livestock. 
However, these wholly unproductive Reservation lands were and still are 
suitable for buffalo. ITBC began actively restoring buffalo to Indian 
lands after receiving funding in 1992 as an initiative of the Bush 
Administration.
    Upon the successful restoration of buffalo to Indian lands, 
opportunities arose for Tribes to utilize buffalo for tribal economic 
development efforts. ITBC is now focused on efforts to assure that 
tribal buffalo projects are economically sustainable. Federal 
appropriations have allowed ITBC to successfully restore buffalo the 
tribal lands, thereby preserving the sacred relationship between Indian 
people and buffalo. The respect that Indian tribes have maintained for 
buffalo has fostered a serious commitment by ITBC member Tribes for 
successful buffalo herd development. The successful promotion of 
buffalo as a healthy food source will allow Tribes to utilize a 
culturally relevant resource as a means to achieve self-sufficiency.

Amended Language Request to Food Stamp Act
    The InterTribal Bison Cooperative respectfully requests an 
amendment to the Department of Agriculture's Food Stamp Act to increase 
the earmark for purchase of buffalo from the current fiscal year 2003 
amount of $3,000,000 to $10,000,000. Specifically, ITBC requests the 
following amended language to the Food Stamp Act:
    For necessary expenses to carry out the Food Stamp Act (7 U.S.C. 
2011 et seq.), $26,289.692,000, of which $2,000,000,000 shall be placed 
in reserve for use only in such amounts and at such times as may become 
necessary to carry out program operations: Provided, That of the funds 
made available under this heading and not already appropriated to the 
Food Distribution Program on Indian Reservations (FDPIR) established 
under section 4(b) of the Food Stamp Act of 1977 (7 U.S.C. 2013 (b)), 
not to exceed $10,000,000 shall be used to purchase bison and/or bison 
meat for the FDPIR and other food programs on the reservations, with 
one-half purchased from Native American bison producers and one half 
purchased from producer owned cooperatives or bison ranchers. Provided 
further, That all bison purchased shall be labeled according to origin 
and the quality of cuts in each package. Provided further, That the 
Secretary of Agriculture shall make every effort to enter into a 
service contract, with an American Indian Tribe, Tribal company, or an 
Inter Tribal organization, for the processing of the buffalo meat to be 
acquired from Native American producers. Provided further, That funds 
provided herein shall be expended in accordance with section 16 of the 
Food Stamp Act; Provided further, That this appropriation shall be 
subject to any work registration or workfare requirements as may be 
required by law: Provided further, That funds made available for 
Employment and Training under this heading shall remain available until 
expended, as authorized by section 16(h)(1) of the Food Stamp Act.

Preventative Health Care Initiative
    The Native American Indian population currently suffers from the 
highest rates of Type 2 diabetes. The Indian population further suffers 
from high rates of cardio vascular disease and various other diet 
related diseases. Studies indicate that Type 2 diabetes commonly 
emerges when a population undergoes radical diet changes. Native 
Americans have been forced to abandon traditional diets rich in wild 
game, buffalo and plants and now have diets similar in composition to 
average American diets. More studies are needed on the traditional 
diets of Native Americans versus their modern day diets in relation to 
diabetes rates. However, based upon the current data available, it is 
safe to assume that disease rates of Native Americans are directly 
impacted by a genetic inability to effectively metabolize modern foods. 
More specifically, it is well accepted that the changing diet of 
Indians is a major factor in the diabetes epidemic in Indian Country.
    Approximately 65-70 percent of Indians living on Indian 
Reservations receive foods provided by the USDA Food Distribution 
Program on Indian Reservations (FDPIR) or from the USDA Food Stamp 
Program. The FDPIR food package is composed of approximately 58 percent 
carbohydrates, 14 percent proteins and 28 percent fats. Indians 
utilizing Food Stamps generally select a grain based diet and poorer 
quality protein sources such as high fat meats based upon economic 
reasons and the unavailability of higher quality protein sources.
    Buffalo meat is low in fat and cholesterol and is compatible to the 
genetics of Indian people. ITBC intends to promote buffalo meat on 
Indian Reservations as a healthy source of protein. First, ITBC is 
developing a preventative health care initiative to educate Indian 
families of the health benefits of buffalo meat. ITBC believes that 
incorporating buffalo meat into the FDPIR program will provide a 
significant positive impact on the diets of Indian people living on 
Indian Reservations. Further, ITBC is exploring methods to make small 
quantities of buffalo meat available for purchase in Reservation 
grocery stores. A healthy diet for Indian people that results in a 
lower incidence of diabetes will reduce Indian Reservation health care 
costs and result in a savings for taxpayers.

ITBC Goals and Initiatives
    In addition to developing a preventative health care initiative, 
ITBC intends to continue with its buffalo restoration efforts and its 
Tribal buffalo marketing initiative.
    In 1991, seven Indian Tribes had small buffalo herds, with a 
combined total of 1,500 animals. The herds were not utilized for 
economic development but were often maintained as wildlife only. During 
ITBC's relatively short 10-year tenure, it has been highly successful 
at developing existing buffalo herds and restoring buffalo to Indian 
lands that had no buffalo prior to 1991. Today, through the efforts of 
ITBC, over 35 Indian Tribes are engaged in raising over 15,000 buffalo. 
All buffalo operations are owned and managed by Tribes and many 
programs are close to achieving self-sufficiency and profit generation. 
ITBC's technical assistance is critical to ensure that the current 
Tribal buffalo projects gain self-sufficiency and become profit-
generating. Further, ITBC's assistance is critical to those Tribes 
seeking to start a buffalo restoration effort.
    Through the efforts of ITBC, a new industry has developed on Indian 
reservations utilizing a culturally relevant resource. Hundreds of new 
jobs directly and indirectly revolving around the buffalo industry have 
been created. Tribal economies have benefited from the thousands of 
dollars generated and circulated on Indian Reservations.
    ITBC has also been strategizing to overcome marketing obstacles for 
Tribally raised buffalo. ITBC is presently assisting the Assiniboine 
and Gros Ventre Tribes of the Fort Belknap Reservation, who recently 
purchased an USDA approved meat-processing plant, with a coordination 
scheme to accommodate the processing of range-fed Tribally raised 
buffalo.

Conclusion
    ITBC has proven highly successful since its establishment to 
restore buffalo to Indian Reservation lands to revive and protect the 
sacred relationship between buffalo and Indian Tribes. Further, ITBC 
has successfully promoted the utilization of a culturally significant 
resource for viable economic development.
    ITBC has assisted Tribes with the creation of new jobs, on-the-job 
training and job growth in the buffalo industry resulting in the 
generation of new money for Tribal economies. ITBC is also actively 
developing strategies for marketing Tribally owned buffalo. Finally, 
and most critically for Tribal populations, ITBC is developing a 
preventive health care initiative to utilize buffalo meat as a healthy 
addition to Tribal family diets.
    ITBC strongly urges you to support its request for the amended 
language as specifically provided above to the Food Stamp Act to allow 
$10,000,000 for the purchase of buffalo and buffalo meat and for half 
that amount to be specifically designated for the purchase of Native 
American produced buffalo and buffalo meat.
                                 ______
                                 

        Prepared Statement of the Lummi Indian Business Council

    My name is Darrell Hillaire, Chairman of the Lummi Nation. The 
Lummi Nation is located on the northern coastline of Washington State, 
and is the third largest tribe in Washington State serving a population 
of over 5,200. On behalf of the Lummi Nation I want to thank you and 
the members of the Committee for accepting this written testimony and 
allowing the Lummi Nation the opportunity to express our concerns and 
requests regarding the fiscal year 2004 Budget for Rural Development 
Programs within the Department of Agriculture.

$1 Million from the Rural Business Development Program
    The fisheries disasters beginning in 1999, continuing in 2000 and 
re-occurring in 2001 has literally bankrupted all of the small business 
owners of the Lummi Nation. This economic disaster has impacted over 
700 fishers and 2,000 members of the Lummi Nation. This number 
represents nearly 50 percent of the total Lummi Nation population. The 
decline in the fisheries resource has subsequently been validated and 
declared by the Department of Commerce and Related Agencies as an, 
economic disaster' under the Magnuson-Stevens Act. In order to re-
establish the private business sector of the Lummi Nation, the economy 
needs the assistance identified below on an emergency basis:

Retail Facilities
    The Lummi Nation needs financial assistance to support the 
development of retail facilities on the Lummi Reservation. Retail 
facilities will support business development on the reservation and 
will employ both Tribal and non-Tribal residents. The Lummi Nation has 
provided some of its unemployed fishers with business development 
training. We were able to secure funding to provide adult and 
vocational training to our members at the Northwest Indian Community 
College and they have prepared 50 business plans in varying stages of 
readiness for financing.

----------------------------------------------------------------------------------------------------------------
                 Budget Period                       2004            2005                     2006
----------------------------------------------------------------------------------------------------------------
Funding Amount................................        $500,000      $2,000,000  $140,000
Project Activity..............................        Planning    Construction  Operations Implementation
----------------------------------------------------------------------------------------------------------------

Commercial Processing Facilities
    The Lummi Nation needs financial assistance to support the 
development of commercial facilities on the Reservation to support 
finfish and shellfish processing from harvesters into retail products 
and to transport these products to markets within the contracted 
timeframes. The Lummi Nation will seek to contract with an established 
seafood processing companies to consult with during the design and 
construction phase, as well as operate the facility profitably under a 
lease agreement.

----------------------------------------------------------------------------------------------------------------
                 Budget Period                       2004            2005                     2006
----------------------------------------------------------------------------------------------------------------
Funding Amount................................       $500,000.     $5,000,000.  $300,000.
Project Activity..............................        Planning    Construction  Operations Support
----------------------------------------------------------------------------------------------------------------

$500,000 from the USDA Indian Water Program
    The Lummi Nation is seeking funding to support the cost of 
construction for the expansion of the Tribal infrastructure, which 
includes water and wastewater treatment systems for community 
development purposes. The Tribe has already begun planning and design 
efforts for a ``Kwina Village'' concept, which includes a new Tribal 
College campus, a Drug Treatment Center and a new Tribal Government 
facility. Funding is needed to upgrade, replace and develop Tribal 
infrastructure systems to accommodate Kwina Village development.

----------------------------------------------------------------------------------------------------------------
                Budget Period                      2004              2005                      2006
----------------------------------------------------------------------------------------------------------------
Funding Amount..............................      $2,000,000           $220,000  $180,000
Project Activity............................    Construction     Implementation  Operations
----------------------------------------------------------------------------------------------------------------

    Thank you for this opportunity and we hope that the Committee will 
find the request of the Lummi Nation a viable one.
                                 ______
                                 

    Prepared Statement of the National Association of Conservation 
                               Districts

    The National Association of Conservation Districts is the 
nonprofit, nongovernment organization that represents the nation's 
3,000 conservation districts and more than 16,000 men and women who 
serve on their governing boards. Established under state law, 
conservation districts are local units of state government charged with 
carrying out programs for the protection and management of natural 
resources at the local level. They work with nearly two-and-half 
million cooperating landowners and operators--many of them farmers and 
ranchers--to provide technical and other assistance to help them manage 
and protect private land in the United States. In carrying out their 
mission to coordinate and carry out all levels of conservation 
programs, districts work closely with USDA's Natural Resources 
Conservation Service (NRCS) through its Conservation Technical 
Assistance Program (CTAP) to provide the technical and other help 
farmers and ranchers need to plan and apply complex conservation 
practices, measures and systems.
    The partnership of conservation districts, state conservation 
agencies and NRCS provides farmers and ranchers with critical help in 
protecting and improving the quantity and quality of our soil and water 
resources while meeting both domestic and international food and fiber 
needs. America's agricultural producers provide many benefits to our 
citizens including clean water and air, fish and wildlife habitat and 
open space. Many of the conservation practices producers apply on their 
land also take carbon out of the atmosphere and store it in the soil, 
providing a hedge against global climate change. As stewards of the 
nation's working lands, farmers and ranchers manage the vast majority 
of America's private lands and provide tremendous environmental 
benefits to the country.
    On behalf of America's conservation districts, I am pleased to 
provide our recommendations on selected conservation programs carried 
out through the U.S. Department of Agriculture, especially those of the 
Natural Resources Conservation Service.

Conservation Operations--Conservation Technical Assistance Program
    The heart of the agency's private lands conservation assistance 
delivery system is its Conservation Operations (CO) account. Through 
the CO Conservation Technical Assistance Program (CTAP), NRCS provides 
direct assistance to private landowners and operators and others to 
address myriad natural resource concerns such as soil erosion control, 
water and air quality protection and improvement, wetlands and wildlife 
habitat conservation, forestry management, grazing land improvement and 
other resource concerns. Requests for such assistance grow each year 
and far outstrip the ability of the agency to meet the demand. Data 
collected over the past several years continue to show a shortfall of 
several thousand staff years at the field level. Conservation districts 
recommendation for the NRCS Conservation Technical Assistance Program 
for fiscal year 2004 is for a total of $731.000 million, an increase of 
approximately $35 million, or 5 percent over the fiscal year 2003 
level. We believe it is critical that this basic and essential program 
be strengthened to help landowners and operators address the nation's 
natural resource non-Farm Bill needs on private working lands.
    The President's budget request for fiscal year 2004 includes a 
proposal to establish a separate Farm Bill Technical Assistance 
account, which would be funded by transferring $154 million from the 
NRCS CO account, as well as transfers of Commodity Credit Corporation 
(CCC) funds and other offsets. We have argued consistently since 
enactment of the 2002 Farm Bill that Congress intended for the seven 
programs authorized in Sec. 1241(a) of Title XII of the Food Security 
Act of 1985 to fully fund technical assistance from their CCC accounts. 
We have further argued that, since at best the new Farm Bill's working 
agricultural lands conservation programs will reach less than 25 
percent of the nation's agricultural lands, and an even smaller 
percentage of the nation's farms and ranches, the NRCS CO account 
should be intended to service basic technical assistance needs of 
producers who do not participate in the Farm Bill programs.
    Congress rejected a similar Farm Bill Technical Assistance account 
proposal in its fiscal year 2003 appropriations bill for USDA and we 
urge you to do so again. We strongly support having each of the seven 
section 1241(a) programs pay for its own technical assistance, 
including CRP and WRP, and that funds for that purpose are not subject 
to the CCC section 11 cap. We also urge you to again adopt language in 
the fiscal year 2004 appropriations bill stating that CO funds cannot 
be used to provide technical assistance with respect to programs listed 
in section 1241(a).

Conservation Operations--Conservation of Private Grazing Lands
    In addition to the base Conservation Technical Assistance Program, 
conservation districts support full funding for the NRCS Conservation 
of Private Grazing Lands provision, authorized at $60 million annually. 
Resource problems such as brush, weeds and accelerated water or wind 
erosion threaten the capacity of nearly 300 million acres--more than 50 
percent--of these lands to satisfy production needs and meet natural 
resource values. Working with partners such as the National Grazing 
Lands Conservation Initiative, conservation districts and their 
partners have determined that at least $60 million is needed to fund 
the CPGL program. This amount represents a $36.5 million, or 5 percent, 
increase relative to fiscal year 2003 CTAP spending and will allow us 
to begin reversing the negative trends that affect both production and 
environmental concerns on these lands.
    In addition technical assistance needs, currently more than 45 
percent of the nation's rangelands lack an adequate soil survey. 
Approximately 80 percent of the same lands need inventory and 
classification of their vegetation. Such information is essential to 
planning and implementing coordinated resource management programs, 
monitoring rangeland status and dealing with resource issues such as 
noxious weeds, wildfire and endangered species.
    NRCS is currently partnering with the Forest Service and USDI's 
Bureau of Land Management to develop a common interagency ecological 
framework for rangelands. The framework will provide improved 
efficiencies in rangeland inventory, facilitate interagency 
coordination, provide an essential base for monitoring, and provide all 
parties interested in rangelands a basis for a common understanding of 
their needs. Conservation districts urge Congress to direct the 
Secretaries of Agriculture and Interior to establish an interagency 
committee to develop a National Cooperative Rangeland Survey to address 
rangeland assessment and monitoring issues, provide adequate funding 
for those purposes and encourage the secretaries to cooperatively take 
actions necessary to develop and implement a 10-year plan for 
completion of a survey/ecological classification and a National 
Periodic Rangeland Survey. We recommend that $3 million be provided to 
NRCS for its share of the activities described above.
    The Conservation Operations account includes other important 
components that include snow survey and water forecasting activities; 
establishment and operation of plant materials centers; and conducting 
the cooperative soil survey program. Specific recommendations for those 
activities are: snow survey--$10 million; plant materials center--$15 
million; and soil surveys: $91 million.

Watershed Protection
    Through its Watershed Protection and Flood Prevention, Watershed 
Surveys and Planning, Watershed Rehabilitation Program and Emergency 
Watershed Program, NRCS partners with states, local units of 
government, tribes and other sponsor organizations to address many 
natural resource issues on a watershed basis. More than 2,000 plans, 
covering 160 million acres in watersheds across the country, have been 
completed or are under development. The purposes of watershed projects 
include watershed protection, flood prevention, water quality 
improvements, soil erosion reduction, water supply, irrigation water 
management, fish and wildlife habitat enhancement and wetland 
protection and restoration. Technical and financial assistance are 
provided in cooperation with local sponsoring organizations and state 
and other sponsoring public agencies to voluntarily plan and install 
watershed-based projects on private lands.
    In addition to planning new and meeting existing project needs, 
many of the more than 10,000 existing structures built over the past 50 
years through the cooperative watershed programs are nearing the ends 
of their life spans and no longer meet current dam safety or other 
standards. These structures now need to be upgraded, repaired or 
decommissioned to address watershed needs of today and the future.
    NRCS's Emergency Watershed Program provides cost-share and 
technical assistance to help landowners and operators and other 
cooperators restore damage from floods, storms and other natural 
disasters.
    The President's requests of $40 million for the Watershed 
Protection and Flood Prevention Program, $5 million for Watershed 
Surveys and Planning, and $10 million for Watershed Rehabilitation fall 
far short of the need. NACD and its partner, the National Watershed 
Coalition, document an immediate need and ability to effectively 
utilize $190 million, $35 million and $45 million, respectively, for 
these programs that address important watershed-based public health and 
safety issues across the nation and we urge you to make these funds 
available.
    Conservation districts also urge you to fund the NRCS Emergency 
Watershed Program at $110 million in fiscal year 2004 as an important 
step toward creating a separate, stand-alone account for helping 
landowners and operators respond to flooding and other emergencies.

Resource Conservation and Development (RC&D) Program
    NRCS's Resource Conservation and Development (RC&D) Program helps 
improve the capability of state, tribal and local units of government 
and local nonprofit organizations in rural areas to plan, develop and 
carry out programs to advance quality of life through natural resources 
conservation and community development. The overall goal of the RC&D 
Program is to help communities achieve sustainable development through 
prudent use, management and conservation of natural resources. The Farm 
Security and Rural Investment Act of 2002 (Farm Bill) permanently 
authorized the RC&D Program and increased the number of authorized 
areas to 450.
    RC&D Councils play an important role in rural development and 
natural resource conservation. USDA has indicated that it takes 
$161,000 to fully support an RC&D council. There are 368 existing 
councils and 20 pending applications. Conservation districts recommend 
that Congress appropriate $69.2 million to fully support the existing 
councils and additional applicant areas up to the authorized limit.

Rural Abandoned Mine Program (RAMP)
    Through its Rural Abandoned Mine Program (RAMP), NRCS addresses 
health, safety and environmental hazards created by abandoned mine 
lands in rural areas, which affect half of the 50 states. Although the 
Abandoned Mine Reclamation Fund (AMRF) is intended to fund these 
reclamation activities by providing a portion of the collected fees to 
be transferred from the Interior Department to RAMP, the program has 
received no funding for the past seven years.
    A portion of the funds from the Abandoned Mine Reclamation Fund is 
intended to be transferred to NRCS to help defray the costs associated 
with mineland reclamation activities. Although the portion of the fees 
collected by the AMRF targeted for RAMP stands at more than $250 
million, no funds have been transferred in the past six years. 
Conservation districts recommend transferring $25 million from the AMRF 
to the NRCS RAMP account in fiscal year 2004.
    Additional recommendations for USDA's discretionary-funded private 
lands conservation programs are contained in the attached chart.

Mandatory Programs
    In 1985, Congress recognized the important role that farmers and 
ranchers play in environmental protection when it enacted the first 
Farm Bill conservation title that required producers to incorporate 
conservation into their operations if they wanted to continue receiving 
USDA farm program benefits. The title also included a land retirement 
program--the Conservation Reserve Program (CRP)--to give farmers 
financial incentives to take sensitive lands out of production. In 
subsequent Farm Bills and other statutes, lawmakers added more 
incentives programs--the Wetlands Reserve Program (WRP), Environmental 
Quality Incentives Program (EQIP), Farmland Protection Program (FPP), 
Wildlife Habitat Incentives Program (WHIP) and Agricultural Management 
Assistance (AMA) Program--to provide additional incentives to increase 
conservation.
    The Farm Security and Rural Investment Act of 2002 enacted sweeping 
legislation that extended the above Farm Bill conservation programs, 
added several new initiatives, including the Conservation Security 
Program (CSP), Grassland Reserve Program (GRP) and Forest Land 
Enhancement Program (FLEP). It also dramatically increased funding for 
conservation through the Commodity Credit Corporation (CCC) by 80 
percent over current levels. In addition to the new and expanded 
program initiatives, the six-year bill provided that all of the 
``mandatory'' conservation programs would pay for their own technical 
assistance needs from within their own CCC program accounts.
    As noted earlier, the fiscal year agriculture component of the 
fiscal year 2003 omnibus appropriations bill clarified this by amending 
the Farm Bill to very specifically state this intent. However, the bill 
provided that technical assistance funding for the WRP and CRP would 
have to come from the CCC accounts of EQIP, FRPP, WHIP, the CSP and 
GRP. Conservation districts urge Congress to correct this oversight by 
amending the statute to allow WRP and CRP to pay their own technical 
assistance costs.
    With respect to the CSP, this new program presents an extraordinary 
opportunity to increase conservation on private working lands. In 
contrast to the other, more targeted programs, all producers and all 
working the CSP are eligible to participate. This innovative program 
provides varying levels of cost-share and incentive payments to 
producers who install and/or maintain conservation practices and 
systems with higher levels of conservation qualifying for higher levels 
of payments. Conservation districts worked hard to help craft this 
program and ensure its passage in the Farm Bill and support the CSP as 
an entitlement with no cap on its cost, as written in the 2002 law. The 
2003 appropriations law, however, capped the program at $3.7 billion 
over a 10-year period, which we believe seriously limits its ability to 
achieve much more significant conservation gains during that span. We 
strongly urge Congress to lift this restriction and allow the CSP to 
realize its true potential.
    Other conservation programs addressed in the Farm Bill include 
increasing CCC funding for the Agricultural Management Assistance (AMA) 
Program, which provides EQIP-type assistance in states traditionally 
underserved by Farm Bill programs, and providing additional CCC funding 
for the Small Watershed Rehabilitation Program.
    Conservation districts were strong supporters of the Farm Bill 
conservation programs and played a key role in their development and 
enactment. They also have significant roles in their implementation, 
among other roles, approving conservation plans, identifying local 
resource concerns, priorities and objectives, and coordinating 
community input into programs. In order to fully attain the public 
benefits the American want and expect from these key private lands 
conservation programs, we urge you to allow for their full funding in 
fiscal year 2004 as detailed in the attached chart.

Conclusion
    As you continue your work on providing funding for critical NRCS 
programs, we again urge you to keep in mind that NRCS is the only 
Federal agency whose primary role is to provide conservation assistance 
on the nation's private lands. There are a few other agencies with 
narrowly targeted purposes, but no other agency even comes as close to 
touching all of America's private working lands as do NRCS and 
conservation districts. It is critical, therefore, that we strengthen 
the nation's commitment to providing adequate resources to help land 
managers conserve and protect natural resources on these lands.
    On behalf of the nation's 3,000 conservation districts, we 
appreciate the opportunity to provide our views on fiscal year 2004 
funding recommendations for select USDA conservation programs. We look 
forward to working with you over the next few months in finalizing your 
proposals.
                                 ______
                                 

Prepared Statement of the National Association of Professional Forestry 
                     Schools and Colleges (NAPFSC)

    The National Association of Professional Forestry Schools and 
Colleges (NAPFSC) is comprised of the 69 universities that conduct the 
Nation's research, teaching, and extension programs in forestry and 
related areas of environmental and natural resource management. NAPFSC 
strongly supports increased funding for Federal forestry research 
programs, including those operated by the USDA's Cooperative State 
Research Education and Extension Service (CSREES).
    The time is right to strengthen the research and technology 
transfer capacity for Federal land management agencies. The management 
of nonfederal forestlands has become a critical economic, 
environmental, and security issue. Owners and managers of nonfederal 
forestlands are simply not equipped to deal with the tremendous changes 
in forest land use and management that have occurred in the last decade 
nor the pressures of the 21st century.
    The programs outlined below are key to addressing the stewardship 
of these lands. These programs are: the McIntire-Stennis Cooperative 
Forestry Research Program (McIntire-Stennis), the Renewable Resources 
Extension Act (RREA), and the National Research Initiative (NRI) 
Competitive Grants Program. These programs have stimulated the 
development of vital partnerships involving universities, Federal 
agencies, non-governmental organizations and private industry, and need 
to have increased funding for fiscal year 2004.
    The Case for Enhanced Forestry Research Funding.--The past, 
present, and future success of forestry research and extension 
activities arising from the NAPFSC member institutions results from a 
unique partnership involving Federal, State, and private cooperators. 
Federal agencies have concentrated on large-scale national issues while 
state funding has emphasized applied problems and state-specific 
opportunities. University research in contrast, with the assistance of 
Federal, State and private support, has been able to address a broad 
array of applied problems related to technology development and 
fundamental biophysical and socioeconomic issues and problems that 
cross ownership, state, region, and national boundaries.
    The 1998 Farm Bill and various subsequent reports and conference 
proceedings have identified the need for greater attention on the 
emerging issues confronting non-Federal forest landowners. NAPFSC is 
pleased to be one of the cofounders of the National Coalition for 
Sustaining America's Nonfederal Forests. The founding of the Coalition 
and its subsequent report emerged from a Forestry Summit held in 1999 
that brought together key forestry leaders and landowners from across 
the nation. The Coalition has documented a plan of action to conserve, 
protect, and sustain our nation's nonfederal forest lands. Recent 
security threats to the nation's forest and water resources further 
heighten the importance of this plan. The plan stresses the importance 
of cooperation among the public universities, State forestry agencies, 
Federal agencies, and the many stakeholders in the natural resources 
arena. Key elements of this plan are research capacity and concerted 
action on stakeholder priorities.
    The forests and other renewable natural resources of this country 
are primary contributors to the economic health of the nation; are 
reservoirs of biodiversity important to the well-being of our citizens; 
are significant to the maintenance of environmental quality of our 
atmosphere, water, and soil resources and provide diverse recreational 
and spiritual renewal opportunities for a growing population. 
Tremendous strains are being placed upon the nation's private forest 
lands by the combination of increasing demands for forest products 
coupled with dramatic changes in timber policies concerning our 
National Forests. Because of the changes in Federal forest policy, 
private forest lands in the United States are now being harvested at 
rates not seen since the beginning of the 20th century.
    To meet this challenge, research priorities must be adjusted to 
better address the needs of private landowners, and to specifically 
enhance the productivity of such lands through economically efficient 
and environmentally sound means. These challenges can be substantially 
addressed by the university community through the building of 
integrated research and extension programs assisted by McIntire-
Stennis, RREA, and NRI.
    There are currently approximately 10 million private forestland 
owners in the United States. These landowners control nearly 60 percent 
of all forestland in the country. And it has been to the universities, 
with strong support from CSREES, that landowners traditionally look for 
new information about managing their lands. The overwhelming majority 
of the 10 million private landowners are not currently equipped to 
practice the sustained forest management that is critical to the health 
of our environment and economy. The combination of research conducted 
by the forestry schools, combined with the dissemination of that 
research through the cooperative extension network, has never been more 
essential.
    The Cooperative Forestry Research (McIntire-Stennis) Program is the 
lead forestry effort administered by the USDA Cooperative State 
Research, Education, and Extension Service (CSREES). This program is 
the foundation of forest resources research and scientist training 
efforts at universities. The program provides cutting-edge research on 
productivity, technologies for monitoring and extending the resource 
base, and environmental quality--efforts that are critically important 
since universities provide a large share of the nation's research.
    The Investment.--The program is currently funded at $21,742,000 and 
matched more than three times by universities with state and nonfederal 
funds. The NAPFSC funding request for fiscal year 2004 is $30 million 
with the increase targeted at:
  --sustainable and productive forest management systems for private 
        lands to address issues of global change, international 
        competition and economic growth ($2.8 million);
  --forest health and risk to address fire, pest species, and other 
        disturbances affecting domestic resource security, downstream 
        impacts, and restoration of complex systems ($2.1 million);
  --assessing social values and tradeoffs to identify realistic policy 
        options, economic impacts, and to inform decisions with 
        effective science at all levels of government ($1.1 million);
  --forest monitoring and information systems with emphasis on 
        geospatial technologies and landscape models for aiding the 
        assessment of policy alternatives ($1.1 million); and
  --new biobased products, improved processing technologies, and 
        utilization of small trees to extend the forest resource and 
        enhance environmental quality ($1.0 million);
    The NAPFSC schools request this support with direction to focus on 
new or existing approved projects to achieve rapid progress on one or 
more of these research targets in each school's state, region, or 
nationally. We recognize that progress will be dependent on a critical 
mass of scientific effort, thus collaboration among schools is 
encouraged. Portions of this funding will also be used to provide 
training for critically needed new forest resources scientists. 
Addressing the base program needs will in turn build the capacity to 
compete effectively for competitive grants, such as through the 
National Research Initiative (NRI).
    The Renewable Resources Extension Program (RREA) program in CSREES 
is the nation's lead forest resources extension effort--it is the 
foundation of outreach and extension efforts at universities. The 
program is critically important today since universities provide a 
large share of the nations outreach and extension. Also, these same 
institutions educate nearly all of the nation's professionals in forest 
resources. Audiences for the products of outreach and extension are as 
diverse as are the stakeholders. The highest priority is the owners of 
nonfederal forestlands and those involved in implementing forest 
management.
    The Investment.--A wide range of management practices and 
techniques are needed to increase the production of multiple outputs 
from forests and to enhance domestic resource security. Building toward 
this accomplishment will take several years. However, we urge a 
significant step this year. The RREA program is currently funded at 
$4,516,000. The NAPFSC request for fiscal year 2004 is $15 million. The 
most compelling targets for this increase are:
  --Best management practices together with readily accessible 
        information on programs, services, and benefits of natural 
        resources management and planning to integrate water, wildlife, 
        timber, fish, recreation and other products and services ($3.5 
        million);
  --Communication systems for landowner education and the delivery of 
        information tailored to address owner values and objectives 
        ($3.3 million);
  --Risk management approaches for addressing fire, pests, and other 
        disturbances at local to larger scales--issues of environmental 
        and resource security ($2.1 million).
  --Opportunities for cooperation such as landowner cooperatives and 
        other organizations linked to professional services and 
        marketing, and conservation strategies to address local issues 
        within the framework of landowner's objectives ($1.5 million).
    The NAPFSC schools request this support with direction to focus on 
new or existing approved projects to achieve rapid progress on one or 
more of these research targets in each school's state, region, or 
nationally. We recognized that progress will be dependent on a critical 
mass of extension educator effort, thus collaboration among schools is 
encouraged. Portions of this funding will also be used to provide the 
training needed in developing new extension educators.
    The National Research Initiative Competitive Grants Program (NRI) 
is a significant source of funding for basic and applied research on 
forest resources and their management and utilization. This program is 
currently funded at $166,045,000 of which approximately ten percent 
goes to successful forestry research proposals. NAPFSC supports the 
Administration's efforts to increase the funding for this program to 
$200 million for fiscal year 2004 but urges that at least 20 percent of 
the increase be directed to forest resources related research.
    2002 Farm Bill Funding.--NAPFSC strongly urges Congress to provide 
full funding for the various programs authorized in the 2002 Farm Bill, 
especially programs such as Environmental Quality Incentives Program 
(EQIP) and the Forest Land Enhancement Program (FLEP). These programs, 
along with programs such as Wetland Reserve Program and the Wildlife 
Habitat Improvement Program (WHIP) are instrumental in the development 
and implementation of any national investment strategy for forest 
resources. It is important that the Department of Agriculture has a 
strong infrastructure to deliver these important conservation 
provisions. NAPFSC urges the Committee to provide necessary funding to 
the Natural Resources Conservation Service. These funds will provide 
the resources to insure that the technical expertise will be available 
to work with the increasing number of landowners who are addressing a 
broad set of resource issues, including forest management as well as 
conservation.

Conclusion
    The investments outlined here are substantial, but the potential 
savings and returns are far greater. Disciplined and rigorous 
implementation of research and education on forest resources issues 
will contribute greatly to attaining our vision for America's 
nonfederal forests for the future. NAPFSC urges cooperation at Federal, 
State, and University levels to make this investment and the vision and 
security it will support a reality.
                                 ______
                                 

Prepared Statement of the National Association of University Fisheries 
                         and Wildlife Programs

    The National Association of University Fisheries and Wildlife 
Programs (NAUFWP) appreciates the opportunity to submit testimony 
concerning the fiscal year 2004 budgets for the Natural Resources 
Conservation Service (NRCS) and the Cooperative State Research, 
Education and Extension Services (CSREES). NAUFWP represents 
approximately 55 university programs and their 440 faculty members, 
scientists, and extension specialists and over 9,200 undergraduates and 
graduate students working to enhance the science and management of 
fisheries and wildlife resources. NAUFWP is interested in strengthening 
fisheries and wildlife education, research, extension, and 
international programs to benefit wildlife and their habitats on 
agricultural and other private land.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Farm Bill Technical Assistance.--We applaud Congress for passing 
the 2002 Farm Bill that authorizes USDA to work with third party 
Technical Service Providers, building a strong cadre of certified 
professionals to assist NRCS in delivering assistance to producers. 
However, NRCS recognizes that technical service and other training will 
be needed to effectively prepare Technical Service Providers to assist 
producers and landowners. NAUFWP recommends that the Administration 
provide NRCS with adequate funds to make use of universities, colleges, 
land grant institutions, and the Extension Service to train Technical 
Service Providers.
    Monitoring and Evaluation.--Monitoring Farm Bill conservation 
programs and evaluating their progress toward achieving Congressionally 
established objectives for soil, water, and wildlife will enable NRCS 
to ensure successful conservation program implementation. Changes to 
agricultural policy in the 2002 Farm Bill, such as higher funding 
authorizations and expanded acreage enrollment caps, necessitate an 
accountability system that continuously assesses the effectiveness of 
conservation programs and policies. NAUFWP recommends dedicating the 
$10 million approved in the Farm Bill Statement of Managers for 
monitoring to monitoring and evaluation of Farm Bill conservation 
programs. We propose using a competitive grants process to fund a 
consortium of non-USDA organizations (non-governmental organizations, 
universities, and state organizations) for the purpose of identifying 
cost-saving practices, program improvements, and future funding 
requirements, and determining the environmental and economic value of 
conservation expenditures.

      COOPERATIVE STATE RESEARCH, EDUCATION AND EXTENSION SERVICES

    Renewable Resources Extension Act.--NAUFWP was pleased that 
Congress appropriated $423,000 above the Administration's request for 
the Renewable Resources Extension Act (RREA) in 2003. RREA provides an 
expanded, comprehensive extension program for forest and rangeland 
renewable resources. The need for these programs is greater than ever 
now due to fragmentation of ownerships, urbanization, the number and 
diversity of landowners needing assistance, and the increasing social 
concern for land use and its effect on soil, water, air, and wildlife.
    It is important to note that RREA was reauthorized in the 2002 Farm 
Bill at $30 million annually through 2007. Though RREA is proven to be 
effective at leveraging cooperative state and local funding, it has 
never been fully funded in the annual appropriations process. In fact, 
the fiscal year 2004 request for RREA falls back to the 2002 funding 
level, $4.093 million, which is insufficient for assisting private 
landowners who own and manage most of the nation's natural resources. 
An increase to at least $15 million would enable CSREES to expand its 
capability to assist more private landowners in improving management of 
private land while increasing farm revenue. Therefore NAUFWP recommends 
that the Renewable Resources Extension Act be funded at a minimum of 
$15 million in fiscal year 2004.
    McIntire-Stennis.--The McIntire-Stennis Cooperative Forestry 
program funds state efforts in forestry research to increase the 
efficiency of forestry practices, and to extend the benefits that come 
from forest and related rangelands. McIntire-Stennis calls for close 
coordination between state colleges and universities and the Federal 
Government, and is essential for providing research background for 
other Acts, such as RREA. The Administration's fiscal year 2004 request 
for McIntire-Stennis is $21.884 million, in essence level with 2002 and 
2003. NAUFWP recommends that funding for McIntire-Stennis Cooperative 
Forestry be increased to $30 million.
    National Research Initiative.--National Research Initiative 
Competitive Grants (NRI) are open to academic institutions, Federal 
agencies, and private organizations to fund research on improving 
agricultural practices, particularly production systems that are 
sustainable both environmentally and economically, and to develop 
methods for protecting natural resources, including wildlife. 
Innovative grant programs such as NRI help broaden approaches to land 
management, such as integrating timber and wildlife management on 
private lands. NAUFWP supports the Administration's 2004 request of 
$200 million for National Research Initiative Competitive Grants, and 
requests Congressional approval.
    Thank you for considering the views of university fisheries and 
wildlife scientists. We look forward to working with you and your staff 
to ensure adequate funding for wildlife conservation.
                                 ______
                                 

 Prepared Statement of the National Commodity Supplemental Food Program

    Mr. Chairman and subcommittee members, I am Leona Martens, 
President of the National Commodity Supplemental Food Program (CSFP) 
Association. Our Association of state and local CSFP operators works 
diligently with the Department of Agriculture Food, Nutrition and 
Consumer Service to ensure a quality supplemental nutrition assistance 
commodity food package program for low income persons aged sixty and 
older, and low income mothers, infants, and children. The program, 
which was authorized in 1969, serves approximately 476,000 individuals 
every month in 32 states, 2 Tribal Organizations and the District of 
Columbia.
    This 34 year old CSFP stands as testimony to the power of 
partnerships between community and faith-based organizations, private 
industry and government agencies. The CSFP offers a unique combination 
of advantages unparalleled by any other food assistance program:
  --The CSFP specifically targets our nation's most vulnerable 
        populations: the very young and the very old low-income 
        persons.
  --The CSFP provides a monthly selection of food packages specifically 
        tailored to the nutritional needs of the population we serve. 
        Each eligible participant in the program is guaranteed [by law] 
        a certain level of nutritional assistance every month.
  --The CSFP purchases foods at wholesale prices, which directly 
        supports the farming community. The wholesale costs amount to 
        \1/3\ the cost it would be to provide the same supplemental 
        nutrients at retail voucher cost. The average food package for 
        fiscal year 2003 is $13.72, and the retail cost would be 
        approximately $45.00.
  --The CSFP involves the entire community in the problems of hunger 
        and poverty. Thousands of volunteers as well as many private 
        companies donate money, equipment, and most importantly time to 
        deliver food to homebound seniors. These volunteers not only 
        bring food but companionship and other assistance to seniors 
        who might have no other source of support.
    Chairman Bennett, the committee has consistently been helpful with 
funding support for our very prudent way of providing nutritional 
supplemental food packages to low income eligible seniors, mothers and 
children. Please help us continue.

     NATIONAL CSFP NATIONAL CSFP ASSOCIATION 2004 ISSUES AND GOALS

Fiscal year 2004 Caseload and Funding Request--$130 Million
    598,674 Caseload Slots--$129,994,469.00.
    Caseload Requirements Existing States--559,674 Slots.
    Total Cost Per Caseload Slot: $164.64.--($13.72 blended monthly 
food package cost  12 months) + $52.08 ($51.48 annual fiscal year 2003 
administrative annual funding level  1.16 percent state and local 
index of inflation) = $216.72 per slot = $121,292,549.00.
    Expansion For Current Participating States: 27,000 Slots.--Current 
participating states had requested 6,000 additional slots to serve CSFP 
eligible seniors, women and children that were not awarded for fiscal 
year 2003. Additional slots will be needed as the eligible population 
increases due to the current economic conditions. This would require an 
$164.64 ($13.72 blended monthly food package cost  12 months) + $52.08 
($51.48 annual fiscal year 2003 administrative annual funding  1.16 
percent state and local index of inflation) = $216.72 per slot = 
$5,851,440.00
    New States: 12,000 Slots.--Arkansas, Maine, Oklahoma and Utah are 
submitting State Plans. 3,000 slots for each State would equal an 
additional $123.48 ($13.72 blended monthly food package cost <greek-e> 
9 months) + $39.06 ($52.08 prorated for 9 months) = $162.54 per slot = 
$1,950.480.00.
    Estimated USDA Costs for Procuring Commodities--$.9 million.
    Restore Senior Income Guidelines to 185 percent of Poverty.--
Current income eligibility for senior clients is set at 130 percent of 
the poverty income guidelines, as opposed to 185 percent of poverty for 
CSFP women, infants, and children and clients of the WIC Program and 
the Seniors Farmers Market Nutrition Program. Many seniors are 
struggling with high housing, medical, and utility costs, and at the 
130 percent poverty guideline, even the slightest inflation-driven 
increase in Social Security income renders many seniors ineligible for 
CSFP. The Senior Nutrition Act has been introduced in both the House 
and Senate in 2003. Senate bill number is S 468 and House is HR 1021.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    I appreciate the opportunity to submit testimony for the record 
regarding the fiscal year 2004 funding request for the National Fish 
and Wildlife Foundation (Foundation). The Foundation respectfully 
requests that this Subcommittee fund the Foundation at $4 million 
through the U.S. Natural Resources Conservation Service (NRCS) 
appropriation. This request would allow the Foundation to expand its 
highly successful grant program to better assist the NRCS in maximizing 
the benefits of the Conservation Title of the 2002 Farm Bill.
    Federal dollars appropriated by this Subcommittee allow us to 
leverage state, local and private dollars for on-the-ground 
conservation. Since our inception in 1984, the Foundation as a whole 
has supported over 5,756 grants and leveraged over 230 million Federal 
dollars for more than $700 million in on-the-ground conservation 
projects. This has resulted in more than 24.6 million acres of restored 
and managed wildlife habitat; 15,036 miles of restored streams and 
waterways; new hope for countless species under stress; new models of 
private land stewardship; and, stronger education programs in schools, 
local communities and on our Nation's farms. This Subcommittee's 
appropriation of NRCS dollars to the Foundation has helped us reach our 
goal.
    With funds appropriated to the Foundation in previous 2 fiscal 
years, we have been able to yield a return of more than three non-
Federal dollars raised for every taxpayer dollar entrusted to our 
organization. None of our Federally appropriated funds are used for 
lobbying or litigation, or the Foundation's administrative expenses. 
All of our Federally appropriated funds go to one-the-ground projects. 
Furthermore, our general administrative expenses, including 
fundraising, public relations, and finance and administration averaged 
4 percent or less over the past 5 years.
    The Foundation's relationship with the NRCS began in 1996 when we 
signed a cooperative agreement to protect and restore previously 
converted agricultural wetlands through the Wetland Reserve Program 
(WRP). Through that partnership the Foundation received $5 million in 
NRCS funds, matched it with $5.4 million in non-Federal funds and 
awarded a total of 31 WRP grants. More than 10,000 acres were restored 
and enrolled in the WRP through this effort. In 1999, due in part to 
success of our WRP grant program, this Subcommittee appropriated $3 
million in fiscal year 2000 funds to the Foundation to implement a new 
general conservation grant program with the NRCS.
    This new general conservation grant program allowed us then and 
continues to allow the Foundation to be highly successful in assisting 
the NRCS in accomplishing its mission to help people conserve, maintain 
and improve our natural resources and environment. Whether it involves 
farm, range or grassland conservation, species management or 
conservation education, the Foundation strategically invests the 
Federal funds entrusted to us in sound projects. In fiscal year 2000, 
the Foundation was able to match the $3 million in appropriated funds 
with $7.5 million in non-Federal funds. In fiscal year 2001, the 
Foundation received an additional $3 million to continue our 
conservation partnership. This time the Foundation was able to exceed a 
3:1 non-Federal to Federal investment ratio by matching the $3 million 
appropriated by the Subcommittee with more than $10.5 million in non-
Federal funds.
    Our success continued in fiscal year 2002 as we were able to once 
again achieve a 3:1 non-Federal to Federal matching ratio by turning 
the $3 million appropriated to the Foundation into more than $12 
million in on-the-ground conservation. In total, during the past 3 
years the Foundation has been able to support 185 grant projects in 43 
states by matching the $9 million in appropriated funds with more than 
$27 million in non-Federal funds for a total of $36 million in on-the-
ground conservation. Although we have not received our fiscal year 2003 
funds yet, we fully anticipate receiving more good project proposals 
than we will be able to fund.
    You might ask how do we do it. The Foundation provides competitive 
grants that are matched by the grantee with non-Federal funds and in-
kind services. Those grantees include Resource Conservation and 
Development Councils, conservation districts and non-profit 
organizations. The Foundation also works to provide private funds 
through the generosity of one of our growing number of corporate and 
foundation partners. For example, Federal funds awarded through our 
NRCS grant program have been supplemented with funding from the Shell 
Oil Company, the FMC Corporation, Anheuser-Bush Companies, Inc., the 
Summer T. McKnight Foundation, the Charles Stewart Mott Foundation and 
the David and Lucile Packard Foundation. In fiscal year 2002 alone, 
these organizations provided more than a quarter of a million dollars 
to enhance our NRCS partnership grants.

Working Landscapes
    Through our partnership we work with NRCS to identify and fund 
projects that have strong support in affected agricultural and rural 
communities. We place our highest priority on projects integrating 
conservation practices on ongoing agricultural, ranching and forestry 
operations. We fund partners and provide expertise by engaging 
watershed experts, ranchers, foresters, farmers, local governments and 
non-profits to undertake on-the-ground private land activities with 
willing landowners.
    The Foundation has provided critical support to organizations that 
are assisting farmers and ranchers implement Farm Bill programs. 
Through these efforts the Foundation has helped to restore and protect 
thousands of acres of buffer, wetland and grassland habitats. From 
fiscal year 2000 through fiscal year 2002 the Foundation's partnership 
with the NRCS has lead to the direct restoration of 177,716 acres of 
farmland and rangeland and to 638 miles of restored streams and rivers. 
The Iowa Buffer and Wetland Enrollment project is an example of a great 
working landscape project. With $37,500 in Federal funds and $387,500 
in non Federal funds, the grantee, Pheasants Forever, worked with Soil 
and Water Conservation Districts (SWCD) to sign up 58,790 acres of 
buffers and small wetlands to the Continuous Conservation Reserve 
Program (CCRP). The program was implemented in approximately 70 SWCD's 
in Iowa.
    The Foundation has also invested heavily in efforts to improve the 
ecological health of working agricultural lands. Grantees supported by 
the Foundation have worked with farmers and ranchers to reduce 
agricultural runoff, remove invasive species and restore native 
ecosystems. An example of one of our stellar projects is the 
Conservation on Wisconsin Blufflands project. The grantee, The Prairie 
Enthusiasts, are utilizing $12,500 in Federal funds and $60,000 in non-
Federal funds to work with local private landowners in managing prairie 
and oak savanna remnants in southern Wisconsin. Oak savanna is one of 
the most rare plant communities in North America and requires active 
management to properly maintain. This project seeks to work with 30 
private landowners on 2,000 acres of land to connect adjacent prairie 
remnants through landowner management practices.

Conserving Fish, Wildlife and Plants
    With our NRCS dollars, the Foundation funds projects that directly 
benefit diverse fish and wildlife species including, salmon in the 
west, migratory birds in the midwest and grassland birds in the south. 
Habitat for native fish has been restored on private lands throughout 
the United States through vegetative planting, streambank 
stabilization, livestock fencing and nutrient reduction efforts. In 
addition to improving water quality, efforts have been undertaken by 
our grantees to reduce water loss associated with irrigation systems. 
By reducing the water taken from rivers for irrigation purposes, there 
is less chance that drought will negatively impact aquatic life.
    A project that highlights our restoration of native fish is the 
Thistle Creek (UT) Riparian Restoration project. With $25,000 in 
Federal funds and $51,600 in non-Federal funds the Utah Division of 
Wildlife Resources restored 3,500 feet of stream corridor and 30 acres 
of associated riparian habitat on a working ranch in Utah County, Utah. 
The project improved the spawning and rearing habitat for the 
leatherside chub, a state sensitive species, and served as a 
demonstration site to education local landowners on the value of 
properly functioning streams to the ecological health of the land.
    We also measure our success in part by preventing the listing of 
species under the Endangered Species Act and by stabilizing and 
hopefully moving others off the list. Some species that have received 
support through our NRCS grant program include salmonids, golden-
cheeked warblers, black-tailed prairie dogs and Karner blue 
butterflies. We invest in common sense and innovative cooperative 
approaches to endangered species, building bridges between the 
government and the private sector.

Expanding Conservation Education Opportunities
    Our grants also use our NRCS dollars to expand conservation 
education opportunities. Of our fiscal year 2002 NRCS partnership 
grants, approximately one fourth contained an environmental education 
component. Some of the conservation education projects supported 
through our NRCS grant program seek to educate farmers and ranchers on 
conservation practices while demonstrating how best management 
practices and wildlife incentives provide both environmental and 
economic benefits. Other projects have provided training to secondary 
school teachers on the ecological, economic and cultural benefits of 
rangeland and farmland conservation. The Limited Resource Farmer 
Outreach (MS) grant is a good example to highlight. In this project, 
the grantee, Northwest Mississippi Resource Conservation & Development 
Council, was awarded $57,500 in Federal funds that were matched with 
$138,000 in nonfederal funds to increase limited resource farmer 
knowledge of and participation in conservation practices. The project 
made conservation methods available to the farmers, assisted them in 
their implementation and demonstrated the environmental and economic 
benefits derived from these programs.

Accountability and Grantsmanship
    All potential grants are subject to a peer review process involving 
local NRCS staff, state agency staff, academics, commodity and 
environmental interests, corporations, and others. The review process 
examines the project's conservation need, technical merit, the support 
of the local community, the variety of partners, and the amount of 
proposed non-Federal cost share. We also provide a 30 day notification 
to the Member of Congress for the congressional district in which a 
grant will be funded prior to making the grant. In addition, the 
Foundation requires strict financial reporting by grantees and is 
subject to an annual audit.

Basic Facts About the Foundation
    The Foundation promotes conservation solutions by awarding 
challenge grants using its Federally appropriated funds to match 
private sector funds. We have a statutory requirement to match Federal 
funds with at least an equal amount of non-federal funds, which we 
consistently exceed. No federal Agriculture Subcommittee appropriations 
meet our administrative expenses--these costs are met through private 
fundraising activities distinct from our matching grant fundraising. 
The Foundation assesses administrative fees for programs when an agency 
asks us to carry out a special project, such as the ``Friends'' 
Initiative to benefit the National Wildlife Refuge system. The fee is 
five percent or less and does not involve the funds appropriated to the 
Foundation.
    The Foundation is governed by a 25-member Board of Directors 
appointed by the Secretary of The Interior. At the direction of 
Congress, the Board operates on a nonpartisan basis. Directors do not 
receive any financial compensation for service on the Board; in fact, 
all of our directors make financial contributions to the Foundation. It 
is a diverse Board, representing the corporate, philanthropic, and 
conservation communities; all with a tenacious commitment to fish and 
wildlife conservation.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the, most cost-effective conservation program funded in part by 
the Federal Government. By implementing real-world solutions with the 
private sector while avoiding regulatory or advocacy activity, our 
approach is more consistent with this Congress' philosophy than ever 
before. We serve as a model for bringing private sector leadership to 
Federal agencies and for developing cooperative solutions to 
environmental issues. We are confident that the money you appropriate 
to the Foundation will continue to make a difference.
                                 ______
                                 

  Prepared Statement of the National Organization for Rare Disorders 
                                 (NORD)

    Mr. Chairman, and members of the Senate Appropriations Subcommittee 
on Agriculture, Rural Development and Related Agencies, the National 
Organization for Rare Disorders (NORD) wishes to express its views 
regarding appropriations for the Orphan Products Research Grants 
Program administered by the Office of Orphan Product Development (OOPD) 
at the Food and Drug Administration (FDA).
    On November 6, 2002, President George W. Bush signed the Rare 
Diseases Orphan Product Development Act, Public Law 107-281, sponsored 
by Representative Mark Foley. The purpose of the Act is to ``increase 
the national investment in the development of diagnostics and 
treatments for patients with rare diseases and disorders,'' as follows:

    Sec. 3. FOOD AND DRUG ADMINISTRATION; GRANTS AND CONTRACTS FOR THE 
DEVELOPMENT OF ORPHAN DRUGS.
    Subsection (c) of section 5 of the Orphan Drug Act (21 U.S.C. 
360ee(c)) is amended to read as follows:
    ``(c)'' For grants and contracts under subsection (a), there is 
authorized to be appropriated such sums as already have been 
appropriated for fiscal year 2002, and $25,000,000 for each of the 
fiscal years 2003 through 2006.''

    As NORD, and the 25 million Americans affected by rare diseases 
celebrate the 20th anniversary of the passage of the Orphan Drug Act, 
we respectfully request that this Committee reconfirm Congress' 
commitment to the rare disease community by increasing funding for 
research on needed diagnostics and therapeutics. Specifically, we 
request that this Committee support an increase in funding for the 
FDA's Orphan Product Research Grants program to the $25 million 
authorized in the Rare Diseases Orphan Product Development Act (Public 
Law 107-281), and for each of the fiscal years 2005 through 2008.
Background
    In 1982, the U.S. Congress passed the Orphan Drug Act, (ODA), 
Public Law 97-414, and on January 4, 1983, President Ronald Reagan 
signed it into law. Both the Congress and the Administration recognized 
that ``a pharmaceutical company which develops an orphan drug may 
reasonably expect the drug to generate relatively small sales in 
comparison to the cost of developing the drug and consequently to incur 
a financial loss.'' It also found that, ``there is reason to believe 
that some promising orphan drugs will not be developed unless changes 
are made in the applicable Federal laws to reduce the costs of 
developing such drugs and to provide financial incentives to develop 
such drugs.'' \1\
---------------------------------------------------------------------------
    \1\ The Orphan Drug Act, Public Law 97-414.
---------------------------------------------------------------------------
    Financial incentives of the ODA include:
  --Seven years marketing exclusivity for the first company to develop 
        an orphan drug for a rare disease;
  --User fee waiver;
  --User fee waiver;
  --Tax credits for the costs of clinical research;
  --Establishment the FDA Orphan Product Research Grants program to 
        support small clinical trials on new orphan drugs, biologics, 
        devices and medical foods;
  --The law defines a rare disease or condition as any disease or 
        condition which ``(A) affects less than 200,000 persons in the 
        United States, or (B) affects more than 200,000 in the United 
        States for which there is no reasonable expectation that the 
        cost of developing and making available in the United States a 
        drug for such disease or condition will be recovered from sales 
        in the United States of such drug.'' \2\
---------------------------------------------------------------------------
    \2\ The Orphan Drug Act, as amended October 1984, Public Law 98-
551.
---------------------------------------------------------------------------
Orphan Products Defined
    ``Orphan products'' are treatments for rare conditions that have 
small potential markets and thus are not attractive to the commercial 
sector. Such treatments were not being developed for ``orphan'' 
diseases by the private sector until the Orphan Drug Act was enacted in 
1983. For example, only 10 products specifically for the treatment of 
rare diseases were developed by the pharmaceutical industry during the 
10 years prior to 1983.
    Since 1983, the FDA has approved 238 orphan drugs for marketing, 
and more than 900 additional orphan drugs are in the research pipeline
  --85 percent are used for serious and/or life-threatening diseases
  --31 percent are for rare cancers
  --11 percent are for metabolic disorders
  --50 percent are for pediatric uses
  --20 percent of orphan designations are for novel biotechnology 
        products.
    According to the FDA Office of Orphan Product Development, these 
currently marketed orphan drugs are helping over 11 million Americans 
and millions more around the world.\3\
---------------------------------------------------------------------------
    \3\ Haffner, Marlene E., Whitley, Janet and Moses, Marie. Two 
decades of orphan product development, Nature Reviews, October 2002, 
pp. 821-825.
---------------------------------------------------------------------------
Orphan Products Research Grants Program
    In 1982, Congress passed the Orphan Drug Act to provide funding for 
pivotal clinical trials on new orphan drugs, medical devices, and 
medical foods for rare diseases.
    Of the 238 orphan products currently approved for marketing, 29 (25 
drugs and 4 medical devices) have been developed with funding from the 
FDA's orphan product research grants. These small research grants are 
critically important to academic scientists trying to develop 
preliminary data they can use to attract commercial sponsors who will 
develop their treatment and bring it to the American market. They are 
also important to small companies developing sufficient data to attract 
investment capital. \4\
---------------------------------------------------------------------------
    \4\``The Orphan Drug Act has proven particularly helpful to the 
biotechnology industry that emerged in the years following passage. 
This young, volatile industry is heavily dependent on private capital 
to fund research and development.'' The Orphan Drug Act, Implementation 
and Impact. DHHS, Office of Inspector General, OEI-09-00-00380, May 
2001.
---------------------------------------------------------------------------
    Twenty-one of the 29 products developed through funding from the 
FDA's Orphan Products Research Grants Program were awarded to 
investigators at academic centers. The remainder went to start-up firms 
(see attached), thus ``bridging the gap between basic research, 
clinical development and marketing approval.'' \5\
---------------------------------------------------------------------------
    \5\ Haffner, et al.
---------------------------------------------------------------------------
    Approximately 80 applications for new orphan product research 
grants are received each year, but until now only 20 percent of those 
new applications have actually been funded annually.
    Most of FDA's Orphan Products Research Grants support small 
clinical trials at academic institutions throughout the nation to 
develop the preliminary evidence that is necessary to attract 
commercial sponsors, This unique research grant program is the 
quintessential model for a successful government/industry partnership, 
filling a major gap between academic research and the private sector, 
and creating lifesaving products needed throughout the world. For 
example,
  --Children with Severe Combined Immune Deficiency (``Bubble Boy 
        Disease'') no longer have to live in a plastic bubble because 
        now their immune systems can fight off germs, thanks to an 
        orphan drug developed with these grant funds.
  --Children with urea cycle disorders no longer slip into a coma and 
        die because an orphan drug enables their bodies to eliminate 
        toxic levels of ammonia;
  --Babies born without ribs no longer suffocate in infancy because an 
        artificial rib (orphan medical device) is being developed now 
        with funds from the Orphan Products Research Grants Program 
        that allows the children's lungs to expand and breathe;
  --Narcolepsy, Cystic fibrosis, Crohn's disease, and multiple 
        sclerosis drugs are on the market today only because these 
        grants supported some of their clinical research.

Conclusion
    Many diseases and conditions are simply too rare to attract private 
investment because the commercial sector is not interested in 
developing treatments for small markets. The investment necessary for 
research and development of new drugs and devices is too large in 
comparison to the size of the potential market for a rare disease. The 
FDA's Orphan Products Research Grants program enables scientists to 
develop the preliminary data necessary to show that a drug, biologic, 
device or food is safe and probably effective, making commercial 
development less risky. Only then will a company be interested in 
adopting the product and bringing it through the FDA approval process.
    The National Institutes of Health (NIH) has catalogued 6,000 rare 
diseases, some of which are familiar ailments including Tourette 
Syndrome, Sickle Cell Anemia and Hemophilia. Yet there are thousands of 
other devastating rare diseases that are unfamiliar to the public and 
the medical community.
  --Fibrodysplasia ossificans progressive (FOP) is a genetic disorder 
        ``in which the body transforms its muscles, tendons, and 
        ligaments into bone.'' Patient population: 125.\6\
---------------------------------------------------------------------------
    \6\ Maeder, Thomas. Adopting Orphan Diseases. Red Herring, January 
16,2001, pp. 128-134.
---------------------------------------------------------------------------
  --Sturge-Weber Syndrome is a condition characterized by excessive 
        blood vessel growth, accumulation of calcium in the brain and 
        seizures. Patient population: less than ten thousand.
  --Angelman Disease is characterized by severe mental retardation, 
        prolonged inappropriate laughter, facial abnormalities, and 
        impaired movement control. Patient population: approximately 
        700.\7\
---------------------------------------------------------------------------
    \7\ Maeder, p. 130.
---------------------------------------------------------------------------
    For the patients affected by these and thousands of other rare 
diseases, the prospects for a cure or the discovery of a therapy to 
alleviate symptoms have been dim. Diagnosis takes from one to six years 
in 35 percent of the cases, and more than seven years in 15 percent.\8\ 
Even when the cause of the disease is discovered, (e.g., a genetic 
defect, infectious agent, etc.), most pharmaceutical companies would be 
very hesitant to invest in development of a new treatment unless there 
is evidence from small clinical trials indicating that an experimental 
treatment will work. These small research grants from the FDA provide 
support for academic researchers and small companies so they can 
develop the evidence necessary to attract commercial sponsors.
---------------------------------------------------------------------------
    \8\ Report of the National Commission on Orphan Diseases, 
Publication Number HRP-090-7248, United States Government Printing 
Office, February, 1989.
---------------------------------------------------------------------------
    The FDA's Orphan Products Research Grants Program is not new. It 
has a 21-year record of accomplishment, and it has already been 
responsible for the development of 29 life-saving orphan products that 
would not be on the market today if this program had not existed. When 
Congress passed the Rare Diseases Orphan Product Development Act last 
year, it sent a strong signal to rare disease patients in every state 
of the union that it recognizes the critical importance of these 
research grants, it salutes the progress that the ODA has pioneered in 
the last two decades, and Congress implicitly intends to appropriate 
$25 million to the FDA's Orphan Product Research Grants Program which 
represents only $1 for every rare disease patient in the United states.
    NORD, on behalf of the 25 million medically disenfranchised 
Americans and their families affected by rare ``orphan'' diseases, 
respectfully requests that the members of this Subcommittee appropriate 
no less than $25 million to the FDA Orphan Products Research Grants 
Program for fiscal year 2004 and for each of the fiscal years 2005 
through 2008.as provided for in the Rare Diseases Orphan Product 
Development Act. This funding will fill the void between government and 
the private sector, and propel new treatments forward from academic 
laboratories to patients' bedsides and ultimately to our local 
pharmacies. Your compassion and insight will put new orphan drugs and 
devices into the waiting hands of critically ill patients.

About NORD
    NORD is a federation of approximately 130 voluntary health 
organizations and over 50,000 individual patients, healthcare providers 
and clinical researchers dedicated to helping the 25 million people in 
the United States affected by rare ``orphan'' diseases. NORD is 
committed to the identification, treatment, and cure of rare disorders 
through programs of education, advocacy, research and service. For 
additional information, please contact Diane E. Dorman, Vice President 
for Public Policy, in NORD's Washington Office at (202) 258-6457 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c3c3c8d5cac6c9e7d5c6d5c2c3ced4c2c6d4c2d489c8d5c089">[email&#160;protected]</a>

                    ATTACHMENT I--PUBLIC LAW 107-281

 AN ACT To amend the Federal Food, Drug, and Cosmetic Act with respect 
           to the development of products for rare diseases.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Rare Diseases Orphan Product 
Development Act of 2002''.

SEC. 2. FINDINGS AND PURPOSES.

    (a) Findings.--Congress makes the following findings:
            (1) Rare diseases and disorders are those which affect 
        small patient populations, typically populations smaller than 
        200,000 individuals in the United States. Such diseases and 
        conditions include Huntington's disease, amyotrophic lateral 
        sclerosis (Lou Gehrig's disease), Tourette syndrome, Crohn's 
        disease, cystic fibrosis, cystinosis, and Duchenne muscular 
        dystrophy.
            (2) For many years, the 25,000,000 Americans suffering from 
        the over 6,000 rare diseases and disorders were denied access 
        to effective medicines because prescription drug manufacturers 
        could rarely make a profit from marketing drugs for such small 
        groups of patients. The prescription drug industry did not 
        adequately fund research into such treatments. Despite the 
        urgent health need for these medicines, they came to be known 
        as ``orphan drugs'' because no companies would commercialize 
        them.
            (3) During the 1970s, an organization called the National 
        Organization for Rare Disorders (NORD) was founded to provide 
        services and to lobby on behalf of patients with rare diseases 
        and disorders. NORD was instrumental in pressing Congress for 
        legislation to encourage the development of orphan drugs.
            (4) The Orphan Drug Act created financial incentives for 
        the research and production of such orphan drugs. New Federal 
        programs at the National Institutes of Health and the Food and 
        Drug Administration encouraged clinical research and commercial 
        product development for products that target rare diseases. An 
        Orphan Products Board was established to promote the 
        development of drugs and devices for rare diseases or 
        disorders.
            (5) Before 1983, some 38 orphan drugs had been developed. 
        Since the enactment of the Orphan Drug Act, more than 220 new 
        orphan drugs have been approved and marketed in the United 
        States and more than 800 additional drugs are in the research 
        pipeline.
            (6) Despite the tremendous success of the Orphan Drug Act, 
        rare diseases and disorders deserve greater emphasis in the 
        national biomedical research enterprise.
            (7) The Food and Drug Administration supports small 
        clinical trials through Orphan Products Research Grants. Such 
        grants embody successful partnerships of government and 
        industry, and have led to the development of at least 23 drugs 
        and four medical devices for rare diseases and disorders. Yet 
        the appropriations in fiscal year 2001 for such grants were 
        less than in fiscal year 1995.
    (b) Purposes.--The purpose of this Act is to increase the national 
investment in the development of diagnostics and treatments for 
patients with rare diseases and disorders.

SEC. 3. FOOD AND DRUG ADMINISTRATION; GRANTS AND CONTRACTS FOR THE 
                    DEVELOPMENT OF ORPHAN DRUGS.

    Subsection (c) of section 5 of the Orphan Drug Act (21 U.S.C. 
360ee(c)) is amended to read as follows:
    ``(c) For grants and contracts under subsection (a), there are 
authorized to be appropriated such sums as already have been 
appropriated for fiscal year 2002, and $25,000,000 for each of the 
fiscal years 2003 through 2006.''.

SEC. 4. TECHNICAL AMENDMENT.

    Section 527(a) of the Federal Food, Drug, and Cosmetic Act (21 
U.S.C. 360cc(a)) is amended in the matter following paragraph (2)--
            (1) by striking ``, of such certification,''; and
            (2) by striking ``, the issuance of the certification,''.
    Passed the House of Representatives October 1, 2002.
    Approved November 6, 2002.

                             ATTACHMENT II

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             ATTACHMENT III
    U.S. FOOD AND DRUG ADMINISTRATION GRANT SUPPORTED PRODUCTS WITH 
                           MARKETING APPROVAL

    Product: 4-methylpyrazole (trade name Antizole); Fomepizole
    Indication: Ethylene Glycol and Methanol Poisoning
    Approval Date: 12/04/1997
    Institution: Orphan Medical, Inc.
    Investigator: Dr. Dayton Reardan

    Product: Actimmune
    Indication: Osteopetrosis
    Approval Date: 02/11/2000
    Institution: Medical University of South Carolina
    Investigator: Dr. Lester Key

    Product: Auditory Brainstem Implant
    Indication: Bilateral deafness
    Approval Date: 10/24/00
    Institution: Cochlear Corp.
    Investigator: Dr. Steven J. Staller

    Product: Anti-TNF (cA2) (trade name Remicade)
    Indication: Severe Crohns Disease
    Approval Date: 08/24/1998
    Institution: Centocor, Inc.
    Investigator: Dr. Richard McCloskey

    Product: Baclofen Intrathecal (trade name Lioresal)
    Indication: Severe Spasticity
    Approval Date: 06/25/1992
    Institution: Rush-Presbyterian-St. Lukes' Medical Center
    Investigator: Dr. Richard Penn

    Product: Betaine (trade name Cystadane)
    Indication: Homocystinuria
    Approval Date: 10/20/1996
    Institution: University of Virginia
    Investigator: Dr. William Wilson

    Product: Busulfan IV
    Indication: Bone Marrow Ablation
    Approval Date: 02/04/1999
    Institution: UT MD Anderson Cancer Center
    Investigator: Dr. Borge Andersson

    Product: Cladribine (trade name Leustatin)
    Indication: Mycosis fungoides and hairy cell leukemia
    Approval Date: 03/01/1993
    Institution: Scripps Research Institute
    Investigator: Dr. Ernest Beutler

    Product: Clonidine (trade name Duraclon)
    Indication: Intractable pain in cancer patients
    Approval Date: 10/02/1996
    Institution: Wake Forest University
    Investigator: Dr. James Eisenach

    Product: CroFab
    Indication: Crotalid snake bites
    Approval Date: 10/02/00
    Institution: Therapeutic Antibodies, Inc.
    Investigator: Dr. Richard C. Dart

    Product: Cysteamine (trade name Cystagon)
    Indication: Nephropathic Cystinosis
    Approval Date: 08/15/1994
    Institution: University of California, San Diego
    Investigator: Dr. Jerry Schneider

    Product: Ganciclovir Intravitreal (trade name Vitrasert)
    Indication: CMV Retinitis
    Approval Date: 03/04/1996
    Institution: University of Kentucky Research Foundation
    Investigator: Dr. Thomas Smith

    Product: Glatiramer acetate (trade name Copaxone)
    Indication: Relapsing remitting multiple sclerosis
    Approval Date: 12/20/1996
    Institution: Lemmon Company
    Investigator: Dr. Yafith Stark

    Product: Histrelin Acetate (trade name Supprelin)
    Indication: Central precocious puberty
    Approval Date: 12/24/1991
    Institution: Massachusetts General Hospital
    Investigator: Dr. Paul Boepple

    Product: In-Exsufflator (trade name Cofflator)
    Indication: Assist Ventilator dependent patients
    Approval Date: 02/01/1993
    Institution: University of Medicine and Dentistry of N.J.
    Investigator: Dr. John Bach

    Product: Iobenguane sulfate I-131
    Indication: Localization of Pheochromocytoma
    Approval Date: 03/24/1994
    Institution: University of Michigan
    Investigator: Dr. Brahm Shapiro

    Product: Levocarnitine (trade name Carnitor)
    Indication: Primary and Secondary Carnitine Deficiency of Genetic 
Origin
    Approval Date: 12/16/1992
    Institution: Duke University
    Investigator: Dr. Charles Roe

    Product: Nafarelin Acetate Intranasal (trade name Synarel)
    Indication: Central Precocious Puberty
    Approval Date: 02/06/1992
    Institution: Baylor College of Medicine
    Investigator: Dr. John Kirkland

    Product: Neurostimulator implantable electrodes
    Indication: Quadra-paraplegia with loss of hand function
    Approval Date: 08/18/1997
    Institution: Case Western Reserve University
    Investigator: Dr. Paul Peckham

    Product: Nitisinone (trade name Orfadin)
    Indication: Treatment of tyrosinemia type 1.
    Approval Date: 01/18/2002
    Institution: Swedish Orphan AB
    Investigator: Dr. Ronald Leonardi

    Product: Pegademase (trade name Adagen)
    Indication: ADA replacement in Severe Combined Immunogenicity 
Disease
    Approval Date: 03/21/1990
    Institution: Enzon, Inc.
    Investigator: Dr. Abraham Abuchowski

    Product: Pulmonary angioscope
    Indication: Visualization of pulmonary emboli
    Approval Date: 01/31/1989
    Institution: Regents of the University of California
    Investigator: Dr. Deborah Shure

    Product: Sodium phenylbutyrate
    Indication: Urea cycle disorders
    Approval Date: 04/30/1996
    Institution: Johns Hopkins University
    Investigator: Dr. Saul Brusilow

    Product: Succimer (trade name Chemet)
    Indication: Lead Poisoning in Children
    Approval Date: 01/30/1991
    Institution: The Kennedy Institute
    Investigator: Dr. J. Julian Chisolm

    Product: Sucrase enzyme
    Indication: Sucrase-isomaltase deficiency
    Approval Date: 04/09/1998
    Institution: Hartford Hospital
    Investigator: Dr. Jeffrey Hyams

    Product: Tobramycin for inhalation (trade name Tobi)
    Indication: Management of CF patients with Pseudomonas Aeruginosa
    Approval Date: 12/22/1997
    Institution: Pathogenesis Corporation
    Investigator: Dr. Alan Montgomery

    Product: Tretinoin (trade name Vesanoid)
    Indication: Acute Promyelocytic Leukemia
    Approval Date: 11/22/1995
    Institution: Memorial Hospital for Cancer and Allied Diseases
    Investigator: Dr. Raymond Warrell, Jr.

    Product: Zinc Acetate (trade name Galzin)
    Indication: Wilson's Disease
    Approval Date: 01/28/1997
    Institution: University of Michigan
    Investigator: Dr. George Brewer

    Product: Gamma-hydroxybutyrate
    Indication: Narcolepsy
    Approval Date: 07/17/02
    Institution: University of Arkansas for Medical Sciences
    Investigator: Lawrence Scrima, Ph.D.
                                 ______
                                 

           Prepared Statement of the National Potato Council

    My name is Dwight Horsch. I am a potato farmer from Idaho and 
current Vice President, Legislative/Government Affairs for the National 
Potato Council (NPC). On behalf of the NPC, we thank you for your 
attention to the needs of our potato growers.
    The NPC is the only trade association representing commercial 
growers in 50 states. Our growers produce both seed potatoes and 
potatoes for consumption in a variety of forms. Annual production in 
2001 was 444,766,000 cwt. with a farm value of $2.9 billion. Total 
value is substantially increased through processing. The potato crop 
clearly has a positive impact on the U.S. economy.
    The potato is the most popular of all vegetables grown and consumed 
in the United States and one of the most popular in the world. Annual 
per capita consumption was 138.7 pounds in 2000, up from 104 pounds in 
1962 and is increasing due to the advent of new products and heightened 
public awareness of the potato's excellent nutritional value. Potatoes 
are considered a stable consumer commodity and an integral, delicious 
component of the American diet
    The NPC's fiscal year 2004 appropriations priorities are as 
follows:
Cooperative State Research Education and Extension Service (CSREES)
    Potato Special Grant Program.--The NPC urges that the $1.75 million 
be appropriated for fiscal year 2004. The House recommended $1.6 
million for fiscal year 2003, however only $1.584 million was included 
in the final bill. This has been a highly successful program and the 
number of funding requests from various potato-producing regions is 
increasing.
    The NPC also urges that the Congress, once again, include Committee 
report language as follows:

    ``Potato research.--The Committee expects the Department to ensure 
that funds provided to CSREES for potato research are utilized for 
varietal development testing. Further, these funds are to be awarded 
competitively after review by the Potato Industry Working Group.''
Agricultural Research Service (ARS)
    The NPC urges that the Congress once again add Committee report 
language urging the ARS to work with the NPC on how overall research 
funds can best be utilized for grower priorities.
    The NPC urges that the Congress maintain all increases for potato 
research provided in fiscal year 2001, 2002 and 2003 that have been 
proposed for deletion or redirection in the Administration's fiscal 
year 2004 budget request.
    Prosser, Washington.--Appropriate $250,000 for exotic diseases 
including late blight and PVYN on potatoes. The Congress appropriated 
$200,000 in fiscal year 2003 for this activity. The funds appropriated 
in fiscal year 2001 should remain and continue to be used for breeding 
for resistant potato varieties and not be diverted to new areas of 
research.
    Grand Forks and East Grand Forks.--Appropriate $350,000 for a new 
scientist to be located at the Potato Research worksite in East Grand 
Forks, Minnesota. The scientist would address the effects of 
postharvest storage and treatments on potato market quality and value-
added traits. Since over 70 percent of the U.S. fall potato crop is 
placed into storage for year around sale, this research will benefit 
potato growers throughout the country.
    Fort Collins, Colorado.--Appropriate $200,000 for the Soil, Plant, 
and Nutrient Research Program at Fort Collins to conduct research to 
enhance water and soil quality with precision conservation farming. The 
Congress provided $100,000 in fiscal year 2003.
    Beltsville, Maryland.--Improving the nutritional value of potatoes 
is a high priority of the NPC. Research should also be initiated at the 
Beltsville Vegetable Laboratory that combines traditional breeding and 
plant biotechnology to increase the nutritional value of the potato and 
add value to the crop. The nutrition research currently underway in the 
Beltsville potato breeding program relates to the development of potato 
tubers with anti-cancer properties (high lutein/carotene) and a product 
to help alleviate osteoporosis (high available tuber calcium). 
Approximately $150,000 is currently devoted to this newly developing 
field. The NPC urges that $300,000 be appropriated in fiscal year 2004 
for this important research effort.
    Plant Protection and Quarantine Service (APHIS-USDA).--The NPC 
urges that the Congress appropriate $971,000 for the Golden Nematode 
Quarantine Program as requested in the Administration's budget request. 
The National Potato Council also supports the budget request of $27 
million for pest detection and at least $12 million for trade issues 
resolution and management. As new trade agreements are negotiated, the 
agency must have the necessary staff and technology to detect and to 
deal with the threat of pests and diseases. The NPC relies heavily on 
APHIS-PPQ resources to resolve phytosanitary trade barriers.
    National Agricultural Statistics Service (NASS).--Appropriate the 
$4.8 million in the Administration's budget request for core programs 
of NASS and ensure that the potato grade and quality survey program is 
continued.
                                 ______
                                 

      Prepared Statement of the National Rural Telecom Association

                     SUMMARY OF TESTIMONY REQUESTS

    Project involved.--Telecommunications lending programs administered 
by the Rural Utilities Service of the U.S. Department of Agriculture
    Actions proposed:
  --Supporting loan levels for fiscal year 2004 in the same amounts as 
        those contained in the fiscal year 2003 Agriculture 
        Appropriations Act for cost-of-money, Rural Telephone Bank and 
        guaranteed loan programs and the associated subsidy to fund 
        those programs at the existing level. Supporting loans in the 
        hardship program at the level requested in the budget. Opposing 
        the budget recommendation to not fund new Rural Telephone Bank 
        loans in fiscal year 2004.
  --Supporting continued funding, as requested in the President's 
        budget, in the amount of $25 million in loan and grant 
        authority designated for distance learning and telemedicine 
        purposes and $2 million in grants for broadband facilities and 
        internet access in rural areas.
  --Opposing the budget request seeking to cancel the $20 million in 
        mandatory funding provided in last year's farm act for direct 
        loans for broadband deployment and replacing it with 
        discretionary funding authority amounting to less than half 
        that amount in fiscal year 2004. Seeking language to clarify 
        that all rural communities under 20,000 population will qualify 
        for loans in fiscal year 2004 under the new broadband loan 
        program consistent with the existing eligibility criteria for 
        the distance learning, telemedicine and pilot broadband 
        programs.
  --Supporting continuation of the restriction on retirement of Rural 
        Telephone Bank Class A stock at the level contained in the 
        fiscal year 2003 Agriculture Appropriations Act and an 
        extension of the prohibition against the transfer of Rural 
        Telephone Bank funds to the general fund. Opposing the proposal 
        contained in the budget to transfer funds from the unobligated 
        balances of the liquidating account of the Rural Telephone Bank 
        for the bank's administrative expenses.
     Mr. Chairman, Members of the Committee: My name is John F. O'Neal. 
I am General Counsel of the National Rural Telecom Association. NRTA is 
comprised of commercial telephone companies that borrow their capital 
needs from the Rural Utilities Service of the U.S. Department of 
Agriculture (RUS) to furnish and improve telephone service in rural 
areas. Approximately 1000, or 71 percent of the nation's local 
telephone systems borrow from RUS. About three-fourths of these are 
commercial telephone companies. RUS borrowers serve almost 6 million 
subscribers in 46 states and employ over 22,000 people. In accepting 
loan funds, borrowers assume an obligation under the act to serve the 
widest practical number of rural users within their service area.

                           PROGRAM BACKGROUND

    Rural telephone systems have an ongoing need for long-term, fixed 
rate capital at affordable interest rates. Since 1949, that capital has 
been provided through telecommunications lending programs administered 
by the Rural Utilities Service and its predecessor, the Rural 
Electrification Agency (REA).
    RUS loans are made exclusively for capital improvements and loan 
funds are segregated from borrower operating revenues. Loans are not 
made to fund operating revenues or profits of the borrower system. 
There is a proscription in the Act against loans duplicating existing 
facilities that provide adequate service and state authority to 
regulate telephone service is expressly preserved under the Rural 
Electrification Act.
    Rural telephone systems operate at a severe geographical handicap 
when compared with other telephone companies. While almost 6 million 
rural telephone subscribers receive telephone service from RUS borrower 
systems, they account for only four percent of total U.S. subscribers. 
On the other hand, borrower service territories total 37 percent of the 
land area--nearly 1.5 million square miles. RUS borrowers average about 
six subscribers per mile of telephone line and have an average of more 
than 1,000 route miles of lines in their systems.
    Because of low-density and the inherent high cost of serving these 
areas, Congress made long-term, fixed rate loans available at 
reasonable rates of interest to assure that rural telephone 
subscribers, the ultimate beneficiaries of these programs, have 
comparable telephone service with their urban counterparts at 
affordable subscriber rates. This principle is especially valid today 
as the United States endeavors to deploy broadband technology and as 
customers and regulators constantly demand improved and enhanced 
services. At the same time, the underlying statutory authority 
governing the current program has undergone significant change. In 
1993, telecommunications lending was refocused toward facilities 
modernization. Much of the subsidy cost has been eliminated from the 
program. In fact, most telecommunications lending programs now generate 
revenue for the government. The subsidy that remains has been targeted 
to the highest cost, lowest density systems in accordance with this 
administration's stated objectives.
    We are proud to state once again for the record that there has 
never been a default in the RUS/REA telephone program! All loans have 
been repaid in accordance with their terms, almost $11 billion in 
principal and interest at the end of the last fiscal year.

           NEED FOR RUS TELECOMMUNICATIONS LENDING CONTINUES

    The need for rural telecommunications lending is great today, 
possibly even greater than in the past. Technological advances make it 
imperative that rural telephone companies upgrade their systems to keep 
pace with improvements and provide the latest available technology to 
their subscribers. And last year, Congress established a national 
policy initiative mandating access to broadband for rural areas. But 
rapid technological changes and the inherently higher costs to serve 
rural areas have not abated, and targeted support remains essential.
    Competition among telephone systems and other technological 
platforms has increased pressures to shift more costs onto rural 
ratepayers. These shifts led to increases in both interstate subscriber 
line charges and universal service surcharges on end users to recover 
the costs of interstate providers' assessments to fund the Federal 
mechanisms. Pressures to recover more of the higher costs of rural 
service from rural customers to compete in urban markets will further 
burden rural consumers. There is a growing funding crisis for the 
statutory safeguards adopted in 1996 to ensure that rates, services and 
network development in rural America will be reasonably comparable to 
urban telecommunications opportunities.
    The FCC and the states have yet to honor the balance Congress 
achieved in the 1996 policy, as regulators (a) radically revise the 
mechanisms for preserving and advancing universal service, (b) 
interpret the Act's different urban and rural rules for how incumbent 
universal service providers and their competitors connect their 
networks and compensate each other (c) respond to pressures to 
deregulate. Regulators continue to give new entrants advantages at the 
expense of statutory universal service provisions. The FCC appears to 
remain committed to further extending its wholly inadequate way to 
measure the costs of modern, nationwide access to telecommunications 
and information. The FCC needs to reorder its priorities to ensure that 
rural Americans are not denied the ongoing network development and new 
services the Act requires.
      expanded congressional mandates for rural telecommunications
    Considerable loan demand is being generated because of additional 
mandates for enhanced rural telecommunications standards contained in 
the authorizing legislation. We are, therefore, recommending the 
following loan levels for fiscal year 2004 and the appropriation of the 
associated subsidy costs to support these levels: 5 percent Hardship 
Loans:

                              [In dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
5 percent Hardship Loans................................    $145,000,000
Cost-of-Money Loans.....................................     300,000,000
Guaranteed Loans........................................     120,000,000
Rural Telephone Bank Loans..............................     175,000,000
                                                         ---------------
      Total.............................................     740,000,000
------------------------------------------------------------------------

    These are essentially the same levels established in the fiscal 
year 2003 appropriations act for the cost-of-money, Rural Telephone 
Bank and guaranteed loan programs and the same amount for hardship 
loans as requested in the President's budget for fiscal year 2004. The 
authorized levels of loans in all programs were fully obligated in 
fiscal year 2002 and we expect these levels to be met in fiscal year 
2003. We believe that the needs of this program balanced with the 
minimal cost to the taxpayer make the case for its continuation at the 
stated levels.

                       RURAL TELEPHONE BANK LOANS

    The administration again proposes to not fund new Rural Telephone 
Bank (RTB) loans in fiscal year 2004.
    The Rural Telephone Bank was established by Congress in 1971 to 
provide supplemental financing for rural telephone systems with the 
objective that the bank ultimately would be owned and operated by its 
private shareholders. Privatization of the RTB began in 1995 under the 
current law and the retirement of Class A government stock is 
proceeding annually at the rate of approximately $25 million per year. 
The Bank has now retired about 27 percent, of the government's $592 
million investment. As we pointed out in our testimony last year, not 
funding new loans in the next fiscal year could actually impede 
privatization of the Bank since the law requires that the Bank annually 
retire government stock at the rate of at least 5 percent of the amount 
of Class B stock sold in connection with new loans. If no new loans 
were made, there would be no minimum requirement for retirement of 
additional government stock.
    The current loan level of $175 million has remained the same for 
many years. As a matter of fact, after factoring in the eroding effect 
of inflation, loan levels over the years have actually been reduced 
systematically. Despite this fact, we believe that the $175 million 
level is adequate to meet current program needs and strikes a cost 
effective balance for the taxpayer. If no bank loans were made in 
fiscal year 2004, the budgetary outlay savings would be minimal because 
RTB loans are funded over a multi-year period. Moreover, if 
administration interest rate predictions are accurate, RTB loans will 
generate a profit for the government because of the minimum statutory 
interest rate of 5 percent.

      BROADBAND LOANS UNDER THE 2002 FARM ACT (PUBLIC LAW 101-171)

    The administration is recommending that the mandatory funding of 
loans for the deployment of broadband technology in rural areas 
provided in last year's farm act in the amount of $20 million (new 
section 601(j)(1)(A) of the Rural Electrification Act of 1936) be 
cancelled in fiscal year 2004 and is suggesting a general provision in 
the fiscal year 2004 appropriations bill (Sec. 722(a)) to accomplish 
this. In its place the budget requests less than half that amount, $9.1 
million in new discretionary authority for theses purposes. We are 
opposed to this dramatic reduction in the commitment made by Congress 
last year to rural areas for the deployment of broadband technology. 
The farm act program has been implemented by RUS and loans are being 
made in this fiscal year pursuant to the new authority. Disrupting the 
multi-year authority in the fashion recommended by the administration 
would create uncertainty to prospective borrowers under the new program 
and undermine Congress' efforts to accelerate deployment of this 
technology to our rural citizens.
    In addition, we are seeking clarifying language in the bill to 
assure that all communities in the United States under 20,000 
population will qualify for broadband loans in fiscal year 2004. The 
enabling act eligibility provision (new section 601 of Title VI of the 
Rural Electrification Act of 1936) is technically defective as enacted 
and is causing substantial unintended consequences by excluding 
otherwise eligible rural areas from the program. Subsection (B) 
excludes from program eligibility any area that ``is not located in an 
area designated as a standard metropolitan statistical area'' even 
though its population is less than 20,000 (the criteria under 
Subsection (A)). The Bureau of the Census has not recognized ``standard 
metropolitan statistical areas'' since before 1990. This restriction 
could exclude up to 40 percent of otherwise eligible rural communities 
from this new program if not corrected, effectively undermining 
Congress' efforts to accelerate deployment of broadband technology in 
rural areas.

                      SPECIFIC ADDITIONAL REQUESTS

Continue the Restriction on Retirement of Class A Government Stock in 
        the Rural Telephone Bank (RTB) and also Continue the 
        Prohibition Against Transfer of RTB Funds to the General Fund 
        and Require the Payment of Interest
    The Committee should continue the restriction on retirement of the 
amount of class A stock by the Rural Telephone Bank in fiscal year 
2004. The Bank is currently in the process of retiring the government's 
stock as required under current law. We believe that this process which 
began in fiscal year 1996 should continue to be an orderly one as 
contemplated by the retirement schedule enacted seven years ago and 
continued through last year's bill to retire no more than 5 percent of 
the total class A stock in one year. The Rural Telephone Bank board 
last year commissioned a private firm to perform a privatization study. 
This study has just been completed and its recommendations are 
currently being evaluated by the administration, RTB board, RTB 
shareholders and interested members of the public. After that review is 
complete, both Congress and the rural telephone industry will be in a 
better position to evaluate the appropriate level of retirement of the 
government's Class A stock in the future. In the meantime, we urge the 
Committee to continue the current restriction as well as the 
prohibition against the transfer of any unobligated balance in the 
bank's liquidating account which is in excess of current requirements 
to the general fund of the Treasury along with the requirement that the 
bank receive interest on those funds. The private Class B and C 
stockholders of the Rural Telephone Bank have a vested ownership 
interest in the assets of the bank including its funds and their rights 
should be protected. Previous appropriations acts (Fiscal Year 1997 
through 2003) have recognized the ownership rights of the private class 
B and C stockholders of the bank by prohibiting a similar transfer of 
the bank's excess unobligated balances which otherwise would have been 
required under the Federal credit reform act.

Reject Budget Proposal to Transfer Funds from RTB Liquidating Account 
        for Administrative Costs
    The President's budget proposes that the bank assume responsibility 
for its administrative costs by a transfer of funds from the 
unobligated balances of the bank's liquidating account rather than 
through an appropriation from the general fund of the Treasury. This 
recommendation is contrary to the specific language of Sec. 403(b) of 
the RTB enabling act and would require enactment of new authorizing 
legislation as a prerequisite to an appropriation. It would not result 
in budgetary savings and has been specifically rejected by this 
Committee in previous years. No new justification is contained in this 
year's budget and once again we request its rejection.
    Loans and Grants for Telemedicine, Distance Learning and Internet 
Access. We support the continuation in fiscal year 2004 of the $25 
million in loan and grant authority provided in the President's budget 
for telemedicine and distance learning purposes. Loans are made at the 
government's cost-of-money. The purpose is to accelerate deployment of 
telemedicine and distance learning technologies in rural areas through 
the use of telecommunications, computer networks, and related advanced 
technologies by students, teachers, medical professionals, and rural 
residents. We also support making available $2 million in additional 
funds available for grants for broadband facilities and internet access 
in rural areas, as recommended in this year's budget.

                               CONCLUSION

    Thank you for the opportunity to present the association's views 
concerning this vital program. The telecommunications lending programs 
of RUS continue to work effectively and accomplish the objectives 
established by Congress at a minimal cost to the taxpayer.
                                 ______
                                 

   Prepared Statement of the National Telecommunications Cooperative 
                              Association

                                SUMMARY

    NTCA makes the following fiscal year fiscal year 2004 funding 
recommendations with regard to the Rural Utilities Service 
Telecommunications Loan Program and related programs.
  --Support the provisions of the president's budget proposal calling 
        for the required subsidy to fully fund the RUS 
        Telecommunications Loan Program's Hardship Account at a $145 
        million level, Cost of Money Account at a $250 million level, 
        and the Guaranteed Account at a $100 million level.
  --Reject the provisions of the president's budget proposal calling 
        for zero funding for the Rural Telephone Bank (RTB). Instead, 
        provide the required subsidy to fully fund the bank at last 
        fiscal year's $175 million level.
  --Reject the provisions of the president's budget proposal calling 
        for funding the Rural Broadband Access Loan and Loan Guarantee 
        Program to be funded through discretionary funding and instead 
        funded at a level consistent with authorizing language.
  --Repeal existing language prohibiting the use of loans to serve 
        communities located in metropolitan statistical areas (MSA's).
  --Support an extension of language that temporarily sets aside the 7 
        percent interest rate cap on loans made through the RUS Cost of 
        Money fund.
  --Support an extension of the language limiting the maximum amount of 
        Rural Telephone Bank Class A stock that may be retired in 
        fiscal year 2004.
  --Support an extension of the restriction against RTB Liquidating 
        Account funds from being transferred into the general Treasury.
  --Support an extension of language prohibiting the expenditure of RTB 
        Liquidating Account funds to provide for the subsidy or 
        operational expenses of the bank.
  --Support full funding of the Distance Learning and Telemedicine 
        Grant and Loan Program.
  --Support for funding of the Rural Business-Cooperative Service Grant 
        and Loan Program.

Background
    NTCA is a national association representing more than 560 small, 
rural, cooperative and commercial, community-based local exchange 
carriers (LECS) located throughout the nation. These locally owned and 
operated LECS provide local exchange service to more than 2.5 million 
rural Americans. While serving close to 40 percent of the geographic 
United States, NTCA members serve only 4 percent of the country's 
access lines. Since the creation of the RUS Telecommunications Loan 
Program, more than 80 percent of NTCA's member systems have been able 
to utilize the Federal program to one degree or another.
    NTCA's members, like most of the country's independent LECS, 
evolved to serve high-cost rural areas of the nation that were 
overlooked by the industry's giants as unprofitable. On average, NTCA 
members have approximately 6 subscribers per mile of infrastructure 
line, compared with 130 for the larger urban-oriented LECs. This 
results in an average plant investment per subscriber that is 38 
percent higher for NTCA members compared to most other systems.
    Congress recognized the unique financing dilemma confronting 
America's small rural LECS as early as 1949, when Congress amended the 
Rural Electrification Act (REA) to create the Rural Electrification 
Administration Telephone Loan Program. Today, this program is known as 
the RUS Telecommunications Loan Program. Through the years Congress has 
periodically amended the REA to ensure that original mission--to 
furnish and improve rural telephone service--was met. In 1971, the 
Rural Telephone Bank (RTB) was created to as a supplemental source of 
direct loan financing. In 1973, the RUS was provided with the ability 
to guarantee Federal Financing Bank (FFB) and private lender notes. In 
1993, Congress established a fourth lending program--the Treasury Cost 
of Money account. In 2002, Congress again met the changing demands of 
the telecommunications industry with the establishment of the Rural 
Broadband Access Loan and Loan Guarantee Program.

                 RUS HELPS MEET INFRASTRUCTURE DEMANDS

    While the RUS has helped the subscribers of NTCA's member systems 
receive service that is comparable or superior to that available 
anywhere in the nation, their work is far from complete. As the 
Telecommunications Act of 1996 and other Federal policies continue to 
evolve, and as policymakers and the public alike continue to clamor for 
the deployment of advanced telecommunications services, the high costs 
associated with providing modern telecommunications services in rural 
areas will not diminish.
    RUS telecommunications lending has stimulated billions of dollars 
in private capital investment in rural communications infrastructure. 
In recent years, on average, less than $13 million in Federal subsidy 
has effectively generated $670 million in Federal loans and guarantees. 
For every $1 Federal funds that was invested in rural communications 
infrastructure, $4.50 in private funds was invested. The RUS is also 
making a difference in rural schools, libraries, and hospitals. Since 
1993, the RUS Distance and Learning Telemedicine Grant program has 
funded hundreds of projects throughout the nation of interactive 
technology in rural schools, libraries, hospitals, and health clinics.
    In addition, two other RUS-related programs are making a difference 
in rural America. Formerly known as the Zero Interest Loan and Grant 
Program, the Rural Economic Development Grants Programs, and the Rural 
Economic Development Loans Programs are now managed by the Rural 
Business Cooperative Service. The two programs provide funds for the 
purpose of promoting rural economic development and job creation 
projects, including for feasibility studies, start-up costs, incubator 
projects and other expenses tied to rural development.

         NTCA'S FISCAL YEAR 2004 APPROPRIATIONS RECOMMENDATIONS

Fully Fund The Entire RUS Telecommunications Loan Program
    It is imperative that the entire RUS Telecommunications Loan 
Program be funded at the following levels:

                              [In dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
Hardship Account........................................     145,000,000
Cost of Money/Treasury Account..........................     250,000,000
Guaranteed Account......................................     100,000,000
Rural Telephone Bank Account............................     175,000,000
------------------------------------------------------------------------

    Included in the Farm Bill (Public Law 107--171) was authorization 
of the Rural Broadband Access Loan and Loan Guarantee program. Built 
upon a record of strong demand during its pilot status, congressional 
language was explicit in its intent to assist in broadband deployment 
in the smallest and most rural communities in the United States. 
Earlier this year, USDA and RUS officials unveiled the regulations and 
were able make available $1.4 billion in loans (fiscal year 2002 and 
2003 funds). Such level of funding must be maintained to meet the 
continually growing needs of advanced telecommunications services 
across the United States.
    Additionally, to support the operations of the RUS, it is critical 
that Congress provide at least $41.562 million in administrative 
appropriations the president's budget proposal envisions.

Reject the President's Proposal To Provide Zero RTB Funding
    The president's budget contains a proposal recommending the Rural 
Telephone Bank should not be funded in fiscal year 2004. In presenting 
last year's budget, the administration stated that the RTB had outgrown 
its need and usefulness. NTCA adamantly disagrees as the demand for 
advanced telecommunications services continues to grow and our members 
continue to meet this demand. To this end, we believe the president's 
decision to zero out funding for the RTB is without merit.
    Privatization of the RTB is moving at pace mandated by Congress. As 
this occurs, NTCA wants to ensure the financial stability of the future 
Bank with minimal amount of risk for borrowers, shareholders and 
taxpayers. This transition to a private entity will require legislative 
changes to the Rural Electrification Act. NTCA believes this should 
occur with minimal disruptions to existing capital markets. In light of 
this fact, as well Congress' decision to reject the president's 
previous proposal to zero out RTB funding, we urge Congress to again 
reject this ill-conceived proposal and instead fully fund the bank at 
its regular $175 million annual level.

Reject the President's Proposal to fund the Rural Broadband Access Loan 
        and Loan Guarantee Program through discretionary funding
    Acting on the tremendous demand for advanced rural 
telecommunications, the Congress authorized the Rural Broadband program 
as part of the 2002 Farm Bill and provided for $100 million for the 
program until 2007. The mandate from Congress was to provide loans to 
the most underserved areas of rural America. With the proven demand of 
the program established during its pilot status, NTCA believes the 
President's budget request to cancel the $20 million in mandatory 
funding, and instead fund through discretionary spending, should be 
rejected and the Rural Broadband Access Loan and Loan Guarantee Program 
should be funded consistent with congressional authorization.

Repeal language prohibiting communities included in Metropolitan 
        Statistical Areas from eligibility under the Rural Broadband 
        Access Loan and Loan Guarantee Program
    Under the existing language, communities under 20,000 that are 
located in a Metropolitan Statistical Areas are ineligible for loans 
under the Rural Broadband Access Loan and Loan Guarantee Program. The 
intent of the authorizing language was to ensure only rural communities 
would benefit by the Rural Broadband Access Loan and Loan Guarantee 
Program. Unfortunately, this language has excluded thousands of 
unserved communities that would otherwise be eligible. This provision 
should be repealed and program language be brought in tune with 
population limits of other Rural Development programs.

Extend Removal Of the Interest Rate Cap On Treasury-Rate Loans
    NTCA is also requesting that Congress again include language 
removing the 7 percent interest rate cap on Treasury-rate loans. This 
provision has been included in recent appropriations measures to 
prevent the potential disruption of the program in the case where 
interest rates exceed 7 percent and insufficient subsidy cannot support 
authorized lending levels.

Extend existing language limiting the retirement of Class A stock in 
        the Rural Telephone Bank
    The Rural Utilities Service is currently undergoing extensive 
evaluation of the privatization issue. With the recent completion of 
the private contractor's privatization study, the recommendations and 
fiscal implications of the report are currently being examined by the 
RTB Board and interested stakeholders. As the future structure of the 
RTB is still currently under examination, NTCA believes existing 
language limiting the amount of stock to be retired at 5 percent should 
be continued.

Prohibit The Transfer Of Unobligated RTB Liquidating Account Balances
    NTCA also recommends that Congress continue the prohibition against 
the transfer of any unobligated balances of the Rural Telephone Bank 
liquidating account to the general fund of the Treasury. This language 
has routinely been included in annual appropriations measures since the 
enactment of the Federal Credit Reform Act (FCRA, Public Law 101-508) 
that allows such transfers to potentially occur. Restatement of this 
language will ensure that the RTB's private class B & class C 
stockholders are not stripped of the value of their statutorily 
mandated investment in the Bank.

Prohibit RTB From Self Funding Subsidy and Administrative Costs
    NTCA urges Congress to maintain its prohibition against unobligated 
RTB Liquidating Account Balances being used to cover the bank's 
administrative and operational expenses for the following reasons: (1) 
such action would require amending the REA, (2) the proposal appears to 
be in conflict with the intent of the FCRA, (3) the proposal will not 
result in Federal budgetary savings, (4) it is unnecessary to the 
determination of whether the bank could operate independently, and thus 
would amount to wasting the resources of the bank which could be put to 
better use upon its complete privatization.

Continue Distance Learning and Telemedicine Loan and Grant Program
    The RUS Distance Learning and Telemedicine Loan and Grant program 
has proven to be an indispensable tool for rural development. In this 
regard NTCA urges Congress to provide adequate funding for this 
critical program. NTCA supports the recommendations for this program 
that are contained in the president's budget proposal.

Preserve RBCS Rural Development Grant and Loan Programs
    Likewise, NTCA has witnessed the good these programs have done for 
rural communities. NTCA urges Congress to ensure adequate funding is at 
levels that are adequate to meet current demand for the programs.

                               CONCLUSION

    The RUS Telecommunications Loan Program bears a proud record of 
commitment, service and achievement to rural America. Never in its 
entire history has the program lost a dollar to abuse or default--
unparalleled feat for any government-sponsored lending program. Cleary 
such a successful program should remain in place to continue ensuring 
rural Americans have the opportunity to play a leading role in the 
information age in which we live. After all, an operational and 
advanced rural segment of the nation's telecommunications 
infrastructure is critical to truly ensuring that the national 
objective of universal telecommunications service is fulfilled. We look 
forward to working with you to accomplish this objective.
                                 ______
                                 

    Prepared Statement of the National Turfgrass Evaluation Program

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Turfgrass Evaluation Program (NTEP), I appreciate this 
opportunity to provide the Subcommittee with the turfgrass industry's 
perspective in support of continuation of the $55,000 appropriation for 
the National Turfgrass Evaluation Program (NTEP) included in the 
President's fiscal year 2004 budget request for the Agricultural 
Research Service (ARS). Also, I appreciate the opportunity to present 
to you the turfgrass industry's need and justification for continuation 
of the $490,000 appropriated in the fiscal year 2003 budget for the 
full-time turfgrass scientist position within ARS. In addition, I 
appreciate the consideration of an additional appropriation of 
$5,400,000 for the first installment on the $32.4 million National 
Turfgrass Research Initiative developed by ARS and the turfgrass 
industry, with twelve new research scientist positions.

Justification of $55,000 Appropriation Request for Program Support.
    Once again, NTEP and the turfgrass industry come to the 
appropriations process to request continuation of the $55,000 basic 
program support in the ARS budget for NTEP's activities at Beltsville. 
We appreciate the Subcommittee's continuation of this amount as in 
previous fiscal years, and hope that you will agree with us that this 
request is justified for the ensuing fiscal year.
    The National Turfgrass Evaluation Program (NTEP) is unique in that 
it provides a working partnership that links the Federal Government, 
turfgrass industry and land grant universities together in their common 
interest of turfgrass cultivar development, improvement and evaluation. 
The National Turfgrass Evaluation Program is the primary means by which 
cultivated varieties of turfgrass are evaluated in this country. It 
provides unbiased information on turfgrass cultivar adaptations, 
disease and insect resistance and environmental stress tolerance. The 
public and private sectors of the turfgrass industry use this 
information to develop cultivar recommendations for home owners, sod 
producers, sports turf and parks managers, golf course superintendents 
and highway vegetation managers.
    Our nation's awareness of safety is at an all-time high. Turfgrass 
provides multiple benefits to society including child safety on 
athletic fields, environmental protection of groundwater, reduction of 
silt and other contaminants in runoff, green space in home lawns, 
parks, golf courses, etc. With the advancements being made to 
turfgrasses that require less pesticides, water and other inputs as 
well as other efforts to improve integrated pest management programs, 
recycling, etc., the USDA has a unique opportunity to take positive 
action in support of the turfgrass industry. With a minuscule 
investment of Department funds, in relative terms within USDA's budget, 
a tremendous return can be gained for society and the turfgrass 
industry.
    While the vast majority of the USDA's funds have been and will 
continue to be directed toward traditional ``food and fiber'' segments 
of U.S. agriculture, it is important to note that turfgrasses (e.g., 
sod production) are defined as agriculture in the Farm Bill and by many 
other departments and agencies. Further, it is estimated by the 
Economic Research Service that the turfgrass industry, in all its 
forms, is a $40 billion industry. It should also be noted that the 
turfgrass industry is the fastest growing segment of U.S. agriculture, 
while it receives essentially no Federal support. There are no subsidy 
programs for turfgrass, nor are any desired.
    For the past seventy years, the USDA's support for the turfgrass 
industry has been modest at best. The turfgrass industry's rapid 
growth, importance to our urban environments, and impact on our daily 
lives warrant more commitment and support from USDA. Failing to support 
the National Turfgrass Evaluation Program, would be a tremendous 
oversight of a major opportunity. USDA's support of NTEP at the $55,000 
level does not cover all costs. In fact, NTEP represents an ideal 
partnership of the public and private sectors in terms of program cost 
sharing. The NTEP relies most heavily on turfgrass industry (i.e., 
public sectors, end-users) support. However, it is essential that the 
USDA maintain its modest financial support and work closely with NTEP. 
The turfgrass industry relies heavily on NTEP for unbiased information. 
Discounting this support will also eliminate a highly reliable and 
credible level of objectivity that is associated with the NTEP program.

Justification of $490,000 Appropriation Request for the ARS Scientist 
        Position as well as $5,400,000 Appropriation Request for the 
        first installment on the National Turfgrass Research Initiative
    NTEP and the turfgrass industry are requesting the Subcommittee's 
support for $490,000 continuing funding for the full-time scientist 
staff position at ARS, focusing on turfgrass research, that was 
appropriated in the fiscal year 2003 budget. We also request that the 
Subcommittee appropriate an additional $5,400,000 for the first 
installment on the $32.4 million National Turfgrass Research 
Initiative. This Initiative has been developed by USDA, ARS in 
partnership with the turfgrass industry. We are asking for funding for 
the most pressing research needs, which address water use/efficiency 
and environmental issues.
    Our society is becoming increasingly more urbanized. Currently, 
turfgrasses impact more than 90 percent of all people in the United 
States through exposure to home lawns, business landscapes, roadsides, 
parks, or recreational turf on a daily basis. As more and more cropland 
is converted to houses, office parks, shopping centers, etc., the 
acreage of turfgrass is increasing exponentially. However, with the 
increasing urbanization comes a greater demand on resources, such as 
potable water. Also, with the general public experiencing heightened 
awareness of the environment and its protection, use of inputs such as 
fertilizer, pesticides and water on turfgrass areas is coming under 
greater scrutiny. In some jurisdictions, use of these inputs will 
either be banned or severely restricted for turfgrass use. In addition, 
the urbanization of America is leading to an overuse of current 
recreational facilities such as parks, athletic fields and golf 
courses. New facilities are being considered or constructed, many on 
abandoned sites such as landfills, industrial wastelands, gravel pits 
or mine spoils. Turfgrasses in these areas will play an important role 
in reclamation vegetation, recreational turf or both.
    The USDA needs to initiate and maintain ongoing research on 
turfgrass development and improvement for the following reasons:
    The value of the turfgrass industry in the United States is $40 
billion annually. There are an estimated 50,000,000 acres of turfgrass 
in the United States Turfgrass is the number one or two agricultural 
crop in value and acreage in many States (i.e. MD, PA, FL, NJ, NC).
    As our society becomes and more urbanized, the acreage of turfgrass 
will increase significantly. Consequently, State and local 
municipalities will require the utilization of other water sources 
(i.e. effluent, reclaimed, etc.), reduction of pesticide use and 
elimination of nutrient runoff from turfgrass. However, demand on 
recreational facilities will increase while these facilities, for 
safety reasons, will still be required to provide safe, attractive 
athletic fields, parks and grounds.
    Private and university research programs are working to develop 
improved turfgrasses, but they do not have the time nor resources to 
identify completely new sources of beneficial genes in commonly used 
species or the usefulness of potential new species. In addition, new 
plant materials collected by these institutions most often are not 
placed in the National Plant Germplasm System for use by all interested 
parties. Additionally, long-term research to identify and transfer 
desirable genes from other species (turfgrass or other crop species) is 
not being undertaken by public and private interests. ARS scientists 
working with turfgrass will enhance the ongoing research and 
development currently underway within the public and private sectors of 
the turfgrass industry.
    Water management is a key component of healthy turf and has direct 
impact on nutrient and pesticide losses into the environment. New and 
improved technologies are needed to monitor turf stresses and to 
schedule irrigation to achieve the desired turf quality. Increasing 
demands and competition for potable water make it necessary to use 
water more efficiently for turf irrigation. In addition, severe 
droughts in the West, Southeast and Mid-Atlantic States over the last 
several years have resulted in less water available and watering 
restrictions. These drought situations have severely impacted the turf 
industry as well as homeowners and young athletes. Technologies are 
needed to more efficiently and uniformly apply irrigations to achieve 
desired turf quality for the intended use as well as develop drought 
tolerant grasses. Also, there is greater competition for potable water. 
Therefore, to increase water availability for turf irrigation, waste 
water (treated and untreated) from both animal and municipal sources as 
well as from food processing plants must be utilized. Some of these 
waste waters contain contaminants such as pathogens, heavy metals, and 
organic compounds. consequently, movement and accumulation of these 
contaminants in the atmosphere, soil profile, and ground water must be 
determined.
    USDA conducted significant turfgrass research from 1920-1988. 
However, since 1988, no full-time scientist has been employed by USDA, 
Agricultural Research Service (ARS) to conduct turfgrass research 
specifically.
    A new turfgrass research scientist position within USDA, ARS was 
created by Congress in the fiscal year 2001 budget. Accordingly, in 
January 2001, the turfgrass industry met with USDA, ARS officials to 
discuss the position description, hiring process, facilities needed, 
etc. for the new position. ARS welcomed the new position but felt 
strongly that just one person working in turfgrass research would be 
ineffective in addressing the needs and concerns of the industry. 
Therefore, in January 2002, ARS held a customer workshop to gain 
valuable input from turfgrass researchers, golf course superintendents, 
sod producers, lawn care operators, athletic field managers and others 
on the research needs of the turfgrass industry. As a result of the 
workshop, ARS has developed, in conjunction with industry, a national 
strategy to address the specific needs and concerns within the 
turfgrass industry. The highlights of this strategy are below:
    The turfgrass industry is very excited about this new proposal and 
wholeheartedly supports the efforts of ARS. Since the customers at the 
workshop identified turfgrass genetics/germplasm and water quality/use 
as their top priority areas for ARS research, for fiscal year 2004, the 
turfgrass industry requests that the following positions be established 
within USDA, ARS:
  --Water Use Efficiency/Use of Other Water Sources--three (3) research 
        scientist positions to develop improved irrigation technologies 
        and investigate the impacts of using recycled water for turf.
  --Germplasm Collection, Enhancement and Preservation--three (3) 
        research scientist positions to identify germplasm tolerant of 
        drought and other stresses, move genes that confer drought and 
        stress tolerance to desirable turfgrasses.
  --Environmental Aspects of Turf Management--three (3) research 
        scientist positions to investigate turfgrasses' ability to 
        impact pesticide and nutrient transport in soil and water.
  --Pest Management Practices--three (3) research scientists to 
        investigate turfgrass pests and pest management practices to 
        reduce pesticide use and maximize efficiency of applications.
    We propose that this research be conducted in conjunction with 
appropriate university cooperators. For this ARS-University 
partnership, we propose that funding be allocated such that ARS can 
adequately conduct in-house research as well as in cooperation with 
university partners. We are asking for $300,000 for each ARS scientist 
position with an additional $150,000 attached to each position to be 
distributed to university partners. We are also asking that the funding 
be given to ARS and then distributed by ARS to those university 
partners selected by ARS and industry representatives.

------------------------------------------------------------------------

------------------------------------------------------------------------
Funding Breakdown:
    ARS Scientist Positions ($300,000 ea.  12).........      $3,600,000
    University Cooperative Research Agreements ($150,000       1,800,000
     ea.  12) (administered by ARS)....................
                                                         ---------------
      Total Request.....................................       5,400,000
------------------------------------------------------------------------

    In conclusion, on behalf of the National Turfgrass Evaluation 
Program and the turfgrass industry across America, I respectfully 
request that the Subcommittee continue the vital $55,000 appropriation 
for the National Turfgrass Evaluation Program (NTEP) as well as the 
$490,000 appropriated in fiscal year 2003 for the new turfgrass 
scientist position within the Agricultural Research Service. I also 
request that the Subcommittee appropriate an additional $5,400,000 for 
twelve new turfgrass scientist positions within ARS.
    Thank you very much for your assistance and support.
                                 ______
                                 

         Prepared Statement of the National Watershed Coalition

    Mr. Chairman and members of the Subcommittee, I am Larry Smith from 
Berkeley Springs, West Virginia, and I am pleased to represent the 
National Watershed Coalition (NWC) as its Chairman. The National 
Watershed Coalition is privileged to present this testimony in support 
of the most beneficial water resource conservation programs ever 
developed in the United States. The Coalition recognizes full well the 
need to use our tax dollars wisely. That makes the work of this 
Subcommittee very important. It also makes it imperative that the 
federal programs we continue are those that provide real benefit to 
society, and are not programs that would be nice to have if funds were 
unlimited. We believe the Watershed Program (Public Law 83-566) and the 
Flood Prevention Operations Program (Public Law 78-534) are examples of 
those rare programs that address our nation's vital natural resources 
which are critical to our very survival, do so in a way that provide 
benefits in excess of costs, and are programs that serve as models for 
the way all federal programs should work. The President's proposed 
fiscal year 2004 budget would severely cut watershed program funding 
from current levels, and is unacceptable to watershed project sponsors 
throughout the United States.

General Watershed Program Observations
    The watershed as the logical unit for dealing with natural resource 
problems has long been recognized. Public Law 566 offers a complete 
watershed management approach, and should have a prominent place in our 
current federal policy emphasizing watersheds and total resource 
management based planning. Proper watershed management improves water 
quality. Why should the federal government be involved with these 
watershed programs?
  --They are programs whose objectives are the sustaining of our 
        nation's precious natural resources for generations to come.
  --They are not federal, but federally assisted, locally sponsored and 
        owned. They do not represent the continued growth of the 
        federal government.
  --They are locally initiated and driven. Decisions are made by people 
        affected, and respect private property rights.
  --They share costs between the federal government and local people. 
        Local sponsors pay between 30-40 percent of the total costs of 
        Public Law 566 projects.
  --They produce net benefits to society. The most recent program 
        evaluation demonstrated the actual ratio of benefits to costs 
        was approximately 2.2:1. The actual adjusted economic benefits 
        exceeded the planned benefits by 34 percent. How many other 
        federal programs do so well?
  --They consider and enhance environmental values. Projects are 
        subject to the discipline of being planned following the 
        National Environmental Policy Act (NEPA), and the federal 
        ``Principles and Guidelines'' for land and water projects. That 
        is public scrutiny!
  --They are flexible programs that can adapt to changing needs and 
        priorities. Objectives that can be addressed are flood damage 
        reduction, watershed protection (erosion and sediment control), 
        water quality improvement, rural water supply, water 
        conservation, fish and wildlife habitat improvement, 
        recreation, irrigation and water management, etc. That is 
        flexibility emphasizing multiple uses.
  --They are programs that encourage all citizens to participate.
  --They can address the needs of low income and minority communities.
  --They are targeted to address the most serious resource problems.
  --And best of all--they are programs the people like!
    The National Watershed Coalition is concerned with the 
Administration's minimal support for these watershed programs, and 
trusts your deliberations will cause the outcome of the fiscal year 
2004 appropriations process to enable this vital work to continue and 
expand as we seek to preserve, protect and better manage our nation's 
water and land resources. Every State in the United States has 
benefited from the Small Watershed Program.

National Watershed Coalition USDA Water Resource Program Budget 
        recommendations
            Watershed and Flood Prevention Operations
    In order to continue this high priority work in partnership with 
states and local governments, the Coalition recommends a fiscal year 
2004 funding level of $190 million for Watersheds and Flood Prevention 
Operations, Public Law 83-566 and Public Law 78-534. The current 
unfunded federal commitment for this program is currently over $1.6 
billion.
    We recommend that $30 million of this amount be for Public Law 78-
534 projects. The administration proposes no funding for these 
projects. For some years now, the federal budget has eliminated the 
separate line items for the Public Law 534 and Public Law 566 watershed 
projects, and just lumped a total figure under Public Law 566 with a 
note that some amount ``may be available'' for Public Law 534 projects. 
This is an entirely unsatisfactory way of doing business. Public Law 
534 still exists in law; it has not been repealed. Many rural 
communities depend upon its assistance. It should be funded as a 
separate program. This tactic is unfair to both Public Law 566 and 
Public Law 534. We ask that the Public Law 534 projects be funded at 
$30,000,000.00, and that it be separate from Public Law 566. These are 
two distinct authorities that should not be confused. The current 
situation really penalizes both Public Law 534 and 566, as 534 has no 
funds at the outset, and in order to provide a little something to the 
Public Law 534 watershed projects, NRCS has to take money from the 
Public Law 566 accounts which are already very underfunded. Please 
restore funding for Public Law 534 watershed projects to $30 million in 
fiscal year 2004.
    The $190 million request represents the actual amount watershed 
project sponsors across the country have indicated they can use now for 
projects ready for installation. It is a real, community based, 
documented need. The administrations proposal of $40 million would 
actually cut funds for watershed operations by 65 percent from what was 
available in fiscal year 2003.

            Watershed Surveys and Planning
    We recommend that watershed surveys and planning be funded at $35 
million. Watershed sponsors and communities throughout the country have 
indicated a need for $38 million for surveys and planning. The National 
Watershed Coalition believes the $35 million amount is a reasonable 
request when all national water resource priorities are considered. The 
administrations proposal of $5 million would actually cut funds for 
watershed planning by 55 percent from what was available fiscal year 
2003.

            Watershed Rehabilitation
    We recommend $45 million be provided for structural rehabilitation 
and replacement in fiscal year 2004, in accordance with Public Law 106-
472, the Small watershed Rehabilitation Amendments of 2000, passed by 
the Congress and signed into law on November 9th, 2000, and that 
another $5 million be available for a thorough assessment of 
rehabilitation needs. The condition of our nation's dams, and the need 
for watershed structure rehabilitation, is a national priority. We are 
very disappointed to see the Administration's proposed budget 
apparently doesn't believe it is a national priority to protect the 
lives of America's citizens. Congress has indicated it is a priority 
with passage of Public Law 106-472. The 2002 Farm Bill would actually 
have provided $90 million for this purpose in fiscal year 2004, if all 
its provisions had been funded.
    The issue of the current condition of those improvements 
constructed over the last 50 years with these watershed programs is a 
matter of great concern. Many of the 11,000 plus dams that NRCS 
assisted sponsors build throughout the United States, no longer meet 
current dam safety standards largely as a result of development, and 
need to be upgraded to current standards. A USDA study published in 
1991 estimated that in the next 10 years, $590 million would be needed 
to protect the installed works. Of that amount, $100 million would come 
from local sponsors as their operation and maintenance contributions. 
NRCS also conducted a more recent survey, and in just 22 states, about 
$540 million in rehabilitation needs were identified. We are 
recommending $45 million in fiscal year 2004, and commend Congress for 
their leadership in passing Public Law 106-472 and the 2002 Farm Bill. 
Watershed project sponsors throughout the United States appreciate your 
leadership on this vital issue. We now have the authorization, and need 
the appropriations. If we don't start to pay attention to our rural 
infrastructure needs, the ultimate cost to society will only increase, 
and project benefits will be lost. This is a serious national issue. 
Since most of these structures were constructed in the 1950's, 1960's, 
and 1970's, and were originally designed with a 50-year life, it is 
apparent we need to look at their current condition. If we do the 
rehabilitation work to bring these older structures up to current 
health and safety standards, they will continue to provide benefits far 
into the future. We are dismayed that the Administration's budget only 
provides $10 million for this work. That amount would actually cut 
fiscal year 2003 rehabilitation funding by 65 percent which is 
unacceptable to watershed sponsors, and is unsafe.

            Watershed Research and Development
    There is a research and development (R&D) need as we get the 
structural rehabilitation process underway. In USDA, that work is 
undertaken by the Agricultural Research Service (ARS). That need is 
estimated at $3.0 million, and we ask that it be included in the ARS 
budget. It would be used for evaluation of upstream and downstream 
changes to the stream channel systems in cases of decommissioning, 
evaluation of the water quality impact of stored sediment releases, and 
the evaluation of impacts of the loss of flood protection, among other 
things. In addition, we ask that ARS be provided $10 million in fiscal 
year 2004 for basic watershed research. This is the amount needed to 
allow ARS to get back on track collecting needed basic watershed 
information. That activity has been neglected in recent years because 
of the lack of funding.

            Summary
    All people should understand these federal funds are only a part of 
the total that is committed to this vital national, conservation 
purpose. The local project sponsors in these ``federally assisted'' 
endeavors also have a tremendous investment. Congress increasingly 
talks of wanting to fund those investments in our nation's 
infrastructure that will sustain us in the future. Yet past budgets 
have regularly cut funding for the best of these programs. This makes 
absolutely no sense! We can't seem to invest and re-invest in our vital 
watershed infrastructure. That is simply unconscionable. Isn't water 
quality and watershed management a national priority? We believe it is.
    Once again we are disappointed with what appears to us to be a lack 
of Administration commitment for these very beneficial conservation 
programs. The Administration needs to recognize watershed natural 
resources conservation as a high national priority, as you do. It's 
only common sense.
    The Coalition appreciates the opportunity to offer these comments 
regarding fiscal year 2004 funding for the water resource programs 
administered by USDA's Natural Resources Conservation Service (NRCS). 
With the ``downsizing'' the NRCS has experienced, we would be remiss if 
we did not again express some concern as to their ability to provide 
adequate technical support in these watershed program areas. NRCS 
technical staff has been significantly reduced and budget constraints 
have not allowed that expertise to be replaced. Traditional fields of 
engineering and economics are but two examples. We see many states 
where NRCS capability to support their responsibilities is seriously 
diminished. This is a disturbing trend that needs to be halted, and we 
are not convinced that using ``Technical Service Providers'' from the 
private sector is the answer. This downsizing has a very serious effect 
on state and local conservation programs. Local Watershed and 
Conservation Districts and the NRCS combine to make a very effective 
delivery system for providing the technical assistance to local 
people--farmers, ranchers and rural communities--in applying needed 
conservation practices. But that delivery system is currently very 
strained! Many states and local units of government also have 
complementary programs that provide financial assistance to land owners 
and operators for installing measures that reduce erosion, improve 
water quality, and maintain environmental quality. The NRCS provides, 
through agreement with the USDA Secretary of Agriculture, ``on the 
land'' technical assistance for applying these measures. The delivery 
system currently is in place, and by downsizing NRCS, we are eroding 
the most effective and efficient coordinated means of working with 
local people to solve environmental problems that has ever been 
developed. Our system and its ability to produce food and fiber is the 
envy of the entire world. In our view, these programs are the most 
important in terms of national priorities.
    The Coalition pledges its full support to you as you continue your 
most important work. Our Executive Director, Mr. John W. Peterson, who 
has over 40 years experience in natural resource watershed 
conservation, is located in the Washington, DC area, and would be 
pleased to serve as a resource as needed. John's address is 9304 Lundy 
Court, Burke, VA 22015-3431, phone 703-455-6886 or 4387, Fax; 703-455-
6888, email; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e48e939481908196978b8aa481968b8897ca878b89ca">[email&#160;protected]</a>
    Thank you for allowing the National Watershed Coalition (NWC) this 
opportunity.
                                 ______
                                 

       Prepared Statement of the National Rural Housing Coalition

    Mr. Chairman and members of the House Subcommittee on Agriculture, 
my name is Robert Rapoza and I wish to testify on behalf of the 
National Rural Housing Coalition.
    I wish thank you for the Subcommittee's support of the Rural 
Development programs of the United States Department of Agriculture and 
to urge you to support an increase in its budget for fiscal year 2004.
    As you may know, the National Rural Housing Coalition (the 
Coalition) has been a national voice for rural low-income housing and 
community development programs since 1969. Through direct advocacy and 
policy research, the Coalition has worked with Congress and the 
Department of Agriculture to design new programs and improve existing 
programs serving the rural poor. The Coalition also promotes a non-
profit delivery system for these programs, encouraging support for 
rural community assistance programs, farm labor housing grants, self-
help housing grants, and rural capacity building funding.
    The Coalition is comprised of approximately 300 members nationwide. 
We hope to work with you to assure that the voices of rural America are 
heard and its needs met. Our concerns are focused on rural housing and 
rural water and sewer systems.

                 THE NEED FOR AFFORDABLE RURAL HOUSING

    A disproportionate amount of the nation's substandard housing is in 
rural areas. Rural households are poorer than urban households, pay 
more of their income for housing that their urban counterparts, and are 
less likely to receive government-assisted mortgages. They also have 
limited access to mortgage credit and the secondary mortgage market, 
making them prime targets for predatory lending. Rural America needs 
programs that focus on the issues facing it. The Rural Housing Service 
of Rural Development provides many of these needed programs.
    According to the 2000 Census, there are 106 million housing units 
in the United States. Of that, 23 million, or 23 percent, are located 
in non-metro areas. Many non-metro households lack the income for 
affordable housing. The 2000 Census reveals that 7.8 million of the 
non-metro population is poor, 5.5 million, or one-quarter of the non-
metro population, face cost overburden, and 1.6 million of non-metro 
housing units are either moderately or severely substandard. According 
to the USDA Economic Research Service, 4 million, or 17 percent of the 
households in non-metro areas are classified as being in housing 
poverty. Households are defined as being in housing poverty when their 
housing has at least one of four important indicators of housing 
disadvantage:
  --Economic need--housing costs over 50 percent of household income;
  --Inadequate quality--physical quality defined as moderately or 
        severely inadequate using the HUD measure based on 26 
        indicators of physical problems;
  --Crowding--more household members than rooms; and
  --Neighborhood quality--perception of poor quality in at least 2 out 
        of 4 neighborhood conditions (crime, noise, inadequate public 
        services, and litter/deteriorating housing).
    Renters in rural areas are the worst housed individuals and 
families in the country. Thirty-three percent of rural renters are 
cost-burdened, paying more than 30 percent of their income for housing 
costs. Almost one million rural renter households suffer from multiple 
housing problems, 60 percent of whom pay more than 70 percent of their 
income for housing. The Section 515 rural rental housing loan program 
at USDA serves low and very-low income families with safe affordable 
housing.
    Although issues around rental housing are of vital concern, 
homeownership is the principal form of housing in rural America. 
However, there are a number of obstacles to improving homeownership in 
rural areas including high rates of poverty and poor quality of 
housing. According to a 1999 Economic Research Service report, the 
poverty rate in rural America was 15.9 percent, compared to 13.2 
percent in urban areas.
    Rural residents also have limited access to mortgage credit. The 
consolidation of the banking industry that accelerated throughout the 
1990s has had a significant impact on rural communities. Mergers among 
lending institutions have replaced local community lenders with large 
centralized institutions located in urban areas. Aside from shifting 
the locus of loan making, this has resulted in the diminishment of a 
competitive environment that, in the past, encouraged rural lenders to 
offer terms and conditions that were attractive to borrowers.
    Because of the gap left by traditional lenders, rural households 
are often prime targets for predatory lenders. Predatory lending 
practices include excessive fees, prepayment penalties, and loan 
flipping into high cost subprime loans. Rural America depends upon the 
affordable loans through USDA's Section 502 single family direct loan 
program for homeownership.

                      USDA'S RURAL HOUSING SERVICE

    I would like to begin with the rental housing program.
Section 515 rental housing program
    Although we often talk about the surge in homeownership and all of 
its benefits, not all us are or are prepared to be homeowners. USDA's 
Rural Housing Service Section 515 rural rental housing program is 
invaluable to low-income residents in rural areas. The portfolio 
contains 450,000 rented apartments in Section 515 developments. The 
delinquency rate is a low 1.6 percent. The average tenant income is 
$7,900, which is equal to only 30 percent of the nation's rural median 
household income. More than half of the tenants are elderly or disabled 
and one-quarter are minority.
    Federal policy faces two challenges regarding rural rental housing. 
The first is to increase the production of affordable rental housing 
units in rural communities. The second is to maintain the existing 
stock of Section 515 units.
    This year, the President's budget cut Section 515 to $71 million 
and limited it to repair, rehabilitation, and preservation. If the 
fiscal year 2004 budget request for Section 515 is approved, it will be 
the first time in more than 30 years that the Federal Government 
provides no new rental units for rural America
    Section 521 rental assistance is used in conjunction with Section 
515 to help families who cannot afford even their reduced rent. In 
recent years, mostly in response to an escalating number of expiring 
contracts, appropriations for rental assistance have gone up. Despite 
the fact that the current appropriations stand at $701 million (fiscal 
year 2002), the funds are insufficient. Although about 50 percent of 
the 450,000 Section 515 households receive rental assistance, almost 
90,000 Section 515 households who need assistance do not receive it. 
The need for rental assistance is projected to increase to $937 million 
by 2006.
    Prepayment of 515 properties is a real threat to two-thirds of the 
portfolio over the next 7 years. Prepayment often means the units are 
lost for low-income residents. In 1987, Congress enacted legislation 
restricting prepayment, and providing financial incentives to owners to 
stay in the program. However, Section 515 funding has fallen off 
dramatically, and stands at $114 million, its lowest level in 25 years. 
This allows little money to provide incentives and other resources for 
preservation.
    The demand for incentives is estimated at approximately $100 
million for equity loans alone. This includes $11 million in approved, 
but un-funded requests some of that date back 3 to 4 years. Spending 
for Section 515 rental subsidized housing has been cut by 73 percent 
since 1994. And rural rental housing unit production by the Federal 
Government has been reduced by 88 percent since 1990.
    For fiscal year 2004, we recommend a total of $250 million for 
section 515. With these funds, we proposed that $100 million be used 
for basic maintenance and preservation and $150 million for loans for 
new construction. In addition we recommend an increase of $50 million 
for rural rental assistance that will be used in conjunction with 
section 515 and farm labor housing, described later.

Section 502 single family direct loan program
    To qualify for the direct loan program, borrowers must have very 
low or low incomes but be able to afford mortgage payments. Also, 
applicants must be unable to obtain credit elsewhere, yet have 
reasonable credit histories. The average income of households assisted 
under Section 502 is $18,500. About 9 percent of households have annual 
incomes of less than $10,000. Since its inception, Section 502 has 
provided loans to almost two million families.
    In recent years, the major trend in rural housing has been to 
guarantee home ownership loans. The fiscal year 2003 level for 
guarantees is approximately $4 billion. This program serves families 
with incomes at 125 percent of median, substantially higher than that 
of direct loans.
    Under Section 502 home ownership, the current loan level totals 
$1.044 billion. This will provide subsidized, direct loan financing for 
about 15,000 units. Under this program, families receive a subsidized 
loan for a period of 33 years. The average income of households 
assisted under Section 502 is $18,500. About 3 percent of households 
have annual incomes of less than $10,000. Since its inception, Section 
502 has provided loans to almost two million families.
    There is unprecedented demand for section 502 direct loans totaling 
several billion dollars and exceeding the budget request. The fiscal 
year 2004 budget request for Section 502 direct loans is $1.366 
billion; the largest request is several years.
    The additional funds are targeted to improve minority home 
ownership. Under the fiscal year 2004 budget, the cost per unit to 
finance housing is less than $10,000. It is important to note that the 
Administration proposes to actually reduce spending on Section 502, but 
a revised subsidy rate and lower interest rates allow resources to be 
stretched. While we would have preferred additional lending in section 
502 based on the fiscal year 2003 budget authority level, we applaud 
the focus on minority home ownership in the budget request.

Non-Profit Organizations
    With dramatic program reductions and continued strength in the 
nation's real estate market, the private sector delivery system is no 
longer dominant as it was when funding levels were higher, and in many 
rural communities does not even exist. In some rural areas, non-profits 
have picked up the slack and pursued a multiple funding strategy. 
Skilled local organizations meld Federal, State, local and private 
resources together to provide affordable financing packages to low-
income families. But there is not a dedicated source of Federal support 
to promote a non-profit delivery system for rural housing.
    As one way to improve its programs, USDA has expanded its 
cooperation with non-profit housing and community development 
organizations. Two successful programs are Mutual and Self-Help Housing 
and the Rural Community Development Initiative.
    Under Mutual and Self-Help Housing, with the assistance of local 
housing agencies, groups of families eligible for Section 502 loans 
perform approximately 65 percent of the construction labor on each 
other's homes under qualified supervision. This program, which has 
received growing support because of its proven model, has existed since 
1961. The average number of homes built each year over the past 3 years 
has been approximately 1,500. For fiscal year 2004, we recommend a 
total of $35 million for self-help housing. This is the same as fiscal 
year 2004.
    The Rural Community Development Initiative (RCDI) program enhances 
the capacity of rural organizations to develop and manage low-income 
housing, community facilities, and economic development projects. These 
funds are designated to provide technical support, enhance staffing 
capacity, and provide pre-development assistance--including site 
acquisition and development. RCDI provides rural community development 
organizations with some of the resources necessary to plan, develop, 
and manage community development projects. Using dollar-for-dollar 
matching funds and technical assistance from 19 intermediary 
organizations, some $12 million in capacity building funds were 
distributed to 240 communities. There is a tremendous demand for 
capacity building funding. In the fiscal year 2000 funding round, 
USDA's Rural Housing Service received some $80 million in applications 
for $6 million in appropriated funds. This valuable program is also at 
risk in the budget request this year--it has been eliminated. For 
fiscal year 2004, we recommend $6 million for the Rural Community 
Development Initiative to continue level funding for fiscal year 2002.

Section 514 loan and Section 516 grant farm labor housing programs
    Two additional rental housing programs specifically address the 
needs of farm laborers. Migrant and seasonal farmworkers are some of 
the nation's most poorly housed populations. The last documented 
national study indicated a shortage of some 800,000 units of affordable 
housing for farmworkers.
    Farmworker households are also some of the least assisted 
households in the nation. Some 52 percent of farmworker households' 
incomes are below the poverty threshold, four times the national 
household poverty rate, and 75 percent of migrant farmworkers have 
incomes below the poverty line. Yet little more than 20 percent of 
farmworker households receive public assistance; most commonly food 
stamps, rarely public or subsidized housing.
    There are only two Federal housing programs that specifically 
target farmworkers and their housing needs: Sections 514 and 516 of the 
Housing Act of 1949 (as amended). Borrowers and grantees under Rural 
Housing Service Sections 514 and 516 receive financing to develop 
housing for farmworkers. Section 514 authorizes the Rural Housing 
Service to make loans with terms of up to 33 years and interest rates 
as low as 1 percent. Section 516 authorizes RHS to provide grant 
funding when the applicant will provide at least 10 percent of the 
total development cost from its own resources or through a 514 loan.
    Non-profit housing organizations and public bodies use the loan and 
grant funds, along with RHS rural rental assistance, to provide units 
affordable to eligible farmworkers. These funds are used to plan and 
develop housing and related facilities for migrant and seasonal 
farmworkers. Current funding for Sections 514/516 totals $37 million in 
program authority. This amount provides about 700 units of housing. The 
estimated need is two to three times the appropriated level.
    The budget request for section 514/516 is $35 million. We applaud 
the slow, but steady progress of the Committee in increasing funding 
for this very important program. We recommend that funding for 
farmworker housing grants and loans be increased to $100 million in 
budget authority for fiscal year 2004. We ask that these funds be 
equally divided between loans and grants authorized under sections 514 
and 516. This will result in approximately $150 million in financing 
for much needed farmworker housing.

               THE NEED FOR RURAL WATER AND SEWER SYSTEMS

    Hundreds of rural communities nationwide do not have access to 
clean drinking water and safe waste disposal systems. A 1995 USDA needs 
assessment of rural areas showed that more than one million households 
had no indoor plumbing, and 2.4 million households had critical 
drinking water needs. In its 1997 Drinking Water Infrastructure Needs 
Survey, the Environmental Protection Agency estimated that over the 
next 20 years, water systems serving communities of less than 10,000 
people will require $37.2 billion in funding for water systems 
improvements and upgrades. And regarding wastewater, a 1996 EPA Survey 
demonstrated that small communities with up to 10,000 residents will 
need 21,000 wastewater treatment facilities by 2016 at a cost of 
approximately $14 billion. According to EPA's numbers, approximately 
$51.2 billion will be needed to address the basic water and wastewater 
needs of small communities.
    Many projects that the Rural Utilities Service funds are under 
consent order from the state EPA office for immediate action. The 
problems that the agency deals with range from communities and systems 
that are out of compliance with health and pollution standards, to 
communities without sewer systems where raw sewage runs in ditches 
after a heavy rainfall. Because so much time and money are spent on 
critical needs, the state offices spend less time on prevention. The 
programs and communities do not have enough resources to address issues 
before they become larger problems.
    The issue of affordability moves to the forefront with waste 
disposal systems, which are generally more expensive than water 
systems. Waste systems naturally succeed water systems--with central 
water comes indoor plumbing, washing machines, dishwashers, etc., all 
of which eventually require an efficient wastewater disposal system. 
Low-income communities often already pay as much as they can afford for 
water service alone and are unable to manage the combined user fees for 
water and waste. According to EPA data, ratepayers of small rural 
systems are charged up to four times as much per household as 
ratepayers of larger systems. In some extreme situations, some 
households are being forced out of homeownership because they cannot 
afford rising user costs.
    As I mentioned earlier, rural communities have limited access to 
much-needed debt and equity capital, and small water and wastewater 
systems lack the economies of scale needed to reduce costs on their 
own. In order for communities to cut back on project costs and have 
affordable rates, operation and maintenance are typically 
underestimated in the budgets for many new systems. This often results 
in limited or no capital improvement accounts for future upgrades and 
expansions needed for community development including stabilization of 
local small business, affordable housing development, and other needed 
industrial development.

                     USDA'S RURAL UTILITIES SERVICE

    USDA's Rural Utilities Service (RUS) is the primary Federal force 
in rural water and waste development, providing loans and grants to 
low-income communities in rural areas. The agency assists low-income 
rural communities that would not otherwise be able to afford such 
services. Approximately one-fifth of the communities served live below 
the national poverty line.
    In providing these important services, the program also protects 
public health and promotes community stabilization and development. 
Aging municipal sewage systems alone are responsible for 40,000 
overflows of raw sewage each year. The overflows cause health hazards 
including gastrointestinal problems and nausea, as well as long-term 
damage to the environment. Businesses and industries are unable or 
reluctant to locate in areas without functioning water and sewer 
systems. But with the assistance of RUS, communities are able to have 
the services they need so that their health and economies may benefit.
    Through Federal and State initiatives, RUS is working to confront 
the challenges faced by rural communities. With increasingly restricted 
time and money, state offices are using other resources such as 
leveraged funds and technical assistance from the Rural Community 
Assistance Program (RCAP). Funds are being leveraged through HUD's 
Community Development Block Grant program and the EPA's State Revolving 
Loan Funds, as well as some private lenders. Through the RCAP technical 
assistance program, more than 2,000 communities and over 1.6 million 
households in 49 states have received assistance to identify solutions 
to water problems, improve and protect water quality, and construct and 
operate facilities. The RCAP program has proven to be an effective and 
efficient way of ensuring that small rural communities receive the 
information, technical assistance, and training needed to provide for 
the water and waste disposal needs of their residents.
    Mr. Chairman and members of the Committee, we look to you for 
continued support of the efforts of Rural Development. These programs 
are vital to the survival of our small communities nationwide. They 
address the most basic needs of affordable housing and clean water that 
still exist all over the country.
    We appreciate your past support and your attention to this matter.
                                 ______
                                 

                Prepared Statement of The Navajo Nation

                              INTRODUCTION

    My name is Arvin S. Trujillo. I serve as Executive Director for the 
Division of Natural Resources of the Navajo Nation, America's largest 
Indian tribe. On behalf of President Joe Shirley, Jr., Vice-President 
Frank Dayish, Jr. and the Navajo people, I appreciate the opportunity 
to submit for the hearing record this Statement setting forth the 
Navajo Nation's recommendations and requests regarding fiscal year 2004 
appropriations for the U.S. Department of Agriculture (``USDA'').
    A participant in Congressional proceedings leading to enactment of 
the Farm Security and Rural Investment Act of 2002 (``Farm Bill''), the 
Navajo Nation strongly urges appropriations up to full authorized 
levels for many new, or expanded, Farm Bill programs that hold 
significant promise for at last addressing the staggering rural 
development deficit confronting the Navajo Nation. In fact, the 
Shirley-Dayish Administration, inaugurated this past January, has made 
implementation of Farm Bill programs on the Navajo Nation one of its 
top priorities over the next 4 years. Toward that end, the Navajo 
Nation looks forward to working with this Subcommittee and the full 
Committee, as well as the USDA, to improve dramatically participation 
by the historically-underserved Navajo people in USDA /Farm Bill 
programs that are extraordinarily well-suited to addressing substantial 
conservation, rural development, education and energy needs.

                               BACKGROUND

    The Navajo Nation--with a land area covering almost 18 million 
acres--comprises one-third of all Indian lands in the lower 48 States, 
and is larger than the States of Connecticut, Delaware, Maryland, 
Massachusetts and Rhode Island combined. Unlike those States, however, 
the Navajo Nation suffers from enormous deficits in all areas critical 
to prosperous rural livelihoods.
    The unemployment rate on the Navajo Nation ranges seasonally from 
36 percent to 50 percent. Per capita income averages $6,123 (less than 
one-third of that in surrounding States), and 56 percent of Navajo 
people live below the poverty level. Massive infrastructure 
deficiencies continue to hamstring Navajo leaders' efforts to promote 
rural development and economic self-sufficiency. Though the Navajo 
Nation is slightly larger than West Virginia, our approximately 2,000 
miles of paved roads equate to barely 11 percent of West Virginia's 
18,000+ miles. Basic ``necessities'' of life, taken for granted 
elsewhere in the United States, are sorely lacking in the Navajo 
Nation. In fact, approximately 17,500 occupied structures on the Navajo 
Nation are presently without electric power--a circumstance that simply 
defies belief in 21st Century America!

      FISCAL YEAR 2004 APPROPRIATIONS RECOMMENDATIONS AND REQUESTS

    Against this background, the Navajo Nation urges the Subcommittee 
Members to provide the leadership and direction necessary to cause USDA 
increasingly to target scarce resources toward populations/areas that 
combine a compelling need for USDA's programs with a historical lack of 
access to, or participation in, those programs (in relation to other 
populations/areas). In other words, USDA resources and expertise should 
be redirected from locations (many of which have become suburban rather 
than rural) that have now realized the purposes of USDA programs to 
those locations--such as the Navajo Nation--that have benefited 
comparatively little from the resources and expertise that USDA has to 
offer.
    Among the Navajo Nation's overall appropriations recommendations, 
within which such targeting of resources should occur (including the 
specific requests identified), are the following:

                              CONSERVATION

    Environmental Quality Incentives Program (``EQIP'').--The Natural 
Resources Conservation Service (``NRCS'') has worked diligently in 
outreach to the Navajo Nation to attempt to expand EQIP structural 
practices, but there remains enormous untapped potential for 
installation of measures to conserve scarce water resources and eroding 
cropland and rangeland. In that regard, the Navajo Nation recently 
filed comments, in the NRCS's proposed rulemaking regarding Farm Bill-
related modifications to EQIP, urging revisions to enhance Navajo 
farmer/rancher participation. Funding of EQIP at the full authorized 
amount is recommended.
    Ground and Surface Water Conservation.--The Farm Bill established 
this new EQIP-related initiative, in part, to help producers ``improve 
irrigation systems . . . [and] enhance irrigation efficiencies,'' as 
well as to ``mitigate the effects of drought.'' This initiative offers 
opportunities to help reverse significant long-term problems that have 
plagued Navajo farmers--crumbling irrigation systems, installed in the 
1950's, that presently irrigate less than 30 percent of the farmland 
acreage originally serviced thereby, and a devastating drought that has 
adversely impacted the Navajo people for approximately 3 years. In 
written comment to the NRCS, the Navajo Nation has urged that any new 
rules/procedures take account of the special circumstances existing on 
tribal lands so that Navajo farmers can fully take advantage of these 
much-needed conservation incentives. Fully authorized funding of $60 
million should be provided, with emphasis on cost-share and incentive 
payments (rather than loan programs) for targeted areas with limited 
resources and substantial unmet needs.
    The Navajo Nation specifically requests that $350,000 of funding 
hereunder be allocated to the Ganado Irrigation Water Conservation 
Project, a model project that will bring water from Ganado Reservoir to 
640 acres of land, thereby allowing 63 Navajo land permit holders to 
return those lands to farming notwithstanding ongoing extreme drought 
conditions. The Project is integral to sustaining traditional Navajo 
crops and food products, generating revenue, and increasing employment 
in Apache County, Arizona. The first phase of construction was 
completed in the summer of 2002 in a joint effort by the Ganado Water 
Users Association of the Navajo Nation, NRCS, the Bureau of Reclamation 
and the Bureau of Indian Affairs. The requested funding would be for 
the final step to completion, including enhancing irrigation efficiency 
through the installation of plastic lining for irrigation piping.
    Watershed Planning and Operations, Emergency Watershed Protection, 
and Small Water-shed Rehabilitation.--The importance of fully 
appropriated, and fully implemented, USDA/NRCS watershed planning, 
operations and rehabilitation programs for the Navajo Nation cannot be 
overstated. Soil and water management difficulties, not to mention 
salt-laden runoff to the Colorado River System, are longstanding 
problems that demand a coordinated, comprehensive, watershed-based 
strategy and solutions utilizing the NRCS's substantial expertise. 
Regrettably, the Administration's Budget proposes a substantial decline 
in funding. Rather than eliminating these very worthwhile programs, 
funding should instead be increased so that areas, such as the Navajo 
Nation, which have not fully benefited in the past can now partake of 
the substantial potential of these programs. In particular, sufficient 
funding should be allocated to allow for reestablishment of an NRCS 
watershed planning team on the Navajo Nation.
    In addition, the Navajo Nation requests that $700,000 of technical 
assistance funding be allocated to the NRCS specifically to allow for 
development and preparation of the required follow-up documentation 
necessary to move ahead with two existing plans of importance to the 
Navajo Nation: (1) the Canyon del Muerto Natural Resource Plan, and (2) 
the Moenkopi--Tuba City Plan. Such targeted technical assistance 
funding would be utilized for preparation of small watershed plans and 
environmental assessments in furtherance of the much-needed watershed-
related initiatives for both areas.
    Conservation Security Program.--The Navajo Nation supports the 
program goals to implement important conservation measures on working 
lands, including ``land under the jurisdiction of an Indian tribe.'' In 
fact, in recently-filed comments with the USDA regarding implementation 
of this new program, the Navajo Nation recommended policies to 
facilitate Navajo participation therein. The Budget appears to have 
significantly underfunded this new program, and the Navajo Nation urges 
increased funding thereof.
    Resource Conservation and Development Program.--The Navajo Nation 
supports the continuation and expansion of funding for this beneficial 
program.
    Conservation Program Incentives.--Section 2004 of the Farm Bill 
added Section 1244 to the Food Security Act of 1985 to provide that 
``[i]n carrying out any conservation program . . . the Secretary may 
provide to . . . Indian tribes . . . incentives to participate in the 
conservation program to--(1) foster new farming and ranching 
opportunities; and (2) enhance environmental stewardship over the long 
term.'' The Navajo Nation, which exercises governmental authority over 
the vast lands (primarily tribal and trust lands) under its 
jurisdiction, urges the Subcommittee to direct the Secretary to 
implement this new provision expeditiously, and to provide funding 
therefor.

                           RURAL DEVELOPMENT

Water and Waste Disposal Grant Programs
    A. There are enormous needs on the Navajo Nation for grants for the 
``development, storage, treatment, purification or distribution of 
water . . . in rural areas'' (7 U.S.C. Sec. 1926(a)(2)); authorized 
applicants under this program for ``Water and Waste Facility Loans and 
Grants'' include Indian tribes. However, the Budget proposes a very 
significant cutback in grant funding, despite the fact that numerous 
rural areas, such as the Navajo Nation, have yet to realize equitably 
the benefits of this critical program. Given the Navajo Nation's huge 
infrastructure deficiencies, the Navajo Nation recommends a grant 
program level of $590 million, with directions from the Committee that 
such grant funding/assistance be targeted to areas with substantial 
need and limited past participation.
    B. Moreover, under the program for ``Water and Waste Facility Loans 
and Grants to Alleviate Health Risks'' (7 U.S.C. Sec. 1926c), the 
``Secretary shall make . . . grants to . . . Indian tribes . . . to 
provide for the conservation, development, use, and control of water 
(including the extension or improvement of existing water supply 
systems) . . .'' (7 U.S.C. Sec. 1926c(a)(1)). In reauthorizing these 
provisions in Section 6010 of the Farm Bill, Congress provided for 
additional funding of $20 million for each fiscal year specifically 
``for grants under this section to benefit Indian tribes.'' The 
Subcommittee should make good on this commitment to the health and 
welfare of Indian country, and should fully appropriate this new grant 
authorization.
    C. The Navajo Nation (and other areas of the desert southwest) have 
been severely impacted by long-term drought. Under the ``Emergency 
Community Water Assistance Grant Program,'' the USDA ``shall provide 
grants . . . to assist the residents of rural areas and small 
communities to secure adequate quantities of safe water . . . after a 
significant decline in the quantity or quality of water available . . . 
'' (7 U.S.C. Sec. 1926a(a)). Rather than eliminating funding (or 
appropriating only for pending applications), the Subcommittee (and the 
USDA) should recognize that such an emergency already exists in the 
Navajo Nation. Monies should be appropriated now and targeted to areas 
such as the Navajo Nation that have been devastated by drought and 
which require assistance to provide ample, safe water to rural 
residents.
    In particular, the Navajo Nation Drought Contingency Plan has 
identified more than 70 public water systems at high risk due to the 
ongoing drought. Deficiencies at the following public water systems in 
Arizona and New Mexico can be rectified in a timely fashion, and the 
corresponding health risks and water shortage emergencies alleviated, 
if the following targeted appropriations are provided from one or a 
combination of the above-identified three grant funding authorizations:

------------------------------------------------------------------------

------------------------------------------------------------------------
Arizona:
    Cameron--Grey Mountain........  water source;               $900,000
                                     storage.
    Fort Defiance Chapter.........  replacement well;            250,000
                                     storage.
    Teec Nos Pos chapter..........  water source........         470,000
    Tuba City Chapter.............  water source;                380,000
                                     storage.
                                   -------------------------------------
      Total.......................  ....................       2,000,000
                                   =====================================
New Mexico:
    Baca/Haystack Chapter.........  water source;                800,000
                                     storage.
    Spencer Valley--Manuelito       conveyance line.....          90,000
     Chapter.
    Torreon Chapter...............  water source........         450,000
                                   -------------------------------------
      Total.......................  ....................       1,340,000
------------------------------------------------------------------------

    Moreover, the Navajo Nation requests funding of $4 million for 
construction of the Navajo Mountain Public Water System to alleviate 
public health and safety issues at Navajo Mountain, Utah. The present 
water system, which is dependent on springs that are unreliable during 
dry periods, is inadequate to provide for the needs of the community 
and its schools. Consequently, last year the Navajo Nation had to 
resort to hauling water more than 40 miles to provide drinking water 
for the community. This crisis resulted in the closing of the schools 
during the summer months. Repeated efforts by the Indian Health Service 
to develop wells in the area have not been successful. In March 2000, 
the Bureau of Reclamation completed a feasibility study for the Navajo 
Mountain Public Water System, resulting in a design and cost estimate 
for a long-term solution to the Navajo Mountain water supply crisis. 
The proposed project would cost approximately $6 million; programmatic 
funding already committed through the U.S. EPA and BIA totals $2 
million. The Navajo Nation requests through USDA the remaining $4 
million--under any one or a combination of the above-identified three 
grant funding authorizations--necessary to construct this urgently-
needed project.
    Rural Strategic Investment Program.--One of the most disinvested 
areas of the United States, the Navajo Nation has long been a proponent 
of integrated, multidisciplinary rural planning and development, but 
has lacked adequate funding and the commitment of USDA resources and 
expertise necessary to succeed in such effort. Accordingly, the Navajo 
Nation supports implementation of this new program (added to the 
Consolidated Farm and Rural Development Act by Farm Bill Section 6030) 
that can facilitate regional rural strategic investment plans through 
planning and innovation grants. The Subcommittee should reject the 
Budget's proposal to block mandatory funding authorized under the Farm 
Bill, and should instead fully appropriate authorized amounts for 
planning/innovation grants thereunder.
    Rural Development Grant Programs.--The Navajo Nation supports full 
funding of programs for Rural Business Enterprise Grants (Farm Bill 
Section 6014), Rural Business Opportunity Grants (Farm Bill Section 
6003), and Rural Cooperative Development Grants (Farm Bill Section 
6015). These programs offer substantial opportunities for Indian 
country, and the Navajo Nation hopes to work closely with USDA to 
increase Navajo participation therein. The Budget limitations on such 
programs should be rejected.
    Tribal College Essential Community Facilities.--Farm Bill Section 
6008 amended the Consolidated Farm and Rural Development Act by adding 
a new authorization of $10 million annually for ``grants to tribal 
colleges and universities . . . to provide the Federal share of the 
cost of developing specific tribal college or university essential 
community facilities in rural areas.'' Among America's land grant 
institutions, none have greater need for increased Federal financial 
assistance for the development of infrastructure/facilities than the 
tribal colleges (i.e., the so-called 1994 Institutions). This new 
authorization should be fully funded.
    Value-Added Agricultural Product Market Development Grants.--This 
program (Farm Bill Section 6401) offers exciting opportunities to 
several ventures and existing/planned cooperatives on the Navajo 
Nation. The budgeted funding is woefully inadequate, and the Navajo 
Nation recommends appropriations that can help jump-start this 
important program.
    Rural Firefighters and Emergency Personnel.--Given the much-needed 
focus on homeland security, not to mention its responsibility for 18 
million acres under its jurisdiction, the Navajo Nation urges full 
funding for this helpful authorization at Farm Bill Section 6405.

                      RESEARCH/EDUCATION/EXTENSION

    Tribal Colleges Classroom Instruction Grants.--Farm Bill Section 
7201(a) increased these annual grants to each 1994 Institution from 
$50,000 to $100,000, but the Budget proposes only $73,000 per tribal 
college. This position is entirely unacceptable--not only because of 
the well-documented need for a substantial input of resources to the 
tribal colleges, but also in relation to the continuing large funding 
allocations directed to the 1862 and 1890 Institutions. The Budget is 
inapposite to the intent underlying the Equity in Educational Land-
Grant Status Act of 1994, and should not be accepted; the Farm Bill's 
Congressional directive to raise these annual grants to $100,000 should 
be heeded by the Subcommittee.
    Other 1994 Institutions Funding Authorizations.--Unfortunately, 
since 1994, the commitment to fund tribal colleges has not lived up to 
the ``land grant'' status bestowed. Appropriations must be targeted 
where they are most needed. Consequently, the Navajo Nation supports 
very dramatic increases for the Native American Endowment Fund, and for 
the authorizations for 1994 Institutions institutional capacity 
building grants and research grants (see 7 U.S.C. Sec. 301 note) and 
agricultural extension grants (see 7 U.S.C. Sec. 343(b)(3)). A 
concerted Federal/tribal effort is required to help bring tribal 
colleges to a level playing field--as they deserve to be--with other 
land grant and higher education institutions.
    Socially Disadvantaged Farmers and Ranchers.--While Farm Bill 
Section 10707 increased from $10 million to $25 million annual 
authorized funding for this outreach and assistance program that is 
ideally suited for the Navajo Nation, the Budget proposes just $4 
million. The Navajo Nation urges the Subcommittee, through its 
appropriations decisions, to direct the USDA finally to implement this 
program in a meaningful way reflecting Congressional intent.

                                 ENERGY

    Renewable Energy (Section 9006).--The Navajo Nation, which has 
recently announced its comprehensive energy policy, is firmly committed 
to the development of renewable energy. Indeed, the Navajo Nation 
submitted written comments to the USDA supporting expeditious 
implementation of Farm Bill Section 9006 to provide, in part, for 
grants to farmers, ranchers and rural small businesses to purchase 
renewable energy systems. The Budget recommends no funding; the 
Subcommittee should reject that position and provide adequate funding 
for meaningful implementation of this program.
    Renewable Energy (Section 9005).--Similarly, the Navajo Nation 
recommends increased funding for this program, established under Farm 
Bill Section 9005, that would authorize grants to ``an Indian tribe'' 
to ``assist farmers, ranchers, and rural small businesses in becoming 
more energy efficient and in using renewable energy technology and 
resources.'' Such grants match up well with objectives of the Navajo 
Nation's comprehensive energy policy, and--if provided in meaningful 
amounts--could assist greatly in the implementation thereof.
    As the new Shirley--Dayish Administration continues to establish 
its priorities and objectives, we will keep the Subcommittee apprised 
of additional specific opportunities--within these and other USDA/Farm 
Bill programs--where the Subcommittee's leadership can help us to 
improve the lives and rural livelihoods of the Navajo people. We 
appreciate your consideration of our recommendations and requests.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

Summary
    This Statement is submitted in support of appropriations for the 
Department of Agriculture's Colorado River Basin salinity control 
program. The salinity control program has not been funded in recent 
years at the level necessary to control salinity with respect to water 
quality standards. Also, inadequate funding of the salinity control 
program negatively impacts the quality of water delivered to Mexico 
pursuant to Minute 242 of the International Boundary and Water 
Commission. Funding for the Environmental Quality Incentives Program 
(EQIP), from which the Department of Agriculture funds the salinity 
program, has been insufficient to implement needed salinity control 
measures. The Farm Security and Rural Investment Act (FSRIA) of 2002 
authorized a funding level of $1 billion for EQIP in fiscal year 2004. 
I urge the Subcommittee to support funding from Commodity Credit 
Corporation (CCC) of $1 billion to be appropriated for EQIP. I request 
that the Subcommittee designate 2.5 percent of the EQIP appropriation, 
but at least $17.5 million, for the Colorado River Basin salinity 
control program. I request that adequate funds be appropriated for 
technical assistance and education activities directed to salinity 
control program participants.

Statement
    The seven Colorado River Basin states, in response to the salinity 
issues addressed by Clean Water Act of 1972, formed the Colorado River 
Basin Salinity Control Forum (Forum). Comprised of gubernatorial 
appointees from the seven Basin states, the Forum was created to 
provide for interstate cooperation in response to the Clean Water Act, 
and to provide the states with information to comply with Sections 303 
(a) and (b) of the Act. The Forum has become the primary means for the 
seven Basin states to coordinate with Federal agencies and Congress to 
support the implementation of the salinity control program.
    The Colorado River Basin salinity control program was authorized by 
Congress in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the Act in 1984 to give new responsibilities to the 
Department of Agriculture. While retaining the Department of the 
Interior as the lead coordinator for the salinity control program, the 
amended Act recognized the importance of the Department of Agriculture 
operating under its authorities to meet the objectives of the salinity 
control program. Many of the most cost-effective projects undertaken by 
the salinity control program to date have occurred since implementation 
of the Department of Agriculture's authorization for the program.
    Bureau of Reclamation studies show that damages from the Colorado 
River to United States water users are about $300,000,000 per year. 
Damages are estimated at $75,000,000 per year for every additional 
increase of 30 milligrams per liter in salinity of the Colorado River. 
It is essential to the cost-effectiveness of the salinity control 
program that Department of Agriculture salinity control projects be 
funded for timely implementation to protect the quality of Colorado 
River Basin water delivered to the Lower Basin States and Mexico.
    Congress concluded, with the enactment of the Federal Agriculture 
Improvement and Reform Act of 1996 (FAIRA), that the salinity control 
program could be most effectively implemented as a component of the 
Environmental Quality Incentives Program (EQIP). The salinity control 
program, since the enactment of FAIRA, has not been funded at an 
adequate level to protect the Basin State-adopted and Environmental 
Protection Agency approved water quality standards for salinity in the 
Colorado River. Appropriations for EQIP have been insufficient to 
adequately control salt loading impacts on water delivered to the 
downstream states, and to Mexico pursuant to Minute No. 242 of the 
International Boundary and Water Commission, United States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the Department of Agriculture to 
implement salinity control measures per Section 202 (c) of the Colorado 
River Basin Salinity Control Act. The EQIP evaluation and project 
ranking criteria target small watershed improvements that do not 
recognize that water users hundreds of miles downstream are significant 
beneficiaries of the salinity control program. Proposals for EQIP 
funding are ranked in the states of Utah, Wyoming and Colorado under 
the direction of the respective State Conservationists without 
consideration of those downstream, particularly out-of-state, benefits.
    Following recommendations of the Basin States, the Department of 
Agriculture's Natural Resources Conservation Service (NRCS) designated 
the Colorado River Basin an ``area of special interest'' including 
earmarked funds for the salinity control program. The NRCS concluded 
that the salinity control program is different from the small watershed 
approach of the EQIP program. The watershed for the salinity control 
program stretches almost 1,200 miles, from the headwaters of the river 
through the salt-laden soils of the Upper Basin to the river's 
termination at the Gulf of California in Mexico. NRCS is to be 
commended for its efforts to comply with the Department of 
Agriculture's responsibilities under the Colorado River Basin Salinity 
Control Act of 1974. Irrigated agriculture in the Upper Basin realizes 
significant local benefits of the salinity control program and 
agricultural producers have succeeded in submitting cost-effective 
proposals to NRCS.
    However, the Basin States, including New Mexico, have been very 
dismayed that funding for EQIP has been inadequate since the enactment 
of FAIRA in 1996. Several years of inadequate Federal funding for the 
Department of Agriculture have resulted in the Forum finding that the 
salinity control program needs to be accelerated to maintain the water 
quality criteria of the Colorado River water quality standards for 
salinity. Since the enactment of FSRIA in 2002, an opportunity to 
adequately fund the salinity control program exists for the first time 
since the enactment of FAIRA.
    The Basin States contribute about $4.3 million in up-front cost 
sharing and local farms contribute an estimated $3.9 million to match 
the NRCS earmarked funds of about $10 million in the fiscal year 2002. 
State and local cost sharing is triggered by and indexed to the Federal 
appropriation. The requested funding of at least $17.5 million for 
fiscal year 2004 will continue to be needed each year for at least the 
next few fiscal years.
    The Department of Agriculture projects have proven to be the most 
cost-effective component of the salinity control program. The 
Department of Agriculture has indicated that a more adequately funded 
EQIP program would result in more funds being allocated to the salinity 
program. The Basin States have cost sharing dollars available to 
participate in on-farm salinity control efforts. The agricultural 
producers in the Upper Basin are willing to cost-share their portion 
and waiting for adequate funding for their applications to be 
considered.
    I urge the Congress to appropriate at least $1 billion from the CCC 
in fiscal year 2004 for EQIP. Also, I request that Congress designate 
2.5 percent of the EQIP appropriation, but at least $17.5 million, for 
the Colorado River Basin salinity control program.
    Finally, I request that adequate funds be appropriated to NRCS 
technical assistance and education activities for the salinity control 
program participants, rather than requiring the NRCS to borrow funds 
from CCC for these direly needed and under funded support functions. 
Recent history has shown that inadequate funding for NRCS technical 
assistance and education activities has been a severe impediment to 
successful implementation of the salinity control program. The Basin 
States parallel funding program, implemented as a means of cost sharing 
with NRCS, expends 40 percent of the states' funds available to meet 
the needs of NRCS for technical assistance and education activities. I 
urge the appropriation of adequate funds for these essential 
activities.
                                 ______
                                 

    Prepared Statement of the Northwest Indian Fisheries Commission

    Mr. Chairman and Members of the Committee, I am Billy Frank, Jr., 
Chairman of the Northwest Indian Fisheries Commission (NWIFC), and on 
behalf of the twenty-Western Washington member Tribes, I submit this 
request for appropriations to support the research, sanitation and 
marketing of Tribal shellfish products. We request the following:
  --$500,000 to support seafood marketing costs which will assist the 
        tribes in fulfilling the commercial demands for their shellfish 
        products both domestically and abroad;
  --$1,000,000 to support water and pollution sampling, sampling and 
        research for paralytic shellfish poisoning and coordination of 
        research projects with State agencies; and,
  --$1,000,000 to support data gathering at the reservation level for 
        the conduct of shellfish population surveys and estimates.

Treaty Shellfish Rights
    As with salmon, the tribes' guarantees to harvest shellfish lie 
within a series of treaties signed with representatives of the Federal 
Government in the mid-1850s. In exchange for the peaceful settlement of 
what is today most of Western Washington, the tribes reserved the right 
to continue to harvest finfish and shellfish at their usual and 
accustomed grounds and stations. The tribes were specifically excluded 
from harvesting shellfish from areas ``staked or cultivated'' by non-
Indian citizens. Soon after they were signed, the treaties were 
forgotten or ignored.
    The declining salmon resource in the Pacific Northwest negates the 
legacy Indian people in Western Washington have lived by for thousands 
of years. We were taught to care for the land and take from it only 
what we needed and to use all that we took.
    We depended on the gifts of nature for food, trade, culture and 
survival. We knew when the tide was out, it was time to set the table 
because we live in the land of plenty; a paradise complete. Yet, 
because of the loss of salmon habitat, which is attributable to 
overwhelming growth in the human population, a major pacific coastal 
salmon recovery effort ensues. Our shellfish resource is our major 
remaining fishery.
    At least ninety types of shellfish have been traditionally 
harvested by the Tribes in Western Washington and across the continent 
Indian people have called us the fishing Tribes because of our rich 
history of harvesting and caring for finfish and shellfish. Our 
shellfish was abundant and constituted a principal resource of export, 
as well as provided food to the Indians and the settlers, which greatly 
reduced the living expenses.
    Shellfish remain important for subsistence, economic, and 
ceremonial purposes. With the rapid decline of many salmon stocks, due 
to habitat loss from western Washington's unrelenting populous growth, 
shellfish harvesting has become a major factor in tribal economies.
    The tribes have used shellfish in trade with the non-Indian 
population since the first white settlers came into the region a 
century and a half ago. Newspaper accounts from the earliest days of 
the Washington Territory tell of Indians selling or trading fresh 
shellfish with settlers. Shellfish harvested by members of western 
Washington's Indian tribes is highly sought after throughout the United 
States and the Far East. Tribal representatives have gone on trade 
missions to China and other Pacific Rim nations where Pacific Northwest 
shellfish--particularly geoduck--is in great demand. Trade with the Far 
East is growing in importance as the tribes struggle to achieve 
financial security through a natural resources-based economy.
    Treaty language pertaining to tribal shellfish harvesting included 
this section:

    ``The right of taking fish at usual and accustomed grounds and 
stations is further secured to said Indians, in common with all 
citizens of the United States; and of erecting temporary houses for the 
purposes of curing; together with the privilege of hunting and 
gathering roots and berries on open and unclaimed lands. Provided, 
however, that they not take shell-fish from any beds staked or 
cultivated by citizens.''
(Treaty with the S'Klallam, January 26, 1855)
    In exchange for the peaceful settlement of what is today most of 
western Washington, the tribes reserved the right to continue to 
harvest finfish and shellfish at all of their usual and accustomed 
grounds and stations. The tribes were specifically excluded from 
harvesting shellfish from areas ``staked or cultivated'' by non-Indian 
citizens.
    Tribal efforts to have the Federal Government's treaty promises 
kept began in the first years of the 20th Century when the United 
States Supreme Court ruled in U.S. v. Winans, reaffirming that where a 
treaty reserves the right to fish at all usual and accustomed places, a 
state may not preclude tribal access to those places.
    Sixty years later, the tribes were again preparing for battle in 
court. After many years of harassment, beatings and arrests for 
exercising their treaty-reserved rights, western Washington tribes took 
the State of Washington to Federal court to have their rights legally 
re-affirmed. In 1974, U.S. District Court Judge George Boldt ruled that 
the tribes had reserved the right to half of the harvestable salmon and 
steelhead in western Washington.
    The ``Boldt Decision,'' which was upheld by the U.S. Supreme Court, 
also re-established the tribes as co-managers of the salmon and 
steelhead resources in western Washington.
    As a result of this ruling, the tribes became responsible for 
establishing fishing seasons, setting harvest limits, and enforcing 
tribal fishing regulations. Professional biological staffs, enforcement 
officers, and managerial staff were assembled to ensure orderly, 
biologically-sound fisheries.
    Beginning in the late 1970s, tribal and state staff worked together 
to develop comprehensive fisheries that ensured harvest opportunities 
for Indian and non-Indian alike, and also preserved the resource for 
generations to come.
    It was within this new atmosphere of cooperative management that 
the tribes sought to restore their treaty-reserved rights to manage and 
harvest shellfish from all usual and accustomed areas. Talks with their 
state counterparts began in the mid-1980s, but were unsuccessful. The 
tribes filed suit in Federal court in May 1989 to have their shellfish 
harvest rights restored.
    The filing of the lawsuit brought about years of additional 
negotiations between the tribes and the state. Despite many serious 
attempts at reaching a negotiated settlement, the issue went to trial 
in May 1994.
    In 1994, District Court Judge Edward Rafeedie upheld the right of 
the treaty tribes to harvest 50 percent of all shellfish species in 
their Usual and Accustomed fishing areas. Judge Rafeedie also ordered a 
shellfish Management Implementation Plan that governs tribal/state co-
management activities.
    After a number of appeals, the U.S. 9th Circuit Court of Appeals 
let stand Rafeedie's ruling in 1998. Finally, in June 1999, the U.S. 
Supreme Court denied review of the District court ruling, effectively 
confirming the treaty shellfish harvest right.

Assist the Tribes in Marketing Efforts to Fulfill the Demands for their 
        Shellfish Products, $500,000
    Shellfish harvested by members of Western Washington Indian Tribes 
are of extreme quality and are highly sought after throughout the 
United States, Europe and the Far East. Unfortunately, because Tribes 
are not centrally organized and it is the individual tribal fisher who 
harvests the resource, such markets have never fully materialized.
    We request $500,000, which will assist the Tribes in promoting our 
shellfish products, both in domestic and international markets. Tribes 
anticipate the need to provide necessary health training to harvesters, 
possibly develop cooperative seafood ventures, develop marketing 
materials and engage in actual marketing operations. Specific earmarked 
funding from the Committee can jump start tribal efforts in these 
areas. We also anticipate participating in intertribal consortiums that 
generally promote tribal products, and urge the Committee to support 
necessary funding for those efforts. Funding from the Committee will 
allow the tribes to realize the fair value for their product, help 
employ more tribal members, and allow the tribes to fulfill their 
treaty rights.

Water and Pollution Sampling, Sampling and Research for Paralytic 
        Shellfish Poisoning and Coordination of Research Projects with 
        State and Federal Agencies, $1,000,000
    Shellfish growing areas are routinely surveyed for current or 
potential pollution impacts and are classified based on the results of 
frequent survey information. No shellfish harvest is conducted on 
beaches that have not been certified by the tribes and the Washington 
Department of Health. Growing areas are regularly monitored for water 
quality status and naturally-occurring biotoxins to protect the public 
health.
    However, both Tribal and non-Indian fisheries have been threatened 
due to the lack of understanding about the nature of biotoxins, 
especially in subtidal geoduck clams. Research targeted to better 
understand the nature of biotoxins could prevent unnecessary illness 
and death that may result from consuming toxic shellfish, and could 
prevent unnecessary closure of tribal and non-Indian fisheries.

Data Gathering at the Reservation Level for the Conduct of Shellfish 
        Population Surveys and Estimates, $1,000,000
    Very little current data and technical information exists for many 
of the shellfish fisheries now being jointly managed by state and 
Tribal managers. This is particularly true for many free-swimming and 
deep-water species. This lack of information can not only impact 
fisheries and the resource as a whole, but makes it difficult to assess 
50/50 treaty sharing arrangements. Additionally, intertidal assessment 
methodologies differ between state and tribal programs, and can lead to 
conflicts in management planning.
    Existing data systems must be enhanced for catch reporting, 
population assessment and to assist enhancement efforts. Research on 
methodology for population assessment and techniques also is critical 
to effective management.
    Onsite beach surveys are required to identify harvestable 
populations of shellfish. Regular monitoring of beaches is also 
necessary to ensure that the beaches remain safe for harvest. 
Additional and more accurate population survey and health certification 
data is needed to maintain these fisheries and open new harvest areas. 
This information will help protect current and future resources and 
provide additional harvest opportunities.

Conclusion
    We ask that you give serious consideration to our needs. We are 
available to discuss these requests with committee members or staff at 
your convenience. Thank you.
                                 ______
                                 

    Prepared Statement of the Oklahoma Farmers Union Farm and Rural 
   Programs Coordinator, National Fire Ant Strategy Development, and 
      Oklahoma Fire Ant Research and Management Advisory Committee

    For the last several years I have submitted testimony on behalf of 
finding solutions that are economically viable to manage fire ants. In 
that time the number of acres, counties and states have continued to 
grow. Also, in that time has come great hope for finding a solution to 
control the fire ant pest. As an agriculture producer stakeholder and 
as a parent I have a keen interest in moving forward with the research 
as quickly as possible.
    Fire ants are a frequent topic of conversation among the 100,000 
plus family memberships that make-up the Oklahoma Farmers Union. Our 
membership is comprised of agriculture producers, rural neighbors and 
urban cousins--if you will. We represent this membership in three areas 
of legislative activity, cooperative development and educational 
opportunity as well as provide property and casualty and life insurance 
services to our membership. We are also the driving force to ensure 
that fire ant research is included in our national organization policy. 
And, we have organized an educational session for Congressman, staff 
and other key people on Capitol Hill with ARS presenting a fire ant 
research update.
    Our membership is very interested in this issue and as soon as the 
warmth returns to the state in the next few weeks the calls will start 
and our membership will want to know what we are doing about 
controlling the fire ant. I am always pleased to let them know the 
progress that is being made with ARS in cooperation with the land grant 
universities. But, we must do more and the only way to do that is with 
additional resources.
    While fire ants have been around for decades as a result of 
importation into Alabama from South America, this non-native pest has 
spread further and caused far more destructive damage than ever 
envisioned. Just a few decades ago, it was never anticipated that these 
pests would expand so far north and encompass so many states and such a 
great population. Yet, today there are no signs of any slow-down and 
the impacted constituencies continue to grow. The red imported fire ant 
now infests and requires APHIS quarantine in over 321 million acres in 
13 states and Puerto Rico. And, the counties and states continue to be 
added. Since the first of the year additional counties in Tennessee 
have been added with some counties revised to indicate complete 
infestation. The total annual fire ant losses to households, business, 
schools, government and military are estimated at $6 billion. Total 
fire ant losses to agriculture alone are estimated at almost $900 
million annually. If we were to treat with conventional chemicals all 
infested land in the U.S., the cost would be between $6 billion to $12 
billion per year.
    My interest in fire ants first came in 1985 when the imported red 
fire ants first crossed the border in Southeastern Oklahoma. As a U.S. 
House of Representatives Associate Appropriations Staff member for the 
House Agriculture and Rural Development Subcommittee, I drafted 
questions asked of ARS as to the status of research regarding the 
control or eradication of fire ants as a few constituents began to call 
from the district.
    In recent years, it has become much more personal now that imported 
red fire ants has spread to the mid-south central area of the state and 
to my farm and home. Our agriculture operation is split with part being 
in a quarantined county and part in a non-quarantined county. By the 
most stringent interpretation of the law, I cannot feed cattle in a 
non-quarantined county with hay produced in a quarantined county even 
though the pasture may be just across the road. The fire ant 
infestations have resulted in an economic impact on us as well because 
it impacts where we can sell the hay.
    And, equally important is our quality of life. I have two young 
daughters--Courtney is 7 years old and Sarah is 2 years and they both 
love playing outside but it is different today than when I grew up. 
Today we must watch for the new danger of fire ants whether recreation 
or work is involved.
    With the increased activity in my area my interest gained in the 
issue and just a few years ago I made contact with the Gainesville fire 
ant research team presenting at the Southern Legislative Conference in 
Oklahoma City, a conference for state legislators across the south. 
From that initial meeting, we worked together with a variety of state 
cooperators including Oklahoma, Texas, South Carolina and Alabama to 
create a national strategy for dealing with fire ants. While many 
research components existed, a comprehensive national focus and 
strategy did not. That plan has applied the tools and the science that 
these extremely talented people had been working so diligently on in 
recent years
    Recently, I participated in the USDA-ARS National Fire Ant Program 
Review in New Orleans which are held every five years with 
stakeholders. I am excited about the direction taken by ARS with fire 
ant work. While not totally discounting chemicals, the scope is to use 
all tools at their disposal to combat the enemy. Non-native bio-
controls such as phorid flies, existing bio-controls such as fire ant 
pathogens within fire ant populations, native ant species and chemical 
bait applications are all part of the integrated approach. We must find 
a means to reduce the expense to producers when treating for fire ants. 
Past history has shown that a chemical application approach alone isn't 
economically feasible nor responsible for the impact on the environment 
unless we do find the magic formula that will not impact the 
environment and be cost efficient. The research represents efforts to 
provide self-sustaining, limited or non-pesticidial, biologically based 
control tactics for a serious medical, veterinary, and agricultural 
pest, which would be safe and effective in urban, agricultural and 
natural ecosystems.
    With success in the laboratory and small sites around Florida, the 
research has expanded to cooperators across the south. As a result of 
the success, mass rearing facilities for the phorid flies are coming 
on-line much like the mass rearing done with the successful screwworm 
program. In Oklahoma, considered the northern reach of the experiment 
process, we are encouraged that we have seen multiple generations of 
parasitic phorid flies in the field and we are anxious to see if they 
survived the winter.
    The research being conducted in this area speaks to the confidence 
that colleagues of the scientists have in them and as a result this 
program is one of a handful of initiatives to receive additional funds 
based on the peer review recommendation process. The Area-Wide 
Suppression of Fire Ant Populations in Pastures is expected to run 4-5 
years. This area wide management project uses permanently established 
bio-control agents and reduced chemical pesticide applications to 
maintain the fire ant population below economic damage thresholds. 
Specific objectives are to: Release and spread natural enemies for fire 
ants--decapitating flies and Thelohania fire ant disease; Area wide 
reduction of fire ant populations by 80 percent using natural enemies; 
Save at least $5 billion a year in cost of fire ant control and damage 
for agricultural producers, businesses, homeowners, government and 
military; Reduce reliance on repeated applications of insecticide for 
fire ant control; and Restore ecological balance in the natural 
environment. This project aims to demonstrate and transfer to the 
public, management strategies for the imported fire ant. If successful, 
this will return money to my pocket book and impact my families' 
quality of life.
    An area not yet fully tapped in research of the control of fire 
ants is to identify viruses that can be used in the weapons of war 
against this enemy. Hopefully, funds can be found to bring on a 
molecular biologist to the team to further target this area.
    I commend the Congress for providing additional funds for fire ants 
to the Biological Control of Pests Research Unit in Stoneville, 
Mississippi. These funds will greatly assist in the mass rearing of 
phorid flies that are showing great hope as one means leading to 
helping in the control process. However, the location charged with the 
overall mission of fire ant research has not seen a congressional 
increase in 30 years for this effort. Our request is that you increase 
the research base of the Imported Fire Ant Unit at the Center for 
Medical, Agricultural & Veterinary Entomology in Gainesville, Florida 
by a total of $800,000.
    The available base for this research mission has actually been 
dropping steadily and we are in a position today where the critical 
mass of only a few experienced scientist' remain at Gainesville. 
Investing in the basic applied research at this location is key to the 
success at all other work at ARS and land grant locations related to 
the issue. Let's not stop at this point. Biological methods for 
treatment of fire ants are working! While it is exciting that we are 
finally making more progress on fire ants in the last few years than we 
have for the entire time that fire ants has plagued this country--
continued success requires one key ingredient--adequate funding.
    We would strongly encourage you to provide the appropriate funding 
of $2 million annually to Gainesville by adding $800,000 to the ARS 
budget base for such a nationally biologically-based integrated 
management strategy that includes a partnership of both USDA-ARS, state 
land-grant universities, state legislatures and the private sector.
    In conclusion, I appreciate the opportunity to submit testimony on 
behalf of the grassroots agriculture producers across the south that 
struggle each day to make a viable living and home for their families. 
Thank you
                                 ______
                                 

     Prepared Statement of the Organization for the Promotion and 
           Advancement of Small Telecommunications Companies

                           SUMMARY OF REQUEST

    The Organization for the Promotion and Advancement of Small 
Telecommunications Companies (OPASTCO) seeks the Subcommittee's support 
for fiscal year 2004 loan levels for the telecommunications loans 
program and Rural Telephone Bank (RTB) program administered by the 
Rural Utilities Service (RUS) in the following amounts:

                        [In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
5 percent hardship loans................................             145
Treasury rate loans.....................................             250
Guaranteed loans........................................             100
RTB loans...............................................             175
------------------------------------------------------------------------

    In addition, OPASTCO requests the following action by the 
Subcommittee: (1) a prohibition on the transfer of unobligated RTB 
funds to the general fund of the Treasury and a requirement that 
interest be paid on these funds; (2) funding of the distance learning, 
telemedicine, and broadband grant and loan programs at sufficient 
levels; and (3) removal of the prohibition on rural communities located 
in standard metropolitan statistical areas from participating in the 
broadband loan program.

                                GENERAL

    OPASTCO is a national trade association of approximately 500 small 
telecommunications carriers serving primarily rural areas of the United 
States. Its members, which include both commercial companies and 
cooperatives, together serve over 2.6 million customers in 42 states. 
Approximately half of OPASTCO's members are RUS or RTB borrowers.
    Perhaps at no time since the inception of the RUS (formerly the 
REA) has the telecommunications loans and RTB programs been so vital to 
the future of rural America. The telecommunications industry is at a 
crossroads, both in terms of technology and public policy. Rapid 
advances in telecommunications technology in recent years have already 
begun to deliver on the promise of a new ``information age.'' The 
Federal Communications Commission's (FCC) ongoing implementation of the 
landmark Telecommunications Act of 1996, as well as modernization 
resulting from prior statutory changes to RUS's lending program, will 
expedite this transformation. In addition, both Federal and State 
policymakers have made deployment of advanced telecommunications 
services a top priority. However, without continued support of the 
telecommunications loans and RTB programs, rural telephone companies 
will be hard pressed to build the infrastructure necessary to bring 
their communities into this new age, creating a bifurcated society of 
information ``haves'' and ``have-nots.''
    Contrary to the belief of some critics, RUS's job is not finished. 
Actually, in a sense, it has just begun. We have entered a time when 
advanced services and technology--such as broadband fiber optics, high-
speed packet and digital switching equipment, and digital subscriber 
line technology--are expected by customers in all areas of the country, 
both urban and rural. Unfortunately, the inherently higher costs of 
upgrading the rural wireline network, both for voice and data 
communications, has not abated.
    Rural telecommunications continues to be more capital intensive and 
involves fewer paying customers than its urban counterpart. Nationally, 
the average population density in areas served by rural carriers is 
only about 13 persons per square mile. This compares to a national 
average population density of 105 persons per square mile in areas 
served by non-rural carriers. The FCC's February 2002 report on the 
deployment of advanced telecommunications capability noted that a 
positive correlation persists between population density and the 
presence of subscribers to high-speed services. Indeed, the report 
stated that there are high-speed subscribers in 97 percent of the most 
densely populated zip codes but in only 49 percent of the zip codes 
with the lowest population densities. In order for rural telephone 
companies to modernize their networks and provide consumers with 
advanced services at reasonable rates, they must have access to 
reliable low-cost financing.
    The relative isolation of rural areas increases the value of 
telecommunications services for these citizens. Telecommunications 
enables applications such as high-speed Internet connectivity, distance 
learning, and telemedicine that can alleviate or eliminate some rural 
disadvantages. A modern telecommunications infrastructure can also make 
rural areas attractive for some businesses and result in revitalization 
of the rural economy. For example, businesses such as telemarketing and 
tourism can thrive in rural areas, and telecommuting can become a 
realistic employment option.
    While it has been said many times before, it bears repeating that 
RUS's telecommunications loans and RTB programs are not grant programs. 
The funds loaned by RUS are used to leverage substantial private 
capital, creating public/private partnerships. For a very small cost, 
the government is encouraging tremendous amounts of private investment 
in rural telecommunications infrastructure.
    Most importantly, the programs are tremendously successful. 
Borrowers actually build the infrastructure and the government is 
reimbursed with interest. There has never been a default in the history 
of the telecommunications lending programs.

THE TELECOMMUNICATIONS ACT OF 1996 HAS HEIGHTENED THE NEED FOR THE RUS 
                         AND RTB LOAN PROGRAMS

    The FCC's implementation of the Telecommunications Act of 1996 will 
only increase rural telecommunications carriers' need for RUS 
assistance in the future. The forward-looking Act defines universal 
service as an evolving level of telecommunications services that the 
FCC must establish periodically, taking into account advances in 
telecommunications and information technologies and services. The FCC 
is currently seeking comment on the recommended decision of the 
Federal-State Joint Board on Universal Service regarding the list of 
services supported by the high-cost universal service program. RUS has 
an essential role to play in the implementation of the law, as it will 
compliment support mechanisms established by the FCC, thus enabling 
rural America to move closer to achieving the Federally mandated goal 
of rural/urban service and rate comparability.
   a $175 million loan level should be maintained for the rtb program
    As previously discussed, the RTB's mission has not been completed 
as rural carriers continue to rely on this important source of 
supplemental financing in order to provide their communities with 
access to the next generation of telecommunications services. Pursuant 
to Section 305(d)(2)(B) of the Rural Electrification (RE) Act, Treasury 
rate loans are to be made concurrently with RTB loans. Thus, if lending 
is not authorized for the RTB, the overall telecommunications loans 
program will be significantly reduced, to the detriment of rural 
Americans. The ongoing need for the RTB program makes it essential to 
maintain a $175 million loan level for fiscal year 2004.

 THE PROHIBITION ON THE TRANSFER OF ANY UNOBLIGATED BALANCE OF THE RTB 
   LIQUIDATING ACCOUNT TO THE TREASURY AND REQUIRING THE PAYMENT OF 
              INTEREST ON THESE FUNDS SHOULD BE CONTINUED

    OPASTCO urges the Subcommittee to reinstate language prohibiting 
the transfer of any unobligated balance of the RTB liquidating account 
to the Treasury or the Federal Financing Bank which is in excess of 
current requirements and requiring the payment of interest on these 
funds. As a condition of borrowing, the statutory language establishing 
the RT13 requires telephone companies to purchase Class B stock in the 
bank. Borrowers may convert Class B stock into Class C stock on an 
annual basis up to the principal amount repaid. Thus, all current and 
former borrowers maintain an ownership interest in the RTB. As with 
stockholders of any concern, these owners have rights which may not be 
abrogated. The Subcommittee's inclusion of the aforementioned language 
into the fiscal year 2004 appropriations bill will ensure that RT13 
borrowers are not stripped of the value of this required investment.

  THE DISTANCE LEARNING, TELEMEDICINE, AND BROADBAND PROGRAMS SHOULD 
                CONTINUE TO BE FUNDED AT ADEQUATE LEVELS

    In addition to RUS's telecommunications loans and RTB programs, 
OPASTCO supports adequate funding of the distance learning, 
telemedicine, and broadband grant and loan programs. Through distance 
learning, rural students gain access to advanced classes which will 
help them prepare for college and jobs of the future. Telemedicine 
provides rural residents with access to quality health care services 
without traveling great distances to urban hospitals. In addition, the 
broadband program will allow more rural communities to gain high-speed 
access to the Internet and receive other advanced services. In light of 
the Telecommunications Act's purpose of encouraging; deployment of 
advanced technologies and services to all Americans--including schools 
and health care providers--sufficient targeted funding for these 
purposes is essential in fiscal year 2004.

 THE PROHIBITION ON RURAL COMMUNITIES LOCATED IN STANDARD METROPOLITAN 
  STATISTICAL AREAS FROM PARTICIPATING IN THE BROADBAND LOAN PROGRAM 
                           SHOULD BE REMOVED

    Last year, Congress passed the Farm Security and Rural Investment 
Act of 2002. That Act added new Title VI to the RE Act, which 
established a broadband loan program. Under Section 601(b)(2) of Title 
VI, in order for a rural community to be eligible for the program, the 
community cannot: (a) have more than 20,000 inhabitants, and (b) be 
located in an area designated as a standard metropolitan statistical 
area (SMSA). Through these criteria, it is reasonable to assume that 
Congress was attempting to distinguish between urban and rural areas 
and to exclude those areas that are obviously urban. Unfortunately, the 
second criterion that excludes areas located within SMSAs would 
encompass many rural communities with less than 20,000 inhabitants--
perhaps more than 40 percent of such areas. Certainly, Congress did not 
intend to automatically exclude so many small communities of America 
from a program designed to facilitate deployment of broadband 
technology in rural areas. In addition, the Bureau of the Census has 
not recognized the SMSA designation since before 1990, making it 
practically impossible to interpret this exclusionary provision. 
Therefore, OPASTCO urges the Subcommittee to remove this criterion so 
that more rural Americans can reap the benefits of broadband 
technology.

                               CONCLUSION

    The development of the nationwide telecommunications network into 
an information superhighway, as envisioned by policymakers, will help 
rural America survive and prosper in any market--whether local, 
regional, national, or global. However, without the availability of 
low-cost RUS fiends, building the information superhighway in 
communities that are isolated and thinly populated will be untenable. 
By supporting the RUS telecommunications programs at the requested 
levels, the Subcommittee will be making a significant contribution to 
the future of rural America.
                                 ______
                                 

    Prepared Statement of the Partnership for Food Safety Education

    As your Subcommittee prepares for its fiscal year 2004 
appropriations process, we are writing to request your help in 
advancing a funding item in which all of us have a strong interest--
helping ensure that Americans are educated about and protected from 
foodborne illnesses and diseases. In order to develop an appropriate 
food safety education program that will benefit consumers and prepare 
them for a potential bioterrorist attack, as well as protect themselves 
from the threats posed by common foodborne pathogens, the Partnership 
for Food Safety Education (``Partnership'') requests $1.3 million in 
new funding within the Food and Drug Administration account of the 
fiscal year 2004 Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill.
    As you well know, foodborne illness is a serious public health 
problem. The Partnership, a non-profit, public-private partnership 
composed of consumer groups and national food industries, in liaison 
with Federal agencies, will work to establish an educational program 
that will provide current information to educate individuals about food 
safety issues. Although provisions are in place to protect our food 
supply from acts of terror, there is not a communications program 
available to educate the American public on how to be prepared in the 
event of a bioterrorist attack. By coordinating the efforts of the 
public and private sectors, the Partnership can develop and manage a 
food safety education program to assist in this important task.
    The Partnership is an ideal model of how consumer groups, industry, 
and government agencies can work together for the good of the American 
people. Since its formation in 1997, the Partnership has demonstrated 
its ability to educate consumers about proper safe food handling. Based 
on this experience and using its existing structure, the Partnership 
can develop research-based consumer messages to inform and educate the 
American people, through their local governments, regarding potential 
threats to the food supply.
    Although most consumers are concerned about food safety, many 
Americans today have inadequate knowledge about basic sanitation and 
food handling steps that can greatly reduce the risk of foodborne 
illness. To address this knowledge gap, in October 1997, the 
Partnership launched a nationwide consumer education campaign called 
Fight BAC! (bacteria). This campaign has been an enormous success, 
with the Partnership coordinating thousands of community organizations 
and retail centers to educate consumers. These campaigns have allowed 
the Partnership to educate over one quarter of the U.S. population in 
an effort to reduce the incidents of foodborne illnesses in our 
country, the requested funding, the Partnership will be able to further 
protect the American people from foodborne illness and disease, 
regardless of its source.
    As always, we are grateful for your interest in promoting food 
safety. Please do not hesitate to contact us if you have any questions 
regarding this request for funding under the fiscal year 2004 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies Appropriations Bill.
                                 ______
                                 

   Prepared Statement of People for the Ethical Treatment of Animals 
                                 (PETA)

    People for the Ethical Treatment of Animals (PETA) is the world's 
largest animal rights organization, with more than 750,000 members and 
supporters. We greatly appreciate this opportunity to submit testimony 
regarding the fiscal year 2004 appropriations for the Food and Drug 
Administration (FDA). Our testimony will focus on chemical tests 
allowed or required by the FDA to be conducted on animals.
    As you may know, the FDA requires substances such as drugs, 
medicated skin creams, and others to be tested for their rates of skin 
absorption, skin irritation, phototoxicity, and/or pyrogenicity 
(potential to cause fever). Traditionally, these tests involve smearing 
chemicals on animals' shaved backs (often causing painful lesions), or 
injecting a substance into an animal's bloodstream (often causing 
breathing problems, organ failure, or fatal shock).
    Fortunately, there are non-animal test methods that are just as 
effective, if not more so. Various tissue-based methods have been 
accepted in Europe as total replacements for skin absorption studies in 
living animals. Government regulators in Canada accept the use of a 
skin-patch test in human volunteers as a replacement for animal-based 
skin irritation studies (for non-corrosive substances free of other 
harmful properties). The Organization for Economic Cooperation and 
Development (OECD), of which the U.S. is a key member, has accepted a 
cell culture test for light-induced (``photo'') toxicity, and a test 
using donated human blood has been validated in Europe as a total 
replacement for animal-based fever, or pyrogenicity, studies.
    However, the FDA continues to require the use of animals for all 
four of these endpoints, despite the availability of non-animal tests.
    We respectfully request that the subcommittee include report 
language ensuring that no funds for the FDA (including salaries or 
expenses of personnel) may be used for the purpose of assessing data 
from an animal-based test method when a non-animal test for the desired 
endpoint has been validated and/or accepted by the OECD or its member 
countries.

Animal tests cause immense suffering
    Traditionally, the rate at which a chemical is able to penetrate 
the skin has been measured by shaving the backs of rats and smearing 
the substance on them for an exposure period of up to 24 hours. They 
are eventually killed, and their skin, blood, and excrement are 
analyzed. A similar method is used to test for skin irritation, except 
it usually done to rabbits, who are locked in full-body restraints. A 
test chemical is applied to their shaved backs, and the wound site is 
then covered with a gauze patch for normally four hours. A chemical is 
considered to be an irritant if it causes reversible skin lesions or 
other clinical signs, which heal partially or totally by the end of a 
14-day period. Phototoxic chemicals cause inflammation of the skin when 
applied to skin that is subsequently exposed to sunlight or ultraviolet 
radiation. To test for phototoxicity, a similar body-restraint, shaved-
back procedure is used, but this time it is mice and guinea pigs who 
are the subjects, and they are kept restrained for several days while 
enduring the pain, swelling, and sores that develop on their skin. 
Pyrogenicity is the potential of a substance to cause fever and 
inflammation. Once again, the traditional pyrogenicity test method 
involves locking rabbits in full-body restraints. After having a test 
substance injected into their bloodstream, the rabbits can suffer 
fever, breathing problems, circulatory and organ failure, and fatal 
shock. Animals used in the above tests are not given any painkillers.

These tests have never been proven to be relevant to humans
    None of the animal tests currently used for skin absorption, 
irritation, phototoxicity, or pyrogenicity has ever been scientifically 
validated for its reliability or relevance to human health effects. 
Animal studies yield highly variable data and are often poor predictors 
of human reactions. For example, one study, which compared the results 
of rabbit skin irritation tests with real-world human exposure 
information for 65 chemicals, found that the animal test was wrong 
nearly half (45 percent) of the time in its prediction of a chemical's 
skin damaging potential (Food & Chemical Toxicology, Vol. 40, pp. 573-
92, 2002). For phototoxicity, the animal-based tests have never even 
been codified into a standardized test guideline, meaning that the 
protocols can vary widely from laboratory to laboratory, rendering the 
results virtually uninterpretable. There are well-documented drawbacks 
to the rabbit pyrogen test, including marked differences in sensitivity 
between species and strains of rabbits.

Validated methods exist which do not harm animals
    Fortunately, test methods have been found to accurately predict 
skin absorption, irritation, phototoxicity and pyrogenicity without 
harming animals.
    The absorption rate of a chemical through the skin can be measured 
using skin from a variety of sources (e.g. human cadavers). The 
reliability and relevance of these in vitro methods have been 
thoroughly established through a number of international expert 
reviews, and have been codified and accepted as an official test 
guideline of the OECD.
    Instead of animal-based skin irritation studies, government 
regulators in Canada accept the use of a skin-patch test using human 
volunteers. (The chemical is first determined to be non-corrosive and 
free of other harmful properties before being considered for human 
studies.)
    A cell culture test has been validated in Europe and accepted at 
the international level as a total replacement for animal-based 
phototoxicity studies. The 3T3 Neutral Red Uptake Phototoxicity Test 
involves exposing cells to a test chemical in the presence and absence 
of light, and cell viability is measured by the degree to which they 
are able to absorb the dye, neutral red. This method is the only test 
for phototoxicity that has been accepted as an official test guideline 
of the OECD, yet the FDA continues to use thousands of animals to test 
for phototoxicity.
    Using human blood donated by healthy volunteers, an in vitro 
pyrogen test has been validated in Europe as a total replacement for 
animal-based pyrogenicity studies.

Non-animal test methods can save time, money, and yield more useful 
        results
    Tissue culture methods to test for skin absorption allow 
researchers to study a broader range of doses, including those at the 
actual level of exposure that occurs in the occupational or ambient 
environment, which is not possible with the animal-based method.
    Many non-animal methods can yield results with greater sensitivity 
and at a lower cost than animal-based methods. Protocols are more 
easily standardized, and the variations among strains and species are 
no longer a factor.

The FDA continues to require the use of animals
    Despite the ethical, financial, efficiency, and scientific 
advantages of the above non-animal methods, the FDA continues to 
require and accept the unnecessary use of animals in tests for skin 
absorption, irritation, phototoxicity, and pyrogenicity.

Summary
    Non-animal methods are available now to replace animal-based 
methods to test substances for skin absorption, irritation, 
phototoxicity, and pyrogenicity. There simply is no excuse for 
continuing to cause animals to suffer when non-animal tests are 
available.
    We therefore hereby request, on behalf of all Americans who care 
about the suffering of animals in toxicity tests, that you please 
include language in the report accompanying the fiscal year 2004 
Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies bill stating that no funds for the FDA (including 
salaries or expenses of personnel) may be used for the purpose of 
assessing data from an animal-based test method when a non-animal test 
for the desired endpoint has been validated and/or accepted by the OECD 
or its member countries.
    Thank you for your consideration of our request.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the Committee, I am Wayne Dowd, and I 
am pleased to represent the Red River Valley Association as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin.
    As an organization that knows the value of our precious water 
resources we support the most beneficial water and land conservation 
programs administered through the Natural Resources Conservation 
Service (NRCS). We understand that attention and resources must be 
given to our national security; however, we cannot sacrifice what has 
been accomplished on our nation's lands. NRCS programs are a model of 
how conservation programs should be administered and our testimony will 
address the needs of the nation as well as our region.
    The President's fiscal year 2004 budget for NRCS indicates a 
decrease of $142 million from fiscal year 2003. In reality NRCS is 
taking a major decrease in program funding and staff years. This 
reduction of direct funding is compounded by inadequate Technical 
Assistance (TA) funding for mandatory support to CCC Farm Bill 
programs. The fiscal year 2004 budget reflects a serious shortfall in 
services for landowner assistance that will not be available in fiscal 
year 2004. This is also reflected in the fact that NRCS manpower for 
fiscal year 2004 would have to decrease by 1,400 staff years. This is 
unacceptable.
    This means that NRCS assistance to landowners will not be 
adequately funded, to the detriment of the agency and our natural 
resources. We would like to address several of the programs 
administered by NRCS. Failure to adequately fund these initiatives 
would reduce assistance to those who want it and the resources that 
need protection.
    Conservation Operations.--This has been in steady decline, in real 
dollars, over the past several years. It has occurred partly as a 
result of funds being reduced from Conservation Operations to balance 
increases in technical assistance for mandatory conservation financial 
assistance programs.
    The President's budget included $774 million, which is a decrease 
of $51 million from fiscal year 2003.
    This reflects a decrease in ``discretionary'' Technical Assistance, 
which is compounded by inadequate funding of TA for mandatory Farm Bill 
programs. The TA shortfall, for mandatory programs, must come out of 
this account leaving little funds for discretionary use. This is far 
short of what is required to serve the needs of our nation's private 
lands. We request a total of $800 million be appropriated For 
Conservation Technical Assistance, increasing Conservation Operations 
to $975,000,000.
    Conservation Technical Assistance is the foundation of technical 
support and a sound, scientific delivery system for voluntary 
conservation to the private users and owners of lands in the United 
States. It is imperative that we provide assistance to all ``working 
lands'' not just those fortunate few who are able to get enrolled in 
programs. Working lands are not just crops and pasture (commodity 
staples) but includes forests, wildlife habitat and coastal marshes. 
The problem is that NRCS personnel funded from ``mandatory programs'' 
can only provide technical assistance to those enrolled in these 
programs, leaving the majority of the agricultural community without 
technical assistance. We recommend that this funding for technical 
assistance be placed in ``Conservation Technical Assistance'', and 
allow NRCS to provide assistance to everyone.
    We do not support the use of third party vendors for technical 
assistance as a replacement of career NRCS public servants rather than 
``in addition to''. We would then have to address the question of 
quality assurance and administration for these programs. Why establish 
a new process that will ultimately cost more than using the in-house 
expertise that now exists and has proven to be successful? We believe 
third party vendors can be made available only after NRCS staffing is 
brought up to levels commensurate with the increase in workload caused 
by the Farm Bill.
    Watershed and Flood Prevention Operations (Public Law 566 & 534).--
We are greatly disappointed that the President's Budget provided only 
$45,000,000 for watershed operations. There is no doubt that this is a 
Federal responsibility, as well as for the local sponsor. We ask our 
legislators to support the local sponsors in this national issue. This 
funding level is too low to support a national program, as important as 
this one.
    We are very appreciative for the funding level of $110 million 
enacted in the fiscal year 2003 appropriations bill. It is reassuring 
to know that both Houses of Congress realize the importance of this 
program to the agricultural community.
    There are many new projects, which are awaiting funds for 
construction under this program. We strongly recommend that a funding 
level of $200 million be appropriated for Watershed Operations, Public 
Law 534 ($20 million) and Public Law 566 ($180 million) programs.
    Walnut Bayou Irrigation Project, AR.--This project received 
$300,000 in the fiscal year 2003 appropriations. Plans and 
specifications have been completed and it is ready to proceed into the 
construction phase. An irrigation district has been formed and they are 
prepared to generate the income for the O&M required to support this 
project. We request that $4,000,000 be appropriated for this specific 
project in fiscal year 2004.
    Red Bayou Irrigation Project, LA.--The plans and specifications 
will be completed in fiscal year 2003 making this project ready for 
construction in fiscal year 2004. An irrigation district has been 
formed and prepared to collect funds to support the O&M for this 
proposed system. We request that $2,500,000 be specifically 
appropriated for this project in fiscal year 2004.
    The Red River has proven, through studies and existing irrigation, 
to be a great water source for supplemental irrigation. The two 
projects mentioned above, will use existing, natural bayous to deliver 
water for landowners to draw from. The majority of expense will be for 
the pump system to take water from the Red River to the bayous. This 
project will provide the ability to move from ground water dependency 
to surface water, an effort encouraged throughout the nation. Both will 
enhance the environmental quality and economic vitality of the small 
communities adjacent to the projects.
    Watershed Rehabilitation.--More than 10,400 individual watershed 
structures have been installed nationally. They have contributed 
greatly to conservation, environmental protection and enhancement, 
economic development and the social well being of our communities. More 
than half of these structures are over 30 years old and several hundred 
are approaching their 50-year life expectancy. Today you hear a lot 
about the watershed approach to resource management. These programs 
offer a complete watershed management approach and should continue for 
the following reasons:
  --They protect more people and communities from flooding than when 
        they were first constructed.
  --Their objectives and functions sustain our nation's natural 
        resources for future operations.
  --They are required to have local partners and be cost shared.
  --The communities and NRCS share initiatives and decisions.
  --They follow NEPA guidelines and enhance the environment.
  --They often address the need of low income and minority communities.
  --The benefit to cost ratio for this program has been evaluated to be 
        2.2:1.
    What other Federal program can claim such success?
    There is no questioning the value of this program. The cost of 
losing this infrastructure exceeds the cost to reinvest in our existing 
watersheds. Without repairing and upgrading the safety of existing 
structures, we miss the opportunity to keep our communities alive and 
prosperous. It would be irresponsible to dismantle a program that has 
demonstrated such great return and is supported by our citizens. We 
cannot wait for a catastrophe to occur where life is lost to decide to 
take on this important work.
    A 1999 survey, conducted in 22 states, showed that 2,200 structures 
are in need of immediate rehabilitation at an estimated cost of $543 
million. The President's budget neglects the safety and well being of 
our community needs by placing only $10 million for this program. This 
is drastically lower than the levels authorized in the 2002 Farm Bill. 
We request that $55 million be appropriated to provide financial and 
technical assistance to those watershed projects where sponsors are 
prepared to commence rehabilitation measures, as directed in the 2002 
Farm Bill.
    Watershed Survey and Planning.--In fiscal year 2003 $11.2 million 
was appropriated to support this extremely important community program. 
NRCS has become a facilitator for the different community interest 
groups, state and Federal agencies. In our states such studies are 
helping identify resource needs and solutions where populations are 
encroaching into rural areas. The Administration decided to fund this 
program with only $5 million. We strongly disagree with this low level 
and ask Congress to fund this important program at the appropriate 
level.
    As our municipalities expand, the water resource issue tends to be 
neglected until a serious problem occurs. Proper planning and 
cooperative efforts can prevent problems and insure that water resource 
issues are addressed. We request this program be funded at a level of 
$40 million.
  --Maniece Bayou Irrigation Project, AR.--This is a project in its 
        initial stage of planning. An irrigation district is being 
        farmed to be the local sponsor. This project transfers water 
        from the Red River into Maniece Bayou where landowners would 
        draw water for supplemental irrigation. We request that 
        $200,000 be appropriated to initiate the plans and 
        specifications.
  --Lower Cane River Irrigation Project, LA.--The transfer of water 
        from the Red River to the Lower Cane River will provide 
        opportunities for irrigation and economic development. Funds 
        are needed to initiate a Cooperative River Basin Study. We 
        request that $300,000 be appropriated for this study.
    Emergency Watershed Protection Program.--This program has 
traditionally been funded through Emergency Supplemental Appropriations 
and administered by NRCS through its Watershed and Flood Prevention 
Operations. It has traditionally been a zero budget line item, because 
it relies on a supplemental appropriation.
    As our populations expand and shift, land use changes and 
intensifies. Impacts of severe weather events are becoming more intense 
on our communities, rivers and related eco-systems. These major weather 
events will have an adverse impact requiring urgent NRCS assistance. It 
is important that NRCS is prepared for a rapid response, not waiting 
for legislative action to provide funds for emergency work. With some 
funds available, they would be able respond immediately to an emergency 
when it occurs and not have to wait for an emergency supplemental to be 
passed.
    We request that $20 million be appropriated as ``seed'' funding to 
allow NRCS to react to an emergency while the full need is determined 
and added through a supplemental appropriation.
    Resource Conservation and Development (RC&D).--This has always been 
a well-received program by the Administration. Their budget proposal of 
$51 million is adequate to accomplish the needs of the Nation and we 
support this level of funding.
    Mandatory Accounts (CCC) Technical Assistance (TA).--Request for 
assistance through the CCC programs has been overwhelming. Requests far 
exceed the available funds and place an additional workload on NRCS's 
delivery system. Adequate funding for TA must be provided to administer 
these programs. Historically 19 percent of total program cost has been 
required.
    The mandatory CCC programs for fiscal year 2004 have been 
appropriated at a level of $3.9 billion. Only $432 million (11 percent) 
has been allocated in TA for NRCS. NRCS will have to fund this TA 
requirement at a level of $741 million. The short fall will have to 
come from the Conservation Operation account, which is unacceptable. 
This leaves little funding for discretionary assistance to landowners. 
We request that CCC Program budget TA at $741 million (19 percent) and 
funds NOT be taken from the CO account to administer this program as 
Congress saw fit to do in the 2003 Omnibus Bill.
    Over 70 percent of our land is privately owned. This is important 
in order to understand the need for NRCS programs and technical 
assistance. Their presence is vital to ensuring sound technical 
standards are met in conservation. These programs not only address 
agricultural production, but sound natural resource management. Without 
these programs and NRCS properly staffed to implement them, many 
private landowners will not be served adequately to apply conservation 
measures needed to sustain our natural resources for future 
generations.
    There have been new clean water initiatives, but why do we ignore 
the agency that has a proven record for implementing watershed 
conservation programs? Congress must decide; will NRCS continue to 
provide the leadership within our communities to build upon the 
partnerships already established? It is up to Congress to insure NRCS 
is properly funded and staffed to provide the needed assistance to our 
taxpayers for conservation programs.
    All these programs apply to the citizens in the Red River Valley 
and their future is our concern. The RRVA is dedicated to work toward 
the programs that will benefit our citizens and provide for high 
quality of life standards. We therefore request that you appropriate 
the requested funding within these individual programs, to insure our 
nation's conservation needs are met.
    I thank you for the opportunity to present this testimony on behalf 
of the members of the Red River Valley Association and we pledge our 
support to assist you in the appropriation process
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the two previous fiscal years.

   RED RIVER VALLEY ASSOCIATION FISCAL YEAR 2004 APPROPRIATIONS--NATURAL RESOURCES CONSERVATION SERVICE (NRCS)
                                            [In thousands of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                                   RRVA request     President's
                     Discretionary accounts                         Fiscal year     fiscal year    budget fiscal
                                                                       2003            2004          year 2004
----------------------------------------------------------------------------------------------------------------
Conservation Operations.........................................         825,004         930,000     \1\ 774,000
Watershed Protection & Flood Prevention Operations..............         110,000         200,000          45,000
    Walnut Bayou Irrigation Project, AR.........................             300           4,000  ..............
    Red Bayou Irrigation Project, LA............................               0           2,500  ..............
Watershed Rehabilitation........................................          30,000          55,000          10,000
Watershed Survey & Planning.....................................          11,197          40,000           5,000
    Maniece Bayou Irrigation Project, AR........................               0             200  ..............
    Lower Cane River Irrigation Project, LA.....................             New             300
Resource Conservation & Development(RC&D).......................          51,000          51,000          51,000
Emergency Watershed Protection..................................               0          20,000               0
----------------------------------------------------------------------------------------------------------------
Note 1: This funding level would reduce NRCS manpower by 1,400 FTE. There does not appear to be any correlation
  between workload to manpower.

    Mandatory Accounts (CCC)--$3.9 Billion.--This fund is for Technical 
Assistance (TA) and Financial Assistance (FA) to support the following 
CCC, Farm Bill programs:
    Environmental Quality Incentives Program--EQIP
    Ground and Surface Water Conservation--GSW
    Farmland Protection Program--FPP
    Wildlife Habitat Incentives Program--WHIP
    Wetlands Reserve Program--WRP
    Grassland Reserve Program--GRP
    Conservation Securities Program--CSP
    Klamath Basin Water Conservation
    The President's Budget has provided $432,000,000, which is less 
than 11 percent of the $3.9 billion allocated for these programs in 
fiscal year 2004. The historical TA that has been required is 19 
percent, which is a TA requirement of $741,000,000. NRCS is mandated to 
support these programs, which means they will have to fund them from 
their Conservation Operations account. This leaves a great shortfall 
for any assistance to anyone NOT enrolled in a program.
    It is imperative that the TA for these mandatory programs be funded 
at the required TA levels.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2004 budget for the Natural Resources 
Conservation Service (NRCS) in the Department of Agriculture.
    The Seminole Tribe of Florida asks that Congress direct the Natural 
Resources Conservation Service (NRCS) to begin final design and 
planning activities for the Big Cypress Water Conservation Plan 
implementation on the west side of the Big Cypress Reservation. Because 
we understand that this committee does not earmark funds in the account 
for Conservation Programs, Natural Resources Conservation Service's 
(NRCS) Watershed Surveys and Planning (06 account) that funds planning 
activities for the Small Watershed Program, as authorized by Public Law 
83-566, we request that the following language be included in the 
committee's report: ``The Committee expects the Department to provide 
financial and/or technical assistance for the Big Cypress Reservation 
Water Conservation project (FL) as it contributes to Everglades 
restoration.'' The Tribe has worked with the NRCS in Florida for 7 
years to develop this small watershed project as a part of the Tribe's 
overall Everglades Restoration Initiative. The results of this small 
watershed project will complement the joint effort of the Tribe and the 
Corps of Engineers to complete the Initiative.

The Seminole Tribe of Florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, the Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, Seminoles learned how to 
use the natural system for support without harm to the environment that 
sustained them. For example, the native dwelling, the chickee, is made 
of cypress logs and palmetto fronds and protects its inhabitants from 
the sun and rain, while allowing maximum circulation for cooling. When 
a chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, Tribal elders 
provided guidance. Tribal elders directed the Tribe's leadership to 
look to the land, for when the land was ill, the Tribe would soon be 
ill as well. When looking at the land, the leadership saw the 
Everglades in decline and recognized that the Tribe had to help 
mitigate the impacts of man on this natural system. At the same time, 
tribal members acknowledged that this land must sustain the Tribe and 
its culture. The clear message from the Tribal elders and the land 
called for a way of life to preserve the land and the Tribe. Tribal 
members must be able to work and sustain themselves. Tribal leadership 
needs to protect the land and the animals, while also protecting Tribal 
farmers and ranchers.
    Recognizing the needs of the land and the people, the Tribe, along 
with its consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of Federal flood control construction 
and polluted urban and other agricultural runoff. The interrupted sheet 
flow and hydroperiod have stressed native species and encouraged the 
spread of exotic species. Nutrient-laden runoff has supported the rapid 
spread of cattails, which choke out the periphyton algae mat and 
sawgrass necessary for the success of the wet/dry cycle that supports 
the wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration project that 
reflects the need to live off of the land while minimizing impacts on 
the Everglades. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. The Tribe already has 
committed significant resources to the design and construction of this 
project and to its water quality data collection and monitoring system. 
The Tribe is willing to continue its efforts and to commit more 
resources, for its cultural survival is at stake.

Small Watershed Project on Big Cypress
    As a part of the Tribe's Everglades Restoration Initiative, the 
Tribe completed a water conservation plan for the design and 
construction of surface water management systems to remove phosphorus, 
convey and store irrigation water, improve flood control, and rehydrate 
the Big Cypress National Preserve. This water conservation plan has 
been permitted for construction under the Clean Water Act Section 404 
program.
    Through the Corps of Engineers (COE) critical project program 
authorized by the Water Resources Development Act of 1996, the Tribe is 
building part of that water conservation plan. The first phase of the 
critical project constructs a conveyance canal system to supplement and 
improve the existing system; this construction is nearly complete. The 
balance of the critical project will construct water storage and 
treatment areas on the east side of the Reservation.
    Over the last 7 years, the Tribe has enjoyed the support of the 
Florida State Conservationist and the Florida staff of the NRCS in the 
development of a small watershed project to address some needs 
identified in the water conservation plan. While some preliminary 
planning has been completed, an existing funding commitment prevented 
commencement of the small watershed project. In fiscal year 2004, both 
the Tribe and the NRCS in Florida are prepared to begin planning of 
water storage and treatment areas on the west side of the Reservation. 
To do so, Congress must appropriate the initial funding.
    While all the project component options have not been fully vetted, 
the cost estimates range from downward from $34.6 million. This project 
is approved to operate with a 75 percent Federal and 25 percent Tribal 
cost share. The timing of the design and construction are dependent on 
the funding stream.

Conclusion
    Everglades restoration is a well-recognized national priority. The 
Tribe's goal of sustainable agriculture is consistent with the goals of 
the NRCS and the restoration activities in South Florida. The NRCS's 
support of the Tribe's conservation measures in the past, along with 
the implementation of future programs, will make a significant impact 
on the Big Cypress Reservation and the South Florida Ecosystem.
    Through its assistance to the Tribe, NRCS has provided valuable 
technical assistance to date. Beginning in fiscal year 1999, NRCS has 
provided programmatic support through EQIP and WRP, which is 
anticipated to continue. Additional programmatic assistance through the 
small watershed program will provide the needed design and construction 
to complete the water conservation plan. None of the joint objectives 
of the Tribe and the NRCS can be accomplished, however, without 
sufficient funding.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
Government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 

  Prepared Statement of the Society for Animal Protective Legislation

    We appreciate the support this Subcommittee has provided to the 
Animal Care Program of APHIS and respectfully request that the current 
appropriations for enforcement of the Animal Welfare Act and Horse 
Protection Act be maintained for fiscal year 2004 to ensure that these 
laws passed by Congress are being carried out effectively.

$15.2 Million for APHIS/Animal Care's Enforcement of the Animal Welfare 
        Act
    The Animal Welfare Act is the chief Federal law for the protection 
of animals. The USDA seeks compliance with its minimum standards for 
the care and treatment of animals during transportation and at the more 
than 10,000 sites of dealers, research, testing and teaching 
facilities, zoos, circuses, carriers (airlines, motor freight lines and 
other shipping businesses) and handlers (ground freight handlers).
    Nearly half of the facilities that are visited are found to be 
noncompliant. Facilities with serious deficiencies require 
reinspections to ensure that corrective action is taken. Our review of 
inspection reports shows an inability of inspectors to make the needed 
reinspections; they are unable to reinspect because of a lack of 
sufficient funds.
    In 1966 the Laboratory Animal Welfare Act (later renamed the Animal 
Welfare Act) was adopted in an effort to prevent the sale of lost or 
stolen pets into research. Nevertheless, this has continued to be a 
serious problem. In an attempt to address this problem, in the mid-
1990s Animal Care instituted a policy of conducting quarterly 
inspections of random source dealers. Since stepping up its enforcement 
in this area (which has come at the expense of inspections conducted 
elsewhere), USDA has revoked 11 dealer licenses and imposed over 
$500,000 in fines. The number of random source (USDA licensed Class B) 
dealers supplying dogs and cats to research has dropped from 104 to 23.
    This example illustrates the value of frequent, unannounced 
inspections of licensees and registrants. Increasing the number of 
inspections will ensure effective compliance with the law.
    The 1985 amendment to the AWA mandates at least one inspection per 
year of all registered research facilities. A vigorous inspection 
program is vital to maintaining public confidence in the quality of 
research and ensuring the humane treatment of research animals. With 
the need to evaluate performance, as well as engineering, standards, 
each inspection is extremely time-consuming and labor intensive.
    AC will be able to continue its searches for unlicensed/
unregistered facilities, an important effort because failure to obtain 
licensure or registration is a widespread problem with many entities 
purposefully evading AC and the requirements of the AWA. The area most 
frequently ignored for lack of sufficient funds has been inspection of 
airlines. Continued funding will permit AC to conduct an adequate 
number of inspections of airlines in an effort to protect against the 
injury, loss or death of animals being transported by air and to help 
meet the requirements of the recently adopted Federal Aviation 
Administration amendment for safe transport of animals by air.
    Continued funding at the fiscal year 2003 level will permit AC to 
maintain its field force of 99 veterinary and lay inspectors. It is 
vital that the number of inspectors be maintained.

$500 Thousand for APHIS/Animal Care's Enforcement of the Horse 
        Protection Act
    More than 30 years have passed since the Horse Protection Act was 
adopted by Congress, yet soring of Tennessee Walking Horses continues 
to be a widespread problem. Soring is defined by APHIS as ``the 
application of any chemical or mechanical agent used on any limb of a 
horse or any practice inflicted upon the horse that can be expected to 
cause it physical pain or distress when moving.'' Horses are sored to 
produce an exaggerated gait.
    The most effective methods of reducing the showing of horses who 
have been sored is to have Animal Care (AC) inspectors present at the 
shows and to increase the penalties assessed to violators of the law. 
AC has been restricted to attending only about 10 percent of horse 
shows because of shortage of funds. Unfortunately, the total of 
penalties assessed for violation of the law have dropped to a 
negligible amount. Unless 1. funding is provided to enable AC to attend 
more events and 2. increased penalties are assessed, the industry will 
continue to defy the law with impunity.
    Lack of financial support has made it necessary for Animal Care to 
rely heavily on the industry to assume responsibility for enforcement 
of the law. This is the same industry that has turned a blind eye to 
compliance with the law since 1970! ``Designated Qualified Persons'' 
(DQPs) are the ``inspectors'' from industry who are supposed to assist 
AC in identifying sore horses and pursuing action against the 
individuals who are responsible. The history of the DQPs reveals their 
failure to achieve the level of enforcement of the unbiased, well-
trained, professional inspectors who work for AC. Following is data for 
horses shown with pads on their front feet to accentuate their gait: in 
calendar year 2000 (the most recent year for which such information is 
available), the rate at which DQPs turned down these horses for soring 
was 2.4 percent. The turndown rate was 39.1 percent, when government 
inspectors were present to oversee the activities of the DQPs.
    An appropriation of at least $500,000 is essential to permit AC to 
maintain a modest level of compliance with the Horse Protection Act. 
Further, it is essential that penalties be increased and more widely 
assessed for violators.

Congress Needs to Provide Increased Oversight of Wildlife Services 
        Operations and Research
    Wildlife Services (WS) needs to utilize a variety of tools for 
management of wildlife under its purview. However, it is essential that 
these tools are effective and publicly acceptable.
    WS needs to phase out of use of steel jaw leghold traps. Leghold 
traps slam shut with bone-crushing force on the limbs of their victims, 
tearing ligaments and tendons, severing toes and causing excruciating 
pain. These traps, opposed by the vast majority of Americans, have been 
condemned as ``inhumane'' by the American Veterinary Medical 
Association, the American Animal Hospital Association and the World 
Veterinary Association.
    The European Union (E.U.) banned use of the barbaric steel jaw 
leghold trap so that 88 countries now prohibit their use. Nobly, the EU 
went a step further; the EU law also prohibits import of furs from 
countries that use steel jaw traps. On December 11, 1997, in response 
to this European law, the U.S. Trade Representative reached an 
``Understanding'' with the EU in which the United States agreed to end 
use of ``all jaw-type leghold restraining traps'' by 2002 on muskrat 
and nutria and to phase out use of ``conventional steel-jawed leghold 
restraining traps'' by 2004. WS has the responsibility of complying 
with this U.S. obligation by ending its use of these barbaric devices.
    WS should pursue no further testing of leghold traps as this would 
be an extremely wasteful and cruel use of taxpayer money. Previously, 
funds designated for trap research were merely passed on to a 
nongovernmental organization to utilize as it saw fit, without 
involvement from WS. If funds are allocated for trap testing, WS should 
conduct the research since the agency has the appropriate technical 
expertise.
    Further, WS should adopt a policy of checking all restraining traps 
within a 24-hour period. A wealth of scientific studies documents the 
fact that the longer an animal is in a restraining trap, the greater 
the injury. For this reason, the majority of states have a daily trap 
check requirement. Animals should not be subjected to long-drawn out 
pain because of a failure to assume the responsibility of carefully 
checking traps every day. This policy will help reduce the trauma 
experienced by non-target animals, too, ensuring that more of these 
animals will be able to be released alive.
                                 ______
                                 

             Prepared Statement of the Sun Grant Initiative

            THE NATIONAL NEED FOR BIOENERGY AND BIOPRODUCTS

    Energy Security.--As readily accessible domestic sources of 
petroleum have waned, the United States has steadily increased its 
reliance on imported oil from other nations. The proportion of imported 
oil increased from about 30 percent of domestic consumption in 1970 to 
about 56 percent in 2000. Evidence that world oil supplies will become 
even more limited in the coming decades suggests that alternative 
sources of energy and industrial chemicals must be developed as soon as 
possible. Bioenergy resources can be further developed in ways that 
complement and augment petroleum energy resources, helping to reduce 
our dependence on imported oils while helping constrain the costs of 
energy for American industries and consumers.
    Farm Security.--Farmers have been experiencing economic hardships 
throughout the 1990's and continue today, primarily because of 
excessive production of core commodity crops. The hardships have flowed 
throughout rural America and a devastating exodus to urban centers has 
resulted. Viable alternatives and diversity are needed in agriculture 
to bolster the nation's independent farm families. Bioenergy and 
bioproducts produced on American farms represent an opportunity to both 
reduce dependence on imported oil while providing a significant source 
of income to American farmers.
    New Industries.--Imported oil is an important feedstock for 
numerous uses other than energy and transportation fuels. Contemporary 
plastics, synthetic fibers, lubricants, solvents, paints and numerous 
other common products depend on petroleum as a feedstock. In the 
future, agriculture will produce biobased feedstocks for production of 
these products as well as many other non-food uses. Agriculture will 
also be integral to manufacturing pharmaceuticals, cosmetics, building 
materials, biocatalysts, and numerous other biobased products. The 
development of biobased products will complement, augment, and be 
integrated with the petroleum industry.
    Rural Economic Development.--New biobased industries will benefit 
not only agricultural producers but will also stimulate economic 
development in the surrounding rural communities. In many cases, 
transportation logistics and infrastructure requirements will require 
that new biobased industries be physically located in rural 
communities--new capital investments and economic stimulation will stay 
in the rural community! A biobased economy will revitalize rural 
America.
    Environmental Protection.--The use of renewable bioenergy and the 
production of many biobased products will have numerous benefits for 
the environment. The increased use of renewable bioenergy will help 
reduce greenhouse gases and will help U.S. communities and industries 
improve air quality while remaining economically viable and 
competitive. Products that were once ``wastes'' can now become 
resources and ingredients in the development of new bioproducts. In 
turn, bioproducts can be designed to be biodegradable, further reducing 
the ``waste stream'' and reducing the demand for trash disposal land 
fills.
    New Science and Engineering Technologies.--The latest scientific 
and engineering breakthroughs will be brought to bear on the challenge 
of moving to a bio-based economy. For example, genomics, 
nanobiotechology, and new computer modeling technologies will be 
utilized to improve our technical understanding of plant biochemistry, 
to develop new enzymatic processes and new materials for bioenergy 
production and the development of new bioproducts.

                        THE SUN GRANT INITIATIVE

    Land Grant Universities.--Today, land grant universities serve 
agriculture by implementing research, extension, and educational 
programs to benefit agricultural producers and consumers, to assist 
rural families and communities, and to conserve the world's natural 
resources. Clearly, agriculture will play an important role in 
providing power, fuels, and biobased products for America. Because of 
the unique position land grant universities have in science, service 
and education, it is critical that they are proactively involved in 
creating the biobased economy. Over the past several years, land grant 
universities have been working to develop a new model for harnessing 
the capacities of the distributed agricultural research and education 
system into a national network that can work in ready partnership with 
the Federal agencies to help reach national bioenergy goals, which has 
led to the development of the Sun Grant Initiative.
    The Sun Grant Mission.--The mission of the Sun Grant Initiative is 
to (1) enhance national energy security through development, 
distribution and implementation of biobased energy technologies, (2) 
promote diversification and the economic viability of America's 
agriculture through land grant based research, extension, and education 
programs in renewable energy and biobased products, and (3) promote 
opportunities for biobased economic diversification and the development 
of new biobased industries in rural communities.
    Centers of Excellence and a National Network.--A network of five 
land grant universities are serving as regional Sun Grant Centers of 
Excellence (Figure 1). The universities include South Dakota State 
University, Oklahoma State University, the University of Tennessee--
Knoxville, Cornell University, and Oregon State University. Federal 
funds will be shared equally among each of the regions. As Federal 
funds become available, up to 25 percent of the funds will be utilized 
at each center to enhance their abilities to develop model research, 
extension, and educational programs on agriculture-based renewable 
energy technologies and biobased industries located in rural 
communities. The balance of the funds in each region will be awarded 
competitively among all land grant universities in the region, drawing 
on the expertise of all land grant universities to address national 
priorities at the regional level. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 1.--The five founding Sun Grant Centers and their respective 
                                regions.

    These regional programs will embrace the multi-state, multi-
function, multi-disciplinary integrated approach that is at the heart 
of the land grant method of addressing problems. The centers will 
interface their activities with DOE research laboratories at Oak Ridge, 
TN (ORNL, Oak Ridge National Laboratory) and Golden, CO (NREL, National 
Renewable Energy Laboratory).

National Priorities
    The Sun Grant Initiative programs will revitalize rural 
communities, enhance the nation's energy security and improve our soil, 
water, and air. The primary challenges that must be faced include:
  --The emergence of agriculturally based bio-industries that can 
        coexist with and complement petroleum based industries.
  --Developing biobased industries that improve the environment and 
        protect air, water, soil, and other natural resources.
  --Developing biobased industries that diversify American agriculture 
        and complement food production.
  --Developing industries that provide opportunities for the growth and 
        prosperity of rural America.
    The transition to agriculturally-based bio-industries will create 
economic opportunities for other sectors of the U.S. economy through 
creation of high-tech companies and jobs. Through the Sun Grant 
Initiative, the United States will continue to be a world leader in 
technology and innovation for future high-tech commerce and trade. We 
will not only produce biomass feedstocks, we will also lead the world 
in the technologies and the intellectual property that makes this 
transition to a biobased economy possible.

Regional Priorities
    During the development of the Sun Grant Initiative a series of 
regional workshops were held with agricultural, industry and community 
leaders. Priority needs were identified for bioenergy and bioproducts 
projects within each region. The unique structure of the Sun Grant 
Initiative will enable the land grant universities to address national 
issues of concern to the Federal agencies in the context of regional 
and local needs and circumstances.
relation to the sun grant initiative to federal agency biomass programs
    The Biomass Research and Development Act of 2000 established an 
Interagency Board to coordinate the biomass-related programs within and 
among Federal departments and agencies. It is co-chaired by the 
Departments of Energy and Agriculture. Other member agencies include: 
the Department of Interior, Environmental Protection Agency, National 
Science Foundation, Office of Science and Technology Policy and the 
Office of the Federal Environmental Executive. The Act also established 
an Advisory Committee to advise the Secretaries of Energy and 
Agriculture and the Interagency Board on the future direction of 
biomass research and development investments. The Advisory Committee, 
now in its third year of activity, consists of 31 members from 
industry, academia, non-profit organizations, and the agricultural and 
forestry sectors, who are experts in their respective fields. In 
December of 2002, the Biomass Research and Development Technical 
Advisory Committee released a science ``roadmap'' outlining recommended 
priorities for the development of biomass technologies in the United 
States. In addition, Section 9008 of the Farm Security and Rural 
Development Act of 2002 provided for a reauthorization of the funding 
for the Biomass Research and Development Act of 2000 and provided 
funding to support biomass production. Building on these several 
legislative authorities, the Department of Energy and the Natural 
Resources Conservation Service of the Department of Agriculture are 
collaborating in the development and implementation of a Biomass 
Research and Development Initiative to address the priorities 
identified in the roadmap.
    One of the remaining challenges in developing bioenergy and 
bioproducts technologies is that they have to be developed as a 
complete system to be cost effective and economically viable. Many new 
biobased businesses have failed because they only addressed one part of 
a new biobased economy. In order for farmers to increase production of 
a needed biofuels feedstock materials they need to be assured of a 
steady demand. In order for bio-industries to develop a new product, 
they have to be assured of a steady supply of biobased feedstock 
materials. The rate limiting cost in developing biobased feedstock is 
often the cost of shipment; it may be most cost effective to process 
feedstock within a fifty mile radius of the site where it was grown, 
which in turn requires a distributed network of bioprocesses or 
generators. The generators may not break even unless they are also used 
to co generate heat or unless they feed energy back into local energy 
grids. The Sun Grant Initiative provides a means for the Department of 
Energy and the Department of Agriculture to access the research and 
education expertise of the land grant university system across the 
country to develop new technologies and education programs. The 
structure of the Sun Grant Initiative will enable the Departments to 
``put all the pieces'' together to create comprehensive regional scale 
projects that can address multiple real world production needs 
simultaneously. The Sun Grant Initiative complements and completes the 
mix of legislative and funding tools that support biomass research and 
development.

                        LEGISLATIVE DEVELOPMENTS

    Legislation to authorize the Sun Grant Initiative was developed in 
2002. The proposed legislative language defines the regional Centers of 
Excellence and the network of collaborating universities, as well as 
the mechanism for apportioning and distributing funds described in this 
testimony. The proposed legislative language will authorize funding for 
the Sun Grant Initiative at the level of $100 million. There is bi-
partisan support for introducing and passing this language in 2003. It 
is our understanding that there will be communications from leading 
Senate offices to the Committee indicating support for moving this 
initiative forward and initiating start-up funding in fiscal year 2004.

                            FUNDING REQUEST

    We request initial start-up funding of $20 million for the Sun 
Grant Initiative in fiscal year 2004. We are requesting that funding be 
provided by the Senate Appropriations Energy and Water Development 
Subcommittee through the Energy Efficiency and Renewable Energy 
programs of the Department of Energy, in order to augment and expand 
the Department of Energy's biomass and bioenergy research and 
development programs. In order to facilitate collaboration and 
enhancement of programs in the Department of Agriculture, we are also 
recommending that funding of $1 million be provided in fiscal year 2004 
through the USDA's Cooperative State Research, Extension and Education 
Service.
                                 ______
                                 

            Prepared Statement of the U.S. Apple Association

    The U.S. Apple Association (U.S. Apple) appreciates the opportunity 
to provide this testimony on behalf of our nation's apple industry.
    Our testimony will focus on the following three areas: the Market 
Access Program (MAP); Food Quality Protection Act (FQPA) 
implementation; and Agricultural Research Service (ARS) funding.
    U.S. Apple is the national trade association representing all 
segments of the apple industry. Members include 40 state and regional 
apple associations representing the 9,000 apple growers throughout the 
country as well as more than 500 individual firms involved in the apple 
business. Our mission is to provide the means for all segments of the 
U.S. apple industry to join in appropriate collective efforts to 
profitably produce and market apples and apple products.
    Market Access Program (MAP).--The U.S. Apple Association (U.S. 
Apple) encourages members of Congress to support $125 million in MAP 
funding for the coming fiscal year (fiscal year 2004), which is the 
level authorized in the farm bill.
    The apple industry receives roughly $3 million annually in export 
development funds from the U.S. Department of Agriculture's Market 
Access Program (MAP). These funds are matched by grower dollars to 
promote apples in more than 20 countries throughout the world. Since 
this program's inception in 1986, the U.S apple industry has expanded 
fresh apple exports by 194 percent, thanks in large part to the foreign 
promotions made possible by this program. One-quarter of U.S. fresh 
apple production is exported, with an annual value of roughly $370 
million.
    The U.S. apple industry faces keen competition around the globe 
from competitors who receive significant government funds for generic 
promotions. The governments of our foreign competitors spend 
approximately $500 million on export promotion and market development. 
It has become increasingly difficult for U.S. exporters to compete with 
European and Chinese producers who receive massive government 
assistance. Increased funding for this critical program will assist 
U.S. apple producers to better compete and revive export demand in 
countries recently hit by adverse economic conditions.
    Food Quality Protection Act (FQPA) Implementation.--U.S. Apple 
strongly supports full funding for the following programs intended to 
facilitate fair FQPA implementation and to offset its anticipated 
negative impact on apple growers and processors.
    Specifically, U.S. Apple supports the U.S. Department of 
Agriculture's following budget requests.
  --$15 million for the Pesticide Data Program, administered by the 
        Agricultural Marketing Service (AMS);
  --$8.0 million for the National Agricultural Statistics Service 
        (NASS) pesticide-usage surveys;
  --$2.6 million for the Office of Pest Management Policy administered 
        by the Agricultural Research Service (ARS);
  --$3.7 million for minor-use registration of crop protection tools 
        (IR-4) administered by ARS;
  --$7.2 million for area-wide Integrated Pest Management research 
        administered by ARS;
  --$13.5 million for the Integrated Pest Management Research Grant 
        Program administered by the Cooperative State Research, 
        Extension and Education Service (CSREES);
  --$10.8 million for minor-use registration of crop protection tools 
        (IR-4) administered by CSREES; and
  --$12.5 million for the Pest Management Alternatives Program, 
        Regional Pest Management Centers, Crops at Risk and Risk 
        Avoidance and Mitigation Program also administered by CSREES.
    National Tree Fruit Technology Roadmap.--U.S. Apple urges the 
Committee to encourage USDA to continue to work with the tree fruit 
industry by completing the national technology roadmap process and 
developing a national research strategy.
    Worldwide apple production increased by 112 percent between 1990 
and 2001, while U.S. apple production grew by 11 percent during this 
same period. This dramatic increase in global apple production 
continues to threaten the profitability of America's apple growers. 
Global oversupply, subsidized foreign competition and unfairly priced 
imports have caused apple prices to decline in recent years, while 
regulatory, production and distribution costs are steadily increasing. 
The U.S. apple industry's future survival may depend on its ability to 
develop and utilize new technology to decrease costs, while improving 
apple quality. Thus, the industry is seeking federal support of a 
national research initiative to develop new technology to automate 
orchard and fruit handling operations, optimize fruit quality, 
nutritional value, and safety, and integrate digital technologies and 
communication.
    Temperate Fruit Fly Research Position--Yakima, Wash.--U.S. Apple 
requests continued funding of $300,000 to conduct critical research at 
the USDA-ARS laboratory in Yakima, Wash. on temperate fruit flies, a 
major pest of apples.
    The Yakima, Wash., USDA Agricultural Research Service (ARS) 
facility is conducting research critical to the crop protection needs 
of the apple industry. FQPA implementation has reduced the number of 
pesticides currently available to growers for the control of pests, 
such as cherry fruit fly and apple maggot. Left unchecked, these 
temperate fruit flies can be devastating. Thus, research is needed to 
develop alternative crop protection methods as growers struggle to cope 
with the loss of existing tools. While Congress appropriated $300,000 
last fiscal year for this critical research, the administration's 
proposed budget for fiscal 2004 rescinds this funding.
    Post Harvest Quality Research Position--East Lansing, Mich.--U.S. 
Apple requests that the Committee provide continued funding of $309,600 
for postharvest-quality research at the ARS laboratory in East Lansing, 
Michigan.
    The East Lansing, Mich., USDA Agricultural Research Service (ARS) 
facility is conducting research critical to the future economic 
recovery of the apple industry. Using a series of new sensing 
technologies, researchers at this facility are developing techniques 
that would allow apple packers to measure the sugar content and 
firmness of each apple before it is offered to consumers. Research 
indicates consumer purchases will increase when products consistently 
meet their expectations, suggesting consumers will eat more apples once 
this technology is fully developed and employed by our industry. While 
Congress appropriated $309,600 last fiscal year for this critical 
research, the administration's proposed budget for fiscal 2004 rescinds 
this funding.
    Tree Assistance Program (Tap).--U.S. Apple urges Congress to 
provide $9.3 million to cover losses beginning in 2000 for the Tree 
Assistance Program (TAP).
    A recent series of severe weather-related natural disasters that 
have taken an enormous economic toll on many of the U.S. apple 
industry's most progressive and productive apple producers, who have 
lost their orchards to these storms and resulting disease outbreaks. 
The Farm Security and Rural Investment Act of 2002 re-authorizes the 
Tree Assistance Program (TAP), which provides reimbursement for 75 
percent of the cost of replanting trees lost to natural disasters up to 
$75,000 per producer per year.
    The U.S. Apple Association thanks the committee for this 
opportunity to present testimony in support of the U.S. apple 
industry's federal agricultural funding requests.
                                 ______
                                 

    Prepared Statement of the U.S. Marine Shrimp Farming Consortium

    Mr. Chairman, we greatly appreciate the opportunity to provide 
testimony to you and the Subcommittee, to thank you for your past 
support, and to discuss the achievements and opportunities of the U.S. 
Marine Shrimp Farming Program.
    We would like to bring to your attention the success of the U.S. 
Marine Shrimp Farming Consortium and its value to the nation. The 
Consortium consists of institutions from seven states: University of 
Southern Mississippi/Gulf Coast Research Laboratory, Mississippi; The 
Oceanic Institute, Hawaii; Tufts University, Massachusetts; Texas A&M 
University, Texas; Waddell Mariculture Center, South Carolina; 
University of Arizona, Arizona; and Nicholls State University, 
Louisiana. These institutions have made major advances in technology to 
support the U.S. shrimp farming industry, and the program's excellent 
performance through mufti-state collaboration has been recognized by 
the USDA in its recent program reviews. The Consortium is at a point of 
opportunity to make significant contributions to building the U.S. 
industry, reducing the trade deficit, and satisfying increasing 
consumer demand for shrimp. Seafood imports constitute the second 
largest trade deficit item for the United States at $7.1 billion, and 
shrimp represents approximately half of this deficit.

Accomplishments
    The Consortium, in cooperation with private industry, industry 
associations and government agencies, has generated new technologies 
for producing premium quality marine shrimp at competitive prices. To 
date, the program has: (1) established the world's first and currently 
most advanced breeding and genetic selection program for marine shrimp; 
(2) completed pioneering research and development of advanced 
diagnostic tools for disease screening and control; (3) described the 
etiology of shrimp diseases associated with viral pathogens; (4) 
fostered shrimp production at near-shore, desert, and inland/rural farm 
sites; (5) played a lead role in the Joint Subcommittee on 
Aquaculture's efforts to assess the threat of globally transported 
shrimp pathogens; (6) supplied the U.S. industry with genetically 
improved and disease resistant shrimp stocks; (7) developed advanced 
technology biosecure shrimp production systems to protect both cultured 
and native wild stocks from disease; and (8) developed new feed 
formulations to minimize waste generation. These substantial 
accomplishments advance the continued growth of our industry, place an 
important emphasis on environmental sustainability, and increase market 
competitiveness. Judging from the state of our industry today, USMSFP 
programs continue to have measurable positive effects. The coastal 
industry continues to lead in the production of farm-raised shrimp in 
the United States. Recent improvements in farm management practices 
have resulted in bumper crops for the industry. The year 2002 resulted 
in the largest harvest ever for U.S. farmers at over 12 million pounds. 
This is the third consecutive year of record production, and represents 
an 107 percent increase in U.S. production over the last nine years.

Industry Vulnerability
    While exceptional progress has been made, this emerging and 
important industry is continually confronted with new challenges. It 
depends on the U.S. Marine Shrimp Farming Program (USMSFP) for high-
health and improved stocks, disease diagnosis and production 
technologies. As a result of the Consortium's support, the U.S. 
industry has maintained relative stability, while other countries have 
had major losses in their production, due to diseases and environmental 
problems. Disease losses, due to exotic viruses in Asia and Latin 
America during the past six years, have approached $7 billion U.S. 
There have been no outbreaks of notifiable disease in the United States 
during the last four years, and a commensurate increase in shrimp 
production during the same period. With reliable protection in place, 
we have also seen a commensurate geographic expansion of the industry 
within the United States. A broader industry base, while increasing 
production through the addition of new farms, also provides additional 
protection to the industry by geographically isolating different 
regional sectors of the industry in the event of disease outbreaks or 
natural disaster. Significant amounts of shrimp are now produced from 
wide parts of the South, with farms now operational in South Carolina, 
Florida, Alabama and Texas. Arizona and Hawaii have also greatly 
expanded production during the same period.
    While significant progress has been made in risk assessment and 
risk management with visible success to further improve the 
competitiveness of the U.S. industry, the industry and the USMSFP must 
remain constantly vigilant. In addition to providing significant input 
on the development of national and international regulatory standards 
for shrimp farmers, important service work for government agencies and 
NGOs keeps us continuously appraised of new developments pertaining to 
emerging regulations so USMSFP research plans can be kept proactively 
responsive to dynamic shifts in industry needs.

Industry Independence
    As a result of the work of the Consortium, investor confidence is 
increasing. In addition to supporting today's industry, advanced 
biosecure shrimp production systems are allowing the expansion of 
shrimp farming into near-shore, inland/rural and desert sites, away 
from the environmentally sensitive coastal zone. Importantly, these new 
production technologies produce the highest quality shrimp at world 
competitive prices, consume U.S. grains as feed, and pose no threat to 
the environment. Shrimp farming is the newest agricultural industry for 
the United States, and USDA/CSREES has suggested that our program 
represents a model program for resolving important problems and 
capturing opportunities in both agriculture and aquaculture. Clearly, 
the U.S. shrimp farming industry has emerged from the early 1990s with 
a larger and more diverse industry for the new millennium.
    To begin completion of our remaining tasks, an increase in the 
current funding level from $4.186 million to $5 million is being 
requested. Allocation of $5 million per year for the next few years to 
work in cooperation with the private sector, to support existing 
efforts, and to build this new industry with its associated jobs and 
economic benefits is in the best interests of the nation.
    Mr. Chairman, the U.S. shrimp farming industry and our Consortium 
deeply appreciate the support of the Committee and respectfully ask for 
a favorable consideration of this request.
                                 ______
                                 

      Prepared Statement of the United States Telecom Association

                           SUMMARY OF REQUEST

    Project Involved.--Telecommunications Loan Programs Administered by 
the Rural Utilities Service of the U.S. Department of Agriculture.
    Actions Proposed.--Supporting RUS loan levels and the associated 
funding subsidy for the cost of money, Rural Telephone Bank and loan 
guarantee programs in fiscal year 2004 in the same amount as loan 
levels specified in the fiscal year 2003 Agriculture Appropriations 
Act, supporting loans in the hardship program at the level requested in 
the budget. Opposing the Administration's proposal to not fund Rural 
Telephone Bank loans in fiscal year 2004. Also supporting an extension 
of the language removing the 7 percent interest rate cap on cost of 
money loans. Also supporting an extension of the prohibition against 
the transfer of Rural Telephone Bank funds to the general fund. 
Opposing the proposal contained in the budget to transfer funds from 
the unobligated balances of the liquidating account of the Rural 
Telephone Bank for the Bank's administrative expenses. Supporting 
continued funding, as requested in the President's budget, in the 
amount of $25 million in distance learning and telemedicine loan and 
grant authority and $2 million to finance broadband transmission and 
local dial-up Internet service in rural areas. Requesting clarification 
that all rural communities under 20,000 population will qualify for 
loans in fiscal year 2004 under the new broadband loan program. 
Opposing the budget request seeking replacement of the $20 million in 
mandatory funding provided in last year's Farm Act for direct loans for 
broadband deployment with less than half that amount of discretionary 
funding authority in fiscal year 2004.
    I am Walter B. McCormick, Jr., President and CEO of The United 
States Telecom Association (USTA), the nation's oldest trade 
organization for the local exchange carrier industry. USTA's carrier 
members provide a full array of voice, data and video services over 
wire and wireless networks. I submit this testimony in the interests of 
the members of USTA and their subscribers.
    USTA members firmly believe that the targeted assistance offered by 
a strong RUS telecommunications loan program remains essential to a 
healthy and growing rural telecommunications industry that contributes 
to the provision of universal telephone service. We appreciate the 
strong support this Committee has provided for the telecommunications 
program since its inception in 1949 and look forward to a vigorous 
program for the future.

                          A CHANGING INDUSTRY

    As Congress recognized through passage of the Telecommunications 
Act of 1996, telecommunications in the United States is in the midst of 
the most significant changes any industry has ever undergone. Both the 
technological underpinnings and the regulatory atmosphere are 
dramatically different and changing at an extraordinarily rapid pace. 
Without system upgrades, rural customers will be left out of the 
emerging information revolution.
    The need for modernization of the telecommunications technology 
employed by RUS borrower rural telecommunications companies has never 
been greater. In addition to upgrading switching capability to allow 
new services to be extended to rural subscribers, it is crucially 
important that rural areas be included in the nationwide drive for 
greater bandwidth capacity. In order to provide higher speed data 
services, such as Digital Subscriber Line (DSL) connections to the 
Internet, outside plant must be modernized and new electronics must be 
placed in switching offices. With current technology, DSL services 
cannot be provided to customers located on lines more than three miles 
from the switching office. Rural areas have a significant percentage of 
relatively long loops and are therefore particularly difficult to serve 
with higher speed connections. Rural telecommunications companies are 
doing their best to restructure their networks to shorten loops so that 
DSL may be provided, but this is an expensive proposition and may not 
be totally justified by market conditions. However, these services are 
important for rural economic development, distance learning and 
telemedicine. RUS-provided financial incentives for additional 
investment encourage rural telecommunications companies to build 
facilities which allow advanced services to be provided. The 
externalities measured in terms of economic development and human 
development more than justify this investment in the future by the 
federal government.
    Greater bandwidth and switching capabilities are crucial 
infrastructure elements which will allow rural businesses, schools and 
health care facilities to take advantage of the other programs 
available to them as end users. The money spent on having the most 
modern and sophisticated equipment available at the premises of 
businesses, schools or clinics is wasted if the local 
telecommunications company cannot afford to build facilities that 
quickly transport and switch the large amounts of data that these 
entities generate. RUS funding enhances the synergies among the FCC and 
RUS programs targeted at improving rural education and health care 
through telecommunications.
    The RUS program helps to offset regulatory uncertainties related to 
universal service support, interstate access revenues and 
interconnection rules with a reliable source of fairly priced, fixed-
rate long term capital. After all, RUS is a voluntary program designed 
to provide incentives for local telecommunications companies to build 
the facilities essential to economic growth.
    RUS endures because it is a brilliantly conceived public-private 
partnership in which the borrowers are the conduits for the federal 
government benefits that flow to rural telephone customers, the true 
beneficiaries of the RUS program. The government's contribution is 
leveraged by the equity, technical expertise and dedication of local 
telecommunications companies. The small amount of government capital 
involved is more than paid back through a historically perfect 
repayment record by telecommunications borrowers, as well as the 
additional tax revenues generated by the jobs and economic development 
resulting from the provision and upgrading of telecommunications 
infrastructure. RUS is the ideal government program--it generates more 
revenues than it costs, it provides incentives where the market does 
not for private companies to invest in infrastructure promoting needed 
rural economic development, it allows citizens to have access to 
services which can mean the difference between life and death, and it 
has never lost a nickel of taxpayer money.

                            RECOMMENDATIONS

    For fiscal year 2004, this Committee should continue the loan 
levels and necessary associated subsidy amounts for the RUS cost of 
money, Rural Telephone Bank and guaranteed telecommunications loan 
programs that it recommended for fiscal year 2003, and which were 
signed into law. These levels, as well as supporting loans in the 
hardship program at the level requested in the budget, would maintain 
our members' ability to serve the nation's telecommunications needs, 
maintain universal service and bring advanced telecommunications 
services to rural America.
    USTA strenuously objects to the recommendation in the 
Administration's budget to not fund Rural Telephone Bank loans in 
fiscal year 2004. The proposal is fundamentally flawed. The RTB's 
mission is far from complete. Loans made today are to provide state of 
the art telecommunications technology in rural areas. If no bank loans 
were made in fiscal year 2004, the budgetary outlay savings would be 
minimal, because RTB loans are funded over a multiyear period. 
Moreover, because of the minimum statutory interest rate of 5 percent, 
the RTB stands an excellent opportunity of actually generating a profit 
for the government!
    The Administration budget proposes that funds be transferred from 
the unobligated balances of the Bank's liquidating account to fund the 
Bank's administrative expenses, instead of those expenses being funded 
through an appropriation from the general fund of the Treasury. This 
proposal would not result in budgetary savings. As it has in previous 
years, this Committee should specifically reject this recommendation.
    For a number of years, through the appropriations process, Congress 
has eliminated the seven percent ``cap'' placed on the insured cost-of-
money loan program. The elimination of the cap should continue. If long 
term Treasury interest rates exceeded the 7 percent ceiling contained 
in the authorizing act, the subsidy would not be adequate to support 
the program at the authorized level. This would be extremely disruptive 
and hinder the program from accomplishing its statutory goals. 
Accordingly, USTA supports continuation of the elimination of the seven 
percent cap on cost-of-money insured loans in fiscal year 2004. The 
Committee should also continue to protect the legitimate ownership 
interests of the Class B and C stockholders in the Bank's assets by 
continuing to prohibit a ``sweep'' of any unobligated balance in the 
bank's liquidating account that is in excess of current requirements 
funds into the general fund.

Recommended Loan Levels
    USTA recommends that the telephone loan program loan levels for 
fiscal year 2004 be set as follows:

                        [In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
RUS Insured Hardship Loans (5 percent)..................            $145
RUS Insured Cost-of-Money Loans.........................             300
Rural Telephone Bank (RTB) Loans........................             175
Loan Guarantees.........................................             120
                                                         ---------------
      Total.............................................             740
------------------------------------------------------------------------

 LOANS AND GRANTS FOR TELEMEDICINE, DISTANCE LEARNING, INTERNET ACCESS 
                             AND BROADBAND

    USTA supports the continuation of $25 million for distance learning 
and telemedicine, as provided in the President's budget. USTA also 
supports making available $2 million in additional funds for loans and 
grants to finance broadband transmission and local dial up access to 
the Internet in rural areas. RUS was founded on the notion that rural 
Americans should have no lesser services and facilities for telephone 
service as those living in more densely populated, lower cost areas. As 
we move into the Information Age with the tremendous potential of the 
Internet to increase productivity, economic development, education and 
medicine, such funds can help continue the historic mission of RUS to 
support the extension of vital new services to rural America.

      BROADBAND LOANS UNDER THE 2002 FARM ACT (PUBLIC LAW 101-171)

    Last year the Congress recognized the tremendous potential of 
broadband technology to enhance human and economic development in rural 
areas by providing mandatory funding of loans for the deployment of 
such technology in rural areas. This funding was included in last 
year's Farm Act in the amount of $20 million. USTA opposes the 
Administration's request to cancel this in 2004 and replace it with 
less than half that amount, $9.1 billion, in discretionary authority. 
The capital intensive nature of the telecommunications industry, 
particularly with respect to implementation of broadband, requires a 
stable and predictable source of capital. Any disruption to the multi-
year authority adopted last year by Congress would greatly discourage 
use of this program and deny rural consumers the benefits of services 
provided over broadband technology.
    The Committee's bill should include language to assure that all 
communities in the United States with a population of less than 20,000 
will qualify for loans under the RUS broadband loan program in fiscal 
year 2004. The importance of the availability of broadband in rural 
areas cannot be overstated. Broadband is the future of 
telecommunications and rural areas cannot be and should not be denied 
its benefits. Unfortunately, many rural areas will not be eligible for 
this program due to a technical defect in the enabling act eligibility 
provision (new section 601 of Title VI of the Rural Electrification Act 
of 1936). Although the criteria in subsection (A) demonstrates the 
commitment of Congress to assure that the program will allow all 
communities in the United States with a population of less than 20,000 
to qualify for broadband loans, subsection (B) seeks to exclude from 
program eligibility any area that ``is not located in an area 
designated as a standard metropolitan statistical area,'' even though 
its population is less than 20,000. ``Standard Metropolitan Statistical 
Area'' has not been a term recognized by the Bureau of the Census since 
1990. If not corrected, this technical defect could deny up to 40 
percent of otherwise eligible rural communities access to a program 
designed to accelerate deployment of broadband technology in rural 
areas.

                               CONCLUSION

    Our members take pleasure and pride in reminding the Committee that 
the RUS telecommunications program continues its perfect record of no 
defaults in over a half century of existence. RUS telecommunications 
borrowers take seriously their obligations to their government, their 
nation and their subscribers. They will continue to invest in our rural 
communities, use government loan funds carefully and judiciously, and 
do their best to assure the continued affordability of 
telecommunications services in rural America. Our members have 
confidence that the Committee will continue to recognize the importance 
of assuring a strong and effective RUS Telecommunications Program 
through authorization of sufficient loan levels.
                                 ______
                                 

       Prepared Statement of the Utah Division of Water Resources

    This testimony is in support of funding for the Colorado River 
Basin Salinity Control Program. As the lead agency designated by 
Congress for salinity control in the Colorado River Basin, Utah hereby 
requests funding in the amount of $17,500,000 for fiscal year 2004 to 
implement the needed and authorized program for the Department of the 
Interior, Bureau of Reclamation (Reclamation). Failure to appropriate 
these funds will result in significant economic damage in the United 
States and Mexico.
    The program authorized by the Congress in 1995 has proven to be 
very successful and cost-effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
States' cost sharing for the level of federal funding requested. Water 
quality improvements accomplished under Title II of the Colorado River 
Basin Salinity Control Act also benefit the quality of water delivered 
to Mexico. Although the United States has always met the commitments of 
the International Boundary & Water Commission's (Commission) Minute 242 
to Mexico with respect to water quality, the United States Section of 
the Commission is currently addressing Mexico's request for better 
water quality at the International Boundary.
    Some of the most cost-effective salinity control opportunities 
occur when the USBR can improve irrigation delivery systems at the same 
time that the USDA's program is working with landowners (irrigators) to 
improve the on-farm irrigation systems. Through the newly authorized 
USDA EQIP program, more adequate on-farm funds are available and 
adequate USBR funds are needed to maximize the effectiveness of the 
effort. Reclamation has received cost-effective proposals to move the 
program ahead and the Basin States have funds available to cost-share 
up-front.
    A salinity control program has been developed by the Colorado River 
Basin States with input from the Bureau of Reclamation, the Natural 
Resources Conservation Service, the U.S. Fish and Wildlife Service, the 
Bureau of Land Management, and the Environmental Protection Agency. The 
plan necessary for controlling salinity and to reduce downstream 
damages has been captioned the ``plan of implementation.'' The 2002 
Review of Water Quality Standards includes an updated plan of 
implementation. The level of appropriation requested in this testimony 
is in keeping with the agreed upon plan. If adequate funds are not 
appropriated, state and federal agencies involved are in agreement that 
damage from the high salt levels in the water will be widespread in the 
United States as well as Mexico. The $17,500,000 requested by the Forum 
on behalf of the seven Colorado River Basin States is the level of 
funding necessary to proceed with Reclamation's portion of the plan of 
implementation. Utah urges the Subcommittee to support this level of 
funding as set forth in the plan of implementation.
    In addition to the funding identified above for the plan of 
implementation, Utah also requests the Congress to appropriate 
necessary funds needed to continue to maintain and operate salinity 
control facilities as they are completed and placed into long-term 
operation. Reclamation has completed the Paradox Valley unit which 
involves the collection of brines in the Paradox Valley of Colorado and 
the injection of those brines into a deep aquifer through an injection 
well. The continued operation of this project and other completed 
projects will be funded through operation and maintenance funds.
    In addition, Utah supports necessary funding to allow for continued 
general investigation of the salinity control program. It is important 
that Reclamation have planning staff in place, properly funded, so the 
progress of the program can be analyzed, coordination between various 
Federal and State agencies can be accomplished, and future projects and 
opportunities to control salinity can be properly planned to maintain 
the water quality standards for salinity so the Basin States can 
continue to develop their Compact-apportioned waters of the Colorado 
River.
                                 ______
                                 

     Prepared Statement of the Wildlife Management Institute (WMI)

    The Wildlife Management Institute (WMI) is submitting its comments 
on the proposed fiscal 2004 budget for natural resource programs within 
the U.S. Department of Agriculture. WMI is a scientific and educational 
non-profit organization that is staffed by professional wildlife 
biologists and is committed to the sustainable management of wildlife 
populations and habitats throughout North America. For several decades 
we have worked closely with the Natural Resources Conservation Service 
(NRCS), Farm Service Administration (FSA), Animal and Plant Health 
Inspection Service (APHIS) and Cooperative State Research, Education 
and Extension Services (CREES) to enhance the conservation of wildlife 
resources on private lands, to support disease control efforts that 
protect free-ranging wildlife, and to promote public stewardship of all 
wildlife resources. Our comments on the budgets of these agencies 
include the following spending increases of the Administration's 
request:

Natural Resources Conservation Service
    Conservation Technical Assistance (CTA).--WMI finds that through 
congressional and administrative actions during the past several years, 
the number of positions at NRCS has fluctuated to the detriment of the 
CTA program. The current proposed level of FTE staff years for fiscal 
year 2004 is 12,878. This is a 276 FTE (2.2 percent) increase over the 
estimated fiscal year 2003 level. However, NRCS presently has a backlog 
of farmers and ranchers who have applied for the Farm Bill's 
conservation programs but have not yet received any technical 
assistance. This demand for CTA will only increase as NRCS starts 
implementing two new conservation programs, the Conservation Security 
Program and the Grassland Reserve Program, and expanding the 
Environmental Quality Incentives Program (scheduled for a $1 billion in 
fiscal year 2004). Further compounding this problem, is the 
Administration's proposed $121,400 cut for the CTA account. Even though 
the 2002 Farm Bill established the Technical Service Provider Program 
(TSP), NRCS cannot rely on the services of third party vendors to meet 
the farmers' and ranchers' demands for technical assistance. It will 
take at least three years to develop a seamless delivery system for 
TSP. For these reasons, WMI urges your subcommittee to increase the 
Administration's request for CTA by $100 million.
    Technical Service Providers (TSP).--This program will be of great 
assistance to NRCS as it delivers technical assistance to agricultural 
producers. However, fisheries and wildlife biologists will need 
training to participate as technical service providers, and The 
Wildlife Society estimates that it will take $10 million to provide 
such training for interested TSP candidates. To the degree that you are 
able, WMI asks your subcommittee to appropriate funds for training 
activities within The Wildlife Society and American Fisheries Society. 
Both organizations are the only societies that certify professionals 
within their field but need assistance when addressing the 
certification requirements for TSP.
    Monitoring and Evaluation.--Commodity groups, water utility 
companies, and natural resource professionals (e.g., The Wildlife 
Society, National Association of Conservation Districts and university 
extension specialists) remain in steadfast agreement with WMI that the 
Farm Bill's conservation title must include funding for monitoring and 
evaluation. Throughout the Administration and Congress, national 
leaders want to get the ``biggest bang for the buck'' when implementing 
an enhancement project for soil, water, air, and wildlife on private 
lands. Because the 2002 Farm Bill authorizes a $17.1 billion spending 
increase for the conservation title, it is imperative that NRCS 
establishes an accountability system that focuses on results (i.e., 
outcomes) instead of activities (i.e., outputs). No such system 
currently exists. Therefore, WMI proposes the establishment of a 
competitive grants process to fund a consortium of non-governmental 
organizations, universities, and state agencies that could identify 
cost saving practices, program improvements, and future funding 
requirements for the Farm Bill's conservation title. Additionally, this 
consortium could determine what the environmental and economic values 
are for each conservation program. WMI recommends that your 
subcommittee dedicate $10 million as mandatory funding for monitoring 
and evaluation activities through the proposed consortium of non-USDA 
entities. Please note that this is the same funding level that was 
requested in the Farm Bill's Managers Report.
    Wetlands Reserve Program.--WMI supports the full authorization of 
250,000-acres for the Wetlands Reserve Program in fiscal year 2004.
    Wildlife Habitat Incentives Program.--WMI does not support the 
Administration's $42 million request for the Wildlife Habitat 
Incentives Program (WHIP). That dollar amount will not allow NRCS to 
reduce its current backlog for WHIP while accommodating additional 
enrollment in the program. Requests from the Northeast and Western 
regions are areas where interest in WHIP is the highest, primarily 
because of the areas' land base and specialized farming interests 
(e.g., horse ranching, fruit orchards, and dairy farms). Lest 
participation in the Farm Bill's conservation programs favor only 
agricultural producers in the Midwestern and Southern regions, WMI 
urges your subcommittee to appropriate $100 million for WHIP in fiscal 
year 2004. And with the matching ability of partners, this request will 
let more dollars flow into WHIP, a result that benefits both the 
Federal government and private landowner.
    Environmental Quality Incentives Program.--WMI supports mandatory 
funding of $850 million for the Environmental Quality Incentives 
Program in fiscal year 2004. However, during the rulemaking process for 
EQIP, WMI asked NRCS to make this program more wildlife friendly. We 
trust that this recommendation will be accepted so that additional 
benefits can be generated for agricultural landowners and the natural 
resource system.
    Conservation Security Program.--In order for the Conservation 
Security Program (CSP) to work, it must receive more than the 
Administration's request of $20 million. WMI believes it must be funded 
at its original intent of $2 billion over the next ten years, or $200 
million per year.
    WMI supports the $8.1 million allocation to the Klamath Basin. 
Studies being conducted in the Klamath Basin need to review the impacts 
of water shortages on wildlife populations that use the area for 
breeding and foraging purposes.

Farm Service Administration
    Staff years.--The staffing level of 16,701 FTE's may be too low to 
address the administrative needs of the Farm Bill's conservation 
programs. WMI recommends that funding be increased to facilitate the 
current level of 19,337 FTE's. Despite efforts to ``streamline'' USDA's 
application process, the private landowners' demand for participation 
in FSA's conservation programs far exceeds the supply; thus the need to 
increase staffing levels.
    Grassland Reserve Program.--WMI supports the fiscal year 2004 
request of $85 million for the Grasslands Reserve Program. This program 
will help Congress realize its desired goals for soil, water, and 
wildlife conservation.
    Conservation Reserve Program.--WMI supports maintaining the 
Conservation Reserves Program's (CRP) enrollment at 39.2 million acres. 
The demand for CRP justifies its continuation at the recommend acreage. 
It has generated historical improvements for wildlife populations and 
associated habitat, all through voluntary efforts of willing 
landowners. Such benefits include population enhancement for declining 
species (e.g., sharp-tailed grouse).
    The Conservation Reserve Enhancement Program (CREP), a component of 
CRP, is another shining example of how the Conservation Reserve Program 
serves the needs of private landowners and all American citizens. CREP 
has hit its stride in recent years. Twenty-five states are presently 
enrolled in the program, which requires all participating states to 
match federal dollars when implementing a project. Pennsylvania in 
particular exemplifies how successful CREP can be. In that state, 
projects leaders enrolled 100,000-acres within a few years and are now 
asking FSA for another 100,000-acres. WMI believes the enrollment cap 
of 2 million acres for CREP is achievable in the foreseeable future, 
therefore, lending further justification for the Administration's the 
39.2 million acre request. However, Congress may need to reconsider the 
40 million acre cap when reauthorizing the Farm Bill in 2006.

            ANIMAL PLANT AND PLANT HEALTH INSPECTION SERVICE

    Wildlife Services.--WMI is concerned about the proposed $1.5 
million decrease for Methods Development in fiscal year 2004. 
Technological improvements for controlling nuisance wildlife are 
desperately needed. Public groups disfavor traditional control 
techniques, such as trapping and poisoning, and are demanding the 
development and use of non-lethal and non-injurious alternatives, such 
as immunocontraception. Consequently, APHIS must receive sufficient 
financial resources to research and develop alternative control 
techniques. Thus, WMI recommends the appropriation of $11.5 million for 
Wildlife Service's Methods Development account.
    Veterinary Sciences.--Chronic Wasting Disease (CWD) is a national 
news item affecting wild and/or captive populations of white-tailed 
deer, mule deer and elk in 12 states and 2 Canadian provinces. 
Management of this fatal disease is administratively and financial 
taxing for state and federal agencies. Moreover, the CWD's impact on 
state economies (via hunting seasons) is well documented and comes at a 
time when those economies are receding. WMI supports the objectives of 
the CWD Implementation Plan and urges your subcommittee to appropriate 
$41.8 million to fund the plan's research, surveillance, control, and 
communication activities. The $41.8 million takes into consideration 
the needs of the Department of the Interior ($7.7 million), Department 
of Agriculture ($13.6 million), and State and Tribal Grants via the 
U.S. Fish and Wildlife Service ($20.5 million).
Cooperative State Research, Education and Extension Services
    McIntire-Stennis.--WMI recommends that your subcommittee fund the 
McIntire-Stennis Program at $30 million in fiscal year 2004. These 
research programs, conducted by land grant universities and other 
educational institutions, are crucial for promoting natural resource 
sustainability now and in the future.
    Smith-Lever.--WMI urges your subcommittee to support a $10 million 
increase over the Administration's request for the Smith-Lever 3 (d) 
Program. The Administration requested a $2.3 million increase over 
fiscal year 2003 for this natural resources extension program, but 
additional money is needed to expand its services. These programs 
facilitate public education on a variety of topics, such as wetlands 
conservation, endangered species conservation, forestry and wildlife 
management, and human-wildlife conflicts. Our suggested increase would 
better prepare agricultural producers for involvement in the Farm 
Bill's conservation programs, as well as other public groups that may 
serve as partners on select projects.
    Thank you for reviewing our comments, and we look forward to 
working with you throughout the appropriations process. If you or your 
staff would like to discuss our recommendations further, please contact 
me or Ron Helinski, Conservation Policy Specialist, at (202) 371-1808.
                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2004 budgets for the Natural 
Resources Conservation Service (NRCS), Farm Service Agency (FSA), 
Animal Plant Health Inspection Service (APHIS), and Cooperative State 
Research, Education and Extension Services (CSREES). The Wildlife 
Society is the association of almost 9,000 professional wildlife 
biologists and managers dedicated to sound wildlife stewardship through 
science and education. The Wildlife Society is committed to 
strengthening all Federal programs that benefit wildlife and their 
habitats on agricultural and other private land.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Farm Bill Technical Assistance.--We applaud Congress for passing 
the 2002 Farm Bill, which authorizes the U.S. Department of Agriculture 
to work with third party Technical Service Providers to build a solid 
network of certified professionals that can assist NRCS in delivering 
assistance to producers. However, NRCS recognizes that training will be 
needed to effectively prepare Technical Service Providers to assist 
producers and landowners. The Wildlife Society recommends that Congress 
provide NRCS with adequate funds to recruit land grant universities and 
colleges, the USDA Extension System, and professional societies to help 
train sufficient Technical Service Providers.
    Monitoring and Evaluation.--Monitoring Farm Bill conservation 
programs and evaluating their progress toward achieving Congressionally 
established objectives for soil, water, and wildlife will enable NRCS 
to ensure successful program implementation. Changes to agricultural 
policy in the 2002 Farm Bill, such as higher funding authorizations and 
expanded acreage enrollment caps, necessitate the establishment of an 
accountability system that continuously assesses the effectiveness of 
conservation programs and policies. The Wildlife Society recommends 
dedicating mandatory funding to the monitoring and evaluation of Farm 
Bill conservation programs at the $10 million level approved in the 
Farm Bill Statement of Managers. We propose using a competitive grants 
process to fund a consortium of non-USDA organizations (non-
governmental organizations, universities, and state organizations) for 
the purpose of identifying cost-saving practices, program improvements, 
and future funding requirements and determining the environmental and 
economic value of conservation expenditures.
    Wetland Reserve Program (WRP), Wildlife Habitat Incentives Program 
(WHIP).--We would like to express our gratitude for your continued 
support of WRP and for authorizing WHIP in 2003. WRP is a valuable 
program designed to assist farmers and ranchers protect and restore 
wetland habitat. WHIP is a voluntary program that provides technical 
and financial support to farmers and ranchers to create high quality 
wildlife habitat. The Wildlife Society supports funding WRP at $250 
million in fiscal year 2004. We are concerned that the Administration's 
request for WHIP, $42 million for 2004, is well below the 2002 Farm 
Bill's authorized amount of $275 million. The Wildlife Society 
recommends funding WHIP at $275 million in 2004.

                          FARM SERVICE AGENCY

    Staff Years.--FSA requires an adequate budget to implement the Farm 
Bill conservation programs under its administration. The Wildlife 
Society is concerned that the staffing level of 16,701 FTE proposed by 
the Administration in 2004 is too low to address the demonstrated need 
of agricultural producers. The Wildlife Society recommends that the 
budget include sufficient personnel funding to maintain the 2003 
requested level of 19,337 FTE.
    Grassland Reserve Program (GRP).--We believe the GRP will be 
valuable in aiding landowners in their grassland restoration efforts. 
The Wildlife Society supports the Administration's 2004 request of $85 
million for GRP.
    Conservation Reserve Program (CRP).--CRP is popular with 
landowners, and has resulted in significant wildlife and habitat 
benefits on agricultural land. Current demand for the program is on the 
rise, as is demand for technical assistance associated with 
implementation of CRP. The Wildlife Society recommends maintaining CRP 
enrollment at 39.2 million acres as finalized in the 2002 Farm Bill.
    Forest Land Enhancement Program (FLEP).--The Forest Land 
Enhancement Program was created through the 2002 Farm Bill to provide 
financial, technical, educational, and related assistance to promote 
sustainable management of non-industrial private forestlands. The 
program is authorized at $100 million for 2002-2007, to be distributed 
through state forestry agencies. The Wildlife Society asks that 
Congress appropriate at least $20 million to FLEP in 2004 to ensure 
that private forestlands continue to provide sustainable forest 
products and protect the health of our water, air, and wildlife.

               ANIMAL AND PLANT HEALTH INSPECTION SERVICE

    Wildlife Services.--Wildlife Services (WS), a unit of APHIS, is 
responsible for controlling wildlife damage to agriculture, 
aquaculture, forest, range and other natural resources, for controlling 
wildlife-borne diseases, and for controlling wildlife at airports. Its 
activities are based on the principles of wildlife management and 
integrated damage management, and are carried out cooperatively with 
State fish and wildlife agencies.
    The Wildlife Society is concerned about the proposed $1.5 million 
decrease in funding for Methods Development for 2004. Many current 
wildlife control tools such as traps, snares and wildlife toxicants are 
becoming less acceptable to the public and are being prohibited in many 
states as the result of public referenda. The only credible way to 
identify and perfect new methods is through research. However, WS 
funding is only adequate to cover maintenance and operating costs and 
no funding is being provided for the development of new innovative 
wildlife damage management methods. The Wildlife Society requests a $5 
million increase for Methods Development to adequately continue non-
lethal methods research and address the increased operating and 
maintenance costs.
    Veterinary Services.--Chronic Wasting Disease (CWD) is a serious 
problem plaguing our Nation's deer and elk. The spread of CWD is 
draining already diminished Federal and State agency budgets and is 
hurting local economies that depends on revenues from recreational 
hunting. The Wildlife Society supports the Administration's request of 
$14.9 million for the research, monitoring, and control of CWD.

      COOPERATIVE STATE RESEARCH, EDUCATION AND EXTENSION SERVICES

    Renewable Resources Extension Act.--The Wildlife Society was 
pleased that Congress appropriated $423,000 above the Administration's 
request for the Renewable Resources Extension Act (RREA) in 2003. RREA 
provides an expanded, comprehensive extension program for forest and 
rangeland renewable resources. The need for these programs is greater 
now than ever due to fragmentation of ownerships, urbanization, the 
number and diversity of landowners needing assistance, and the 
increasing social concern for land use and its effect on soil, water, 
air, and wildlife.
    It is important to note that RREA was reauthorized in the 2002 Farm 
Bill at $30 million annually through 2007. Though RREA is proven to be 
effective at leveraging cooperative state and local funding, it has 
never been fully funded in the annual appropriations process. In fact, 
the fiscal year 2004 request for RREA falls back to the 2002 funding 
level, $4.093 million, which is insufficient for assisting private 
landowners who own and manage most of the nation's natural resources. 
An increase to at least $15 million would enable CSREES to expand its 
capability to assist more private landowners in improving management of 
private land while increasing farm revenue. Therefore The Wildlife 
Society recommends that the Renewable Resources Extension Act be funded 
at a minimum of $15 million in fiscal year 2004.
    McIntire-Stennis.--The McIntire-Stennis Cooperative Forestry 
program funds state efforts in forestry research to increase the 
efficiency of forestry practices, and to extend the benefits that come 
from forest and related rangelands. McIntire-Stennis calls for close 
coordination between state colleges and universities and the Federal 
Government, and is essential for providing research background for 
other Acts, such as RREA. The Administration's fiscal year 2004 request 
for McIntire-Stennis is $21.884 million, in essence level with 2002 and 
2003. The Wildlife Society recommends that funding for McIntire-Stennis 
Cooperative Forestry be increased to $30 million.
    National Research Initiative.--National Research Initiative 
Competitive Grants (NRI) are open to academic institutions, Federal 
agencies, and private organizations to fund research on improving 
agricultural practices, particularly production systems that are 
sustainable both environmentally and economically, and to develop 
methods for protecting natural resources and wildlife. Innovative grant 
programs such as NRI help broaden approaches to land management, such 
as integrating timber and wildlife management on private lands. The 
Wildlife Society supports the Administration's 2004 request of $200 
million for National Research Initiative Competitive Grants, and 
requests Congressional approval.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
